<html>
<title> - THE SITUATION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 114-354]
[From the U.S. Government Publishing Office]






                                                      S. Hrg. 114-354

                      THE SITUATION IN AFGHANISTAN

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

               FEBRUARY 11; FEBRUARY 12; OCTOBER 6, 2015



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Printed for the use of the Committee on Armed Services

























                                                        S. Hrg. 114-354

                      THE SITUATION IN AFGHANISTAN

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

               FEBRUARY 11; FEBRUARY 12; OCTOBER 6, 2015

                               __________

         Printed for the use of the Committee on Armed Services




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







        Available via the World Wide Web: http://www.fdsys.gov/










                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-436 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  






























                            C O N T E N T S

                               __________

                           February 11, 2015

                                                                   Page

The Situation in Afghanistan.....................................     1
Leiter, Hon. Michael E., Former Director, U.S. National 
  Counterterrorism Center........................................     4
Olson, ADM Eric T., USN (Ret.), former Commander, U.S. Special 
  Operations Command.............................................     5
Crocker, Hon. Ryan C., Dean and Executive Professor, The George 
  Bush School of Government and Public Service, Texas A&M 
  University; and Former U.S. Ambassador to Afghanistan..........     7
Cunningham, Hon. James B., Former U.S. Ambassador to Afghanistan.     9

                           February 12, 2015

The Situation in Afghanistan.....................................    41
Campbell, GEN John F., USA, Commander, Resolute Support Mission, 
  Commander, U.S. Forces-Afghanistan.............................    43

Questions for the Record.........................................    96

                            October 6, 2015

The Situation in Afghanistan.....................................   105
Campbell, GEN John F., USA, Commander, Resolute Support Mission, 
  Commander, U.S. Forces-Afghanistan.............................   109

Questions for the Record.........................................   160

                                 (iii)
 
                      THE SITUATION IN AFGHANISTAN

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Sessions, 
Ayotte, Cotton, Ernst, Tillis, Graham, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Blumenthal, Donnelly, Hirono, Kaine, and 
King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. The committee meets 
today to receive testimony on Afghanistan and United States 
efforts to sustain the gains that have been made over the past 
13 years.
    I want to thank each of our witnesses for appearing before 
us today: Ambassador James Cunningham, who was the United 
States Ambassador to Afghanistan until he retired from the 
Foreign Service last December; Ambassador Ryan Crocker, former 
United States Ambassador to Afghanistan and Iraq and many other 
countries; Admiral Eric Olson, former Commander, United States 
Special Operations Command; and Mr. Michael Leiter, former 
Director of the National Counterterrorism Center.
    All our professionals are--all our witnesses are national 
security professionals who have served loyally and with the 
highest distinction in both Democratic and Republican 
administrations, including the current administration. All of 
them also have years of experience working on, and often 
serving in, Afghanistan.
    And, on a personal note, could I just say that I--I've had 
the great pleasure of knowing these four witnesses over the--
many years. And I don't know of four more honorable witnesses 
who have ever appeared before this committee in the years that 
I've on it. So, I consider this committee honored by your 
presence today on an issue of crucial importance to our 
country, the future, and the men and women who are serving in 
the military.
    More than 2,200 Americans have given their lives in 
Afghanistan, and thousands more have been wounded. And the 
progress they have enabled is extraordinary. The number of 
Afghan children in school has increased tenfold since 2001, 
from less than 1 million to almost 10 million today. Forty 
percent of these students are girls, and 40 percent of Afghan 
teachers today are women. Life expectancy has increased by over 
20 years in less than a generation, an achievement unheard of 
in modern history. Less than 10 percent of the Afghan 
population supports the Taliban, while over 70 percent express 
the confidence--express confidence in the Afghan military.
    These gains and others are significant. But, as General 
Mattis testified last month, the gains achieved at great cost 
against our enemy in Afghanistan are reversible. Afghan 
National Security Forces are now leading the fight and 
responsible for safeguarding their country. They've made real 
progress as a fighting force. The Afghan army and police 
maintained their professionalism during the presidential runoff 
last summer, upholding security and allowing the democratic 
process to play out without armed intervention. And, while the 
casualty rates of our Afghan partners in their fight against 
the Taliban are high, there is no doubt--none whatsoever--about 
the Afghan willingness to fight and die for their country.
    But, like the Iraqi Security Forces at the end of 2011, the 
Afghan National Security Forces are still developing some key 
enabling capabilities, the shortfalls sounding eerily familiar: 
intelligence, logistics, airlift, close air support, special 
forces, and institutional development. Our commanders on the 
ground in Afghanistan are developing plans to address these 
shortfalls, but they need the time, resources, and authorities 
to help our Afghan partners to develop these nascent 
capabilities.
    As I've said before, wars do not end just because 
politicians say so. Indeed, in Afghanistan we've seen an 
initial emergence of ISIS as well as the residual capabilities 
of al-Qaeda wrapped in their support network of the Taliban 
insurgency.
    The world walked away from Afghanistan once, and it 
descended into chaotic violence that became the platform for 
the worst terrorist attack in history against our homeland. The 
threats are real and the stakes are high. We can't let 
Afghanistan become a sanctuary for al-Qaeda or ISIS. Failure in 
this manner would destabilize the region, especially by 
undermining the security of a nuclear-armed Pakistan. Worst 
still, failure would condemn millions of Afghans, especially 
women and girls, to live again under the tyranny of violent 
radicals.
    We can't turn the clock back in Iraq, but we can, and we 
must, apply the tragic lesson that we learned in Iraq to 
Afghanistan. To preserve the progress enabled by our troops and 
the Afghan people, President Obama must replace his plan for 
unconditional withdrawal from Afghanistan with a conditions-
based drawdown and a clear commitment to maintain a limited 
residual force. If the President repeats his mistakes from 
Iraq, we can expect a similar disaster in Afghanistan: growing 
instability, terrorist safe havens, horrific human rights 
abuses, the rapid dissolution of the hard-won gains that our 
men and women in uniform purchased at such high cost, and, 
ultimately, direct threats to the United States.
    I want to thank the witnesses again for testifying today, 
and we look forward to hearing the views that they have 
developed based on their many years of experience in the 
region.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Ambassador Crocker, Ambassador Cunningham, Admiral Olson, 
and Mr. Leiter, welcome. This is an impressive panel, as the 
Chairman has pointed out, and I want to thank you for serving 
your country with distinction in so many different ways, and 
also thank you for your--the advice and the support that you 
have personally extended to me over many, many years. Thank 
you, gentlemen, for what you've done.
    And thank you, Chairman McCain, for holding this hearing on 
the situation in Afghanistan ahead of tomorrow morning's 
hearing with General Campbell, our Commander in Afghanistan. 
The United States has devoted significant resources to the 
Afghanistan campaign, both in the sacrifices of our military 
and civilian officials and in America's financial resources. 
So, it is important that we get this mission right. And this 
hearing is useful for advancing that goal.
    Afghanistan has successfully come through national 
presidential elections and formed a new National Unity 
Government with the leadership of President Ghani and Dr. 
Abdullah. The hard-won gains of the past decade are 
significant, but remain fragile. According to recent public 
opinion surveys, a significant majority of the Afghan people 
feel their country is moving in the right direction. Compared 
to a decade ago, millions more students are in school, about 40 
percent of which are girls. Dozens of new universities are 
open. Health clinics are available to much of the population. 
And life expectancy is up. And women are participating in 
Afghanistan's political and civic life.
    Afghan Security Forces have transitioned to having 
responsibility for securing Afghanistan even as United States 
and coalition forces have drawn down and shifted to the more 
limited train, advise, and assist mission and conducting 
counterterrorism operations.
    Success in Afghanistan will depend on a number of factors, 
including our partnership with the new government in Kabul, the 
willingness of that government to improve governance and fight 
corruption, the development of leadership within the Afghan 
Security Forces, and the political support of the American 
people for the mission in Afghanistan.
    I hope our witnesses will give us their recommendations for 
ensuring the success of that mission.
    The President's fiscal year 2016 budget request includes 
funding for training Afghan forces and counterterrorism 
operations in Afghanistan, yet it remains to be seen whether 
conditions on the ground in Afghanistan will improve 
sufficiently by the end of 2016 to warrant the pace of further 
reductions under the current plan.
    During his nomination hearing, General Campbell assured 
this committee that, if confirmed, he would provide his best 
military advice on the requirements of the mission in 
Afghanistan. To the extent our witnesses are in a position to 
comment on the current conditions in Afghanistan or the mission 
requirements going forward, we would welcome your views.
    Again, let me thank you and thank the Chairman.
    Chairman McCain. Mr. Leiter.

  STATEMENT OF HON. MICHAEL E. LEITER, FORMER DIRECTOR, U.S. 
                NATIONAL COUNTERTERRORISM CENTER

    Mr. Leiter. Chairman McCain, Ranking Member Reed, members 
of the committee--first of all, I would like to thank the 
committee for having us up here. And, as we face so many crises 
in the world, that this committee is maintaining the focus on 
Afghanistan, not thinking it is done, is greatly appreciated by 
those of us who have spent more than a decade focused on issues 
of Afghanistan and Pakistan.
    I'm going to speak, Mr. Chairman, from the perspective of 
terrorism and the homeland threat of Afghanistan and Pakistan. 
And I do think that what we've done over the past 13 years is a 
relative bright spot in the world of terrorism, especially as 
compared to issues in Iraq and Syria. And the way we 
accomplished that was from a cohesive effort between the United 
States and our allies on the diplomatic, intelligence, and 
military fronts to bring the fight to al-Qaeda in Afghanistan 
and the Pakistan border areas. And with that, I think we have 
seen al-Qaeda at its absolute weakest since September 11 in the 
region. With the death of bin Laden in 2011, Ayman al-Zawahiri 
took over the core of al-Qaeda. But, since that time, the U.S. 
military and Intelligence Community has continued to bring the 
fight to al-Qaeda and, again, although it still aspires to 
attack the West, is at its weakest position it has been in the 
past 13 years.
    That being said, I think the drawdown of U.S. and allied 
forces, although not currently affecting al-Qaeda in a positive 
way, does pose a real pivot point, where there could be real 
danger. So, what you're obviously going to ask is, Will there 
be an al-Qaeda renaissance with a further drawdown of U.S. 
troops? And my short answer to this question, that, if done 
properly--and I stress ``properly''--I believe that the United 
States can withdraw more, but it has to be done based on 
conditions on the ground. And in my view, we need to maintain 
sufficient military and intelligence presence, based on those 
circumstances on the ground, to support intelligence and 
Special Forces Operations in the region to continue to target 
groups that are organizing transnational plots and 
simultaneously to continue to fund, train, and support, with 
logistics and other specialized support, to the Afghan National 
Security Forces. If we do that, we can maintain the pressure on 
these groups and not allow them to actually spring back to 
where they once were.
    But, this is obviously not just about al-Qaeda. A lesser 
U.S. presence will, of course, be greeted with significant 
satisfaction, if not joy, by elements like the Haqqani Network 
and the Taliban. Historically, the Haqqani Network has not 
focused on attacking the far enemy, they have focused on their 
interests in Afghanistan and Pakistan. And I don't believe they 
will automatically revert to a transnational threat with U.S. 
withdrawal. But, the continued strength of the Haqqani Network 
and the Taliban certainly provide a potentially fertile ground 
for al-Qaeda to have some rejuvenation. Hence, my belief that 
we need to maintain sufficient resources there to keep pressure 
on those elements.
    I think there is some possibility of violent jihadists 
continuing to be attracted to the region, but, although this 
isn't much of a silver lining broadly for United States 
national security, frankly Syria and Yemen have become far 
greater magnets for jihadists around the world, and especially 
from the West, than had Afghanistan and Pakistan. And al-Qaeda 
in Pakistan and Afghanistan have attempted to become and remain 
central, most recently with a 2014 magazine known as 
``Resurgence,'' which was focused on radicalizing Westerners 
and attracted them to Zawahiri and al-Qaeda and the region. 
But, frankly, it got very, very little attention in jihadi 
circles and was largely drowned out, again, by the propaganda, 
which is far more effective, emanating from Iraq and Syria.
    Now, those are some potentially positive trends, but there 
is a second generation of violent jihadists in the region which 
is waiting for a U.S. withdrawal to release some of the 
pressure that they have felt over the past several years. And, 
although Zawahiri, I think, will remain largely incapable of 
capturing the Western imagination, there are sufficient numbers 
of jihadis globally that will still be attracted by his 
message.
    So, in my view, we can't simply declare victory and move 
on. As I've said, it is a very fertile ground for transnational 
terrorism, and, in my view, we will need continued weeding. And 
that weeding has to be intelligence, special operations, and 
support to our partners in the region. And that will be 
increasingly difficult with a reduced footprint, because our 
footprint in Afghanistan has been critical, of course, not just 
to fighting these groups in Afghanistan, but also cross-border 
into Pakistan.
    So, what is currently missing for new recruits for al-Qaeda 
in the region are new recruits, real operational 
sophistication, and room to train and plan in a manner that 
bred success in previous years. Now, these aspects are not in 
short supply because of a lack of attraction in the region to 
the ideology. They are in a lack of supply because of our U.S. 
counterterrorism operations and, to a lesser extent, the 
partnerships that we've forged with Pakistan and others.
    So, in my view, a reduced U.S. presence in the region poses 
a real risk that the success we have seen will become harder to 
sustain. And, as a counterterrorism homeland guy, I can tell 
you that only playing defense in this world will not lead to 
continued success. We cannot stop all the shots if we are only 
in a defensive posture in this region.
    So, with that, Mr. Chairman, thank you very much for 
inviting me to testify, and I look forward to continuing to 
working with the committee and others on this very important 
issue.
    Chairman McCain. Thank you very much.
    Admiral Olson.

 STATEMENT OF ADM ERIC T. OLSON, USN (RET.), FORMER COMMANDER, 
                U.S. SPECIAL OPERATIONS COMMAND

    Admiral Olson. Chairman McCain, Senator Reed, members of 
the committee, thank you very much for your expressed interest 
in the future of Afghanistan, and for convening this hearing.
    And I'm proud to be here alongside such distinguished 
colleagues from the world of intelligence and statecraft.
    I recognize that I'm here primarily as a former military 
planner and practitioner of the missions that are of special 
interest in Afghanistan as we look forward. They are commonly 
known as train, advise, and assist, and counterterrorism. I 
should probably acknowledge that these are the two mission 
areas in which Afghan National Security Forces need 
comprehensive and enduring support.
    I didn't submit a written statement, so I'll speak briefly 
about each of these in some detail.
    For the train, advise, and assist mission, I'll emphasize 
that it is far more demanding than it may first appear. The 
forces to be trained must be carefully selected, vetted, 
matched to the appropriate skill areas, and prepared to receive 
the training. In many cases, this requires such basic programs 
as reading and physical readiness. And the scope and pace of 
the training must be tailored to each of the trainees. The 
concept of ``training the trainers'' is certainly appropriate, 
and, if given enough time, it will raise Afghan National 
Security Force instructors to a level where they can conduct 
much more self-training. But, this must be carefully evaluated, 
skill by skill, if we are to hand over responsibility with full 
confidence that it will be sustained.
    Current assessments are that the Afghans are ready to teach 
themselves certain individual and unit-level skills, but it 
will be some time, perhaps some years, before all necessary 
soldier tasks and higher-level disciplines can be fully handed 
over.
    And training soldiers, policemen, and intelligence 
specialists does not, by itself, create a meaningful 
operational capability. Without corresponding quality in the 
higher leadership skills, logistics, combat, administrative, 
and communications support, the tactical units are placed at 
higher risk of increased casualties and failed missions.
    And, in any case, the train-and-equip mission is never 
``once and done.'' The high attrition and casualty rate in the 
Afghan National Security Forces means that, I believe, at least 
30,000 new troopers enter the force each year, so it requires 
not just sufficient capability and capacity to train, but an 
acknowledgment that the task is never complete.
    Before I go on, though, I do want to pay tribute to the 
Afghan soldiers. The country has been at war for more than 30 
years. They live in an atmosphere of poverty, corruption, and 
dissension. In a tribe- and family-based culture, they are far 
away from their roots for weeks or months on end. Some of them 
are undermotivated, undisciplined, and even violently 
traitorous, but many--most--are fierce and courageous, with an 
admirable patriotism and enviable fighting spirit, and they are 
suffering casualties at the high rate of close to 90 killed in 
action per week.
    As for the counterterrorism mission, it is a most complex 
undertaking that requires a sophisticated choreography of 
intelligence collection, information analysis, policy 
development, operational capability and flexibility, 
specialized equipment, and tactical proficiency. The 
counterterrorism forces must be especially adept at offset 
insertions, long-range foot patrols, achieving surprise on the 
objective, instinctive target discrimination, adjustment to 
countersurprise, site and document exploitation, treatment and 
evacuation of casualties, monitoring the operation using remote 
and overhead platforms and assets, and returning to base 
through a hostile and now energized environment. So, the Afghan 
counterterrorist forces must be extremely good, well led, 
properly equipped, and thoroughly trained. And I'm told that 
certain elements of the Afghan National Security Forces are up 
to an acceptable tactical standard, but, absent continued 
support and more experience in the advanced tactics and 
techniques of this dangerous and demanding mission, the overall 
counterterrorism capability in Afghanistan will be quite 
limited. And if the enemies, such as the Haqqani Network, still 
have safe havens across borders that allow them to enter and 
leave Afghanistan at will, the operational challenge is 
enormously more difficult.
    Before I close, I'd like to share a couple of my 
fundamental beliefs as they relate to Afghanistan:
    First, surprise is an essential element in any competition 
or conflict. Camouflage and concealment, deceit, deception, and 
even denial, protection of exploitable information are 
historically very basic to military operational planning. The 
Russians call it ``maskirovka,'' and they used it very 
effectively in seizing Crimea and occupying eastern Ukraine. 
It's a military reality that exposure of units, locations, 
intent, timelines, and force size and capabilities puts people 
and missions at risk. And, in this regard, I applaud General 
Campbell's recent decision to classify previously unclassified 
information about the status and posture of United States and 
Afghan forces in Afghanistan.
    And, second, I am one who believes in developing as many 
military options as possible, and keeping them open as long as 
feasible, so the plans and operations can adjust to evolving 
situations and conditions. The crafting of doctrine, templates, 
and timelines is useful, but mostly for the purpose of 
carefully thinking through a problem. They rarely apply 
directly to any specific circumstances, but I think that we 
still tend to fall too much in love with them as expedient 
solutions. Actual war is too dynamic to accommodate fixed 
models. So, I would urge strategic and operational flexibility 
as we move forward in Afghanistan.
    And I'll conclude by acknowledging that other emerging 
crises may require additional U.S. troops, so I'm not 
advocating a large and open-ended commitment to Afghanistan. I 
simply believe that a total drawdown on a prestated timeline is 
worth reconsidering so that we can reduce the odds of losing 
the significant progress that has been achieved at such cost.
    With that, I'll pass the microphone to my colleague on my 
right and look forward to your comments and questions.
    Chairman McCain. Thank you, Admiral.
    Ambassador Crocker.

     STATEMENT OF HON. RYAN C. CROCKER, DEAN AND EXECUTIVE 
  PROFESSOR, THE GEORGE BUSH SCHOOL OF GOVERNMENT AND PUBLIC 
 SERVICE, TEXAS A&M UNIVERSITY; AND FORMER U.S. AMBASSADOR TO 
                          AFGHANISTAN

    Ambassador Crocker. Thank you, Mr. Chairman, Senator Reed, 
Senators. Thank you for convening this important hearing on 
Afghanistan and its future. To a marked degree, that future 
touches on the future of U.S. national security interests and 
goals.
    I'm going to start by looking back. I spent almost 40 years 
in the Foreign Service, almost all of it in the greater Middle 
East. During those 40 years, I learned maybe two things--sort 
of, one thing every couple of decades:
    First thing I learned is: Be careful of what you get into. 
Lebanon, Iraq, Afghanistan. It's an away game. We're playing on 
somebody else's field and by somebody else's ground rules. We'd 
better understand what they are and be prepared for the 
advantages that do fall to the home team.
    The second thing I learned was: Be at least as careful over 
what you propose to get out of. The consequences of 
disengagement can be as great or greater than the consequences 
of engagement, intervention in the first place. I saw this in 
Lebanon, back in the '80s. I am afraid we're seeing it now in 
Iraq. I certainly don't want us to see it in Afghanistan.
    Actions have consequences. We all know this. And I'd like 
to just spend a minute on what you alluded to, Mr. Chairman, in 
your opening statement: the Soviet experience in Afghanistan in 
the 1980s, and, more particularly, what came after their 
withdrawal in 1989. We withdrew, too. We weren't there 
militarily, but we were certainly there in strong support of 
the Mujahideen in their fight against the Soviets. We were 
there as a major ally of Pakistan, where we staged, with their 
cooperation, most of our support for the Mujahideen. But, once 
the Soviets were gone, so were we. It didn't matter that we 
could see the civil war coming, as the seven dominant 
Mujahideen factions looked around and realized, well, they had 
gotten the Soviets out, now it's a time for the run for the 
roses, ``Who's going to control Kabul?'' And in the space of 
just a few years, the Mujahideen factions did more damage to 
Afghanistan, took more Afghan lives, than the Soviets and our 
allies ever did. But, more fundamentally for U.S. security, 
that vicious civil war opened the way for Taliban to take over 
the country, which they did, of course, as we all remember, in 
the mid-1990s.
    Pakistan supported the Taliban. I was Ambassador to 
Pakistan, and I heard it over and over and over for my 3 years 
there, ``Well, you're back after 9/11. It's nice to have you. 
We'll get what we can, but we're going to hedge our bets, 
because we know how you operate. You'll be here for a while, 
and then you'll leave. We live here. So, we're going to look to 
our long-term needs, our own vital interests. And, where they 
coincide with your short-term interests, that'll be great. 
Where they diverge, we'll follow our own way, because we've 
learned that what you lack is strategic patience.''
    And so, I'm afraid we do, Mr. Chairman. I use it in a 
different sense than the recent national security strategy 
does. What our adversaries have learned to count on with United 
States engagements in the Middle East, is that it won't be for 
all that long. Apply some pain, extract a cost, and we'll go 
home. Our allies have come to fear it, whether in Lebanon, in 
Iraq, or Afghanistan.
    So, moving very briefly to the present, my two colleagues 
to my left, geographically speaking, have spoken to that. And 
Ambassador Cunningham, who served a remarkable 3\1/2\ years in 
Afghanistan, will address it from a political and diplomatic 
perspective.
    It is a long game, a long war. We have to understand that 
wars don't end when we withdraw our troops. That is what our 
adversaries are waiting for. Admiral Olson, Mr. Leiter, have 
both referred to that in different ways. Al Qaeda is at a low 
point, but they are not defeated, just as al-Qaeda in Iraq was 
not defeated at the time I was there, 2007 to 2009. Badly 
degraded, but not defeated. And now they're back. Version 4.0, 
with the Islamic state. The Islamic state seems to be in 
Afghanistan. We all saw yesterday's reports of the killing of a 
former Guantanamo detainee, who, because of the splits within 
the Taliban, has thrown--had thrown his lot in with the Islamic 
state. I'm glad we got him. I hope we continue to get them. And 
I hope that we maintain the requisite force levels to ensure 
that we are supporting the Afghan military and police in their 
development efforts, that we are supporting the Afghan state as 
it seeks to assert a credible and more effective level of 
governance and tackle, as you alluded to, Senator Reed, in your 
remarks, problems of endemic corruption. All of these can lead 
to state failure. What they need is time, and they need our 
support.
    And again, to give this perspective, in the roughly 100 
years of the existence of the modern Afghan state, from the 
ascent of Amanullah Khan in 1919, that state has always 
required outside support--not necessarily boots on the ground, 
but it has required train-and-assist for its military, it has 
required economic support. This is, again, a long game and a 
long war.
    Our support and our leadership, going forward, are vital. 
We cannot turn our backs on what happens in Afghanistan. We 
paid the price for this before. We should not do so again. This 
is America's national security.
    It is also America's values, something I feel very deeply 
about. My colleagues have alluded to the enormous progress that 
young Afghans have made. Both you and Senator Reed have alluded 
to the extraordinary increase in Afghan students in school. I 
have seen the progress Afghan women have made. A precipitate 
U.S. departure, military and political, could put all of those 
gains and all of those lives at risk. That is not the set of 
values that this country stands for.
    So, in addition to the fundamental issues of national 
security, Mr. Chairman, we have issues that touch on who we are 
as a people. I hope we will take the right decisions on force 
levels, going forward, based on conditions, not on calendars, 
that will ensure we meet all of these American goals.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you very much, Ambassador.
    Ambassador Cunningham.

 STATEMENT OF HON. JAMES B. CUNNINGHAM, FORMER U.S. AMBASSADOR 
                         TO AFGHANISTAN

    Ambassador Cunningham. Thank you, Mr. Chairman, Senator 
Reed, Senators.
    Let me start by just saying how much I appreciate the 
invitation to meet with you today, how much I appreciate the 
many members of this committee who have come to see us in 
Afghanistan; and, for those you who haven't, please do.
    Chairman McCain. Did you always appreciate it, Ambassador?
    Ambassador Cunningham. I always did.
    [Laughter.]
    Always. Even when there were some testy questions.
    [Laughter.]
    The United States has led the international community and 
our Afghan partners in implementing a strategy that puts the 
responsibility for securing the Afghan people where it properly 
belongs, with the Afghan Government. The challenge now is to 
afford the Afghan people and their new government the time and 
space to cement the progress that's been made in preparing the 
Afghan National Security Forces so that they can continue to 
protect the country from the Taliban and violent Islamist 
extremism.
    It's that violent extremism embodied in a network of groups 
operating in both Afghanistan and Pakistan which threatens both 
countries and, ultimately, the United States and our partners. 
That threat, first and foremost, to America is why we are 
there: to protect Americans. An increasingly stable and secure 
Afghanistan is the best way to do that.
    We've made a tremendous investment in preventing the 
international terrorist threat from reconstituting itself in 
South Asia and in degrading al-Qaeda. Afghans now have a 
historic opportunity to continue, with international support, 
to build a better future, to contribute to stability and 
progress in their region, to combat the Taliban, and to seek 
peace for their country. With the agreement on the Government 
of National Unity, which the United States played a major role 
in forging in the Bilateral Security Agreement, which I was 
privileged to sign, Afghanistan now has a chance to open a new 
chapter in its history. It will be manifestly in our interest 
if it is able to do so.
    It was not at all preordained that we and the Afghans would 
reach this point. And no one can guarantee the outcome over the 
next several years. The performance of the Afghans themselves, 
and particularly the Afghan political class, will be critical 
and essential if Afghanistan is to earn the continued support 
which is on offer from the international community. But, there 
are certainly realistic prospects for continued progress. This 
will also require the sustained support of this committee, the 
Congress, and the American people, whose commitment has already 
been extraordinary.
    I am concerned when I hear suggestions that we have lost in 
Afghanistan or that our continued support is unnecessary, too 
expensive, or futile. Continued engagement is necessary in 
order to protect the investment and the significant gains we 
have already made and for Afghanistan to play its role in 
contributing to the development of a sustained and effective 
counterterrorism strategy, which must be global, multifaceted, 
multinational, and, unfortunately, as others have noted, long 
term.
    This critical time in Afghanistan's history will determine 
whether it becomes a positive element in defeating extremism or 
a negative and dangerous one. With Islamist extremism now 
morphing and moving across borders, it seems clear what the 
future in Afghanistan will be if we do not make the effort. And 
yes, it is expense, and the--but, the challenge is historic. 
And we have many partners in sharing the burden, including new 
Afghan leadership. Rather uniquely, we also have a common 
understanding with our partners and with most Afghans about 
what is required. Continued United States commitment is an 
insurance policy at much lower cost against the harm that might 
ultimately come from an Afghanistan once again open to hostile 
actors.
    From our long conversations, especially over the past year, 
I believe President Ghani, Chief Executive Abdullah, and many 
Afghans understand the unique opportunity which exists for 
their country, and they understand that this will not come 
again if they get it wrong. Afghans are undergoing 
unprecedented security, political, and economic transitions 
that would sorely stress any country, let alone one with 
Afghanistan's difficulties and struggling institutions. The 
elections and the ensuing long and difficult political debate 
created massive uncertainty and the drift which is still felt 
today.
    But, Afghanistan is not a failed state. Its people are 
resilient and proud and desirous of protecting what they have 
achieved. Afghanistan democracy is imperfect, but last year 
millions of people cast valid ballots twice, at personal risk. 
The Afghan Security Forces have been tested, they fight and 
will only get better, as long as they continue to receive the 
support they need. In my view, under today's circumstances, the 
goals of ensuring ANSF capability, maintaining an effective 
counterterrorism effort, and of bolstering Afghan confidence in 
this period of massive transition are more likely to be 
achieved by a longer presence of the resolute support mission 
and a longer regional presence of U.S. and partner forces than 
is currently planned.
    I hope Americans will have the foresight to view 
Afghanistan in the context of the broader struggle against 
violent extremism. As some of you know, I was the acting U.S. 
Representative to the United Nations on September 11. I told my 
staff, the next day, that history had changed and would demand 
of us a generational struggle against ideological international 
terrorism. I still believe that to be the case. And, as we are 
seeing, we and our partners must learn to deal with the threat 
on multiple fronts simultaneously, with multiple instruments.
    In Afghanistan, we have entered a new phase of the conflict 
against terror. We have a new government, an Islamic partner 
eager to provide for its own security and committed to working 
with us. It would be regrettable and very risky not to maximize 
the prospects for the success of that partnership when we, the 
Afghans, and the international community have sacrificed so 
much and worked so hard to counter the negative forces which 
will continue to challenge all of us.
    Thank you for your time.
    Chairman McCain. Well, I thank you all for the important 
statements.
    Could each of you give your views on the potential 
consequences of the announced calendar-based plan, which is to 
reduce to 5,500 troops before the end of 2015, and to a 
``normal embassy presence'' in Kabul at the end of 2016?
    Ambassador Cunningham?
    Ambassador Cunningham. As I said in my statement, Senator, 
I think that, under the circumstances, that timeline is 
probably too short and the rate of withdrawal is too steep. 
What those dates really mean is that, in order to withdraw 
forces, you need to begin well before the time that's indicated 
for the endpoint, which detracts from the missions that are 
being undertaken, whether it's train, advise, and assist, or 
counterterrorism. I know that my colleagues in the 
administration are aware of this. And, as Secretary-designate 
Carter said the other day, there is a plan, but it's a plan 
that can be reviewed as circumstances change. And I think it 
should be reviewed.
    Chairman McCain. Thank you.
    Ambassador Crocker.
    Ambassador Crocker. Thank you, Mr. Chairman.
    I have believed, whether in Iraq or in Afghanistan, that 
our force levels and drawdowns, or plus-ups, have to be 
conditions-based, not based on a timeline. I clearly remember, 
in testimony with General Petraeus in 2007 before this 
committee, among others--many others--trying to make that 
point, that conditions are what count out there, not calendars.
    I would be further concerned, Mr. Chairman, that, as I 
tried to suggest in my opening statement, that, by fixing a 
date certain to draw down to a certain number, and then to 
drawn down to, basically, an office in an embassy, simply tells 
our adversaries how long they have to hold out before they have 
the field to themselves. You know, I'm a diplomat, not a 
warrior, but that never seemed to me particularly good 
strategy.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you.
    Ambassador--Admiral?
    Admiral Olson. Mr. Chairman, I agree that it does our force 
a disservice to announce too precisely in advance what the 
timeline for the drawdown will be. And, in any case, I--my 
sense is that, in--2016 is too soon to assume that we--that the 
Afghan National Security Forces will be capable enough that we 
can afford to withdraw all of our forces from the field, from 
training, mentoring, advising, supporting the Afghan forces at 
a time that I believe they will still need the help.
    Mr. Leiter. Mr. Chairman, I concur with all of my 
colleagues. I'm not in a good position to judge whether it 
should be 5,500 or 8500 immediately, but I absolutely agree 
that simply an embassy force in 2016 will not be sufficient to 
provide the intelligence, the direct action, and the advise-
and-assist to the ANSF to make sure that we are detecting and 
disrupting transnational plots in the region.
    Chairman McCain. And I think you would all agree, probably 
there's many individuals and entities to rely on to make that 
assessment, but the Ambassador in Kabul and the--our military 
commander there are probably two of the people we would rely 
on, obviously, the most.
    I don't want to take the time of the committee. I know the 
witnesses very well. I'll turn to Senator Reed.
    Just to say, Ambassador Crocker, I will probably forget 
many of the hearings that I've attended over the many years 
that I've been a member of this committee, but one I will never 
forget is yours and General Petraeus's appearance before this 
committee in 2012--2007. I think it literally changed the 
course of history.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your--again, your service to 
the Nation and your excellent testimony.
    As you've all pointed out, this is a combination of 
military capacity and political capacity, on both sides--the 
United States, NATO, and the Afghanis. It strikes me there's 
three factors, here in Afghanistan, that were not present in 
Iraq. One is, there is a Bilateral Security Agreement that 
allows our forces to stay. So, we have the legal ability to 
pull up or bring down our forces. Second, we seem to have a 
government--a new government that is much more cooperative 
with, and consistent with, our views and values, even though 
they represent very staunchly the people of Afghanistan, as 
they should. And then, third, we have a NATO element, also, 
too. This is not a--just a U.S. mission.
    So, can you, sort of, comment, Mr.--Ambassador Cunningham 
and Crocker, on these three factors and how it sort of--it 
supports or helps us to make the case, or not make the case, 
with respect to increased forces or continued forces?
    Ambassador Cunningham. I'll be glad to, Senator.
    I think that this time in the history of Afghanistan and 
our engagement in Afghanistan this--for the next couple of 
years is really pivotal on both fronts, on the second front and 
on the political front. As you know, I spent hours and hours 
of--in discussion with Dr. Abdullah and President Ghani after 
the elections, and then in the discussion that--in which we 
were trying to help them form the National Unity Government. 
This really is a fundamental shift in Afghan political life, 
having created a Unity Government which really does effectively 
represent the vast majority of Afghans, whatever happened in 
the elections. It's going to be difficult, politically, for 
this government to function. We all knew and understood that as 
we were going through the process.
    But, it--a page has turned in Afghan history now. They have 
to decide whether to take advantage of that opportunity. I 
think there's good--a good chance that they will. The 
instruments are in place. The elections were held, a new 
government has been established or is being established. We 
have the Bilateral Security Agreement finally signed, a year 
later than we originally thought it would be, but it is signed. 
It reflects the will have the Afghan people. There's no huge 
movement in Afghanistan that wants the United States out of 
Afghanistan. And, indeed, to the extent that there is concern, 
it's mostly over whether the withdrawal will take place, and 
under what conditions.
    I think that affords both the Afghans and us a great 
opportunity, over the next 2 to 3 years, to cement this 
relationship, this partnership in which the Afghans now have 
the lead and are fighting and dying for their country in 
providing security in a way that serves our interests because 
it will contain the violent extremism that we're all concerned 
with.
    Senator Reed. Ambassador Crocker, any comments?
    Ambassador Crocker. Thank you, Senator.
    Just very briefly. The three factors you note are very 
important. I associate myself completely with Ambassador 
Cunningham's remarks. This new government, in spite of the 
difficulties it's faced--even because of the difficulties it 
faced, because it is overcoming them--is an extraordinary step 
for the Afghan nation and the people.
    In terms of governance, the fight against corruption, I am 
heartened, both by the President himself, with long experience 
in financial matters from his time at the World Bank. He knows 
how the world works, how nations succeed or fail. And I'm very 
heartened by his choice of Ambassador Eklil Hakimi, who many of 
you know, still, I guess, Ambassador to Washington for 
Afghanistan, but who understands us and the world of finance 
very well. They need our support in order to succeed.
    I have spoken to senior Afghan officials over the last 
week. Many of you have done the same. They all say the same 
thing to me, ``Please continue your support. We know what we 
have to do. We need you, to get it done.'' I haven't talked to 
anybody out there who doesn't want us to stay, to stay 
militarily and to stay at or near our current force levels, for 
all sorts of reasons.
    The final point I'd make, because you mentioned NATO, NATO 
will stand, both as a military component of a force and in 
providing critical economic backing and financial backing for 
the Afghan National Security Forces, as long as we stand and as 
long as we lead. It was our leadership, in May 2011 at the NATO 
summit, that produced out-year commitments of financial support 
to the Afghan National Security Forces. It was our leadership, 
at the Tokyo Economic Ministerial, that produced international 
pledges in excess of $16 million for economic support in the 
out years. Without us, that evaporates. Without us, the Afghan 
leadership, off to a very promising start, is going to have 
increasing difficulty in overcoming the many hurdles they will 
face, now and in the future. Our leadership is key, whether 
military or perhaps as, or even more, important, politically, 
to be engaged is crucial.
    Senator Reed. Thank you.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you very much.
    And Senator McCain has had more experience than anybody in 
the White House and most other places in this government in 
dealing with this. He was right about Iraq. And I believe he's 
calling us correctly, and the warnings he's given about 
Afghanistan are correct and should be heeded.
    Let me just briefly ask this. This is one thing I think 
that worries the American people. Is this a hopeless effort? 
Or, if we have a reasonable, smart application of American 
assistance, can Afghanistan achieve, let us say, modestly, a 
decent government that functions and that creates a nation 
that's not a haven for people who would threaten us?
    Just briefly--maybe, Ambassador Cunningham--do you--is this 
a hopefully situation, or not?
    Ambassador Cunningham. No, Senator, it's not hopeless. 
Indeed, after 3 and a half years of experience there, I think 
it's finally possible to see a future for Afghanistan that is 
both possible and promising. Much will depend on what the 
Afghans, themselves, do. And they provide their security, they 
run their government, they are in charge of their politics. And 
life is difficult there. There's no denying that. And they're 
having a great deal of difficulty setting up the new 
government, as one would expect, because they also have a 
parliament that they need to deal with.
    But, the elements are there for Afghanistan to continue 
down the positive road that we've been helping them create over 
the past several years. If the Afghans will seize the 
opportunity and if our--by--and, by ``our,'' I mean 
international support, not--we have to remember, there are many 
nations who are contributing to Afghanistan, both militarily 
and economically, not just the United States, although we are, 
obviously, the leader, in every sense, as Ambassador Crocker 
said. And that support will not be sustained without our 
leadership and our commitment.
    But, the road is there--you can see it--on security, on 
economic development, even on relations with their neighbors, 
where there is--are new opportunities for a better dialogue 
with Pakistan, and better cooperation. So, I am actually 
hopeful. As I said in my statement, I can't guarantee the 
outcome, but I'm hopeful that the right outcome can be 
achieved.
    Senator Sessions. Well, the rest of you basically share 
that view? I understand that from your testimony.
    So, Ambassador Crocker, you're correct that we need to be 
careful what we get into. And I, for one, am going to be more 
humble about my understanding of what we can achieve in the 
world. But, we've invested a tremendous amount in Afghanistan. 
We have stood shoulder to shoulder in Afghanistan, and in Iraq. 
And, in my view, this is--and we are at a point where I think, 
with a modest additional commitment of resources over a period 
of time that creates confidence in the Afghan people and their 
military, we may have a very good result in that area of the 
world. It would be good for the world and good for us and good 
for the people there.
    Admiral Olson, you--you know, I know that Afghanistan has 
to stand up, but, in my view, you can't ask them to do more 
than they can do. Kabul has never ruled that country. They've 
always had corruption. To expect it's going to be a perfect 
government anytime soon is unrealistic.
    Now, Admiral Olson, would you tell us what a lot of 
military people have told me about why even a small amount of 
American presence--embedded Special Forces, for example, with 
Iraqi or Afghan military--why they can make an incredible 
difference in their ability to be effective, their ability to 
fight? Just give us some of your insights. You mentioned 
several complex things that a good military has to have to be 
successful. Give us your thoughts on that and why even a small 
amount of forces can make a difference.
    Admiral Olson. The forces that have the greatest impact are 
the ones who have some experience, typically older than the 
average soldier in the U.S. Army, who have more deployments, 
typically, who have operated on teams with each other for 
longer periods of time, and who then can help gel those around 
them into more coherent, effective kind of units. The forces 
that do this best have a cultural appreciation, maybe a minor 
language capability so that communication is not always through 
an interpreter, and they are willing to fight alongside the 
forces that they are mentoring, when that's necessary.
    Senator Sessions. Well, you commanded the----
    Admiral Olson. And so, I think----
    Senator Sessions.--you command our Special Operations 
Command, and that's the kind of forces you're talking about. Is 
that correct?
    Admiral Olson. Yes, sir. But, not only Special Operations 
Forces. I mean, there are elements within the U.S. military who 
have stepped up to that task and performed very well.
    Senator Sessions. But, will it make a difference in the 
outcome? Is it a significant factor, that deployment of a 
limited number of Special Forces? And----
    Admiral Olson. Sir, the evidence to date is that it does. 
The Afghan National Security Forces are far more capable than 
they were just a few years ago, when these kinds of efforts 
began in earnest, to put small numbers of United States troops 
at remote locations, where they were a daily presence, a daily 
part of the lives of the Afghan units. And it's not just the 
training. Much of it is just sort of the example that they set 
in how to think about conflict, how to prepare for a fight. And 
that just can't help but rub off on the Afghan forces.
    Senator Sessions. Thank you.
    Mr. Leiter. Senator, if I could, very quickly. You've asked 
the question, Should the American people think this is 
hopeless? The last 13 years have showed us that the 
counterterrorism fight and protecting the homeland in this 
region is not hopeless. We've been very successful at stopping 
attacks from the region.
    And I would flip it around: From a homeland security 
perspective, I think it is close to hopeless to think that we 
can have that same success without some ongoing presence in the 
region.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    And thank all of you for your service and for being here 
today.
    And Afghanistan is a troubling place. And I hear a lot from 
the constituents, back in West Virginia. You know, we have an 
awful lot of military, and we've rotated many, many times. And 
I've been there a few times, myself. But, you know, people have 
said, ``No one in history has had success in Afghanistan. Why 
do we expect to be any different?'' So, you hear that playing 
out. But, on the other hand, it's much different. We've been 
attacked by people who planned and plotted from that part of 
the world. And we try to explain that and try to get support 
from the public.
    I think I'm going to--I need--some questions, if you can 
help me, on what size of support levels will be needed in 
Afghanistan. Is it 5-, 10,000? What type special types? Is it 
Special Ops, Black Ops? And also, Bagram Air Force Base, I see 
that as a great asset. Are we determined to keep that as our 
asset, or do you see any--I mean, as we've given everything 
else away, are we planning on giving that away, too, to 
somebody, whatever?
    And I just--I'd like to know about the morale with the 
training mission, with green-on-blue attacks. One of the most 
atrocious things I've ever attended was a Wounded Warriors 
dinner one night, and had a few of them tell me the horrific 
stories of the attacks that they've seen and the attacks that 
they were subject to from people they were training and had to 
trust. So, I know that takes a toll on them.
    And just really the developing economy. Is there ever going 
to be an economy based on anything other than U.S. military 
presence?
    So, I--that's a big plate, and I would just--I know we are 
limited on time, so--I guess we'll start with the size of 
support you think we need.
    And I agree with our Chairman, you know, Iraq didn't work. 
So, if we learn from past mistakes, what--and I think the 
people in West Virginia will support--we will maintain to make 
sure that we're able to prevent that from happening again from 
that part of the world. What does it take to do that?
    Admiral?
    Admiral Olson. If--that's a question for me, Senator? I 
mean, I don't claim to be ``the'' expert on precise force 
levels. I think that that's better addressed by General 
Campbell in tomorrow's hearing. But, having seen how this has 
developed, now, for so many years, I've held the opinion that 
somewhere around 10,000, plus or minus----
    Senator Manchin. Are they----
    Admiral Olson.--is probably----
    Senator Manchin.--going to be combat? I mean--or are they 
going to be basically training strategic personnel?
    Admiral Olson. It will be a split between those who are in 
the field conducting the day-to-day training, mentorship, 
advising, supporting----
    Senator Manchin. So, we'll say approximately---
    Admiral Olson.--providing the logistics support and the 
other support that it takes. I mean, airspace---
    Senator Manchin. Sure.
    Admiral Olson.--management, medical care, those sorts of 
things.
    Senator Manchin. So, we're talking around 10,000. And right 
now, we're--what's our level right now in Afghanistan?
    Admiral Olson. We--that's about where we are now, I think.
    Senator Manchin. But, we're supposed to go down to 5 by the 
end of the year?
    Admiral Olson. Sir.
    Senator Manchin. So, you think it'll be of critical mass, 
if you will, going that low.
    Admiral Olson. I won't say ``critical mass.'' I'll just say 
that we ought to really very carefully----
    Senator Manchin. I got it.
    Admiral Olson.--get through all that.
    Senator Manchin. Can anybody speak about the economy over 
there, if you see any economy?
    Ambassador?
    Ambassador Cunningham. Yes. I'll address that. Let me just 
add to your--to the point that Admiral Olson just made, though.
    It's important to remember that the U.S. mission and force 
level and our partners--our NATO allies and other partners' 
presence and force level are organically connected. And that's 
one of the--and that--as things now exist, that enables the 
resolute support mission force to be present in Kabul and 
Bagram and other parts of the country. As--if the U.S. forces 
draw down to the--to 5,500 by the end of this year, that 
presence won't--that regional presence will no longer be 
possible, because our partners won't have the support and 
connectivity to our forces that they would wish to have. So, 
that's another factor to be looked at as this process goes 
forward.
    On the economic side, the economy last year took a huge 
hit, both from the withdrawal of the international forces as 
they drew down to their present levels, but also, very 
importantly, from the political uncertainty that was created by 
the elections, in the aftermath, and concern, among Afghans as 
well as foreign investors, about what the outcome of that was 
going to be and whether there would be a workable dispensation, 
ultimately, that would allow economic activity to resume, and, 
indeed, encourage it. That's now coming into place.
    The removal of uncertainty is a huge goal for the new 
Afghan government. As Ambassador Crocker said, President Ghani, 
Dr. Ghani, is very experienced and well versed in economic 
matters and finance, as are other people in his government. 
And, again, from my conversations with him and with Dr. 
Abdullah, they understand clearly that a high priority for this 
new government has to be the regeneration of economic activity 
within Afghanistan, by Afghan investors. There's a lot of money 
available in Afghan hands to be used in business activity, but 
it's been held or it's--or used outside the country because of 
uncertainty inside the country. So, they need to find ways to 
stimulate that activity, as well as ways to improve trade in 
the region, which they are working on, and to encourage foreign 
investment. So, that's as high on their agenda as anything, I 
think it's safe to say.
    Senator Manchin. Mr. Chairman, if I can just have one 
second to just make one comment.
    I have a hard time--you know, with the dependency they have 
on the United States and our presence there, whether it be in 
Afghanistan or in Iraq, and allow a person like Karzai or 
Maliki to destroy that type of a relationship, and we're--take 
us that far backwards--what's any assurance for us that we 
wouldn't--I mean, we have--right now, we have a better--let's 
say, a better relationship. We have people we have confidence 
in, in Iraq and Afghanistan. But, it seems that we have no 
large input and assurances that could continue.
    Ambassador Crocker?
    Ambassador Crocker. Thank you, Senator.
    It--for me, it comes down to U.S. engagement and leadership 
as a key determinant. During my years in Iraq, 2007-2009, it 
was the same Prime Minister, Maliki, and many of his colleagues 
from other communities could be every bit as difficult. But, we 
were constantly engaged, at my level, at the level of the 
Secretary of State, Secretary of Defense, at the level of the 
President. I think that engagement is absolutely crucial.
    These people, whether in Iraq or Afghanistan, have been 
through a type of hell that's very hard for Americans to even 
imagine. It reduces them to core identities and zero-sum 
thinking, ``If you're not part of my clan, my party, my tribe, 
I can't trust you. And not being able to trust you doesn't mean 
losing an election, it means maybe losing my life.''
    We can be the essential middleman. We did play that role in 
Iraq, for a time. We are playing that role now in Afghanistan. 
Ambassador Cunningham and Secretary Kerry, of course, were the 
ones who essentially brought that compromise into place that 
led to a National Unity Government between Dr. Ghani and Dr. 
Abdullah. I would be as--so bold to suggest, I'm not at all 
sure they could have done that without us. But, we were there, 
we got it done. And the Afghan people now have a hope they 
didn't have before. It takes our leadership.
    Finally, because I do care very much about this, I got to 
Kabul, on my first assignment, about 10 days after then-
Chairman Karzai arrived in Kabul from the Bonn Conference that 
placed him as Chairman of the Afghan Interim Authority. I 
worked closely with him during those initial months, when he 
had nothing--no government, no police, no army, no resources--
absolutely nothing. I worked with him again when I returned to 
Afghanistan in 2011. Yes, it was difficult. He had been through 
a lot. We had been through a lot. But--Ambassador Cunningham 
was with me--it was President Karzai who put the final seal of 
approval on our Strategic Partnership Agreement that President 
Obama came to Kabul to sign. We had that engagement.
    So, you know, we all look for the day, whether in Iraq or 
Afghanistan, when these peoples, these governments, are able to 
stand on their own, dispensing good governance and justice 
under law. They're not there yet. And our role, politically, I 
think, is absolutely crucial to helping them get there.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. I do appreciate 
your service.
    I apologize. I think there are several hearings going on 
this morning.
    Admiral Olson, you have mentioned, a couple of times, the 
need for our combat troops, more counterterrorism, train-and-
assisters, to stay on beyond 2016. And I appreciate the fact 
that you have also mentioned--I made note earlier--you 
mentioned logistics, and you mentioned equipping the men and 
women that we have serving over there. And I would like to 
focus a little more on that, because I--I do believe--I am 
hopeful--that we will be able to train the Afghani Security 
Forces to continue with operations in Afghanistan, hopefully 
after we have exited theater, whenever that point is. But, we 
do need to know, beyond that, beyond any kinetic operations 
that are going on, Will they be able to logistically support 
themselves? Will they be able to maintain their equipment? What 
do we have in place to make sure that they will continue in a 
support role, also? What are those plans, if you know of any, 
Admiral?
    Admiral Olson. Thank you, Senator.
    I'm not expert on the current plans. And again, I think 
that will be a question better asked of General Campbell 
tomorrow.
    But, our experience so far has been that, absent a 
continued U.S. engagement in the nonkinetic sort of 
disciplines--in the intelligence, in the administration, in the 
logistics and the communications--then the capabilities do tend 
to deteriorate. Those don't all have to be supported by U.S. 
Active Duty soldiers. There's room for others to provide that 
kind of training and support so that the soldier population can 
be in the field, supporting the more direct fight.
    But, I do think it is essential--I mean, I'll repeat myself 
just a little bit--in that great shooters don't make a great 
army. We--it takes much more than that. In fact, we saw, in 
Iraq, in fact, a quite capable army that, absent the political, 
logistics, et cetera, support, was unable to sustain the fight.
    Senator Ernst. Thank you. I believe it's imperative that 
those warfighters need to be supported, whether they're United 
States forces, whether they are Afghani forces.
    Do you see that this is a role that contractors could fill? 
Or do you believe that it is better supported by a U.S. 
military standpoint during any sort of transition period before 
the United States hands off to Afghani forces?
    Admiral Olson. Well, we already have a history of certain 
contractors performing some of those roles. And we have a 
generation of veterans, from Iraq and Afghanistan, many of whom 
are willing to go perform those sorts of roles. So, I think 
there is potential. I'm not, again, the expert on that. I think 
it's a case-by-case evaluation. But, I do believe there's room 
to reduce the active Duty presence by replacing some of them 
with private contractors who would not be expected to be in the 
fight.
    Senator Ernst. Okay.
    Any other thoughts, gentlemen, in that area? Okay.
    Yes, Ambassador.
    Ambassador Cunningham. If I just could add, briefly.
    There's actually a very detailed plan for what the train, 
advise, and assist process will consist of, with multiple lines 
of effort, that General Campbell can outline and provide you in 
writing. And most of that is built around things like logistics 
and the nuts and bolts of how you run and support a military 
force. And much--actually, most of it is on intel and 
logistics.
    Senator Ernst. Great.
    Ambassador Cunningham. A very small part has to do with the 
actual war--what we would think of as warfighting.
    Senator Ernst. Great. I appreciate that.
    Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all, both for your service and for being here 
today.
    I have had the opportunity to work with Senator McCain on 
the Special Immigrant Visa Program, trying to extend the number 
of visas that are available for Afghans coming to the United 
States. I wonder, Ambassador Crocker, if you could talk about 
why this program is important.
    Ambassador Crocker. Thank you very much, Senator, for your 
support for the Special Immigrant Visa Program, and for the 
question.
    This is something I feel passionately about, whether in 
Iraq or in Afghanistan. I worked very hard, in both countries, 
to do everything I could to see that we did the right thing by 
those who supported us and whose lives all too often were at 
risk because of that support. We ramped up considerably in both 
countries. In both countries, I think we have now fallen short, 
not only of what I believed was the right thing to do, but 
what, again, this Nation stands for.
    These people stepped up to serve us, whether the civilian 
presence or the military presence, not for a paycheck, but 
because they believed it was the right thing to do. Almost all 
of them had qualifications that could have landed them probably 
better-paying jobs with substantially less risk. They believed 
that we were there to help pull their country out of a dark 
hole, and they wanted to support that effort. They run enormous 
risk, and many of them have paid for their--paid for that with 
their lives.
    And I would just urge this committee, the Senate, the 
Congress, to do everything they can to ensure that processing 
is expedited and that the resources are available, once they 
get to the United States, to support them. I have heard too 
many stories of Afghan and Iraqi immigrants or refugees, 
depending on the program, who have come here and have had to go 
back to very uncertain fates because they simply could not 
support their families. That is just wrong.
    So, again, thank you, Senator Shaheen, for being our 
conscience on this.
    Senator Shaheen. Well, thank you very much. I certainly 
share your view that we should do everything possible to make 
sure that those people who helped our men and women on the 
ground have a safe future and can come to the United States. 
And we'll continue to work on that. And appreciate all of the 
support from so many men and women who served with these 
Afghans and Iraqis, because they've been the cheerleaders for 
making sure that this program goes forward.
    Ambassador Cunningham, you talked about the hours that you 
spent with Dr. Ghani and Dr. Abdullah. And one of the questions 
that I have is looking at the partnership government that has 
been formed, the potential challenges to that. As we all know, 
it's always hard to have more than one person in charge. And I 
wonder if you could give us some insights on how they're 
dividing up responsibilities. I was curious to see that Dr. 
Ghani, despite his understanding of economics, is really 
focused more on the international aspects, the defense aspects 
of things, and Dr. Abdullah is more focused on domestic. So, I 
wonder if you could talk about how that partnership is working 
and how you think it will continue to work in the future.
    Ambassador Cunningham. Thank you, Senator.
    I think the best way for me to respond to that is to 
describe the National Unity Government as a work in progress. 
This is a unique phenomenon in Afghanistan, which is much more 
prone to a winner-take-all way of doing business and way of 
doing politics, which is part of what led to the civil war that 
Ambassador Crocker referred to.
    One of the driving forces behind the effort to create the 
National Unity Government was the realization that everything 
that the Afghans had accomplished in the past decade was at 
risk if they didn't figure out a way to overcome their very 
bitter feelings about the elections, bitter feelings on both 
sides. And that's one of the factors that is--that will make 
the government a difficult proposition. The two leaders and 
their teams fought a very bitter political competition in which 
both sides sincerely believed that they had won. So, overcoming 
that division, turning the page, as we kept saying, ``You know, 
you have to turn the page. The political competition is over. 
You have to realize that. Somebody's going to be named 
President. That person needs to figure out a way to govern the 
country under today's circumstances.'' That's what the National 
Unity Government is an attempt to do.
    I believe firmly that Dr. Abdullah and Dr. Ghani are both 
committed to making it work. That doesn't mean it's going to be 
easy. And they don't have many members of--they don't have many 
members of the government named yet, because--they've made 
presentations to the parliament. Some of those people have 
withdrawn their candidacies because of treatment that they 
received in the parliament. Others were rejected. So, it's a 
back-and-forth proposition. This also was to be expected. It 
took President Karzai, who was completely in charge of his 
government and his political affairs after the last election--
after his last election--it took him months to form a 
government, just doing it by himself. Dr. Ghani and Dr. 
Abdullah are trying to do this in a collaborative fashion, so 
it's taking long--the whole process is taking longer than 
anybody wants or would like, but it is moving forward. And I 
think there is a real drive, on both sides, to make this work, 
but we'll have to see.
    Senator Shaheen. Thank you very much.
    My time is ended, but thank you all, also, for your 
continued support for a secure Afghanistan.
    Chairman McCain. And I thank Senator Shaheen for her 
efforts on behalf of these individuals, as Ambassador Crocker 
described them, who virtually risked their lives on behalf of 
the freedom of their country. And if there's additional 
measures that need to be taken on this issue, we would be glad 
to take it up in the defense authorization bill, Ambassador 
Cunningham or Ambassador Crocker, if we need to take additional 
measures to help these people come to the United States, if 
necessary.
    Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your past, current, and 
continued service.
    Admiral Olson, you mentioned that surprise is an essential 
part in playing out any strategy over in that area. The only 
thing I find surprising about the President's strategy is how 
transparent we've been in announcing timeline and definitive 
troop withdrawals. It seems--I think Ambassador Crocker 
mentioned--now that's sort of what our adversaries are waiting 
for.
    So, in the context of the current strategy, I'm also 
concerned with this withdrawal creating a new place for 
terrorist organizations to train and potentially develop a 
capability that threatens the homeland. But, based on your 
perspective of the terrorist threat, what kind of 
counterterrorism strategies should we be thinking about or 
putting into place to make it less likely that we go back to a 
pre-September 11 threat in Afghanistan?
    Admiral Olson. Thank you, Senator.
    The counterterrorism strategy has, in my view, got to be 
some centralized command capability, with pods of forces that 
are prepared to move on to terrorist targets as they develop, 
with enough striking power to resolve that situation and keep 
those terrorists from taking the actions that they intend to 
take. Very much--very important that that's done in concert 
with Afghan partners and colleagues, depending, in part, 
certainly on Afghan-sourced intelligence, but it is still 
sophisticated enough an operation that, in my view, it will 
require some external support for some time.
    Senator Tillis. And, Admiral Olson, I know that the--at 
least some spokesman for the President characterized the 
Taliban as an insurgency. Do you think that there is a 
potential transition back to, once again, considering the 
changes that will go on in Afghanistan if the current 
administration's policies are carried forward, to where they 
are actually viewed as a part of the terrorist organizations 
that we may have to look at in Afghanistan?
    Admiral Olson. I'm sure my colleague on my left, Mike 
Leiter, will appreciate me passing this question to him, 
because that's really more of an intelligence-based question 
than a military question.
    Senator Tillis. Mr. Leiter?
    Mr. Leiter. Senator, I do think that the Taliban has some 
appreciation that their willingness to allow al-Qaeda to launch 
transnational effect--attacks around September 11 were a very 
bad thing for the Taliban. So, I think there is some 
appreciation on their part that they would prefer al-Qaeda not 
to do that.
    Do I think that there are elements--not just in 
Afghanistan--in Pakistan and elements within the Taliban that 
are more open to that sort of training and launching attacks? 
Absolutely. I believe the Haqqani Network is extremely 
problematic.
    And the only thing I would add to Admiral Olson's wise 
vision on what those counterterrorism operations need to be to 
protect the homeland, we need to continue to have the deep 
engagement and strategic patience that Ryan Crocker talked 
about with regards to Pakistan. You cannot separate these two 
nations out yet. We have to understand that our presence is 
required, not just to combat these forces in Afghanistan, but 
continue to work with the Pakistanis and pressure the 
Pakistanis to target those same groups.
    Senator Tillis. Thank you.
    Ambassador Crocker--again, I mentioned earlier that you 
said that--I think, that the current timeline and troop 
withdrawal is now something that some of our adversaries are 
waiting for. And I know that you've dealt with the effect--or 
the influence of Iran and Iraq and Afghanistan. If we follow 
through with the current strategy, what different strategies do 
you anticipate Iran may--or role may they play in Afghanistan?
    Ambassador Crocker. It's a very important question, 
Senator. We don't share very much in common with the Islamic 
Republic. For most of the last 13 years, I would suggest that 
we have objectively, on a very broad level, sought similar 
outcomes in Afghanistan. Iran and Afghanistan almost went to 
war, in the late 1990s, under Taliban rule. This is an 
existential issue. There can only be one faith-based theocracy 
in Islam. The Iranians claim it, and so do the Taliban. And it 
was an existential fight. They do not want to see the Taliban 
back.
    That said, I would be concerned that, if they see us as 
leaving the field, militarily and politically, they will ramp 
up their own game. They have allies among some of the minority 
groups in Afghanistan. The Northern Alliance was closely tied 
to Iranian support during the Taliban years as a means of 
keeping them--keeping the Taliban from running over the whole 
country. Those linkages are still there.
    So, if we pull out, I don't think we would see an Iraq-type 
situation, but we would see more Iranian involvement. And, 
based on the pattern of Iranian involvement in other countries, 
I'm not sure we would like it.
    Senator Tillis. Mr. Chair, if I may, the--just a followup 
question. It's a little bit off the subject, but--with the ANSF 
being an all-volunteer force, and with the current strategy 
publicized by the administration, do we have any sense of what 
effect that could have, in terms of their continued recruiting 
and buildup of that force? Or is it even material to their 
recruiting efforts?
    Ambassador?
    Ambassador Cunningham. Well, one of the good-news items 
with regard to the ANSF is, as you said, it is a volunteer 
force. And, despite the high level of casualties that they are 
taking, levels of casualties that need to be reduced, and I 
think will be reduced as the leadership gets better and better, 
but there's no--they are not having any difficulty in 
recruiting people to join the military or the police. I expect 
that will remain the case.
    As both institutions mature and continue to get better, 
they will become more attractive. They're both making efforts 
to recruit women, by the way, which is a very difficult 
proposition. They are both doing that.
    The determining factor in all of this is the sustained 
international funding that's required. As part of our plan for 
funding the ANSF, the Afghan government is committed to, over 
time, increase its share of its own defense budget, with a 
view, ultimately, to becoming self-sufficient. That's going to 
take a while--quite a while. And, for the foreseeable future, 
they will be highly dependent on the international funding that 
we and our NATO and other allies have committed to provide. 
That is the determining factor that makes everything else run.
    Senator Tillis. Thank you.
    Senator Reed [presiding]. Senator Donnelly, please.
    Senator Donnelly. Thank you, Mr. Chairman.
    And thank you all. I apologize for having to step out for a 
few minutes.
    And this may have been asked, and I'm sorry if it has. In 
regards to Pakistan, how big a percentage of getting Pakistan 
right is getting Afghanistan right?
    Ambassador Cunningham. That's--I'd like to ask Ambassador 
Crocker also to respond to that--that's a very difficult 
question. But, as Mr. Leiter said, the two are inextricably 
linked. They have their own history that they need to overcome, 
and the phenomenon that we're trying to deal with both the 
Taliban and the--what I call the network of Islamist 
extremism--exists on both sides of the border, and moves back 
and forth across the border. That includes al-Qaeda, but it 
also includes a host of other folks.
    A long-term solution has to include dealing with the 
presence of those folks on the--in the Pakistani side of the 
border. For both countries. There's evidence that the awareness 
of--a realistic awareness of that is growing in Pakistan. We 
have been encouraging that relentlessly over the past couple of 
years. And I hope the Pakistanis will come to realize, 
genuinely, that they need to act in their own interests, as 
well as in the regional interest.
    Ambassador Crocker. Thank you for that question, Senator, 
because it is central to the long-term stability of that region 
and to our own long-term security.
    Afghanistan is not just about Afghanistan. As both Mr. 
Leiter and Ambassador Cunningham said, it's also about 
Pakistan, and vice versa. The border between the two states is 
an artificial one, drawn by the British at the end of the 19th 
century, deliberately to divide the Pashtun community. There 
are tribal and familial affinities that cross that border that 
make this an extraordinarily complex situation.
    As I noted in my opening remarks, the Pakistanis have 
hedged their bets, based on their experience in the 1990s. They 
supported the Taliban then as a vehicle to put an end to the 
Afghan civil war and produce a government in Afghanistan that, 
again, would stabilize the situation and with which they had 
some purchase. That, over time, I think, has led them to some 
strategies that I would hope they regret, like support for the 
Haqqani Network.
    Senator Donnelly. Right.
    Ambassador Crocker. You know, going back almost 10 years, I 
remember discussions with the Pakistani leadership--
intelligence, military, and presidential--that the Haqqanis 
were really dangerous, not just to us, not just to the Afghan 
state, but to the Pakistani state. Well, so it's proved. But, 
it does raise a question, given the current challenges Pakistan 
faces, whether they could really subdue the Haqqanis, or not.
    And, you know, that is why long-term U.S. engagement and 
leadership is so critical. It's 185 million people, with 
nuclear weapons, that is facing a set of insurgencies that 
could grow to threaten the state. Some of these, insurgencies 
of their making that got out of control. But, the threat, 
nonetheless, is there.
    Senator Donnelly. I am--I apologize--I'm running out of 
time. I just want to ask one other question, and that would be: 
In places like Kunar and Nuristan and Helmand and Khost, as we 
look forward to the next few years, how successful do you think 
we'll be in those areas? And will the core--the Kabul area, 
those areas--will it be a solid core, with continued challenges 
in those areas, or how do you see this, if we work in a 
flexible and conditions-based way?
    Ambassador Cunningham. All of those--all of the areas that 
you mentioned are already under--well under the responsibility 
of the Afghan Security Forces, who are being tested--were 
tested last year by the Taliban, particularly in places like 
Helmand. They had some difficulty, but, where the Afghans lost 
ground, they've quickly recovered it, recovered themselves and 
then recovered the territory, and held their own last year. I 
don't see any reason to think that the--that they will be less 
effective this coming year and in the future. So, while they 
will continue to be contested by the Taliban, I think they will 
more than hold their own.
    Kabul is, and has been, under Afghan security control for--
as far as I know. And that will remain the case. A critical 
factor in all this is the continued counterterrorism effort 
that some of our forces will continue to be involved in 
directly in mentoring the Afghan Special Operations Forces, who 
are already very good and, again, getting better all the time.
    So, the--there will continue to be conflicts in the 
countryside, and even parts of the countryside that the Taliban 
controls but don't really matter very much, but I think the 
main effort to secure most of the population as it is now will 
be successful.
    Senator Donnelly. Thank you so much.
    Thank you, Mr. Chairman.
    Chairman McCain [presiding]. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman, and to all of you.
    A stable Afghanistan is desired, not just by our country, 
Pakistan, but apparently now China is stepping up in a much 
more overt way. So, there was an article in a recent Wall 
Street Journal talking about what China has been doing, and in 
discussions with us, also. Would you all share what you think 
about China's growing interest in the security of Afghanistan, 
what you see as the positives, what concerns you think are 
raised by their involvement?
    Ambassador Cunningham. I'd be glad to, Senator.
    I and a number of my colleagues in the administration have 
felt for some time that the Chinese had a positive role to play 
in Afghanistan, that their interests in Afghanistan and in the 
region were coincident with ours, in both the stability of the 
region and in stimulating economic activity and investment that 
they could make on their own. So, we have been in discussions 
with the Chinese government for some time about this, about how 
we could better work together and how China could be a more 
active and positive participant. And I think it's basically a 
good thing that they are now slowly moving into a more forward-
leaning posture, both politically and economically, because 
stability in that part of the world is in their interest, as 
well as it is in ours.
    Ambassador Crocker. I certainly would endorse Ambassador 
Cunningham's remarks. I would note just a couple of additional 
points.
    I am not a huge supporter of Chinese activism outside its 
borders, except maybe in this case, where there are, indeed, 
common threats. The Chinese are worried about radicalization of 
their Muslim population, primarily the Uyghurs, that can flow 
through Afghanistan and Pakistan. They have a very close 
relationship with Pakistan. I understand--I'm not sure how 
valid it is--that the Chinese are now beginning to use that 
relationship with Pakistan to get the Pakistanis to ensure that 
there is not infiltration from Afghanistan through Pakistan up 
into western China.
    The Chinese have substantial economic interests in 
Afghanistan, in the mineral sector. Ambassador Cunningham and I 
both have argued that, well, if they're reaping the benefits, 
they need to step up to help the state ensure security. I 
understand they are now looking at police training. I'm not 
sure that is the model I would uphold for the world's police 
forces, necessarily. But, to the extent it suggests that the 
Chinese are now engaged in trying to support a viable and 
stable Afghanistan, then I think it gives us something to work 
with.
    Senator Hirono. Thank you. And if--Admiral and Mr. Leiter, 
if you basically agree that this is a--this could lead to a 
fruitful kind of an approach to civility in Afghanistan, we--I 
can go on to my next question.
    So, all of you have said that our withdrawal--our drawdown 
in Afghanistan should be based on conditions rather than a 
calendar. So, my question is, you know, What kind of conditions 
do you--do we want in Afghanistan to enable us to draw down? 
And do we have an agreed-upon, articulated goals between us and 
the Afghans as to what should be--what kind of conditions would 
occur, should occur, from our end, from their end, to enable us 
to withdraw from Afghanistan?
    Ambassador Cunningham. Senator, I think the discussion 
about conditions and the timeline is something that not--is not 
only a matter for us, it's also a matter for--of discussions 
with the Afghans----
    Senator Hirono. Yes.
    Ambassador Cunningham.--themselves. And that----
    Senator Hirono. That is--that was my----
    Ambassador Cunningham.--that has been happening. It's been 
part of--a regular feature of the transition that's taking 
place over the past several years has been to do a--I don't 
know, every couple of months, an assessment of how the 
transition was evolving and what the status of the Afghan 
Security Forces was, as going forward. That's the kind of 
process that I think--not that I think--that will continue with 
the new Afghan government and the new leadership. And it's on 
the basis of that process and assessment of Afghan Security 
Force capabilities, what they can do and what they need and 
what kind of assistance they still require, that the timeline 
and the drawdown should be measured against.
    Senator Hirono. So, do the rest of you agree that it's 
basically the capability of the Afghan Security Forces to 
defend their own country that should be the primary basis on 
which we withdraw?
    Mr. Leiter. Senator, I think it's potentially the most 
important, but I would put right up there, as well, the 
potential for the Afghans not just to secure their own country, 
but target terrorist networks which have transnational 
aspirations. And this is something that I think is going to be 
as hard as anything else for the Afghans to develop and 
maintain, as compared to what we are used to after the past 14 
years. And we will be critical in both informing them as to the 
threats we see and also maintaining some of those high-end 
capabilities which have been so critical beyond securing Kabul 
and elsewhere into areas where the transnational threats have 
tended to hide over the past decade.
    Senator Hirono. Thank you, Mr. Chairman, for allowing me to 
go over my time.
    Chairman McCain. Senator Cotton.
    Senator Cotton. Thank you all again for your service to the 
country, which I know has been long and distinguished, and 
particularly in a tough and difficult place like Afghanistan 
and, more broadly, in the Middle East and Central Asia.
    I'd like to start out by asking a question about ongoing 
political developments in Afghanistan. Obviously, we have new 
partners at the senior levels of the government there. I--last 
month, I think the parliament confirmed about a third of the 
nominees for the new cabinet that President Ghani proposed. 
Could I get your quick perspective on the prospects for further 
confirmations so there would be a full working leadership at 
the senior levels of the Afghan government?
    Ambassador Cunningham. Senator, I know that President Ghani 
and Dr. Abdullah are quite focused on filling out--fleshing out 
the rest of the leadership positions in the government. I'm not 
directly involved in conversations with them, but I know that 
they are working hard to present both another list of 
candidates for positions, as well as doing the necessary work 
that needs to be done with the parliament, itself, to obtain 
confirmations of their ministers.
    It's to be expected that this is a difficult process. It's 
a unique arrangement that they now have, working together on 
the government and cooperating with each other as a 
collaborative effort in identifying people for positions, as 
well as trying to set the bar for capability higher than it may 
have been in some cases in the past. So, it's taking longer 
than anybody wants. It's certainly taking longer than either of 
them want or the Afghan people want. But, they're working hard 
at it, and I'm confident that they will succeed.
    Senator Cotton. Ambassador Crocker?
    Ambassador Crocker. Again, Senator, I look at this over a 
longer timeline, having been in Afghanistan shortly after the 
fall of the Taliban and seeing how little there was, including 
any real basis for political understandings among factions who 
had been on opposite sides of the fight in many cases. So, I 
perhaps see more progress than those who are looking at 
snapshots today.
    The fact that Dr. Ghani and Dr. Abdullah can sit down and 
thrash through a slate of ministerial nominees, to me is the 
important point, not that some of them ran into trouble with 
the parliament, not unexpectedly. And we're now going through, 
again, a second round, as Ambassador Cunningham said, as they 
try to get nominees identified, vetted. Financial disclosure 
statements do have their use, I can now acknowledge, no longer 
having to do them. But, this is a slow, painful process. But, 
it is a process that is working--frankly, far better than many 
would have expected.
    Senator Cotton. Does the Government of Afghanistan still--
the President still appoint the provincial and district 
governors? That was the case when I was there on Active Duty in 
2008 and 2009.
    Ambassador Cunningham. Yes, that's still the case.
    Senator Cotton. Have you seen the--have we seen the quality 
of local government services and responsiveness increase over 
what I saw in 2008-2009, when governors were understandably 
responsive to their constituency of one in Kabul, as opposed to 
the local population?
    Ambassador Cunningham. I'd say it's mixed bag. The 
provincial and district government works when there are good 
people there and when they both know how to work Kabul and they 
know how to cooperate with their security and other partners at 
the provincial and district level. And there are places where 
it still doesn't work very well. It's a high priority for both 
President Ghani and Dr. Abdullah to improve the operations of 
the Kabul/provincial/district relationship, both in terms of 
the people who are appointed and in terms of reforming how 
business is done. This is, again, one of the several reform 
items that's being delayed by the delay in setting up the new 
government. But, they and the people around them are aware of 
the problem. And one of Ghani's driving principles, which 
Abdullah has bought into quite completely, is, they need to 
have better people in government.
    Senator Cotton. Good.
    Ambassador Cunningham. Period.
    Senator Cotton. Good.
    If I could squeeze in one more question. Admiral Olson, 
could you give us your thoughts on the practical effect on our 
counterterrorism efforts if we follow one course of action, 
which is essentially to shut down every installation in 
Regional Command East and Bagram Airfield and retrench back to 
Kabul Airfield?
    Admiral Olson. Effective counterterrorism requires a rapid 
response capability. And I think withdrawing to a single 
location in central/south-central Afghanistan will reduce the 
capability to respond rapidly to emerging situations. And so, I 
think that there would be--it would have a detrimental effect.
    Senator Cotton. Thank you.
    Chairman McCain. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. I want to 
compliment you for the series of very thoughtful hearings that 
you've had early on in this Congress. It's been very, very 
helpful.
    Ambassador Crocker, I want to go to the subject of Syria. I 
understand that you support the training of the Syrian 
opposition and removal of Assad. Would you share with us your 
thoughts?
    Ambassador Crocker. Thank you, Senator.
    I certainly would like to see a trained, effective, well-
equipped, moderate Syrian opposition force that could replace 
Assad. However, I--admittedly some vast removed now from what's 
going on, I don't think that either are very likely.
    The Islamic radicals, be that al-Qaeda in Syria, the Nusra 
Front, or even worse, the Islamic state, clearly have the 
ascendancy in Syria now. I would be concerned that weapons be 
very, very tightly controlled, lest they wind up in the hands 
of these groups that clearly are our mortal enemies.
    I have also said, and I have said it for some time, I don't 
think President Assad is going anytime soon. I will spare this 
committee yet another history lesson, but this has its roots in 
the Hama rising in 1982, when Hafez al-Assad and his brother 
Rifaat slaughtered the Syrian Muslim Brotherhood and somewhere 
north of 15,000 Syrian Sunnis. You know, that is why you have a 
radicalized Sunni community in Syria. That is why you have a 
regime that was ready for a day of reckoning.
    You know, Assad should go. Okay. And what army is going to 
remove him? If you set a policy, you'd better have the means to 
carry it out.
    Thank you, Senator.
    Senator Nelson. Thank you.
    Mr. Leiter----
    And, by the way, thank all of you for your public service. 
It's extraordinary. And it's good to see you, Admiral, again.
    Mr. Leiter, you have expressed the concern that we 
exchanged the Taliban five for Bergdahl. You want to elaborate?
    Mr. Leiter. Senator, I was concerned. First, I think it--I 
hope that everyone who needed to be involved in that discussion 
about the potential consequences was. I was not in the 
administration, so I can't say it. But, I hope that there was a 
full conversation about the consequences.
    Second, there was much commentary as to whether the Qataris 
would, in fact, control these five. I think there's some 
reporting that at least one may not be under control. Frankly, 
I was less concerned with that question and more concerned with 
the timeline we put on the Qatari control of them, which I 
believe now--I apologize--I believe it was only 2 years, or 
potentially 3 years. It was not an extended period. And I 
thought that was problematic, because it starts to undermine--
again, I think, a phrase that Ambassador Crocker brought up, 
which I think is exactly right--that people in the region, our 
allies and our enemies, must understand that we will have deep 
engagement and strategic patience. And putting relatively short 
timelines on controls of people who really have been central to 
transnational threats, in my view, is deeply problematic and 
shows a lack of patience, which our adversaries absolutely love 
in the United States at times.
    Senator Nelson. Thank you.
    Chairman McCain. Senator Graham.
    Senator Graham. Let's continue the discussion. It's a good 
discussion.
    Do you think, if you were negotiating, you might have could 
have gotten the Taliban to take three instead of five?
    Mr. Leiter. Senator, I apologized. I understand the----
    Senator Graham. All--yeah----
    Mr. Leiter. I think----
    Senator Graham. My point is that they probably--what if we 
insisted they take five?
    On a scale of 1 to 10, what's the likelihood of these five 
going back to the fight at the end of the 1 year in Qatar, not 
3?
    Mr. Leiter. Senator, I actually--I tend to think the 
Qataris have been a reasonably good partner in some ways.
    Senator Graham. At the end of the year, these people can go 
anywhere they want to go.
    Mr. Leiter. I think, in some foreseeable amount of time, 
where we still have very important strategic interests in the 
region, they will be back in the fight.
    Senator Graham. Is that within a year of when they can go 
back?
    Mr. Leiter. I think we have strategic interests within the 
region for far more than a year.
    Senator Graham. Yeah.
    Mr. Leiter. So, anything even beyond a year----
    Senator Graham. Right.
    Mr. Leiter.--I'm still worried about.
    Senator Graham. I couldn't agree with you more.
    To the Ambassadors, we don't have a medal for dealing with 
Karzai, but we should create one. I don't know where it would 
fit into the scheme of medals, but, to all of you who have had 
to deal with this problem in Afghanistan all these years, God 
bless you. And I think each one of you, in your own way, did a 
terrific job.
    What happens, Ambassador Cunningham, if--well, what would 
be losing in Afghanistan, very briefly? If you and Ambassador 
Crocker could take a shot at describing, in a--just a little 
bit of time, what losing would be, in your mind.
    Ambassador Cunningham. In my mind, losing is the collapse 
or incapacity of the Afghan state and the ability of the 
Afghans to control security for most of the country, which 
leads to Afghanistan again becoming a place where people whose 
interests are hostile to ours return and begin to operate 
again. That's what affects our interests. There are many other 
negative implications of that, including for other countries in 
the region and Pakistan. But, that's the main feature of loss.
    Senator Graham. What about you, Ambassador Crocker?
    Ambassador Crocker. I would fully endorse that. We--
Senator, as you know, we've seen this movie before, in the 
early 1990s, up through September 11. We have enemies that 
would, I am convinced, like to bring us another September 11. 
And if they can get strategic space and depth, they will go to 
work planning it. They may already be doing so, in the form of 
the Islamic state that now doesn't have to worry about day-to-
day survival in large swaths of Syria and Iraq.
    Senator Graham. So----
    Ambassador Crocker. They and al-Qaeda would love to have 
Afghanistan back.
    Senator Graham. So----
    Ambassador Crocker. We've seen what happens when they got 
it.
    Senator Graham. Sure. So, let's talk about how to prevent 
that. A counterterrorism platform in Afghanistan would probably 
be in our National security interest, to make sure they don't 
regenerate. Does that make sense to both of you, all of you? 
Yeah. A robust counterterrorism program.
    Supporting the Afghan Security Forces to make sure they 
don't fail makes sense, in terms of preventing the outcome you 
both described? We're going to have to pay for their army, at 
least in part, for a long time to come, because of their budget 
problems. Do you all agree with that? Okay.
    What's the likelihood of losing if we stick with the 
current plan, which is to go down to 1,000 United States 
soldiers, Kabul-centric, in a security cooperation agreement 
environment? What's the likelihood of us losing if we follow 
that plan, versus, say, keeping a force of around 10,000, based 
on conditions-on-the-ground withdrawal? Could you start, from 
Ambassador Cunningham, and go through the whole panel and give 
me your evaluation?
    Ambassador Cunningham. Senator, I've--as I've said, I think 
the current projected timeline for the withdrawal and for the--
the timeline for withdrawal and the rate of withdrawal is--
under current circumstances, isn't the way to maximize the 
prospects for success. I don't know at what point mission 
failure kicks in.
    But, there are two elements, as you've said and others have 
noted, that need to be maintained. And they're related, but 
they're different and have different functions. One is the 
train, advise, and assist, which goes to ensuring that the 
Afghan Security Forces remain capable of securing the country 
and the Afghan people. And the second is the counterterrorism 
mission, which also has an intelligence component, as well as a 
military component. Both of those need to be effective until 
such time as the Afghans are capable of doing more and more on 
their own. And they are.
    So, there will be--there will be periods when it is safe to 
further withdraw U.S. support and resources and soldiers. 
American forces are basically--they're not doing combat 
operations now in Afghanistan. They haven't, for a while. 
Mostly, they are doing counterterrorism and force protection, 
and the train, advise, and assist, and occasionally helping the 
Afghans, themselves. But, it's a question of----
    Senator Graham. But, we're doing unilateral 
counterterrorism operations today.
    Ambassador Cunningham. Yes. But, the Afghans are also 
increasingly developing----
    Senator Graham. So, that's----
    Ambassador Cunningham.--their own capability to do that. 
And many of their operations are supported by us, but conducted 
by them.
    Senator Graham. Absolutely.
    Ambassador Cunningham. So, that's the balance that needs to 
be maintained in a way that is--provides the effect that needs 
to be provided.
    Senator Graham. I'm sorry, I'm over my time. Does--do the 
rest of you generally agree with that statement? Anything you 
would like to add? Okay.
    Thank you all.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman. I want to join 
in thanking you for this series of very thoughtful hearings, 
which have been, I think, a great advantage to us in drawing a 
perspective for the rest of the congressional session and the 
tasks that we have ahead.
    And thank you, to our panel, each of you, for your 
extraordinary, distinguished, and lengthy service to our 
Nation, and, in particular, to Ambassadors Cunningham and 
Crocker for your hospitality and graciousness to me on my 
trips, which I was privileged to do three times, two of them 
with our Chairman, and for your insight and information, then 
and now.
    I think that one of the points that is most important for 
us and the American people to understand is how inextricably 
bound, as you've said--I think, all of you, but, most recently, 
Ambassador Crocker--Afghanistan and Pakistan are in their 
futures, their pasts, and their fates come. And I know that one 
of my areas of interest, on my trips and since then, has been 
the flow of bombmaking materials from Pakistan into 
Afghanistan, and the manufacturing of those fertilizers and 
other bombmaking materials in Pakistan, which has been to their 
sorrow and destruction as well as our troops and the people of 
Afghanistan. So, I wonder, Ambassador Cunningham and Ambassador 
Crocker, whether you can give us some idea of what's happening 
on the ground. Has that problem been successfully addressed in 
Pakistan, or even measurably addressed?
    Ambassador Cunningham. To my knowledge, Senator, there 
hasn't been any major progress in dealing with that particular 
phenomenon up to this point, but there may be an opportunity 
for doing so, now that the Pakistanis are embarked on a--their 
own campaign to address the extremists that are operating in 
northern Pakistan, and also to get them engaged in a--in more 
practical cooperation. But, as I said, for a--at least as far 
as I know, there hasn't been any major progress in that area, 
so far.
    Senator Blumenthal. Because, in a certain way, for me at 
least, apart from its very practical destructive effects on 
both sides of that border, it's also been a barometer of 
whether the Pakistanis really are serious about combating 
extremists and terrorists, in their own country, that do such 
ravaging harm to their own people.
    Admiral Olson, I wonder if there are, broadly, lessons that 
we've learned from our very successful special operations in 
Afghanistan that we could apply now to the fight against ISIS 
and the state that, as you or others have said, now occupy such 
large swaths of land in Iraq and Syria.
    Admiral Olson. Thank you, Senator.
    Certainly, there are some. I think the lessons we've 
learned about locating and tracking our adversaries, about 
precision strikes on them when we do have that sort of 
opportunity, the lessons we've learned about developing 
counterpart counterterrorist forces and working with our allies 
who have capable forces, all may apply at some level in the 
fight against the Islamic state.
    Senator Blumenthal. Is there the possibility of doing in 
Iraq, do you think, what apparently is ongoing fairly 
successfully in Afghanistan in having special operators trained 
and then operating with the advice of American special 
operators?
    Admiral Olson. You mean Iraqi special operators operating 
with the advice of Americans?
    Senator Blumenthal. Correct.
    Admiral Olson. Yes, sir. We've been there before, and it--
several years ago, I would have told you that the Iraqi Special 
Operations Forces were really quite capable and were performing 
complex operations at a very high level.
    Senator Blumenthal. And that's not so now.
    Admiral Olson. I'm not there now, so I don't have firsthand 
knowledge. I--if it doesn't exist, I do believe that, at some 
level, it could be regenerated.
    Senator Blumenthal. Thank you.
    My time is expired. Thank you, Mr. Chairman.
    Chairman McCain. Senator King.
    Senator King. Mr. Chairman, I appreciate the opportunity.
    Gentlemen, thank you for your testimony. I apologize, I had 
to attend another hearing. I suspect that all the questions 
have been asked and answered.
    I heard your opening statements, to the effect that it 
would be a grave mistake to withdraw from Afghanistan on an 
arbitrary timeframe not based upon conditions on the ground, 
that we would lose the benefits, the progress that's been made 
in that country, and, at a modest additional investment, we 
could achieve significant long-term success. And I would just 
like to ask each of you to confirm. Is that an accurate 
statement of your position?
    Ambassador Cunningham. Yes, Senator, it's an accurate 
description of what, I think in my statement, I called--I 
called our continuing presence an insurance policy, at 
relatively--it's--it will still cost, but at relatively low 
cost, compared to the effort that we've made. And I think it's 
one that we need to continue to make.
    Senator King. I like the ``insurance policy'' image. Mine 
is, ``Let's not fumble the ball on the 5 yardline.''
    Ambassador Crocker?
    Ambassador Crocker. That's--Senator, that was an excellent 
summary. It reflects exactly what I believe. I, too, have used 
the term ``insurance policy.'' You know, I think a--``let's not 
fumble'' and ``let's not throw an interception'' are just as 
good.
    Senator King. Thank you.
    Admiral?
    Admiral Olson. Senator, I believe that continuous 
evaluation of the status and conditions on the ground is 
essential to making the right decisions. And I also believe 
that, once those decisions are made, we ought to hold them a 
little more closely to our vest.
    Senator King. I would agree with that. And it seems to me 
that the length of time it took to get through the Afghan 
elections and the long period between the elections and the 
installation of the President and Chief Executive give us a 
readymade, perfectly defensible reason and rationale to extend 
the clock, if you will. And I think that's just part of the 
reality that we face there. Plus, we have--for the first time 
in, I don't know, living memory, have a real partner that we 
can work with who has a chance to make Afghanistan work. And to 
pull the support out that they need at this moment would be 
ironic and tragic, in my opinion.
    Mr. Leiter. Senator, I think you captured my position well. 
And I would just say, historically, although not perfect 
analogies, we've seen this before. We have done it well after 
World War II. We did it well after Korea. We made investments 
to remain in those places where we were victorious to support a 
long-term transition to other capabilities and security.
    Senator King. Thank you.
    Thank you, Mr. Chair.
    Chairman McCain. Ambassador Crocker, I'd like to ask one 
additional question. Just this morning, I received a copy of 
the administration's proposal on the AUMF, and the title of it 
is ``Authorization for Use of Military Forces Against the 
Islamic State of Iraq and the Levant.'' Now, we are presently 
setting up training for--in Saudi Arabia and other places, to 
train and equip the Free Syrian Army to fight against Bashar 
Assad. Have you got a view that this resolution makes no 
mention whatsoever of Bashar Assad, who has slaughtered well 
over 200,000 people? You know the statistics. Does--do you have 
a view on that aspect of this request? And could it possibly 
mean that we are not going to use any force to stymie Bashar 
Assad's behavior?
    Ambassador Crocker. It would seem to me, Mr. Chairman, that 
implicit in an effort to train and equip a moderate Syrian 
opposition is that that opposition will go into a fight against 
the forces of Bashar al-Assad, as well as, if they can handle 
it, also to blunt the expansion of gains by the Nusra Front and 
the Islamic state. Whether they're going to be able to do that 
or not is another matter. But, certainly the effort is worth 
making, as long as, as I said earlier, we can have reasonable 
assurance that, when we get to the equip part of training 
Syrian opposition, that that equipment will not wind up in the 
hands of either the regime or forces that are our avowed enemy.
    Chairman McCain. But, does it strike you that there is no 
mention of Bashar Assad or an authorization to do anything in 
opposition of Bashar Assad? In other words, isn't it 
conspicuous, by its absent in the title of this authorization?
    Ambassador Crocker. As I said in my earlier comment, if 
you're going to have a policy, and you're going to articulate a 
policy publicly, you'd better be sure you have the means to 
carry it out. I think we articulated a policy, back in 2011, 
that was based on a misreading of reality in Syria. Where we 
will go--where the administration----
    Chairman McCain. In other words, we articulated we were 
going to get rid of Bashar Assad.
    Ambassador Crocker. Without having the means to do it, and 
without----
    Chairman McCain. Yes.
    Ambassador Crocker.--understanding that he was not Mubarak, 
he was not Qaddafi, he was not bin Ali of Tunisia. He was an 
Assad of Syria with a entirely different lineage and a ruthless 
commitment to the endurance of his regime.
    Chairman McCain. And with assistance from the Iranians, of 
5,000 Hezbollah, arms supplies, equipment from Russia and from 
Tehran, which then swung the momentum on his side.
    Ambassador Cunningham, do you have a view on this?
    Ambassador Cunningham. I have a personal view that's not 
informed by any particular knowledge. But, I agree with 
Ambassador Crocker, that we need a clear understanding of what 
the realistic possibilities are and what the means are to carry 
it out. And it doesn't seem very likely, to me, that a moderate 
and effective Syrian fighting force is going to be able to be 
constituted quickly or easily. But, if it is, it's also going 
to require outside support, which doesn't necessarily have to 
be just American; it probably--may not desirably be American. 
But, they will--one of the things that we need to do in that 
region, I think, is also broaden the effectiveness of the 
coalition and the others who are participating in this. And, to 
do that, you need clear goals and objectives.
    Chairman McCain. Ambassador Olson or Mr. Leiter, do you 
have a comment?
    Mr. Leiter. Senator, not specific to Bashar al-Assad, but I 
know, with several of the colleagues here at the table, I sat 
through too many meetings in the White House Situation Room 
discussing whether or not a terrorist group fit under a very 
precise definition within an authorization of force. Frankly, I 
thought some of that time could have been put to better use.
    I understand the risk of having an overly broad 
authorization, but I think any authorization limited to a 
single group or a single name runs a real risk of not keeping 
up with time as a terrorist threat morphs.
    Admiral Olson. Sir, I would agree with Mr. Leiter, as well 
as the Ambassadors. I think that, in general, the AUMF 
authorizations ought to be more generally written. We did spend 
much too much time parsing who fit within specific 
authorizations, which delayed the decision to take some sort of 
action--in some cases, costing us an opportunity.
    Chairman McCain. Do you agree with that on the overall 
authorization, Ambassador?
    Ambassador Crocker. I certainly do. The broader they can be 
written to allow their application to emerging threats without 
having to drag through the whole process again, I think is very 
important.
    I would like to make one other point, Mr. Chairman, on 
behalf of my former profession, the Foreign Service. I do 
believe, and I have said so on a number of occasions, that 
there was a period after 2011 in which, if we had chosen to 
send in, not boots on the ground, but wingtips and pumps on the 
ground, in the person of language-proficient, area-familiar 
Foreign Service officers, we could have done, at that time, 
under conditions of reasonable security, working with the Turks 
and others, to make on-the-ground liaison with the non-Islamic 
opposition, to evaluate them, to influence them, to assess 
them, and to make cogent recommendations back to Washington. I 
think of all the gaps that we may have in our Syria strategy, 
not deploying Foreign Service officers into an admittedly risky 
environment, but a manageable environment at that time, may be 
our most egregious.
    Chairman McCain. Senator Reed.
    Senator Reed. Are there going to be any more questions or 
is this----
    Chairman McCain. No.
    Senator Reed. I just--I want to follow up with one 
question, the Chairman's very thoughtful discussion about the 
issue of the Authorized Use of Millitary Forces (AUMF), Islamic 
State of Iraq and the Levant (ISIL), and Syria. Ambassador 
Crocker and Ambassador Cunningham, do you feel that ISIL is an 
imminent threat to the United States, in terms of what they 
could do or what they might be planning to do?
    Ambassador Cunningham. One of the principals that I've 
brought to this kind of work, and especially dealing with 
groups like that, is that, when they say they're going to do 
something, you ought to think that they're serious about it. In 
the case of ISIL, they've demonstrated that they'll do what 
they say they're going to do.
    Whether the threat is imminent, or not, I don't know. I 
don't have access to intelligence. But, there's no doubt in my 
mind that, over the long term, if they succeed in establishing 
themselves, that they will both seek to expand to other parts 
of the world, which they've said they will do, and they will 
seek to take on us and our European allies directly--or, not 
just the Europeans--others who are engaged against them.
    I know it's difficult. I've been asked by my friends, ``Why 
don't we just go away and leave them alone, let them fight it 
out? Why make this our fight?'' I firmly believe we don't have 
that option. We can decide not to do anything about it. That's 
a policy choice. And you--we should have that debate. The 
American people should understand what the choices are and what 
the options are, and also what the likely outcomes are going to 
be. But, we don't have the option of saying, ``The problem 
doesn't exist.'' We can say, ``We're not going to deal with 
it,'' and then we can absorb the consequences of that later on, 
sometime--who knows how long. But, there will be consequences.
    Senator Reed. Would you say the same thing about imminent 
threat with respect to the Assad government, given their 
history, given the experience that you've both had dealing with 
them?
    Ambassador Cunningham. I have had not very much experience 
dealing with the Assad government, but my guess would be that 
there--a line has been crossed in the region that is not going 
to be easy to repair soon or if ever. And that will also have 
consequences for our interests in the region. Negative 
consequences.
    Senator Reed. Ambassador Crocker, your comments on both, 
sort of, the potential threats.
    Ambassador Crocker. On the Islamic state, ISIS, ISIL, I 
believe there is an imminent threat. I just saw the news report 
this morning. I believe it was an NCTC estimate of 20,000 
foreign fighters in ISIS ranks. A number of those--I think the 
report I saw said 150--are American passport holders. Several 
thousand others hold Western European passports. They don't 
need visas. If they're not on a watch list, they just get on a 
plane and they're here. That is an advantage al-Qaeda didn't 
have. So, I know our security agencies are hard at work at 
this, as they should be, but I think that danger is very, very 
imminent.
    I have had long experience--too long--with the Assad 
regime, either as the recipient of their favors in Lebanon over 
a 6-year period or in Damascus as Ambassador. Father and son, 
it is an evil regime. And that evil could not be more manifest 
than it is in the recent fighting with the barrel bombs, 
deliberate attacks on civilians, over and over and over again.
    Do they constitute a direct threat to American security? At 
one point, they did. There was a Syrian hand behind the marine 
barracks bombing of 1983 and, 6 months earlier, the American 
embassy bombing. I was in it. The Syrian regime was tied to an 
effort to blow up an El Al plane out of the United Kingdom in 
the mid-1980s. We withdrew our Ambassador over that.
    Are they still in that business? Certainly not now. Have 
they been in that business? Not directly or, I think, even 
indirectly, for some time. Might they go back to it? As 
Ambassador Cunningham said, the region, for better or worse, is 
never going to be the same again after what is happening in 
Syria. And, while the Assad regime may endure in some form or 
another, I don't think they're going to have the luxury to plan 
outside operations anytime in the foreseeable future. That 
doesn't mean you don't watch them.
    Senator Reed. Right. Okay.
    Ambassador Crocker. But, I would put them pretty far down 
on the threat list.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Would you also agree that it's accurate to 
depict Bashar Assad as the father of ISIS?
    Ambassador Crocker. You drag me back into history, Mr. 
Chairman.
    [Laughter.]
    I would say that the father of Bashar al-Assad, Hafez, is 
the father of ISIS, or was the father of ISIS. What he did to 
the Sunni population of Hama in 1982 is something no American 
really remembers and no Syrian will ever forget.
    Chairman McCain. And also, isn't there a principle about 
the requirement to protect, when people are being slaughtered--
in this case, well over 200,000--150,000 in his prison, 
millions of refugees that are destabilizing Lebanon, as well as 
other countries in the region? I don't think there's--if you 
ask the King of Jordan, I think he would say, absolutely, that 
they have posed a threat to the stability of his country 
because of Bashar Assad's actions. And also for--whether he's 
right or wrong, or not, the President of Turkey views Bashar 
Assad as a greater threat than ISIL.
    So, my point is, to make no mention in this authorization 
whatsoever of Bashar Assad, and, at the same time, training 
young Americans to go in and--young Syrians to go in and fight 
him is a contradiction and, in a way, immoral, if we're going 
to subject them to being barrel bombed by Bashar Assad. And 
that--the point that I was trying to make, here. And if were 
Bashar Assad today, and I looked at this resolution, which says 
only ISIL, I think I'd be pretty pleased this morning.
    I thank the witnesses----
    Senator Cotton. Mr. Chairman?
    Chairman McCain. Senator Cotton.
    Senator Cotton. I'd like to ask a specific point about this 
draft use-of-force resolution, that goes to the broader point 
we've been discussing about deadline-driven operations.
    The resolution also has a 3-year expiration date on it. Are 
any of you aware of past use-of-force resolutions or 
declarations of war, going back to the start of our country's 
history, that had an explicit expiration date?
    Ambassador Crocker. Senator, I am not--flipping through my 
depleted memory banks in 30 seconds, cannot be considered the 
definitive statement on that subject. But, I would just offer 
the opinion--and I have not seen the draft authorization. It 
goes back to our earlier conversation about calendar- versus 
condition-based timelines. I--you know, in the world that I 
have spent so much of my life in, it's all about conditions, 
it's not about calendars. You all know the hackneyed mantra 
attributed to the Taliban, ``You Americans may have the 
watches, we have the time.'' Calendars work for our adversaries 
more than they work for us. And again, I haven't seen the 
language of the authorization, so I can't comment on it. In the 
world that is the Middle East, having arbitrary timelines 
generally does not serve U.S. interests.
    Senator Cotton. And can you--you've all said that you take 
the view that, in Afghanistan, we're sending the wrong message 
by having a deadline-driven policy rather than a conditions-
driven policy. Would you agree with Ambassador Crocker's 
statements that, more broadly, if we have deadline-driven 
policies, if we pass resolutions authorizing the use of force 
with explicit authorization dates, we're sending the same 
signal to different adversaries all around the world?
    Ambassador Cunningham. I think the issue is what--the issue 
will be, What is the rationale behind having the deadline? 
Again, I don't know if there's been any precedent for that, or 
not. There may be. I don't remember what the Patriot Act said, 
for instance. I remember it was repeatedly debated and updated 
over the years.
    If the purpose of this is to signal that that's only as 
long as we're willing to make the effort, then I think that's 
the wrong signal, because I think we're--as I said earlier, 
before you came, Senator, this whole complex of issues, I 
believe to be a generational challenge that we will be dealing 
with for a long time. And we need to get smarter at dealing 
with them.
    But, if the purpose is to signal the importance of 
maintaining political control in updating the provisions of the 
use of force--and there will be a debate about that in the 
Congress, I know--then that is--I think that's entirely 
appropriate.
    Chairman McCain. We can't close the hearing without an 
Independent question.
    Senator King. You mentioned that you hadn't seen the 
authorization. I think it's important, in light of Senator 
Cotton's questions that--it says, ``This authorization shall 
terminate 3 years after the date of the enactment of this joint 
resolution, unless reauthorized.'' In my view, this document is 
trying to strike a balance between presidential authority and 
congressional authority in the area of, particularly, 
warmaking. And so, it's not--if it didn't say ``unless we--
reauthorized,'' I think your point would lie. But, I think the 
fact that it leaves it within the discretion of Congress to 
determine, in 3 years, whether it's in the National interest to 
continue this legal authority of the President--I mean, I find 
it somewhat ironic that we're all--you know, I'm the one 
talking about asserting congressional and constitutional 
authority, because I think there is a question, here. If it's 
entirely open-ended, in terms of time, in terms of enemy, in 
terms of geography, then we've written the war power out of the 
Constitution, as far as I'm concerned, and the Congress has no 
role.
    The question that we're going to be wrestling with, Mr. 
Chair--and I think it's going to be a vigorous debate--will be, 
Where's the balance between the Commander in Chief and the 
power to declare war? The framers clearly believed that there 
was--the President did not have the unfettered power to commit 
the Nation to war. They talked about it at the convention and 
in the Federalist Papers. So, I think that's the--that's the 
debate that we have to engage in.
    And I haven't yet taken a position on this document. I 
probably won't, for some time. But, I understand--I think it's 
important that the Presidents come to us and ask for an 
authorization. And it's now up to us to determine what the 
nature of that authorization should be.
    Thank you, Mr. Chairman.
    Chairman McCain. Is a question in there somewhere?
    [Laughter.]
    Senator King. I'm sure the Chairman can find one, Senator. 
Thank you.
    [Laughter.]
    Chairman McCain. Could I say, this has been extremely 
helpful.
    I thank these great and outstanding Americans, who have 
devoted their mature lives in service of the country. And I'm 
honored and humbled to be in your presence.
    This hearing is adjourned.
    [Whereupon, at 11:59 a.m., the committee adjourned.]









                      THE SITUATION IN AFGHANISTAN

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Graham, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The committee meets today to 
receive testimony on Afghanistan.
    I want to thank General Campbell, the Commander of the 
Resolute Support Mission in United States Forces-Afghanistan, 
for appearing before us today about security conditions on the 
ground, the development of the Afghan National Security Forces 
(ANSF), and the way forward.
    General, we've been blessed by a series of great military 
leaders of our forces and allied forces in Afghanistan, and you 
are a worthy successor to those outstanding leaders, in my 
view.
    According to a recent media report, the troop drawdown in 
Afghanistan is now, ``under White House review.'' But, as the 
White House deliberates, the current plan is set to reduce the 
number of United States troops in Afghanistan to about 5,500, 
beginning in the middle of this year's fighting season. The 
plan was first announced by President Obama in May 2014, before 
it was known that the Afghan presidential transition would 
require almost 6 months to conclude, before the appearance of 
the Islamic State of Iraq and Syria (ISIS) on the Afghan 
battlefield, and before Pakistan military operations sent 
200,000 refugees from North Waziristan into Afghanistan. These 
unforeseen circumstances illustrate the major liabilities of a 
calendar-based approach, and highlight the need for a 
conditions-based approach.
    Like our national military strategy written in 2012, 
President Obama's calendar-based troop drawdown planned for 
Afghanistan no longer accurately reflects the facts and 
conditions on the ground. Like the President's policy against 
Islamic State of Iraq and the Levant (ISIL), the President's 
Afghanistan policy wreaks of strategic disconnect, providing a 
list of goals or preferences, but precluding the means 
necessary to achieve them. Perhaps it is time for the President 
to exercise strategic patience, not in the sense that he has 
used the phrase, but as our witnesses yesterday unanimously 
agreed. Former United States Ambassador to Afghanistan, James 
Cunningham, having just served in Kabul, and left in December, 
said, ``I think that, under the circumstances, the timeline is 
probably too short and the rate of withdrawal is too steep.''
    Former Ambassador to both Iraq and Afghanistan, Ryan 
Crocker, said, ``I hope we will take the right decisions on 
force levels, going forward, based on conditions, not on 
calendars.''
    Former Commander of Special Operations Command and the 
first Navy SEAL to achieve the rank of four stars, Admiral Eric 
Olson, said, ``Actual war is too dynamic to accommodate fixed 
models, so I would urge strategic and operational flexibility 
as we move forward in Afghanistan. At a force size of 5,500, 
our presence in Afghanistan will essentially be reduced to 
Kabul. Presently, in only one location, one that retreats from 
the north, east and south of Afghanistan, we'll relinquish 
Mazar-e Sharif to the drug runners, yield Herat to Iranian 
influence, and abandon Kandahar to the Taliban. The lack of 
presence creates a vacuum, and we've seen what fills that 
vacuum in Syria and Iraq. The ungoverned spaces will allow 
terrorists to foment the same disaster in Afghanistan as we 
have seen in Iraq: growing instability, terrorist safe havens, 
and direct threats to the United States.''
    I think our former national counterterrorism director, 
Michael Leiter, put it into perspective how we should look at 
Afghanistan. I quote, ``Should the American people think this 
is hopeless? The last 13 years have shown us that the 
counterterrorism (CT) fight and protecting the homeland in this 
region is not hopeless. We've been very successful at stopping 
attacks from the region. I would flip it around: From a 
homeland security perspective, I think it is close to hopeless 
to think that we can have that same success without some 
ongoing presence in the region.''
    Reducing to a ``normal embassy presence'' at the end of 
2016, and announcing it to the enemy, gives terrorists 
breathing room to plot against the West. As Ambassador Crocker 
put it, ``By fixing a date to draw down to a certain number, 
and then to draw down to, basically, an office and an embassy, 
simply tells our adversaries how long they have to hold out 
before they have the field to themselves.'' By the way, I know 
of no man more respected than Ambassador Ryan Crocker. ``If 
we've learned anything from Iraq, it should be that wars do not 
end just because politicians say so. We cannot let the Taliban, 
al-Qaeda, and ISIS conquer Afghanistan. Failure in this manner 
would destabilize the region, especially by undermining the 
security of a nuclear-armed Pakistan.''
    I want to thank General Campbell for testifying today. I 
thank him for his leadership. I look forward to hearing his 
assessment of conditions on the ground, development of Afghan 
forces, and the plan for the way forward.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Let me 
join you in welcoming General Campbell.
    Thank you, General, for your service to the Nation, 
beginning in the 504th and continuing today.
    General Campbell, since you took command of the United 
States Forces in Afghanistan last August, Afghanistan has 
entered what Ambassador Cunningham yesterday called ``a pivotal 
period.'' The emergence of a National Unity Government under 
President Mohammad Ashraf Ghani and Chief Executive Officer 
(CEO) Abdullah Abdullah has had an immediate impact on security 
in Afghanistan with the signing of the Bilateral Security 
Agreement (BSA) and the North Atlantic Treaty Organization 
(NATO) Status of Forces Agreement.
    In a recent public opinion survey, two-thirds of the 
Afghans polled want United States and coalition troops to stay 
to train the Afghan Security Forces. Your challenge is to 
successfully lead the United States and coalition effort to 
train, advise, and assist (TAA) Afghan Security Forces and 
conduct counterterrorism operations even as United States and 
coalition forces have drawn down to post-combat levels in 
Afghanistan. We would be interested in your assessment whether 
you currently have the forces you feel you need to carry out 
these two missions.
    We are also seeking your best military judgment this 
morning on what further reductions, if any, you would recommend 
for United States forces in Afghanistan, and under what 
condition. At yesterday's hearing, referring again to 
Ambassador Crocker, he warns that the consequences of 
disengagement can be as great or greater than the consequences 
of engagement, our intervention in the first place. I share the 
concern of many on this committee that any future reductions in 
United States force levels in Afghanistan should be based on 
the security conditions at the time of the proposed reductions, 
taking into account the capabilities of the Afghan Security 
Forces and the status of the counterterrorism fight.
    We would also be interested in your views on the full range 
of challenges you face, including the progress of the Afghan 
Security Forces in building key enablers, such as logistics, 
special operations forces, intelligence, and airlift, the 
Afghanistan/Pakistan security relationship, including border 
coordination and counterterrorism efforts, and the reports of a 
growing ISIS presence in Afghanistan.
    Again, thank you, sir, for your service to the Nation.
    Chairman McCain. General Campbell.

  STATEMENT OF GEN JOHN F. CAMPBELL, USA, COMMANDER, RESOLUTE 
      SUPPORT MISSION, COMMANDER, U.S. FORCES-AFGHANISTAN

    General Campbell. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, thank you very much for 
the opportunity to appear before you today.
    I'm honored to lead and represent the service men and women 
of the United States Forces-Afghanistan.
    I'd like to begin by thanking the committee for your 
steadfast support of our soldiers, our sailors, our airmen, our 
marines, and our civilians. Due to your leadership and your 
commitment, they're the best-trained and best-equipped force 
our Nation has ever deployed. Their outstanding performance 
bears testimony to your backing and the backing of the American 
people.
    I'd like to pay tribute to our military families, who are 
the unsung heroes of the last 13-plus years of conflict. In 
many ways, our frequent absences from home are harder on them 
than on us. Without their love, strength, and support, we 
couldn't succeed.
    I'd also like to recognize the over-2,200 service men and 
women who have been killed in action in Afghanistan, and the 
over 20,000-plus who have been wounded. Each day, we strive to 
bring meaning to their sacrifices. We honor their memories and 
their loved ones by continuing to build a secure and stable 
Afghanistan, and by protecting our own Homeland.
    Over 13 years have passed since the September 11 attacks, 
and we haven't forgotten why we first came to Afghanistan, and 
why we remain. Since 2001, the extraordinary efforts and 
courage of our forces have ensured that another terrorist 
attack originating from Afghanistan and directed against the 
United States Homeland has not occurred.
    It's been 7 months since I appeared before this committee, 
and much has changed since then. Afghanistan, the region, the 
enemy, and our coalition have undergone tremendous transitions. 
Most of these have been extraordinarily positive for us. I'd 
like to emphasize a few of these today in order to place our 
current campaign in context and to reaffirm that the conditions 
exist for us to achieve our strategic objectives.
    In September, Afghanistan completed the first peaceful 
democratic transition in history. Although prolonged, this 
transition was still a monumental achievement. It represented 
the Afghans' commitment to a democratic, open society. The 
difference between a new National Unity Government and its 
predecessor is night and day. President Ghani and CEO Abdullah 
have embraced the international community, our coalition, and 
the Afghan Security Forces. Our partnership is strong. We now 
have a ratified Bilateral Security Agreement and a NATO Status 
of Forces Agreement, which grant us the necessary authorities 
to continue our mission.
    Dynamics within the region continue to evolve, as well. 
President Ghani has made regional engagement a top priority in 
order to address the shared security and economic interests for 
his country. Nowhere is this more evident than in the Pakistan-
Afghan relationship. The Pakistan Taliban's murderous attack in 
Peshawar on 16 December may prove to be their September 11 and 
a gamechanger for our future. Senior Pakistani officials 
recognize that they can no longer make the distinction between 
good and bad terrorists. In the wake of this tragedy, the blame 
game between both countries has stopped.
    I've witnessed, firsthand, substantive changes in the 
interactions between the Afghan and Pakistan military 
leadership in just the last couple of months. They're now 
talking. Positive exchanges between corps commanders recently 
occurred in Kandahar and Jalalabad. Last week, six Afghan army 
cadets are now attending the Pakistan military academy. This 
wasn't happening before.
    We're doing everything we can to promote their closer 
cooperation, particularly to address extremist sanctuaries on 
both sides of the border. While we must temper our 
expectations, I remain optimistic that both countries are 
working towards a more productive relationship.
    The enemy remains in a state of flux, too. The Taliban 
failed to achieve any of their stated objectives in 2014. 
Constantly pressured by the ANSF, suffering from dissension 
within their own ranks, and lacking popular support, they 
turned to high-profile terrorist attacks, particularly against 
soft targets inside of Kabul. In their desperate attempt to 
remain relevant, they're failing to win over the Afghan 
population. They're killing innocent civilians and their fellow 
Afghans, and it's now time for them to lay down their arms and 
heed President Ghani's call to rebuild an Afghan nation.
    The possible rise of Daesh, or ISIL, is also a new 
development. Thus far, we believe that the nascent Daesh 
presence in Afghanistan represents more of a rebranding of a 
few marginalized Taliban, but we're still taking this potential 
threat, with its dangerous rhetoric and ideology, very 
seriously. We're working closely with the ANSF to evaluate and 
understand the dynamic nature of this fledgling network.
    The potential emergence of Daesh represents an additional 
opportunity to bring the Afghans and the Pakistanis together to 
confront this common threat, and we will continue to engage 
with leaders from both countries on ways we can collaborate to 
meet this challenge. We're all driven to prevent Daesh from 
establishing a meaningful foothold in Central Asia.
    United States Forces-Afghanistan and our coalition have 
undergone tremendous changes, as well, since I assumed command. 
On January 1, 2015, United States Forces-Afghanistan formally 
ended its combat mission, Operation Enduring Freedom, and we 
commenced with our new mission, Operation Freedom Sentinel. 
We've also ended all detainee operations. Simultaneously, 
troops from over 40 nations, which comprise the new NATO 
mission, Resolute Support, began executing their TAA mission in 
order to build the capabilities and long-term sustainability of 
the ANSF.
    On January 1, 2015, the ANSF also assumed full security 
responsibilities. They're ready, and it's time. In their second 
fighting season in the lead, the ANSF were challenged and 
tested, but they held their own against a determined enemy. On 
the battlefield, the ANSF fought tenaciously and demonstrated 
their increasing capabilities. Today, the Government of the 
Islamic Republic of Afghanistan remains firmly in control of 34 
potential capitals and all of its major cities. The ANSF 
successfully protected 8 million Afghans who courageously 
defied insurgent intimidation and voted in two rounds of 
elections. The ANSF's professionalism and their nonpartisanship 
enabled them to remain cohesive in the face of an extended 
political impasse after the elections. All portions of the 
Afghan Security Forces continue to respect and obey Afghan 
authority.
    The ANSF Special Forces, in particular, have proven to be 
the most proficient in the entire region. They're consistently 
executing unilateral direct-action missions against insurgent 
leaders and facilitators. They're leveraging their own 
intelligence, using their own special mission-wing helicopters 
to carry out long-range insertions in low illumination. These 
are a pretty remarkable capability for any military.
    For both the ANSF and the coalition, Afghanistan continues 
to be a dangerous place. Casualty rates for all the ANSF 
increased in 2014, roughly 5 to 7 percent higher. However, this 
must be viewed in light of the fact that their operational 
tempo was four times greater in 2014 than it was in 2013, and 
that over 100,000 coalition forces were no longer on the 
battlefield.
    Even considering these higher casualties, the ANSF 
attrition rates, which account for all losses to the force, 
have not impacted combat readiness too severely. The army and 
the police recruiting has not been a problem. Afghan youths 
continue to join the ranks of the ANSF. Service in the security 
forces is widely respected and viewed as an honorable, 
patriotic profession. The Afghan National Army remains the most 
trusted institution in the country and the Afghan shield and 
sword of an exceptionally proud people in a fledgling nation.
    On balance, after watching the ANSF respond to a variety of 
challenges over the past 6 months, I don't believe the 
insurgents represent an existential threat to the Government of 
Afghanistan. However, the ANSF still need a great deal of help 
in developing the systems and processes necessary to run a 
modern professional army and police force. They also need 
sustained support in addressing their capability gaps in 
aviation, intelligence, and special operations.
    To address these gaps, our TAA mission and mentorship will 
be vital. Our advisors at the security ministries, army corps, 
and police zones are now our main effort. Although clear 
challenges exist, I do believe that the ANSF capabilities or 
capacity and the morale will be sufficient, backstopped by our 
advisory efforts and limited enabler support. This will provide 
Afghanistan the long-term security at the end of the Resolute 
Support Mission.
    President Ghani recently remarked, ``Compelled by tragedy 
and cemented by mutual sacrifice, the partnership between 
Afghanistan, NATO, and the United States has entered a new 
phase.'' I believe that we're at a critical inflection point in 
our campaign. Many challenges remain before us as the new 
Afghan government forms. It's still finding its footing, and it 
must do so while contending with a security threat, corruption, 
and economic challenges. Yet, the myriad of changes and 
transitions over the last 7 months offer us a tremendous 
opening.
    The Ghani administration offers us an extraordinary 
opportunity to develop a meaningful strategic partnership that 
will stabilize Afghanistan and, in turn, offer greater security 
for the region and the United States Homeland. There's a new 
spirit of cooperation in Kabul, something we didn't have 
before. I firmly believe that our concurrent CT and TAA efforts 
will reinforce and deepen our strategic partnership, and shape 
conditions for a favorable outcome to this conflict. We could 
offer no greater tribute to the American people, our fallen, 
and their loved ones than by finishing this mission well.
    If I could, I think the members have charts at your tables, 
there. I'd like to just show you a couple of statistics. I'm 
asked, what does progress mean? Have we had success? Has it 
been worth it? I'd just offer you these two slides that lay out 
2001 and 2014. Every measurable statistic, from roadways, cell 
phone usage, schools, teachers, females in schools, literacy 
rate, on and on and on, continues to go up. The one that's 
quite striking is the life expectancy, on the bottom-right, 
there. 2001, it was 43 years. Today, it stands at 64 years. If 
you multiply that by about 35 million--we haven't had a census 
in a while--that's 741 million life years of hope that the
coalition and the American people have provided to the Afghan
people.
    The bottom two charts show Kabul, then and now--2001, 2014. 
Scott (aide to General Campbell), if you can raise those up. 
Then, on the right is present-day Kabul at night, the fifth 
fastest-growing city in the world.
    That's progress. That's success, and that could only happen 
with the coalition and the security that is provided.
    [The charts referred to follow:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       

    General Campbell. Finally, let me conclude by stating that 
United States Forces-Afghanistan is currently involved with a 
winter review of the Afghanistan campaign. This review is 
looking at all of our lines of effort in Afghanistan, not just 
the military. As I stated, President Ghani is a credible and 
effective partner. He has asked for NATO and the United States 
to provide some flexibility in our planning to account for the 
fact that his government remains in transition. I have provided 
options on adjusting our force posture through my chain of 
command. The issue is how long we stay engaged at the regional 
level in the transition year of 2015.
    Once again, I express my profound gratitude to all the 
committee members for your unfailing support of our mission and 
our troops in Afghanistan. I'm humbled, and I'm privileged to 
lead the men and women of their caliber and their courage. 
Every day, they make us all proud.
    I look forward to your questions. Thank you.
    [The prepared statement of General Campbell follows:]
            Prepared Statement by GEN John F. Campbell, USA
                    afghanistan: what we've achieved
                 i. where we are--state of the campaign
    In the wake of the tragic September 11 terrorist attacks against 
the United States Homeland, United States military forces promptly 
deployed to Afghanistan with the objective to eliminate the 
international terrorist threat emanating from there. We were soon 
joined by our North Atlantic Treaty Organization (NATO) allies and 
other international partners. Over 13 years later, we have not 
forgotten the motivations for our mission in Afghanistan and why we 
remain. Our primary focus continues to be on preventing Afghanistan 
from becoming a safe haven again for al-Qaeda and other international 
extremist groups. Since 2001, the extraordinary efforts of both our 
conventional and Special Operations Forces have ensured that another 
terrorist attack originating from Afghanistan and directed against the 
United States Homeland has not occurred. Today, United States Special 
Operations Forces, alongside their Afghan counterparts, continue to 
impose considerable pressure on the remaining fragments of the 
terrorist networks that attacked us. Significantly, the Afghan National 
Security Forces (ANSF) have also assumed full responsibility for 
securing the Afghan people. Our Afghan partners have proven that they 
can and will take the tactical fight from here. They are ready, and it 
is time.
    On 1 January 2015, United States Forces-Afghanistan (USFOR-A) 
formally ended its combat mission, Operation Enduring Freedom (OEF), 
and commenced its new mission, Operation Freedom's Sentinel (FS). 
Simultaneously, troops from over 40 nations, which comprise the new 
NATO mission, Resolute Support (RS), began executing their Train, 
Advise, and Assist (TAA) mission in order to build the capabilities and 
long-term sustainability of the Afghan Security Institutions (ASI) and 
ANSF. U.S. Forces are now carrying out two well-defined missions: a 
counterterrorism (CT) mission against the remnants of al-Qaeda and the 
RS TAA mission in support of Afghan security forces.
    Our CT and TAA efforts are concurrent and complementary. While we 
continue to attack the remnants of al-Qaeda, we are also building the 
ANSF so that they can secure the Afghan people and contribute to 
stability throughout the region. Both of these efforts will contribute 
to a more secure and productive Afghanistan and prevent the re-
emergence of terrorist safe havens.
    In spite of considerable progress, it is clear that our campaign 
will remain a challenging one. Last year's political impasse, delay in 
signing the Bilateral Security Agreement (BSA) and NATO Status of 
Forces Agreement (SOFA), and setbacks in forming a new cabinet, have 
created a period of comparative stagnation in ANSF institutional 
development. In this environment of uncertainty, some incumbent Afghan 
leaders have been hesitant to make necessary decisions. Many Alliance 
members and operational partners understandably delayed fulfilling 
their RS force commitments until a new administration was installed and 
the BSA and SOFA were signed. Their deferrals resulted in advisors and 
other forces either arriving just in time, or late, for the start of 
RS.
    The new Afghan National Unity Government will have to overcome 
considerable political pressures and obstacles as President Ghani and 
CEO Abdullah determine how they will distribute power and 
responsibilities. Thus far, both leaders have demonstrated an admirable 
willingness to cooperate and address these challenges. Both have 
elevated the Afghan people's interests above their own.
    The ANSF will surely be tested in Fighting Season 2015 as well. It 
will also take time for us to evaluate the efficacy of our TAA efforts 
and our regional approach at the Train, Advise, and Assist Commands 
(TAACs). We will inevitably have to make adjustments. Additionally, we 
will need to balance our short and long-term efforts and weigh 
potential operational gains against U.S. strategic objectives in 
Afghanistan. We will do all of this as we manage considerable risks to 
our mission and force and contend with a myriad of lethal threats. Due 
to all of these factors, we must be prepared and adapt as needed. 
Likewise, we will need to evaluate and prioritize our efforts in light 
of restricted resources and the limited time available to accomplish 
our mission.
    The next 2 years of the RS campaign will play a crucial role in 
cementing our gains. While we strive to improve ANSF capabilities and 
sustainability, we will continue to re-posture our forces and adjust 
our footprint. As in the past, our drawdown will occur under enemy 
pressure. We will need to manage our efforts to maximize the effects of 
our TAACs and our continued consolidation toward a Kabul-centric 
posture in 2016.
Historical Context & Framework for New USFOR-A/NATO Mission
    Our transition to RS represents the natural evolution of our 
maturing partnership with the increasingly capable ANSF. Back in 2011, 
more than 140,000 coalition troops were distributed over 800 sites. Our 
forces were then heavily engaged in combat and tactical-level advising. 
We have now reduced our forces and footprint to about 13,000 coalition 
troops at 21 bases throughout Afghanistan. With only a few exceptions, 
we are no longer engaged in brigade-level and below advising. Instead, 
we are now mentoring our Afghan counterparts at the corps headquarters 
and security ministries. This significant shift in our mission-focus 
has been complemented and driven by the rapid expansion and development 
of the ANSF into a skilled and courageous force of approximately 
350,000. During the past two fighting seasons, the Afghan National Army 
(ANA) and Afghan National Police (ANP) have repeatedly shown that they 
can win battles on their own. When they work together, they have also 
proven that they can overmatch the insurgents wherever and whenever 
they challenge them.
    RS is not a continuation of the ISAF mission on a smaller scale. 
While RS shares some similarities, it represents a significant paradigm 
shift. In contrast to a few years ago, our Afghan partners are at the 
forefront of combat operations and they are now bearing the brunt of 
enemy attacks. Accordingly, U.S. and coalition casualties have 
significantly dropped with combat fatalities in 2014 less than half of 
what they were in 2013.
    The designation of RS as a non-combat mission does not eliminate 
the fact that we will still operate in a combat environment--our 
personnel will be exposed to risks in 2015 and beyond. Afghanistan 
remains a dangerous place. Even though U.S. and NATO personnel will 
support combat operations indirectly, we can anticipate that we will be 
targeted, and we will suffer casualties. Therefore, force protection 
remains my priority concern, and we have the necessary authority to 
take adequate measures to protect our forces.
    The tragic death of Major General Harold Greene last August stands 
as testament to the risks that our advisors continue to be exposed to 
every day. Although insider attacks against U.S. and coalition forces 
declined again in 2014, they remain a focus area of force protection. 
Fortunately, these attacks have not significantly affected the strong 
relationship between coalition and ANSF personnel. We continue to 
implement mitigations to avoid patterns and prevent complacency. These 
measures have reduced, but not eliminated, the threat. We will remain 
vigilant to prevent future insider attacks.
    Functionally-Based Security Force Assistance (FBSFA) will be the 
cornerstone of RS and represents our unified effort to generate, 
employ, and sustain the ANSF and ASI. FBSFA encompasses all RS 
activities required to develop ANSF operational effectiveness and 
includes partnering, advising, and supporting the ANSF at the corps-
level and above. The FBSFA framework concentrates on eight Essential 
Functions (EFs):

          EF 1: Plan, Program, Budget, and Execute (PPBE): generate 
        requirements, develop a resource informed budget, and execute a 
        spend plan
          EF 2: Internal controls to assure Transparency, 
        Accountability, and Oversight (TAO)
          EF 3: Civilian governance of the ASI, including adherence to 
        the Rule of Law (RoL)
          EF 4: Force generate: recruit, train, retain, manage, and 
        develop professional ANSF (FORGEN)
          EF 5: Sustain the force through effective facilities 
        management, maintenance, medical, and logistics systems 
        (FORSUST)
          EF 6: Plan, resource, and execute effective security 
        campaigns and operations (C2):
          Inter-ministerial and joint coordination
          Command, control and employ Ground, Air, and Special 
        Operations Forces (SOF)
          EF 7: Sufficient Intelligence capabilities and processes 
        (INT)
          EF 8: Maintain internal and external strategic communications 
        capabilities (STRATCOM)

    The execution of RS is based on a limited regional TAA approach and 
located at the ``four spokes'' in coalition TAACs in the north, south, 
east, and west, with one central ``hub'' in Kabul City. I view our 
TAACs as the critical component of our FBSFA efforts in 2015. They 
serve as our principal connection and touch point between the 
ministries and fielded forces. Hence, they play a central role in our 
ability to assess the efficacy of our ministerial efforts and how well 
they support ongoing ANSF security operations.
                  ii. where we are--state of the ansf
2014 Fighting Season
    In their second fighting season in the lead, the ANSF proved 
proficient at securing the Afghan people, fighting their own battles, 
and holding the gains achieved by ISAF over the last 13+ years. On the 
battlefield, the ANSF fought tenaciously and demonstrated their 
increasing capabilities. They independently planned, led, and executed 
numerous combined-arms operations. Both ANA and ANP units demonstrated 
increased tactical flexibility and endurance as well.
    Of note, ANSF operational tempo (OPTEMPO) was four times higher in 
2014 than in 2013. Not surprisingly, and regrettably, ANSF casualty 
rates also increased last year. The combination of an increased 
OPTEMPO; assumption of greater security responsibilities; the drawdown 
of coalition forces; and the aggressive pursuit of the enemy, all 
contributed to a moderate increase in casualty rates. This uptick was 
borne primarily by the Afghan Local Police (ALP) who generally operates 
in isolated areas and are not as well equipped or trained as other 
ANSF. The insurgents also target the ALP more frequently because the 
ALP are not centrally garrisoned and instead live in their villages, 
among the Afghan people. Therefore, they present the most immediate 
threat and challenge to insurgent efforts to control and intimidate the 
populace.
    A high ANSF attrition rate, which accounts for casualties and all 
other losses to the force, has had an impact on combat readiness. If 
present rates continue, it will pose challenges to force development 
over time. The main causes of ANSF attrition are assessed as poor 
leadership; high operational tempo; inadequate soldier/police care; and 
poor force management. We continue to help the Afghans reduce combat 
casualties and address systemic causes of attrition in order to ensure 
the long-term viability of their forces.
    The ANSF successfully maintained control of all key terrain and 
populated areas in 2014. The insurgents were only able to temporarily 
overrun four district centers in isolated portions of the country. 
Within 96 hours, the ANSF retook all of them. In sum, the insurgents 
could not hold ground anywhere when challenged by the ANSF in force. 
Today, the Afghan Government remains firmly in control of its 34 
provincial capitals and all of its major cities.
    Perhaps most importantly, the ANSF stayed above the fray throughout 
the election dispute last summer. They maintained political neutrality 
and exhibited no evidence of fracturing along ethnic or tribal lines. 
They provided seamless security for two national elections and a 
lengthy Independent Election Commission audit process. In spite of 
expansive Taliban threats and determined efforts to disrupt the 
democratic process, the ANSF provided superior protection for nearly 8 
million Afghan citizens who courageously chose to defy insurgent 
intimidation tactics and voted. ANSF professionalism and non-
partisanship stand in stark contrast to their Iraqi counterparts. 
Regular polling reveals the vast majority of Afghans hold a favorable 
view of their soldiers and police. The Afghan National Army (ANA) 
remains the most trusted institution in the country with an approval 
rating that regularly exceeds 85 percent.
    The ANSF special operations forces, in particular, have 
demonstrated improved proficiency. Their commando units are now 
conducting night raids independently using their own intelligence to 
drive their operations. The Special Mission Wing (SMW) is also 
executing long-range, full-mission profiles in low illumination. 
Working together, the commando units and SMW are consistently executing 
unilateral direct action missions against insurgent leaders and 
facilitators. These are remarkable achievements, which reflect the 
maturation of their formidable capabilities.
    While the conventional ANSF still have capability gaps and 
shortfalls, they do possess significant assets to fight the 
insurgents--e.g. heavy mortars, D-30s howitzers, armed Mi-17s, armored 
vehicles, etc.--and dedicated training with these platforms. The 
insurgents have none of these. However, the ANSF would greatly benefit 
from improved leadership and increased confidence; ANSF soldiers and 
police perform well when they are well led. ``There are no bad 
soldiers, only bad leaders.'' That is why our insistence on sound 
leadership and strict accountability remains our most important guiding 
principle. Fortunately, the Afghan senior leadership concurs. Change in 
Afghanistan comes from the top-down. President Ghani and CEO Abdullah 
are the driving force behind meaningful transformation and merit-based 
appointments in the ASI and ANSF. However, both must navigate a 
political labyrinth as they move forward with their reform agenda.
    On balance, after watching the ANSF respond to a variety of 
challenges over the past 6 months, I do not believe the Taliban-led 
insurgency represents an existential threat to the Government of 
Afghanistan. The ANSF require less coalition assistance to conduct 
security operations, but they still need support to develop the 
systems, processes, and institutions necessary to run a professional, 
self-sufficient, and self-sustaining army and police force.
ANSF Capability Gaps
    ANSF performance in 2014 and early 2015 highlighted capability gaps 
and shortfalls that will likely persist for years. Their most critical 
gaps are found in aviation, intelligence, special operations, and the 
ASI's emerging ability to conduct tasks such as planning, programming, 
budgeting, and human resource management. At the security ministries, 
our advisors are focusing on building ASI systems and processes. They 
are also working to improve integration between the different security 
pillars--army, police, and intelligence services. At the corps-level, 
our advisors are concentrating on developing ANSF planning capacity, 
command and control, and operational capabilities. Additionally, they 
are addressing developmental shortfalls in the areas of logistics, 
medical, and counter-improvised explosive devices (IED). At all levels, 
our advisors continue to emphasize and enforce Afghan financial 
transparency and accountability of donor resources.
    Although clear challenges exist, I believe the ANSF's capabilities, 
capacities, and morale will be sufficient--with our advisory efforts 
and limited enabler support--to provide for Afghanistan's long-term 
security. Our collective efforts are hardening the Afghan state and 
giving it needed time to develop and mature. By improving security 
conditions, we are also reducing the operating space for insurgents and 
incentivizing their participation in the reconciliation process.
    It is important that we continue to exercise strategic patience 
with the ASI and ANSF. The U.S. Armed Forces have contended with 
challenges such as force sustainment for 250 years. In contrast, the 
ANSF have only existed for 13 years.
                 iii. where we are--state of the threat
    With security responsibilities fully transitioned to the ANSF, al-
Qaeda, its Affiliates, and Adherents (AQAA), Taliban, Haqqani Network 
(HQN), and other insurgent and extremist groups will undoubtedly 
attempt to reestablish their authority and prominence in Afghanistan. 
Collectively, the enemy will continue to present a formidable challenge 
to the Afghan Government, USFOR-A, and the coalition in 2015. 
Nevertheless, it is important not to view the enemy as a monolithic 
entity. They represent disparate factions with different motivations 
and capabilities. At times they may collaborate, and at other times 
they may work against each other. One of our persistent challenges is 
to identify these fissures and exploit them.
    In 2015, AQAA will likely attempt to rebuild its support networks 
and planning capabilities with the intention of reconstituting its 
strike capabilities against Western interests. AQAA activities are now 
more focused on survival than on planning and facilitating future 
attacks. It will be critical that, in coordination with our Afghan 
partners, our comprehensive CT efforts continue to apply pressure 
against the AQAA network in order to prevent its regeneration.
    The Taliban are also in a period of transition. They begin 2015 
weakened, but not yet defeated. Politically, they have become 
increasingly marginalized. However, the Taliban remain a resilient, 
lethal force in spite of the fact that they accomplished none of their 
major strategic or operational objectives in 2014 and suffered 
considerable casualties. We see dissension within the movement. Senior 
Taliban leaders disagree on how to prioritize their political and 
military efforts. Many Taliban tactical units also continue to suffer 
from acute resource shortfalls. Numerous junior Taliban fighters are 
becoming increasingly resentful towards their leadership as they 
continue to fight and die at high rates while their senior leaders 
remain in safe havens in Pakistan.
    The absence of coalition combat units on the battlefield has also 
weakened one of the principal justifications for the Taliban armed 
struggle: to rid Afghanistan of ``malevolent foreign influences.'' Now 
they are fighting against and killing almost exclusively their fellow 
Afghans. They will certainly feel emboldened by the coalition's 
transition from direct combat operations to our TAA role and an 
accompanying reduction of our combat enablers. As a result, the Taliban 
will likely test the ANSF aggressively in 2015 as they did in 2014. 
Taliban threats from indirect fire, insider attacks, and complex 
attacks are projected to increase in the next fighting season.
    It is unlikely that the Taliban will be able to overmatch the ANSF 
on the battlefield in 2015. Nonetheless, the Taliban will still 
endeavor to frame localized, tactical successes (albeit temporary) into 
strategic victories through the media. The Taliban will most likely be 
willing to absorb considerable casualties and physical losses in order 
to gain psychological victories. They will maintain an adaptive 
propaganda apparatus, which they will leverage to influence the Afghan 
people, the international community, and their supporters. As we saw in 
2014, the Taliban will strive to shape perceptions in the information 
space, despite their mixed military performance and continued political 
failures.
    The Taliban have recently shifted their tactics to High Profile 
Attacks against soft targets--especially in Kabul--in order to 
undermine popular perceptions of improved security and increased public 
confidence in the Afghan Government. These strikes garner considerable 
media attention, while requiring minimal resources and entailing little 
risk. What is not captured in the media, however, is that these tactics 
reflect the bankruptcy of the enemy's message and strategy. They 
continue to target innocent civilians and alienate the population with 
their indiscriminate attacks. These are not the tactics of an insurgent 
movement capable of overthrowing the Afghan Government.
    The HQN remains the most virulent strain of the insurgency. It 
presents one of the greatest risks to coalition forces, and it 
continues to be a critical enabler of al-Qaeda. HQN shares the Afghan 
Taliban goal of expelling coalition forces, overthrowing the Afghan 
Government, and re-establishing an extremist state. They lead the 
insurgency in several eastern Afghan provinces and have demonstrated 
the capability and intent to launch and support high profile and 
complex attacks against the coalition. In response to several dangerous 
threat streams against coalition and Afghan personnel--particularly in 
Kabul, ANSF and U.S. Special Operations Forces have stepped up security 
operations against HQN. These operations have successfully disrupted 
several dangerous threats streams that sought to inflict significant 
casualties on the force.
    We are also keeping our eye on the potential emergence of the 
Islamic State of Iraq and the Levant (ISIL) in Afghanistan. This has 
become one of my Priority Intelligence Requirements. Thus far, we have 
seen some evidence of limited recruiting efforts, and a few Taliban 
have rebranded themselves as ISIL. This is most likely an attempt to 
attract media attention, solicit greater resources, and increase 
recruitment. The Taliban networks are well established, and significant 
ideological and cultural differences exist between the movements. The 
Taliban have already declared that they will not allow ISIL in 
Afghanistan, but the potential emergence of ISIL has sharply focused 
the ANSF, National Directorate of Security (NDS), and political 
leadership. All are collaborating closely in order to prevent this 
threat from expanding. Additionally, the budding presence of ISIL in 
the Afghanistan-Pakistan border areas also offers another opportunity 
for both countries to work together. For now, we assess that there is 
only a low probability that ISIL can establish a large, credible 
presence in Afghanistan. Nonetheless, we remain cognizant of this 
latent danger and we will continue to monitor it.
    While insurgent and terrorist networks have proven to be resilient 
and adaptive, coalition and ANSF operations have kept these groups at 
bay. Continued pressure on core al-Qaeda and its supporters will be 
required to prevent them from regenerating. Ultimately, the long-term 
solution to extremists remains a capable and sustainable ANSF that can 
secure the Nation.
                    iv. challenges and opportunities
Strategic Partnership with GIRoA
    All aspects of Afghan society remain in a state of flux as we start 
2015. Political and security transitions continue to occur 
simultaneously. Last year's political uncertainty caused considerable 
anxiety and threatened to undermine the progress made by the ANSF in 
the security domain. Economic growth was similarly stymied by lack of 
investor confidence in the Afghan Government and its prospects for the 
future.
    The National Unity Government presents both significant promise and 
peril. On the positive side, President Ghani and CEO Abdullah have 
proven to be amenable to working with the International Community, 
NATO, and the United States. Both are also committed to addressing the 
challenges of corruption and nepotism. Both are supportive of women's 
rights and their empowerment in Afghan society, and most importantly, 
both are committed to achieving an enduring peace for Afghanistan and 
the region.
    We now have a golden opportunity to deepen our partnership with 
Afghanistan. However, the forward momentum of our campaign continues to 
be stymied by delays in forming a new cabinet. We anticipate that 
President Ghani and CEO Abdullah will contend with a few challenges as 
they delineate their respective responsibilities. We will need to 
weather any resulting uncertainty in the ensuing months as the two 
resolve how they will address their respective supporters while still 
promoting meritocratic governance. However, the very characteristics 
that threaten gridlock in the current Afghan Government also promise 
that, when policies are set, the vast majority of legitimate Afghan 
political interests will be committed to support them.
    Despite myriad challenges, the fundamental partnership between the 
coalition and the Afghan Government, to include ASIs and ANSF, remains 
strong. The difference between the Ghani administration and its 
predecessor is night and day. I have personally developed close 
professional relationships with nearly all senior Afghan leaders. At 
all levels, coalition and Afghan leaders continue to work together in 
pursuit of shared strategic objectives. Moreover, Afghan Government, 
civil, and military leaders demonstrate a growing appreciation for the 
coalition's efforts. Afghan leaders are genuine in their gratitude for 
our shared sacrifice. I have also seen our Afghan partners develop a 
sense of ownership and pride in their army and police force. Afghans 
realize and appreciate that they now have credible, professional 
security forces that can protect them.
Afghanistan-Pakistan Military to Military Relationship
    The role of Pakistan remains critical to stability in Afghanistan. 
Suspicions and competing interests have historically characterized 
Afghanistan-Pakistan relations, and these are most likely to persist in 
2015. However, recent high-level engagements between Afghan and 
Pakistani leaders since President Ghani's election represent one 
promising sign for regional security. The common threat of violent 
extremism may serve as a catalyst for improved cooperation between the 
two countries, and we have already seen progress in the Afghanistan-
Pakistan military-to-military relationship. Pakistan, just like 
Afghanistan, has suffered greatly at the hands of terrorists and 
violent extremists. The recent Pakistani Taliban attack on a school in 
Peshawar could mark an important shift for bilateral relations. Senior 
Pakistani military officers have said that they can no longer 
discriminate between ``good and bad'' terrorists. It is important that 
their words are followed by action.
    Taking advantage of this window of opportunity, RS plays a key 
facilitator role in pursuit of a constructive and effective 
relationship between the Afghan and Pakistan militaries. We continue to 
actively encourage and enable the Afghan and Pakistani officers to meet 
and coordinate their security efforts. Recent consultations between 
Afghan and Pakistani corps commanders showed great promise. However, it 
will take considerable time and effort to convince the Afghan and 
Pakistani people to support this new spirit of accommodation. Afghan/
Pakistani political and military relations are likely to improve 
incrementally and on a transactional basis. Ultimately, we will still 
need to manage our expectations.
Other Regional Actors
    Other regional actors such as Iran, India, China, Russia, and the 
Central Asian States have a shared interest in supporting the continued 
security and increased stability of Afghanistan. President Ghani has 
shown true leadership and vision by engaging with regional leadership 
and on the wider global stage. While many of these countries will 
continue to compete both openly and covertly with one another for 
increased influence within Afghanistan, all will benefit from a more 
secure and stable country. President Ghani appreciates that Afghanistan 
needs regional support in order to realize his vision of transforming 
Afghanistan into a vital transportation and commercial hub in Central 
Asia.
Stewardship of U.S. Resources
    Stewardship of U.S. taxpayer dollars remains a top priority for 
USFOR-A. It is our obligation to protect the trust and confidence of 
the American people. Yet, war is an inherently inefficient and 
challenging endeavor, and despite the dedicated efforts of many, cases 
have unfortunately occurred over the years in which American resources 
were not spent as efficiently as possible. We are working hard to 
ensure both prudent spending and the identification of areas for cost 
savings. USFOR-A has also welcomed and incorporated into our processes 
the recommendations of independent agencies and various inspectors 
general, which have proven most helpful when released in time to effect 
change. USFOR-A will continue to scrutinize every dollar spent to 
ensure it is necessary to mission success.
    I would also like to commend to the committee the sterling work of 
our Combined Security Transition Command-Afghanistan (CSTC-A). This 
subordinate command continues to implement a comprehensive financial 
strategy to build Afghan fiscal discipline through budget compliance. 
CSTC-A has, and continues to play, an outsized role in our campaign. In 
spite of their small numbers, these highly talented individuals have 
provided rigorous oversight of billions in expenditures. Their 
enforcement of greater financial transparency continues to build 
international donor confidence and encourage sustained foreign 
investment in Afghanistan.
    CSTC-A has also implemented several initiatives, many based on 
Special Inspector General for Afghanistan Reconstruction 
recommendations, to establish greater accountability in ANSF and ASI 
processes. CSTC-A has placed conditional controls on U.S. funding 
provided to the Ministry of Defense and Ministry of Interior. These 
conditions are intended to ensure the proper implementation and 
integration of financial accounting, payroll, human resources, and real 
property systems; and provide mechanisms to prevent funds from being 
misappropriated or otherwise misused. CSTC-A directly supports an 
average of over 30 ongoing external and internal audits of the 
coalition, ASI, and ANSF at any given time throughout the year, and has 
already started to see positive results. It will continue working on 
implementing systems and processes for effective ASI/ANSF internal 
control programs that will not only identify corruption, but dissuade 
it.
    I would specifically like to thank members of this committee for 
their support of the Vendor Vetting Task Force, also known as Task 
Force 2010. This effort has proven to be very effective in preventing 
U.S. money from going to insurgents. I am convinced that this task 
force has saved American lives by identifying high risk vendors who 
support the enemy.
    I also appreciate the Senate's support for United States efforts to 
improve the Afghan justice system. President Ghani and the Afghan 
Government have recently made great strides in improving their 
processes to detain, investigate, prosecute, and incarcerate insurgents 
and extremists. The Afghans are also in the process of developing legal 
statutes that will ensure thorough investigations and trials for 
suspected terrorists, in order to uphold the rule of law and promote 
greater legitimacy for the Afghan judicial branch. Through our 
mentorship, the Afghans are now taking the initiative to centralize the 
detention and incarceration of all national security threats at the 
Parwan Detention Facility, which is now run entirely by the Afghans. 
Our continued support for the Afghan justice system and responsible 
application of Afghan laws will greatly enhance efforts to defeat the 
insurgency and reinforce the legitimacy and credibility of the Afghan 
Government.
               v. desired conditions for the end of 2015
    Considering the dynamism of the operational environment and the 
players within it, we will not pursue, nor hope to achieve, a static 
``endstate'' for 2015. Our campaign will evolve and adapt. What we will 
pursue, however, is a general improvement in security conditions and 
ANSF capabilities. In order for the insurgents to reconsider their 
goals, the ANSF will need to demonstrate resilience and progress in 
2015. If the ANSF are able to achieve this goal in their first year 
with full security responsibilities and with decreasing U.S. and 
coalition enabler support, then the momentum should be considerable 
going into 2016 when the ANSF will be even more experienced and 
capable.
    The following conditions are desired at the end of 2015:

        <bullet> ASI/ANSF increasingly capable of protecting the 
        population and securing a legitimate Afghan Government with 
        limited U.S. and coalition support
        <bullet> ASI/ANSF confidence is increased
        <bullet> ASI/ANSF are increasingly sustainable excepting 
        aviation and the intelligence enterprise
        <bullet> ASI/ANSF increasingly capable of neutralizing 
        terrorist networks and denying terrorist safe havens with 
        limited U.S. and coalition support
        <bullet> ASI progress promotes continued U.S. and international 
        funding commitments
        <bullet> USFOR-A/RS forces retain sufficient regional access, 
        Freedom of Movement, and Freedom of Action ASI/PAKMIL 
        relationship is constructive

    If these conditions are achieved, then we will consider our 
campaign to be on track.
                        vi. metrics of progress
    By almost all metrics, societal progress in Afghanistan has been 
significant in the last 13+ years. United States and coalition forces, 
along with an increasingly capable ANSF, have provided the necessary 
security to enable these improvements. Much of this progress has been 
paid with American blood and treasure. The following two charts 
highlight the tremendous improvements made since the fall of the 
Taliban regime in 2001:
   
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
      
    It is important to emphasize that these extraordinary advances in 
Afghan society have stabilized the country, promoted popular support 
for the central government, and inspired confidence in the future.
      
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Dramatic, but fragile developmental advancements in Afghan society 
have also directly contributed to an improved security environment. The 
fragility of these gains reinforces the need for both our continued 
security efforts and civilian assistance programs. While sustained 
United States security and development assistance to Afghanistan is 
intrinsically beneficial to the Afghans, it also contributes 
substantively to United States national security by ensuring that 
Afghanistan never again becomes a safe haven for terrorists.
                            vii. conclusion
    The hard work and significant sacrifices of countless United States 
and coalition military personnel and civilians over the last 13+ years 
have created the conditions where Afghans can now take responsibility 
for their own security and governance. The Ghani administration offers 
us an extraordinary opportunity to develop a meaningful strategic 
partnership that will stabilize Afghanistan, and in turn, offer greater 
security for the U.S. Homeland. Political progress in Kabul 
demonstrates the return on United States and international investments 
in the future of Afghanistan and the Afghan people. President Ghani 
recently remarked at the NATO Foreign Ministerial, ``Compelled by 
tragedy and cemented by mutual sacrifice, the partnership between 
Afghanistan, NATO, and the United States has entered a new phase.''
    I firmly believe that our combined CT and TAA efforts in support of 
the ANSF and ASIs will reinforce and deepen our strategic partnership 
with the Afghan Government and shape conditions for a stable, secure, 
and prosperous Afghanistan. We could offer no greater tribute to the 
American people, our fallen, and their loved ones than by finishing 
this mission well.

    Chairman McCain. Thank you very much, General.
    In an address to the Nation on May 27, 2014, President 
Obama said about Afghanistan, ``We will bring America's longest 
war to a responsible end and then announce calendar dates for 
our withdrawal. At the beginning of 2015, we'll have 
approximately 9,800. By the end of 2015, we'll have reduced 
that presence by roughly half, and we will have consolidated 
our troops in Kabul and on Bagram. We will have consolidated 
our troops in Kabul and on Bagram. One year later, by the end 
of 2016, our military will drawn down to a normal embassy 
presence in Kabul, with a security assistance component''--and 
I'm not making this part of his statement up--``just as we've 
done in Iraq.''
    General, we are worried about it being ``just as we've done 
in Iraq.''
    I guess the fundamental question I have for you, in light 
of the fact that there is a 6-month transition of the 
Government of Afghanistan, ISIS is now locating there, and 
other things have happened since the President made this 
statement. Do you believe that our troop presence schedule in 
Afghanistan should be adjusted in light of ensuing events since 
the President made his statement on May 27, 2014?
    General Campbell. Sir, thank you for the question.
    Sir, as I mentioned in the oral statement, I have provided 
options to my chain of command to take a look at, as we do this 
winter update, for additional options----
    Chairman McCain. You've provided those options. Do you 
favor those options?
    General Campbell. Sir, absolutely.
    Chairman McCain. I thank you.
    Are you worried about a lack of United States military 
presence in Kandahar, the spiritual home of the Taliban, 
including intelligence, surveillance, and reconnaissance (ISR), 
air power capability, and advisors there?
    General Campbell. Sir, currently, with the forces that we 
have in Kandahar, I'm comfortable where we are through 2015. 
They provide us the opportunity to continue to do our mission 
of TAA down in Kandahar. That's with the 205th Corps, with the 
police, with the special operating forces, and with the Air 
Force. We have the requisite ISR to be able to continue that 
mission through 2015.
    Chairman McCain. Those options that you've provided to the 
President, does that mean that the options that you support 
would not draw down to a ``normal embassy presence in Kabul''?
    General Campbell. Sir, the options I presented to my chain 
of command were several options to make sure that we can 
continue with our mission of TAA. I'm particularly concerned 
about the summer of 2015. That will be the Afghans' very first 
fighting season completely on their own. They've had the lead 
for 2 years. They've done quite well. But, this is the first 
one at the current force levels that we're at. As you mentioned 
upfront, the current plan brings it down to Kabul-centric by 
the end of 2015. President Ghani has asked for some 
flexibility, and, in my options, I think I provide some options 
both for President Ghani and for my senior leadership here to 
take a look at, that would allow us the flexibility to continue 
to get after the TAA mission and the CT mission.
    Chairman McCain. Thank you.
    A group of us met with President Ghani over the weekend, 
and he was very strong and adamant that this current plan will 
put the Nation in danger. I hope that our leadership will pay 
attention to him when he comes for a visit here, I believe in 
March.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, General.
    You have two distinct missions. One is train, advise, and 
assist Afghan National Security Forces. The other is the 
counterterrorism mission, and those two missions require 
different footprints, in terms of where you've located in the 
country. Is that being considered by you in your 
recommendations to President Obama? I mean, that sort of 
dichotomy between the two missions? Does that shape your 
recommendation, in terms of what sort of locations that you 
must hold? Some you might hold simply for counterterrorism, 
others you might be integral to training. Is that accurate?
    General Campbell. Sir, absolutely. Both counterterrorism 
and train/advise/assist are complementary missions. They 
complement each other to lead toward force protection. So, I 
have to take a holistic look at both those as we provide 
options to the senior leadership.
    Sir, I might add that we have been showing great 
flexibility in the past. In the October timeframe, we came 
forward for some flexibility on authorities, enablers, and 
people, and the President granted some great flexibility that 
enabled us to continue with the Resolute Support Mission after 
January 1, 2015.
    Senator Reed. There's another aspect of the 
counterterrorism, which was alluded to by our panel yesterday. 
That is, regional threats, not just solely located within 
Afghanistan itself. Is that something you're considering, too, 
in terms of recommendations to President Obama?
    General Campbell. Sir, I would tell you that both United 
States Forces-Afghanistan, U.S. Central Command, my higher 
headquarters, President Ghani, as he's reached out to the 
region, take a look at this regional approach all the time. As 
I mentioned up front, what's different in the last 6 months is 
the reachout that President Ghani's had, especially to 
Pakistan, and the military-to-military, economic-to-economic, 
people-to-people, intelligence-to-intelligence, those areas 
that he continues to look at very hard. I've seen change in the 
attitude. I've seen military-to-military talking together. This 
hasn't happened since about 2011 to 2012, and that's quite 
good. I think if they continue to work very hard and understand 
they have a common enemy to face--they have to get rid of the 
sanctuary on both sides--that that'll lead to a positive 
outcome. We do look at a regional approach, yes, sir.
    Senator Reed. Let me go to an area that is sometimes not 
highlighted. That's the Afghan National Police, because the 
responsibility to train and also to create a justice system 
overlaps not only with yourself but with many other U.S. 
agencies and international partners. You've talked, I think, in 
general terms about the status of the Afghan National Army, and 
particularly their Special Operations Forces, but what about 
the police? They're ultimately long gone, and it will be the 
police and the villagers that will make sure the country is 
stable.
    General Campbell. Sir, absolutely. The police are about 
157,000 strong, plus another 30,000 Afghan local police, which 
receive a little bit different training than the army, a little 
bit differently equipped. However, they continue to do some of 
the same type of missions that the army has to go through. When 
they work together, the army, the police, the Afghan Local 
Police (ALP), they're quite good. This is what we call ``cross-
pillar coordination.'' I tell people, with the changes in 
leadership, having confidence, holding people accountable, 
working together, that the Taliban cannot defeat them. The 
Taliban doesn't have the D-30 Howitzers, they don't have the 
uparmored Humvees, they don't have the Mi-17s, they don't have 
the intelligence fusion, none of that.
    But, the police continue to work that very hard. They are 
working through a holistic review on a force optimization piece 
on the army and the police. President Ghani and the senior 
leadership have looked at some changes to the police and how 
they're organized and how they work more toward the community 
policing piece of it. I know that's where they want to get to. 
We do advise, at the ministerial level, the Ministry of 
Interior (MOI), and then at the senior police level. Sir, we'll 
continue to work that very hard.
    Senator Reed. Finally, there are requirements that the 
Government of Afghanistan has asked us to fulfill. Are there 
any outstanding requests that we have to the Government of 
Afghanistan that they must fulfill that will ensure our mission 
is successful?
    General Campbell. Sir, you're talking in terms of troops, 
equipment, or----
    Senator Reed. Troops, equipment, reform of their systems, 
it is a partnership and we're focusing on what they are asking 
of us. I know, under the previous presidency, there was a long 
list of things we asked, and were not particularly successful 
in getting. You seem to imply, I think quite accurately, that 
with President Ghani and Dr. Abdullah, there is a new sense of 
cooperation, et cetera. But, are there some significant issues 
out there that they must deal with and we must be aware of?
    General Campbell. Sir, I think both President Ghani and Dr. 
Abdullah continue to work very hard, one with the National 
Unity Government, they're working on the corruption piece. 
We've asked them to look at that very hard. They continue to 
work at that. They've embraced the international community. 
Everywhere I go, every event I've seen both Dr. Abdullah and 
President Ghani, first thing they do is thank the international 
community, thank the American people for their sacrifices for 
the last 13+ years. You didn't hear that before. President 
Ghani is the Commander in Chief, and he's embraced the Afghan 
Security Forces, both the army and the police. You haven't seen 
that before. In fact, the Afghan Security Forces were probably 
handcuffed the last 3 or 4 years on what they could and 
couldn't do. We'd be in a different place if President Ghani 
had been in position there the last couple of years. But, I 
think, sir, everything that we talk about with MOI, Ministry of 
Defense (MOD), and ask President Ghani to take a hard look at, 
he absolutely gets on that.
    Senator Reed. Thank you, sir.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Thank you, General, and thank you also for the time that 
you spend with us personally on these issues.
    Senator Reed brought up the police versus the army. Give us 
a general idea of the size of each. I mean, the army is much 
larger than the police. But, tell me, is it a 10-to-1, or what 
is it? I should know, and I don't.
    General Campbell. Sir, 352,000 is the Afghan Security 
Forces; 195,000 for the Army, 157,000 for the Afghan Police, 
and then there's an additional 30,000 that are the Afghan local 
police.
    Senator Inhofe. Yeah, I understand that one. Thank you very 
much.
    I took a very personal interest as far back as 2003 in the 
training of the Afghans. One reason is, the Oklahoma 45th 
played a very significant role, not just in 2003, in the early 
years, but also 2006 and 2007. I spent quite a bit of time over 
there. I watched what they were doing. I was there when they 
opened up the Kabul Military Training Center (KMTC). I even 
commented that it reminded me, when I looked at it, of Fort 
Sill. It's really state-of-the-art.
    Now, you talked about Kabul. It's the fastest-growing city 
and all that. Has the training center remained as effective as 
it initially was, or is it growing? What's the capacity there?
    General Campbell. Sir, the KMTC continues to be a bright 
spot, a training place that absolutely embraces, the last 
several years, what we've put into that. But, each of the corps 
have their own regional training centers, as well. The Special 
Operating Forces have the equivalent of a Center of Excellence, 
like we have at Fort Bragg. It's very good. I was out west, in 
Herat, about a week and a half ago, and told the corps 
commander I wanted to go look at his training. This was 
unannounced. He took me out there, walked through their medical 
training, walked through their marksmanship training, walked 
through how they cleared buildings, and all of those things 
unannounced.
    Senator Inhofe. Yes.
    General Campbell. All Afghan-led. It was pretty remarkable, 
and I came away refreshed that all of that training that goes 
on, for the most part, is Afghan-led--had been with our help 
several years ago------
    Senator Inhofe. Yes.
    General Campbell.--but I feel very confident that they 
continue to do that.
    Senator Inhofe. I have to tell you, I was really impressed, 
in those early years. I was there because we were participating 
in that in a very personal way. Then, the expressions on the 
faces of the Afghans, I thought they really wanted to train, 
they were very proud of the accomplishments, particularly at 
the Training Center. I never dreamed, at that time, we'd be 
back here, 10-12 years later, talking about it.
    This has been asked before, but for a different reason. Let 
me just reflect back on what's happening right now. We had the 
administration talking about 5,500 troops, then we had 
President Ghani wanting us to reexamine that; and then, just 
yesterday or the day before, we agreed, or the administration 
talked about doing it. What concerns me is, if we're at 10,000 
troops now--and we had General Mattis tell this committee, just 
a short while ago, that we should be looking at approximately a 
recommendation of 20,000 troops, and you're readjusting from 
10,000 troops, is that implying that we're going make an 
adjustment from the 5,500 troops, but it's not going to be up 
anywhere close to what General Mattis said we needed?
    General Campbell. Sir, none of the options recommend an 
increase like that. Most of the options I'm discussing with my 
senior leadership includes allowing more flexibility on glide 
slope, allowing more flexibility on locations.
    Senator Inhofe. Yes. Does it bother you that we're talking 
publicly about what we're going to be, when we're going to 
withdraw, and when we're going to be downsizing and all of 
that? Because, obviously they know everything we know. Does 
that concern you?
    General Campbell. Sir, I think General Dunford put it best 
when he testified last July and he said he hoped that there 
would be more ambiguity here. Sir, it's out in the open. We are 
where we are. We'll continue to work that and mitigate----
    Senator Inhofe. I know we are where we are, but do we have 
to continue being ``are where we are''? I mean, when do we go 
and start making our own plans, exclusively us, looking after 
our own defense? Hopefully, that time will come. I won't ask 
for an answer.
    The last thing I'd mention, when you talk about having to 
do something on the size of the force, right now we have 
Afghanistan, we have Iraq, we have Syria, Africa, and we have 
problems there, Jordan, of course, we talked about that last 
week, and, just yesterday, introduced legislation to try to get 
more of our help to our very great ally, President of Ukraine 
Petro Poroshenko and those in Ukraine. Now, do you look at the 
overall picture and talk to the rest of them as to what our 
capacity is with all these things going on? Is that factored 
into any recommendation you're going to have, in terms of 
changing our structure in Afghanistan?
    General Campbell. Sir, when I look at the options I present 
to my senior leadership, I'm cognizant of what else is going on 
in the world and the requirements that the Joint Chiefs of 
Staff and the Office of the Secretary of Defense (OSD) have to 
deal with. But, I particularly focus on Afghanistan, the impact 
it has there. I'm not looking at what United States Africa 
Command has, United States European Command----
    Senator Inhofe. Sure. Appreciate it very much.
    General Campbell. I provide those options, then the Joint 
Chiefs of Staff, OSD, will work through that.
    Senator Inhofe. Yes. But, I know that in making 
recommendations, in terms of overall force strength and all of 
that, I'm sure that will factor into it.
    Thank you very much.
    General Campbell. Thank you, sir.
    Chairman McCain. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman and Ranking 
Member, for hosting this hearing. I appreciate it very much.
    General, what should the role of Afghanistan's neighbors, 
particularly Pakistan, be in the reconciliation process? Do you 
have concerns about the role that Afghanistan neighbors are 
currently playing? What do you see our greatest challenges 
being?
    General Campbell. Thank you, Senator.
    President Ghani said this several times, that he wants to 
lead reconciliation. This is an Afghan process, an Afghan-led 
process. He wants to take charge of this. This is very 
important to him. He knows it's going to take some time. He's 
also reached out to Chief of the Pakistan Army, General Raheel 
Sharif and said, ``You know, I need some help, here. We have to 
work this together.'' I think that dialogue continues between 
them.
    I was in Pakistan last week, and had these conversations 
with General Raheel. I talked to both President Ghani and 
General Raheel yesterday morning. They continue to dialogue. 
Neither one of them wants to let the other one down. I think 
Pakistan, for years and years, has been an issue. We've always 
said, ``You can't talk about Afghanistan unless Pakistan is in 
that equation.'' I think, with General Raheel, he's moving in a 
different direction than we've seen in the past. Again, I've 
been there four or five times in the several months I've been 
on the ground there. I met with him. I met with him and the 
President, together. I think that there's very good dialogue as 
we move forward.
    I think General Raheel understands that he has a big piece 
to play in this, and his leadership will make a difference as 
he works with some of the internal issues he has in Pakistan. 
If you're in Afghanistan, you think everything bad comes out of 
Pakistan. If you're in Pakistan, you think everything bad comes 
out of Afghanistan. They have to work through that piece of it 
together to fight this common enemy. I think, in the last 45 to 
60 days, I've seen that more than I have ever seen before in 
Afghanistan. We have an opportunity now, if we work very hard, 
to make this reconciliation piece a potential reality, where it 
hadn't been before.
    Senator Gillibrand. Are there particular challenges with 
regard to the border?
    General Campbell. As far as cross-border? There always is, 
ma'am. Up in the Hindu Kush, up in Paktia, along Kunar, 
Nangahar, I mean, there's nothing that says, ``This is the 
border.'' So, people have families that live on the Afghanistan 
side, have families just right across the border, continues to 
be that.
    There is more cooperation now between the Afghan Border 
Police and the Frontier Corps on the Pakistan side. Again, 
about 2 weeks ago, the 201st Corps and the 203rd Corps met in 
Jalalabad and met with the 11th Corps commander, who's in 
Peshawar. They talked about borders. Last week, Lieutenant 
General Fazli, who is the Afghan Border Police's senior border 
policeman for Afghanistan, went to Pakistan for a week and 
toured different spots on the Pakistan side. So, they continue 
to talk.
    We're building back the coordination center that we used to 
have at Tourk. That should open up very soon. Used to have 
United States, Afghan, and Pakistan, will now have Pakistan and 
Afghan. I was up there probably 4 weeks ago with the Chief of 
Staff of the Afghan National Army, General Sher Mohammad 
Karimi. But, this will put Afghans and Pakistanis together in a 
coordination center at a key point on the border. We'll put 
another one down south, just south of Kandahar. We'll continue 
to work that. I think they're working this very hard.
    Senator Gillibrand. I'm very grateful for all the work 
you've done to protect women's rights and to educate girls. 
What are we doing now to ensure that progress on women's rights 
will be protected as we transition into a more advisory 
capacity? Is the Afghanistan Government capable of sustaining 
the progress that you've made?
    General Campbell. Ma'am, they work this very hard. Thank 
you for the question. I have a gender advisor that works that 
with the senior people in the Afghan Government. We continue to 
see change in the number of women that join the police, that 
join the army. They have some very tough goals to try to get to 
over time, but they're working very hard toward that. I think 
the police and MOI are doing a little bit better than the army, 
but they understand how important it is.
    President Ghani has made this one of his priorities. He 
spoke about this to all the senior leadership in both the MOI 
and the MOD, in meetings that I've been in. He's also trying to 
incorporate more civilian and women into the ministries of both 
MOI and MOD. Again, MOI is a little bit better than MOD. Their 
goals that they have, of about 10 percent over the next several 
years, is going to be very tough, just based on the culture. 
But, I think all of them that I talk about really want to get 
after this, and I do believe they're very genuine about this.
    Senator Gillibrand. What's the status of terrorism attacks 
specifically against schools with girls?
    General Campbell. Ma'am, I don't have those statistics. I 
can get those----
    Senator Gillibrand. But, is it rising or falling, or is it 
the same, I just don't have a sense of it today.
    General Campbell. Ma'am, I can tell you it's probably about 
the same. Again, I think wherever there are soft targets that 
the Taliban and other insurgents can go after, they're going to 
try to do that. If they go to a school, if they go inside of 
Kabul, it gives them more of a strategic impact, because the 
media will pick up on that, just like they did this tragic 
incident in Peshawar on December 16, 2014. They hit a military-
type school and killed all those children. The Afghan people 
understand that they want their kids to go to school, to 
continue to have this education. But, I haven't seen a spike in 
those numbers at all, ma'am.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you.
    General Campbell, thank you for your testimony and your 
service.
    Just on that question, to follow up, if the Taliban are 
victorious, this would be devastating, would it not, for the 
rights of women in Afghanistan? They've made a great deal of 
progress in recent years.
    General Campbell. Sir, absolutely.
    Senator Sessions. General Campbell, Ambassador Cunningham 
told us yesterday, as did all the panelists, that the rate of 
withdrawal is too high or too steep in Afghanistan. I tend to 
agree with that. I think that's very difficult for anybody to 
dispute, if you analyze it. I believe our Congress, in a 
bipartisan way, is open to having a more robust assistance to 
the Afghan forces. I feel it, in talking to my colleagues on 
both sides of the aisle. I think the American people are 
willing to stay the course and help in not an out-front way, 
but in a supportive way, more than a lot of people think, if we 
articulate that. I believe it's important for President Obama 
to articulate that. He's the Commander in Chief, and I think 
it's important for you to be clear to him, and the Defense 
Department to be clear, to help alter the present course we are 
on.
    Second, I'm really pleased that you have gone even further 
than our panelists yesterday in saying that this is not a 
hopeless case. A lot of progress has been made. We just don't 
want to let it slip away.
    I do not see this, in any way, that we're starting a new 
war. We have been partners with Afghanistan for 13+ years. 
We've stood shoulder-to-shoulder with them. We've lost, as you 
said, over 2,000 servicemembers, 20,000 wounded. It needs to 
end successfully.
    I just hope that somehow we don't make the mistake that 
Senator McCain has so wisely warned us of, in Afghanistan, to 
rush out when just a little more presence and a little more 
support would be there. I encourage you to speak out on that. I 
assume that your report, from what I hear you say, your advice, 
calls for a stronger presence there.
    I appreciate the optimism that you have. You've said 
there's a new spirit there. It does appear that President Ghani 
is much more attuned with the challenges than President Karzai 
was, and that a lot of progress is being made. But, I have to 
tell you, we've heard that before. We've been hearing this for 
a long time, ``There's a new spirit there.'' I think there's 
truth to it. But, isn't it true that, in a combat situation 
involving, say, Iraqi or Afghani soldiers, that if just a few 
United States forces, with communications ability, the ability 
to call in air strikes, can embolden and encourage them to a 
remarkable degree, and help them to be successful in a way 
that, if they are out under attack and they don't have that 
kind of support and confidence, they are not as effective 
fighters? I've heard lower ranking and high ranking officers 
say that's true.
    General Campbell. Sir, our men and women of our Armed 
Forces are incredibly gifted. They're bright. They're 
intelligent. When other forces are around them, they learn 
through osmosis. I mean, it's pretty incredible. Anytime we're 
around Iraq or Afghan forces, in my experiences, they continue 
to get better. I would not argue with that.
    Senator Sessions. I was talking to an experienced officer 
in Iraq last week. Been there a number of times. He said the 
Iraqis will fight, and they fight so much better and so much 
more confidently if just a few Americans are embedded with 
them. It creates a confidence that goes way beyond the numbers. 
Do you agree with that general philosophy?
    General Campbell. Sir, I've spent about 19 months in Iraq. 
I've spent three different tours in Afghanistan. I would tell 
you that the Afghan fighters have been fighting for 35+ years. 
There's no doubt, with the proper leadership, they will 
continue to fight. The difference between Iraq and Afghanistan, 
what I've seen now, is that the Afghans have a nationalist 
pride about being, ``I'm for Afghanistan. I'm not Sunni, I'm 
not Shi'a, I'm an Afghan. So, I'm not a Pashtun, I'm not a 
Tajik, I'm an Afghan.'' They have this pride, and they're very 
proud that they stood firm during the political instability. 
They didn't break underneath ethnic lines. With the right 
leadership, they can carry the day, here, sir.
    Senator Sessions. We're moving to no troops outside of the 
capital, it appears, to a ministerial force and advisory--a 
normal State Department relationship with the Afghan 
Government, soon. Less than 2 years. I just think that's taking 
a risk, and I hope that you will make clear your view, from a 
military point of view, I think the American people will 
support it. I think President Obama will listen, and I think we 
can have bipartisan support here for a more realistic approach 
to the drawdown in Afghanistan.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator McCaskill.
    Senator McCaskill. Thank you.
    Thank you, General Campbell. I really appreciated the time 
we spent together yesterday going over a challenging problem, 
and that is how we do the requisite oversight of what we're 
doing in Afghanistan, and how, at the same time, as we pull 
into the back and allow the Afghan forces to take the lead, how 
you protect data that could make them more vulnerable once they 
are in the lead and once we are in a--just a supportive role. I 
completely understand the tension there.
    I just wanted to put on the record that I think you have 
worked very hard to reverse some of the confusion that existed 
around the special--Inspector General's report as to what 
should and shouldn't be classified. I know you've taken steps 
to declassify a wide swath of that information. I think the 
commitment you made to me, that we'll continue to work on what 
you feel strongly about, in terms of unit data and some of the 
other data that could, in fact, put people at risk if it were 
continued to be unclassified. I just want to thank you for your 
attention to that. I think you understand that the oversight is 
important. I think you also are very cognizant of the risks 
associated with some of that data getting into the wrong hands. 
So, I appreciate your help on that.
    I want to express my sympathy for the deaths, not just of 
Kayla Mueller, but of the other contractors, that have 
occurred. This has been a theme of mine for years, and that is, 
How do we manage the contracting force in theater? How do we 
oversee the contracting force in theater? How do we protect the 
contracting force in theater? I am worried about that.
    We put into the--last year's National Defense 
Authorization, a prohibition against funding any projects that 
we can't inspect because of security reasons. I want to get 
your take on where we are, in terms of protection of the 
contracting force. I mean, we have contractors that are going 
to have to maintain some of these systems, because Afghanistan 
is not ready to--they don't have the technical capability of 
maintaining some of what we have equipped them with. 
Contractors are going to be a reality in that space for a long 
time. I think we need to discuss that protection, not just 
force protection, but, obviously, contractor protection.
    General Campbell. Yes, ma'am. Thank you very much for the 
question.
    Absolutely concur with you that force protection, both for 
our service men and women and our contractors or other 
civilians in Afghanistan, is utmost on my mind. We do 
absolutely everything we can to make sure we give them the 
right resources. We provide them what we call ``guardian 
angels'' to provide that force protection support. Without 
going into our tactics, techniques, and procedures of how we 
would do that, that could potentially put them more at risk, I 
would just tell you that this is utmost on my mind, of all the 
men and women, of all the leadership. We'll continue to watch 
that very closely.
    I do agree that, as we downsize, we can't just say we're 
taking the military out. We have to add another contractor in 
there. We have to take a holistic look at what the requirement 
actually is. There are some places where we'll say, we're not 
going to put a military, we're not going to put a contractor 
there, as well. We'll just have to mitigate that a different 
way. So, we look at it very hard.
    It was a very unfortunate incident, about 2 weeks ago, with 
Kayla, where we did have three of our contractors killed by an 
Afghan soldier. We've learned some lessons from that. The 
Afghans continue to learn lessons from that, as well. Our 
green-on-blue incidents have gone way, way down. We want to 
continue to keep it that way. But, a lot of that is because of 
the procedures we put in place, the procedures that the Afghans 
have put in place, as well, to help vet their security forces.
    But, ma'am, we'll continue to look at that very hard.
    Senator McCaskill. If you could speak briefly to--President 
Bush was the first one who spoke out about the propaganda tool 
that Guantanamo Bay (GTMO) represented, the recruiting tool 
that it represented. It continues to be, we're aware, a 
recruiting tool. Could you speak to the issue of GTMO as it 
relates to what is maybe the biggest threat we face, and that 
is the recruitment worldwide of terrorists to join the fight, 
particularly the fight that ISIS is conducting in a barbaric 
fashion that has nothing to do with conventional warfare?
    General Campbell. Thank you, ma'am.
    I think there's a lot of things out there that--a lot of 
things out there that would incite people to attack Americans 
already, that they're already preconceived to attack Americans. 
I can't tell you how much GTMO does or doesn't do that, or 
impact on their recruiting piece of it. But, my experience 
tells me that there are people that want to do harm to people 
both in Afghanistan and back here in the United States, and any 
number of things can make them do that. But, many of them are 
preconceived to do that. We can--what I have to do is continue 
to work that hard on my force protection inside of Afghanistan, 
and worry about that piece of it. I don't go out and look at 
different pieces and how they recruit. I look more at the 
force-protection piece inside of Afghanistan.
    Senator McCaskill. That makes sense. Thank you, General.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. I want to thank you, General, for your 
tremendous service to the country and for your family and for 
all those that serve underneath you. I think we're very 
fortunate to have your leadership.
    I wanted to follow up to understand, just in terms of where 
we are in the current plan, and in the consequences of it. Just 
so we understand, if we keep the current timeline that was 
proposed by the administration, and they don't adopt some of 
the options that you've proposed to them, what does that mean, 
in terms of when the withdrawal would have to start, in terms 
of the fighting season? So, logistically, what would that mean 
for you?
    General Campbell. Ma'am, I--a military guy would never use 
the term ``withdrawal.'' We're going to transition as we 
continue to work that piece of it.
    The current state of play is, we have 9,800 U.S. I have 
about 12.9-, with the total NATO force. We're centered in Kabul 
and Bagram. We have tactical advise-and-assist commands in 
Mazar-e Sharif in the north and Herat in the west and Kandahar 
in the south, Jalalabad and Gamberi in the east, and we have 
several special operating camps at our--or Special Operating 
Forces used inside of Kabul and other places in the country. To 
be able to get down to the numbers that we're at, we'd have to 
go to Kabul-centric by the end of the year. So, I would have to 
work that glide slope.
    Senator Ayotte. But, would that also require you to move 
out of places during the fighting season?
    General Campbell. Ma'am, part of that is physics----
    Senator Ayotte. Right. Meaning logistically.
    General Campbell. Yes, ma'am.
    Senator Ayotte. So, that would have to be done while you're 
in the middle of the fighting season.
    General Campbell. Ma'am, part of that, we would de-scope 
and try to mitigate that as much as we could so that we didn't 
impact on the fighting season. But, just based on physics, 
you'd have to come out----
    Senator Ayotte. Just based on physics. That's something 
that we hope the President will take into consideration as he 
looks at your options. Because it's an important matter of 
physics to not----
    General Campbell. Yes, ma'am.
    Senator Ayotte. I mean, we wouldn't normally pick to have 
to do this in the middle of a fighting season. Is that true, 
General?
    General Campbell. Ma'am, we'd like to have every 
opportunity to make sure we provide the right training, 
advising, and assisting to the Afghans. It's very important, as 
I said up front, for this fighting season 2015. We're doing 
everything right now in the winter campaign to get them ready 
to do that. Again, we're advising at the ministerial level, MOI 
and MOD. We're advising at the corps. We're not on combat 
operations every day with the brigades. We do advise--train, 
advise, assist at the kandak level, or the battalion level, 
tactical level with the Special Operating Forces. So, it would 
have an impact, but we would continue to work through that. 
Yes, ma'am.
    Senator Ayotte. Appreciate it, General.
    General, last march, you testified before the Readiness and 
Management Support Subcommittee, and you had called the A-10 a 
game changer. You had said, ``what I think the soldiers on the 
ground, both the special operators and the conventional force, 
would tell you, it's a game changer. It's ugly, it's loud. But, 
when it comes in and you hear the `bvvrrr,' it just makes a 
difference. So, it would be a game changer.'' Do you still 
believe that? How has the A-10 performed during the conflict in 
Afghanistan?
    General Campbell. Ma'am, I currently do not have any A-10s 
in Afghanistan. But, in my experience, the A-10 has been a 
superb close-air-support platform. The comments I made back in 
March, to include the sound effects, I would still stand by, 
yes, ma'am.
    Senator Ayotte. Excellent.
    So, you would agree, certainly with what General Odierno 
has said, that the A-10 is our Nation's best close air support 
platform.
    General Campbell. Well, ma'am, I would tell you that the 
Air Force does an incredible job of providing the close air 
support that I have in Afghanistan today. They're not doing 
that with A-10s today, and I--so, I would tell you they 
continue to provide me the best I can have. I appreciate that, 
and I ask, ``I need this,'' and the Air Force picks that 
platform to do that.
    Senator Ayotte. Thank you.
    Let me ask you about ``no contracting with the enemy.'' 
That's something--legislation that Senator Brown and I--Scott 
Brown, when he was here--we had pushed before the committee. 
Then, now it's been expanded, the authorities, beyond 
Department of Defense, but also to the United States Agency for 
International Development, State Department. How has that 
worked in Afghanistan? When we--I know that Senator McCaskill 
had asked about the issue about contractors, and we had money 
going to our enemies. We had money going to people who were 
misusing our funds to work against our interests. So, how has 
that and the task force to implement that been working in 
Afghanistan?
    General Campbell. Ma'am, in that lane, it's been an 
absolute game changer, as well. So, probably about 780-plus 
different contractors since 2010, we've taken a look at and 
vetted those, and only probably 100-plus have been able to--
we've been able to contract through, based on some ties there. 
It's denied insurgents probably $9.8 billion in money that we 
haven't put toward those kind of contracts, where the enemy 
would have access to that. So, that's been a game changer 
there. We continue to work that. Most of that, for me, is what 
we call ``over the horizon,'' so I don't have them on the 
ground. But, we can work--reach back very quickly with that. 
Then, based on that success, NATO has also adopted that 
methodology to work the contracting piece.
    Senator Ayotte. Thank you, General.
    Chairman McCain.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    General, thank you for meeting with me yesterday. I 
appreciated your time.
    I agree that there is a need for more flexibility to do 
what's needed, that we should look at the situation on the 
ground and determine from that the decisions that we make. When 
we do--you had mentioned before, Kabul-centric, that we might 
at some point--if we found ourself in a Kabul-centric 
situation. What would that do in areas like Helmand and 
Nuristan, Nangahar, Kunar, if we wound up in that situation?
    General Campbell. Sir, the plan is that, in the other--when 
we go Kabul-centric, that we would have sufficiently worked the 
corps through our TAA at the corps level, that they have the 
capacity to be able to sustain the fight there, and then we 
would continue the TAA inside of Kabul, at the ministry level.
    Senator Donnelly. When you look at the numbers that we'll 
need--and there's--obviously, there's no exact number that you 
know. As you go, month-to-month, and take a look, you determine 
what you need. What are your--best ballpark, if you were being 
given flexibility, where we need to be, approximately, in 2015, 
2016, 2017, U.S. forces?
    General Campbell. Sir, again, I've provided those options 
to my senior leadership. I'd rather discuss that in a 
classified session, sir, if I could do that.
    Senator Donnelly. That would be fine.
    As you look at a Helmand, and you look at a Nuristan, what 
is your definition of success in those areas, say, at the 
beginning of 2017?
    General Campbell. Sir, I think definition of success for 
Helmand would be that the Afghan Security Forces have 
sufficiently contained the insurgency, or that the governance 
and the district governors, provincial governor, they're 
providing the necessary governance to the people of that 
particular province. Sir, without going into great detail, I 
see great work happening in Helmand today. I was there 
Thursday. Again, I can discuss more in a classified hearing 
with you on what we intend to do with Helmand. But, I think 
that the cooperation between the police and the army that I saw 
Thursday when I was in Helmand is quite good and bodes well for 
the future of Helmand.
    Senator Donnelly. When you look at the Taliban and their 
goals and their aims, what are the things that give them hope, 
and how do we eliminate those things?
    General Campbell. Sir, I think I would tell you that even 
President Ghani has said probably 70 percent of the Taliban 
want to come back in and get in the peace process. They're 
tired of this fight. I've told you that a lot of their 
leadership is disenfranchised, they're away in sanctuary, 
they're not in Afghanistan. I think now, with a new National 
Unity Government that almost 85 percent of the people want in 
that country, there's no reason that the Taliban can't come to 
the table and talk and be part of the political process. 
President Ghani has reached out to them to be able to do that.
    There's always going to be a small portion that will be 
irreconcilable, that would not want to come back into a talk 
like that. But, I think President Ghani, Dr. Abdullah, continue 
to work this very hard. They're engaging with many of the 
tribal elders and elements, different parts of the country. 
They're showing them that the government can provide to the 
people. That's, I think, what the Taliban want, to have a 
government that will provide what they want to have, whether 
that's jobs, whether that's medical. I think President Ghani, 
the National Unity Government, is on the way to doing that.
    Senator Donnelly. Well, I want to thank you and your whole 
team, because, when I was there last year, there was real 
question as to--or I shouldn't--there was no question from the 
military as to whether the Afghans were going to hold. But, 
there was concern. From everything we've seen, the way it was 
laid out, we've hit our metrics and more. Would you agree with 
where we are in the metrics that we laid out?
    General Campbell. Sir, I would. Not these metrics, but the 
metrics we work with our Afghan partners and----
    Senator Donnelly. Right.
    General Campbell.--the police and the army, from the 
numbers, from the level of training--they've taken over all the 
training. Sir, I see that--again, I've been there three times, 
and this time there's just a stark difference in the 
motivation, in the leadership, them understanding that they 
don't have as many of the U.S. and the coalition forces there, 
they have to do this on, they want to take this on. So, I think 
they continue to get better and better.
    I've talked before about their special operating 
capability. It's quite good. I've talked about four Mi-17 
version 5s going from Kandahar to Helmand, 125 kilometers at 
night, at 3 percent illumination, going onto a very small LZ, 
guys getting out the back, they have a little iPad-type device, 
they're talking to a PC-12, which is Afghan flown, that has 
full motion video, and they tell them there's an insurgent, 200 
meters, and they go. That's pretty remarkable capability that 
they have. The rest of the--that the Taliban ought to know 
about, because they don't stand a chance with that capability. 
So, sir, they continue to get better.
    Senator Donnelly. Thanks for your hard work on the Pakistan 
piece. I think it's absolutely critical. I know how hard you're 
working on it. As you continue to get that in a better and 
better place, I think the whole area becomes a better and 
better place.
    General Campbell. Thank you.
    Senator Donnelly. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, General, for being here. I appreciate your 
service. I appreciate your frank conversation that you had with 
me yesterday in my office.
    To follow up on Senator Donnelly's comments on the Taliban, 
do you think that they will make significant movements to 
reassert control over certain territories? How important would 
be our CT mission there to counter that?
    General Campbell. Ma'am, I think the--again, the Taliban 
are a resilient force. They have the issue--they have issues, 
but they continue to hang on in certain areas. They do--they 
have changed their approach a little bit, as I talked about in 
the opening statement, inside of Kabul, some of the remote 
areas outside the cities, where it's very, very hard to have 
the Afghan Security Forces. They go after soft targets, whether 
it's the Afghan local police checkpoint with only two or three 
people on it, away from the village, not properly equipped or 
trained, don't have the right leadership. They see that, they 
attack that. There's reports that they will take over a 
district center.
    When I was there before, they would take over a district 
center, and the Afghan Security Forces would not be able to 
take that back. Today, as I said up front, all the district 
centers are owned by the Government of Afghanistan. If the 
insurgents were able to attack a district center and take that 
over, the difference today is that the police and the army 
would get that back in 6 hours, 7 hours, as soon as they were 
able to get the forces there. So, there's no doubt they 
continue to work that very hard.
    Our CT capability, without going into--in a classified 
hearing--ma'am, is the best in the world. We continue to have 
brave men and women that provide us a capability that's the 
number one in the world, and we continue to have that as one of 
our missions. I can give you more information, ma'am, if we go 
into a classified piece, on that.
    Senator Fischer. What does that mean for al-Qaeda (AQ)? Do 
you believe that they will see increased pressure?
    General Campbell. Ma'am, I think that you have to continue 
to keep the pressure on, on AQ. I think that, over the last 
several years, in the last 4 or 5 months in particular, that 
the pressure we've had on AQ has been quite good. Part of that 
is based on what Pakistan has done on the big operation they've 
had going on since June in North Waziristan. It has forced 
people into Afghanistan. I think that, again, our CT capability 
is quite good.
    Senator Fischer. Yesterday, we spoke a little bit about the 
capability gaps of the Afghan forces. Do you feel that that's 
going to have an adverse operational impact on them?
    General Campbell. Ma'am, I think we're going to continue to 
try to work that and close that gap. The places they have gaps 
are hard for any army, so logistics is hard for the United 
States Army, it's hard for the Afghan army. We've built in 
programs over the last several years now, as we kind of step 
back and take a look at it. In some places, quite frankly, 
we've provided them too much stuff or we've provided them a 
program that they're not going to get to. Now we're going to 
come back a little bit and say, ``Okay, how can we adjust this, 
how do we modify this, what will work best for Afghanistan?'' 
That's what I'm starting to see now, and a lot of that happens 
in the logistics realm. Again, very hard for us to do that for 
any army, for the Afghan army and the way they distribute 
equipment, very, very tough. But, we're working that very hard. 
They understand how important that is, so we'll continue to 
work that.
    Intelligence, I see them continue to work in the 
intelligence realm very well. They're working more together. 
They're in stovepipes--MOI, MOD, their National Directorate of 
Security (NDS) or their intelligence agency. Today, they have 
many fusion cells that bring them together, like we've done in 
the past. So, I think that'll give them a greater capability as 
they move forward.
    Their close air support continues to grow. Their air force 
continues to grow, and so the TAA mission, staying with them 
here, we'll continue to build that capability. It will allow us 
to be able to continue to transition out.
    What President Ghani has told me, our most important legacy 
will be the systems and processes that we provide to 
Afghanistan. That's our legacy from the last 13+ years.
    Senator Fischer. Are there some missions that they just 
won't be able to do?
    General Campbell. Ma'am, I think there's--I think there are 
some areas that we have to continue to work with the Afghans to 
make sure they have the confidence. I have no doubt in my mind 
they have the capability to do all the missions that are 
required in Afghanistan. But, sometimes it's the leadership, 
the confidence that leadership brings to be able to do that. 
They've had many people that have been around for years and 
years. President Ghani just retired 48 generals yesterday. What 
it's doing--and they had--you haven't had retired of generals 
in 4 or 5 years in Afghanistan. When he first took over, he 
retired 15 generals. What that does is open it up for some of 
these young, bright, energetic officers they have, the 
noncommissioned officers they have in the Afghan army that have 
been trained in the United States, in the United Kingdom, in 
Germany, to assume leadership positions now. They've been 
waiting for that, and I think President Ghani is enabling them 
to be able to do that, and with this infusion of new 
leadership, and then they hold them accountable, I mean, I 
think leadership makes a difference, and that's going to be a 
game changer, as well.
    Senator Fischer. Am I correct in saying that it's an all-
volunteer army?
    General Campbell. Yes, ma'am.
    Senator Fischer. That--and with the retirement of these 
generals, that should encourage more enthusiasm within the 
ranks, as well, wouldn't you say?
    General Campbell. Ma'am, I think they'll see that there is 
hope to continue to move up. They've been stymied a little bit 
the last several years. Now they see that there is room to 
move. That'll continue to energize some of the young lieutenant 
colonels and colonels. Again, it is a--a very good point--it is 
an all-volunteer army, like our Army. As I said in the opening 
statement, they do not have issues with recruiting. The issues 
they have is--they've only been recruiting in the winter, as 
opposed to 12 months in the year. That's what we're trying to 
get them to do, is recruit on a sustainable basis, the entire 
year, not just during the winter timeframe. They're working 
through that now.
    Senator Fischer. Thank you, sir, very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, General Campbell, both for your service and for 
being here today.
    I am struck by the tables that are provided in your 
testimony about both the changes in Afghan society as a result 
of the last 13 years and how Afghans feel about what's 
happening in the country right now. I think most of us, as 
politicians, would love to have some of these numbers: 77 
percent of Afghans express confidence in their new government; 
64 percent believe it's unlikely that the Taliban will return 
to power; 55 percent believe their country is heading in the 
right direction.
    What--do you have a sense of what would happen to the way 
Afghans feel about the progress in their country if the United 
States withdrew all of our troops and support?
    General Campbell. Ma'am, the Afghans that I talk to 
continue to express their appreciation for the sacrifices of 
our men and women, express their appreciation for what the 
coalition, especially the United States, has provided to them 
over the last 13+ years. Again, the difference between Iraq and 
Afghanistan, here, is that Afghanistan people and the 
government now do not want the coalition to leave. I think, to 
the average Afghan, if they see us continue to go at that pace, 
that it would lower the morale, it would give them a feeling 
that they were being abandoned.
    But, again, I think the Afghan senior leadership continues 
to tell the Afghan people, ``There are ways to mitigate, we're 
going to continue to get better, we appreciate the support. 
But, this is going to be an Afghan fight. We have to take this 
on.'' So, there's a balance there, I think. But, they 
absolutely do understand the sacrifices we've provided, and 
there's a difference, night and day, again, between this 
leadership we have today in the senior leadership in 
Afghanistan and where we were just a couple of months ago.
    Senator Shaheen. You talked about the efforts of President 
Ghani and CEO Abdullah to reach out to the Taliban and to try 
and begin some sort of negotiations. Can you give us any 
insights into how far along that is?
    General Campbell. Ma'am, I'd rather discuss that in a 
classified session, if I could.
    Senator Shaheen. Okay.
    To what extent are the Taliban--do we see signs that 
they're being influenced by what's happening with ISIL in other 
parts of the Middle East and the new reports that ISIL has 
begun to infiltrate Taliban?
    General Campbell. Well, ma'am, the Taliban and the ISIL are 
like this. They have different ideologies. They want to fight 
each other. So, you do have some Taliban that are--feel 
disenfranchised from the Taliban, potentially because the 
Supreme Commander of the Taliban Mullah Omar hasn't shown his 
face for many, many years. So, they see this ISIS, or Daesh, as 
another way to gain resources, as another way to gain media 
attention. So, you do have some of the Taliban breaking off and 
claiming allegiance toward ISIS. Part of that is happening in 
different parts of Afghanistan. A lot of what we get is through 
our Afghan partners, as they see that probably before we do. We 
have seen some of the recruiting, we have seen some night 
letters, we have seen some talk of it at some of the 
universities. It is a concern to President Ghani, therefore a 
concern to me. But, we continue to work that with our Afghan 
partners to make sure that we understand where this is going 
inside of Afghanistan and Pakistan.
    Senator Shaheen. Do we have any sense how the public in 
Afghanistan and Pakistan views ISIL?
    General Campbell. Ma'am, I think it depends on where they 
are and how much they read or hear about it. If you're inside 
of Kabul, and you have access to the communications and 
newspapers, radios, or TV, they're starting to get that media 
blast of that in some of the outward parts of Afghanistan where 
they may not have that communications, they may not even know 
that that's going on. But, again, it has come up quite a bit, 
here, in the last 45 to 60 days. President Ghani has talked to 
the Afghan people about it, he's talked to the Afghan Security 
Forces about it. I've made it a Party Information Requirement 
for my forces. So, we'll continue to work hard with our Afghan 
partners, here, to make sure we understand this network.
    Senator Shaheen. A final question. You've--most of the 
discussion has been about how the National Security Forces are 
doing, but can you comment on what's happening with local 
police efforts and to what extent they are professionalizing 
their operations?
    General Campbell. Yes, ma'am, I can talk more about Kabul 
and the police. There are about 14,000 police inside of Kabul. 
Because I see them on a day-to-day basis. They continue to work 
hard on the training, and they continue to work hard on trying 
to do more community policing. These high-profile attacks 
inside of Kabul. What you did hear about in late December 
timeframe is an uptick. It is very, very tough to have--to stop 
one or two people from taking a magnetic improvised explosive 
device (IED) and sticking it on a bus, to take two or three 
people and stop them from having a suicide vest and attacking a 
nongovernmental organization. In a city of 3.5 million, again, 
very, very tough.
    But, what you don't hear about are all the number of 
attacks, all the number of catches, all the number of people 
that have been arrested by the Afghan police inside of Kabul 
that didn't result in a high profile attack (HPA). What I would 
tell you is, that number, compared to the number of HPAs, is 
quite high. So I think one of the things that we can probably 
work better with Afghanistan is to make sure they publicize 
this, as well.
    But, the police do quite well, because of their ability to 
work with the Afghan people and their human intelligence 
(HUMINT) networks to get after these threats. So, ma'am, I 
think they continue to progress, not only the Afghan police 
inside of the city, but some of the specialties in the 
forensics. I've visited one of their labs in Herat, sort of 
their crime scene investigation, where they do fingerprints, 
where they do explosives, where they take a look at rifle 
rounds that have gone off, to bring that together. They've 
gotten quite good at their technology on the forensics, and 
we'll continue to work that with them.
    Senator Shaheen. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman.
    General Campbell, thank you so much for joining us here 
today. I know I don't need to say anything to boost your self-
esteem or your ego, but I do want you to know, sir, how widely 
respected you are amongst the men and women that have served 
under your leadership. We greatly appreciate that and thank you 
very much for your service to our Nation. All of us here on the 
panel appreciate you being here. You are in a very difficult 
position at a very tentative time as we move forward in this 
transition.
    One thing that has been of great concern to me is ensuring 
that, as our U.S. armed services are moving or transitioning--I 
don't want to say ``withdrawing''--but, as they are 
transitioning out of the more leadership-type positions, that 
we do have the Afghan capability to back it up. Logistics is 
always a great concern of mine. I did ask the panel yesterday 
some thoughts on logistics, and a great comment that came from 
Admiral Eric T. Olson, former Commander, United States Special 
Operations Command, was that--as it applies to the Afghan 
Security Forces, is that great shooters do not make a great 
army. There is a total army that needs to be out there.
    I would just like to know that we do have plans in place, 
or that the Afghans are training to be logistical supporters, 
as well, whether it's the medical community, transportation, 
making sure that we have the maintainers for their equipment 
and their weapons. Do they have those capabilities without that 
United States support?
    General Campbell. Thank you, Senator. Thank you for your 
service, as well.
    We do, we continue to work the logistical piece. Again, we 
identify this as a gap that we would continue to have to do TAA 
on for a while. Maintenance in the U.S. Army, we continue to 
have contractor logistics support in many places. A lot of that 
in the aviation realm. So, we do have that in Afghanistan. We 
continue to work very hard to build the mechanics, to build the 
right level of personnel to take care of the Afghan equipment. 
So, that is moving along, but that will continue to take time, 
and we have to continue to do TAA to build that capacity for 
the Afghans.
    I think they'll continue to have a small portion that will 
need contractors to work some of the very, very tough pieces of 
equipment in the aviation realm. But, for the most part, I do 
think they continue to grow that capacity.
    Again, I said I went and saw some training in the 
maintenance area and went into one of their maintenance bays. 
They had--probably eight Humvees are up. They had several of 
the mechanics working. These were all Afghan army men working 
on these vehicles, and they were doing quite well. Their issue, 
quite frankly, was parts, not getting the right parts. So, as 
we did a deep dive on that one back to Kabul and looked at the 
warehouses, the parts are there. So, their issue really is how 
they distribute the parts from the warehouses, get them down to 
the corps, get them down to the brigades and the kandaks. So, 
we're working that very, very hard.
    I went into eight warehouses inside Kabul. It was like a 
Super Home Depot. They had all the things that they needed in 
there, and it--so, I told President Ghani, ``We've got to get 
the corps commanders in there to take a look at this.'' Once 
they got them in there, they talked to the senior logisticians, 
``You've got to move this stuff.'' Honestly, the culture inside 
of Afghanistan is to hoard, and so they get this in there, they 
hold on to it, they don't want to get that out. But, now 
they've worked that very hard, and they understand the impact 
it's going to have on the fight. I think the senior leadership 
has moved that quite well, here, in the recent weeks, and 
they're using the winter timeframe right now to make sure that 
all classes of supply continue to move out to the--where the 
units need it to build that readiness up for the fighting 
season.
    Senator Ernst. Thank you.
    As Senator McCaskill had mentioned, that--just the 
contracting piece, also, and any engagement. So, we see that 
the Afghans are picking up more of the maintenance. I'm pleased 
to hear that. I have been just very concerned about that 
particular piece of it.
    But, will we see a transition, then, away from American 
contractors, more towards more national-type contractors within 
that region? One thing that President Ghani had made clear in 
his meeting with us this last weekend was that, if there were 
not United States troops there, he would like to see more U.S. 
contractors. Do you have a feel for if it would be our 
contractors serving in nation, or would it be more of a local 
force?
    General Campbell. Ma'am, to give you rough figures, if we 
have 30,000--probably 34,000 contractors; out of that, 24,000 
are probably a combination of United States and third-country 
nationals, and the other 10,000 are probably Afghan 
contractors. We continue to work that number. That number will 
go down quite significantly this year. We continue to try to 
make sure that we have Afghans tied into all these so they 
build that, not only for jobs in Afghanistan, but also to make 
sure they can sustain that over time.
    Senator Ernst. Great. Thank you very much, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you, General, for your great service.
    Senator King and I enjoyed being with you in Afghanistan in 
October, and learned a good deal. I'm incredibly heartened by 
the progress. We just have to tell this story. This is 
something that Americans should be proud of. We should thank 
those who have served in Afghanistan over and over, because 
this progress has been hard won, at a great cost.
    But, just two items. The increase in life expectancy of 21 
years over the course of the last 14 years is just virtually 
unheard of. I mean, you could look across human history, nation 
to nation, you will not see a life expectancy increase of that 
kind in such a short period of time.
    The second thing I'm interested in is women in the 
parliament, from 0 to 28 percent in 14 years. Our first woman 
came to Congress 99 years ago, Jeannette Rankin, 1917. We've 
gone from 0 to 28 percent in 100--0 to 20 percent in 100 years. 
They've gone from 0 to 28 percent in 15 years. That's pretty 
impressive.
    I agree with, I think, a bipartisan consensus on this 
panel. We have to maintain this progress. Everything we do 
should be conditions-based, not calendar-based. I think it's 
okay to have a plan, but then you need to adjust it based on 
the reality. I know you had--you encouraged the White House to 
make some adjustments, in terms of the authorities granted to 
U.S. troops during calendar year 2015. After consideration, 
they did grant some changes in the authorities. That's good. We 
have to have a conditions-based approach.
    Personally, I think this is important for Afghanistan. It's 
important because of the investment we've made. It's also 
important because I think there is a powerful narrative about 
the success in Afghanistan that we can apply around the globe. 
I view it as sort of a contrasting narrative, Iraq and 
Afghanistan.
    Iraq didn't want us to stay. We're not occupiers, and so we 
didn't stay. They then ran a government of national disunity, 
where the Shi'as kicked around the Kurds and the Sunnis. The 
situation in Iraq went to hell in a handbasket, and the United 
States and others are playing a leadership role in now trying 
to rescue it.
    Afghans want us to stay. Seventy-seven percent of the 
Afghan population, according to your statistics, think the 
coalition staying and helping is a good thing. These are people 
who chased the Soviet Union out of that country, battled them 
to the death to chase them out. They want the United States to 
stay. They want the coalition to stay.
    Afghanistan's success creates a powerful argument that the 
United States is the partner of choice in the world. We are the 
partner of choice. We're actually seeing that in some 
interesting places in the world today. India, which has had a 
transition of non-alignment or even tilting toward Russia, now 
does more military exercises with the United States than with 
any other nation. They are seeing us, whether it's joint 
exercises or training or purchase of military platforms, as a 
partner of choice.
    I was on the phone with the Commander, U.S. Northern 
Command, Admiral William E. Gortney, yesterday. Mexico has had 
a military tradition of leaning a little bit toward Russia. 
But, they are now viewing the U.S. military as their partner of 
choice.
    I think success in Afghanistan--and I agree with the Chair 
and all this committee--we have to make it conditions-based, we 
have to stay and harvest the value of the success, because 
every day we are showing that the United States is the partner 
of choice.
    Couple of concerns. I was first in Afghanistan in 2006 to 
visit my Guard men and women who were there from Virginia, and 
then-Ambassador Newman said, ``You've let Iraq take your eye 
off the ball in Afghanistan. Iraq pulls our attention away.'' 
When we were in Afghanistan in 2001, by 2002 we were in Iraq, 
too, and that pulled some attention away. At that point in 
time, in 2006, he was worried about the same thing happening.
    I have been calling on Congress since June. We need to be 
in this battle against ISIL, and we need to be strong in it. 
I'm going to support strong military action against ISIL. But, 
I am nervous--and I think we do need to use history as our 
guide and not let the battle against ISIL deflect any attention 
away from the situation in Afghanistan and our continued need 
to harvest and accelerate the gains that we've made there.
    So, that's just an editorial comment. As we get into the 
discussion about ISIL, I'm going to try to make sure that we're 
not taking our eye off the ball in Afghanistan and the great 
work you're doing.
    You indicated--I thought it was interesting that you don't 
think the Taliban is now an existential threat to the Nation. 
We had testimony last year, I think from your predecessor, that 
corruption could be an existential to the Nation, because it 
weakens people's belief in the effectiveness of government, and 
it also can exacerbate sectarian divisions if people think one 
group of people is getting more than the other. Talk about the 
efforts of the new administration to tackle corruption.
    General Campbell. Sir, thank you for your question.
    I do agree that corruption is--and President Ghani agrees, 
too--that that could change the entire dynamic for him. So, he 
ran, and Dr. Abdullah ran, on the idea that we would have to 
get after corruption--they would have to get after corruption. 
One of the first things he did was reopen the Kabul bank case 
and really held people accountable there. He's taken a hard 
look at how they assign senior leadership in all of the 
ministries, and he's taken corruption into that. I think he and 
Dr. Abdullah, in everything they do, that's foremost in their 
mind as they select new leadership, as they engage with new 
companies, on and on, they take in the corruption to understand 
how that has--how bad that has been and how that impacts the 
donor nations that they need so much for the next several years 
as he continues to work on his economy. He's told me, in 
private, that he's works--he works 20 percent security, 20 
percent on the--I'm sorry--40 percent on security, 40 percent 
on the economy. I know, as part of that, the corruption piece 
comes on both sides. But, he worked very hard to make sure that 
he picked ministers that were not corrupt, didn't have bad 
influence. Dr. Abdullah did the same thing. I think they'll 
continue to work that very hard.
    It is of concern to all of the army and the police senior 
leadership I talked to. They absolutely want to remain 
apolitical, they absolutely want to make sure that they can get 
anybody that is corrupt outside of their leadership. Even at 
that level, they continue to express their concerns and then 
work hard to make sure they can do everything they can to get 
rid of corruption when they see it.
    Senator Kaine. Great. Thank you so much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton.
    Senator Cotton. General Campbell, first, thank you for your 
years of distinguished service and brave service to our 
country. I and the people I represent are all very grateful for 
all you have done.
    You have a little over 10,000 troops left in Afghanistan 
right now. Is that correct?
    General Campbell. That is correct. The Statement of 
Requirements for the NATO mission is about 12,900.
    Senator Cotton. Most Americans who didn't serve in the 
military, see it and experience it through movies, television, 
so forth. If you look at the recent popular movie, ``American 
Sniper,'' where the Chris Kyle character is giving overwatch to 
marines going door to door in Anbar Province, kicking down 
doors, that's probably what they have in mind when they think 
about our operations, both in Iraq and Afghanistan. Do you have 
many, or any, infantrymen, dismounted tankers, or artillerymen 
conducting those kind of operations in Afghanistan today?
    General Campbell. I have men and women that continue to be 
able to provide for their own force protection. We do not do--
we do not plan offensive combat operations at all. But, I have 
to make sure that the men and women that are on the combat 
outposts, the forward operating bases (FOBs), that they have 
the ability to provide for their own force protection. We do 
that mostly by, with, and through our Afghan partners, but they 
do have to have the ability to continue to patrol in what we 
call a Ground Defense Area (GDA) outside of those FOBs. But, 
it's for force protection.
    Senator Cotton. Is it fair to say that you have more troops 
providing things like aerial support, intelligence, 
surveillance, reconnaissance support, brigade, division, corps-
level planning support, things like that?
    General Campbell. As opposed to----
    Senator Cotton. As opposed to going out and conducting 
dismounted or mounted combat patrols.
    General Campbell. Yeah, Senator, I don't know the--
percentagewise, but I would tell you that I'm comfortable that 
we have the ability to provide force protection on our combat 
outposts and FOBs, and, at the same time, provide the requisite 
expertise to do the ISR mission, that kind of thing. That ties 
hand in hand with force protection. ISR is a great force-
protection enabler.
    Senator Cotton. I raise the distinction between those kind 
of front-line infantrymen who are doing the kind of missions 
that you typically see in Hollywood movies, because I think 
it's important for the American people to know, whether it's 
from people like us here or from yourself, that a lot of the 
missions that our troops are doing in Afghanistan right now 
truly are supporting the Afghan Security Forces. That helps 
build public support for our continued mission in Afghanistan, 
that this is not the kind of war that we were fighting in 
Afghanistan or Iraq, a decade ago. So, that's something of 
which we should all be mindful as we're trying to marshal more 
public support for this continued campaign.
    Related point. If you could speak roughly, when would you 
say the 2015 fighting season would end in Afghanistan? When do 
the conditions in most of the country become too harsh for our 
adversaries to keep fighting?
    General Campbell. Well, again, I think, Senator, it depends 
on the season. This past year, the winter season has been very 
mild, so we haven't had a lot of snow, the passes haven't 
closed down between Afghanistan and Pakistan. I think there's 
many people that would say today, in fact, it's kind of a 
continuous season, and we'd--we wouldn't look at it as fighting 
season to fighting season. But, the Afghans continue to talk in 
those kind of terms. Fighting season is really tied around the 
weather. From about the April timeframe to the end of September 
timeframe are the traditional months that I think we've seen 
increase in enemy activity and operations.
    Senator Cotton. How does that impact the timing of your 
decision point for whether you would recommend that we keep the 
current troop levels or we are able to reduce troop levels 
further? Is there a point on the calendar at which you can no 
longer wait to make a decision?
    General Campbell. Senator, as I talked about earlier, there 
is a point in physics when I have to start de-scoping and 
retrograding equipment, downsizing facilities, to be able to 
get to a number at a certain point in time. We would call those 
``decision points.'' We have those laid out. I feel 
comfortable, where we are right now, that I have flexibility in 
that plan as we move forward on this winter review, but there 
will come a point in time that I'll say, ``Hey, here's a 
decision point. We've got to make a decision by X.''
    Senator Cotton. Okay. Well, I would encourage you, as I 
encouraged the Secretary of Defense nominee, to speak out, 
using your best professional military judgment. I think you'll 
find that there is a lot of members of this institution, the 
Senate and the House of Representatives, who would support you 
and support the decision of the President to keep at least 
10,000 troops in Afghanistan until 2017 because it's in our 
vital national security interests. I know you know the risks 
that we face from leaving Afghanistan too early. This is not 
your first rodeo there or anywhere else. I would say the risks 
are embodied in those pictures that you have over there, of the 
electricity in Kabul late at night. Those are great gains. We 
should be proud of that. We should be proud of all the efforts 
that our troops have put into it.
    But, what I worry about is an American city that looks like 
that going dark because of a terrorist attack that is once 
again launched from Afghanistan, which is the land from which 
al-Qaeda attacked us on September 11, and it is the singular 
achievement in the war on terror, that we have expelled al-
Qaeda from that safe haven and they have not returned. It is 
critical to make sure they don't.
    I appreciate all of your efforts to make sure that doesn't 
happen.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to join my colleagues in thanking you, General 
Campbell, for your extraordinary service to our Nation over 
many years, and your dedicated and diligent work in Afghanistan 
over a number of tours and following the very worthwhile work 
done by your predecessors there.
    I want to cover some of the points that you and I discussed 
a little bit yesterday, when you were kind enough to visit my 
office.
    First of all, on the relationship with Afghanistan, they've 
been a source of the IEDs, that so ravaged our troops in such 
large numbers. Yesterday, in the hearing that we had with 
Ambassador Cunningham and Ambassador--former Ambassador 
Crocker, they indicated that--or, I should say, more precisely, 
Ambassador Cunningham indicated that IEDs continue to be a 
problem in Afghanistan. In your view, do you agree with his 
assessment that they are a continuing military threat to the 
Afghanistan forces, as well as our own?
    General Campbell. Sir, thank you for the question.
    I would tell you that I think IEDs have become the weapon 
of choice, not only in Afghanistan, but throughout. Any 
insurgency or terrorist attack will tie to some sort of IED. 
So, that's something that started years ago, has been picked 
up, continues to move, and it's not only in Afghanistan, but 
will continue to be a threat to both the coalition forces and 
the Afghan Security Forces. We do, however, continue to work 
very hard at the counter-IED capability of our Afghan forces. 
Again, I don't have the--I can get you the statistics, sir, but 
the number of IEDs found, verse the number that went off on our 
Afghan forces, continues to get better and better. Again, the 
HUMINT and the Afghan that's been trained to be able to detect 
those gets better and better. I think that's really noteworthy 
as we've gone through the last couple of years, here.
    Senator Blumenthal. Would you agree that the primary source 
of those ingredients continues to be Pakistan, and that they 
have done less than they could and should to stop the flow of 
those bombmaking ingredients across the border?
    General Campbell. Sir, I would tell you that there's ample 
material inside of Afghanistan to build IEDs. There are reports 
of portions of what it takes to make an IED that have come in 
from Pakistan. I know that--I've talked to General Raheel about 
that, as well. They continue to work that very hard. They have 
also been impacted by this threat of IEDs on their own forces, 
on their own civilians. They understand they have to go after 
that, as well.
    But, Afghanistan members, I think, would tell you that some 
of the parts, some of the materials that come up, they would 
believe that have come in from Pakistan, yes, sir.
    Senator Blumenthal. That perhaps is an area of focus where 
the coalition forces can even impose greater cooperation with 
Pakistan.
    General Campbell. Sir, absolutely. I think one of the 
things that Pakistan has done for our Afghan forces--I don't 
think it's scheduled yet, but I know that General Raheel has 
reached out to General Karimi, the Chief of the Army in 
Afghanistan, and offered up counter-IED training inside of 
Pakistan for the Afghan forces.
    Senator Blumenthal. You and I spoke yesterday about the 
possibility of purchasing helicopter parts and components for 
the Mi-17s that Afghanistan now has, purchases from the 
Russians that were financed with American taxpayer funds from 
other sources, either in Europe or elsewhere in the world. Is 
that an effort that you're going to pursue; in other words, to 
stop any further purchases of, not only helicopters, but also 
parts and components for those helicopters for the Afghanistan 
forces?
    General Campbell. Sir, as we talked about, the Mi-17 is a 
critical component for the Afghan Security Forces, for their 
air force, for their special mission wing. To be able to 
continue to keep them flying, to keep them in the fight, it'll 
be a continued piece on their maintenance and on their spare-
part piece. We're going to continue to work very hard, as we 
talked about yesterday, to make sure that we do that within the 
authorities that I have to make sure that we acquire those 
parts in the right way, sir. So, absolutely.
    Senator Blumenthal. ``In the right way'' means other than 
Russoboronexport, the Russian export agency that has sold us so 
many--not us, but the Afghans--so many helicopters with our 
money.
    General Campbell. Sir, what we're trying to work, really, 
is to have the Afghans work through their process to make sure 
they can get those parts to build a sustainable capability 
within Afghanistan, so, once we are gone, they can do that 
themselves. We have to start that now, yes, sir.
    Senator Blumenthal. One last question before my time 
expires. I know that you have focused on the healthcare needs, 
particularly the mental healthcare needs, of the very brave and 
dedicated men and women under your command. I want to thank you 
for that effort, thank the U.S. Armed Forces for their 
increased focus and attention to that issue.
    Thank you, again, for your service.
    General Campbell. Thank you, sir.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    General, thank you for your service to our country. We 
appreciate the comments that you've made so far today.
    I have just a couple of questions, sir. First of all, last 
year was the deadliest in the war, with more than 5,000 Afghan 
soldiers and police being killed. You noted the ANSF were going 
out on four times as many operations last year than previously, 
so more casualties could be expected. How does the increase in 
the operations tempo, up by four times, affect the complexity 
involved to train the ANSF in the capabilities that still need 
to be developed?
    General Campbell. Thank you, sir. Are you referring to the 
capabilities for the medical piece so that we can reduce the 
number of casualties, or----
    Senator Rounds. Basically, you're losing soldiers there 
right now, and yet, at the same time, you're trying to train 
them up. When you're losing them at this rate, how do you bring 
them in and get them set up and continue the training regimen 
that's necessary?
    General Campbell. Yes, sir, thank you for the question.
    Sir, as I said, probably a 5- to 7-percent increase, from 
13 to 14, four-times higher operational tempo. Most of those, 
and the higher percentage, was actually on the Afghan local 
police that are outside, in the far places of Afghanistan, that 
are designed to protect their individual villages. They're not 
equipped with the same type of heavy weapons, with the same 
type of training that the army and the regular police have. 
But, the Taliban have recognized that they are a threat to them 
because they're inside the villages and they're against the 
Taliban, they could attack them inside, so they've gone after 
those key targets, those soft targets.
    As I said, sir, the ability to recruit and train the 
Afghans has not been an issue. They continue to bring in the 
numbers they need, both on the army side and on the police 
side. The one issue, as we brought up earlier, that they need 
to work on is the number of females that they continue to bring 
in. But, I think, for the most part, they don't have issues 
recruiting them.
    What we are trying to do, though, sir, to continue to lower 
the number of ``died of wounds,'' that kind of thing, is 
increase their capability in the medical arena, on their 
casualty evacuation on their medical evacuation. I've seen some 
great achievements, here, in the last--different operations 
that they've had, where they've been able to provide that 
service to their men and women that are out there fighting. All 
of them do some of the same things that we do. They carry 
tourniquets, they have combat lifesavers. The medics wear 
insignia that recognizes them as medics, they continue to put 
as many folks in the medical training that they can. They 
understand this is an issue for morale and also leads toward a 
readiness issue. So, everybody's working this very hard, sir.
    I've talked personally to the Afghan Army Surgeon General, 
on a one-on-one session, to make sure that we can do everything 
we can do to help them build that capability. I've talked to 
the Chief of their Army, General Karimi. He's concerned about 
it, and he's increased the number of people that he sends to 
school and to make sure they continue to get all the medical 
training they can.
    Senator Rounds. Is the coordination also there between 
Kabul and the local units of government, as well, with regard 
to where the casualties are at? Is there a coordination between 
the central government and those local units of government, 
when it comes to this training?
    General Campbell. Sir, I'd have to come back to you on 
that, take that for the record.
    [The information referred to follows:]

    Yes, the Government of Islamic Republic of Afghanistan (GIRoA) in 
Kabul and the provincial governments/corps coordinate the treatment and 
transportation of military and police casualties. The Afghan National 
Army (ANA) has seven Regional Medical Hospitals (RMHs). To facilitate 
medical evacuation and casualty evacuation movements, all RMHs have a 
helicopter pad either on site or within 5 km. RMHs in Kabul, Herat 
Mazar-Sharif, Shoraback, and Kandahar have airfields within 5 km that 
can accommodate the C-208 and C-130 for fixed wing movement of 
casualties. The Afghan National Police (ANP) has one hospital in Kabul. 
A memorandum of understanding (MOU) between ANA, ANP, and the National 
Director of Security exists ensuring causalities are treated in each 
other's facilities regardless of affiliate in the outlying provinces. 
Afghan National Defense Security Forces (ANDSF) also has access to 
Ministry of Public Health (MoPH) facilities. Coordination between 
respective headquarters (HQs) in Kabul and the provinces/corps takes 
place as needed when casualties require a higher level of care not 
available in the province/corps. Capabilities in the capital often 
exceed the care available outside Kabul. For civilian casualties, MoPH, 
ANA, and ANP facilities will all provide care. If a higher level of 
care is warranted, the civilian patient will be referred, but 
transportation is not typically provided outside the province. Resolute 
Support advisors are working with GIRoA to establish a National 
Emergency Medical Response Center to better coordinate both military 
and civilian casualties. In addition, advisors are steering GIRoA to 
develop the Afghanistan Medical Council (AfMC) to assist in bridging 
gaps. AfMC is an independent, statutory governing body to oversee and 
regulate certification of medical professionals, medical practice, 
medical and graduate medical education, and development of a National 
Healthcare System to provide and standardize healthcare services 
throughout Afghanistan.

    General Campbell. I would tell you that there's--I can 
talk, as far as the military side. I can't talk to you as far 
as the civilian piece.
    I have looked at Afghan hospitals inside of Kabul on the 
civilian side to make sure they can take some of the military 
casualties. The military have their own hospitals. We just 
finished a brand-new one out in the 201st Corps, out in 
Nangahar, that's actually quite good. So, I couldn't tell you 
that kind of coordination between them work. I know there are 
memorandums of understanding between the army, the police, the 
NDS, and the intelligence arm to make sure they share those 
facilities to bring the military folks in. They do bring in 
civilian casualties to the military hospitals, as well, and 
initially work them there.
    So, if you're referring to that kind of coordination, yes, 
sir, they do do that.
    Senator Rounds. Thank you, sir.
    I yield back my time.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    General, thank you, I'm so sorry I had other--I was in 
other meetings, there. But, I appreciate you being here.
    We hear an awful lot about what's going on, what caused--in 
Iraq, we fell backwards. We lost Mosul, we lost a lot of our 
equipment. You would think all the money that we invested in 
training and equipping would have been put to better use than 
what it was.
    Now we have Afghanistan, and we hear we're back down--going 
to be down, at the end of the year, to 5,500. Just really 
briefly, what do you think it will take us to maintain a 
presence so that we don't fall backwards in Afghanistan? What 
do you think is going to maintain to get Iraq back to where it 
can sustain itself?
    General Campbell. Sir, I think the key there, really, for 
Afghanistan, is to continue to build upon the capacity of the 
Afghan forces so that they have the requisite skill sets to 
make sure that they don't do what the Iraqi army did, and 
that's fall apart. They have leadership, they have the right 
equipment, they have the right training. I just don't see that 
happening in Afghanistan.
    Senator Manchin. But, General, it seemed like it takes our 
presence for that to happen. When our presence was gone--we 
should have seen Maliki falling apart and not having anything, 
as far as a contingency plan, if you will. I'm just saying 
that, back home in West Virginia, they want to know, ``do we 
have to go back and re-buy it all over? Like we do in Iraq? Can 
we prevent that in Afghanistan?''
    General Campbell. Sir, again, I believe the Afghan Security 
Forces are not going to let Afghanistan go in the way that Iraq 
did.
    Senator Manchin. I gotcha.
    General Campbell. They've told me that. I've seen the 
senior leadership in the army and the police tell me that. They 
believe that, strongly. They have a government now that wants 
to continue to work with the international forces, wants to 
continue to provide requisite resources and authorities for 
their leadership not to let them go down that route. As I told 
you before, they went through the election last year, people 
thought they would fracture among ethnic lines. They did not. 
They're very proud of that.
    I just don't see that happening, sir, with continued 
training and they continue----
    Senator Manchin. Sure.
    General Campbell.--to build that up on the Afghan forces, 
both the army and the police. I don't see that happening.
    Senator Manchin. General, my other concern is the economy. 
I've always believed--and I've been there a few times, myself, 
talking to different people. Their economy in 2001, when all 
this began, was about $4 billion. That was their economy, as 
far as in Afghanistan. That went from $4 billion to $20 
billion, based on American input of money and the war effort 
that we put there. So, their economy was based or wrapped 
around us. That--it had continued to grow, and it was spiking 
up to 14.4-percent growth rate in 2012. Then it fell to 1.5-
percent growth rate, as we started retracting. Opium 
cultivation was up by 7 percent, I think, last year. But--and 
production increased by 17 percent. It's been reported that 
opium traffic business makes up one-fifth of the size of the 
Afghanistan legitimate gross domestic product.
    How will the country ever be able to stand up on its own? 
That's the only thing--when the drug trade is so profitable--
how can we divert them from the drug trade? If they don't have 
the war effort and the amount of money we're pumping into it, 
and we try to get them off the drug trade, where can they 
stabilize that economy, sir?
    General Campbell. Sir, leadership's going to make a 
difference. I think, with President Ghani there, understanding 
the issues he has with the narcotics and the drug smuggling, 
going after that, provide the right leadership and the right 
resources to go after that, will continue to help.
    He is going after this entire piece on the economy. I said 
earlier, he spends 40 percent of his time just on the economy, 
from a regional perspective. He knows he can't do it just 
within Afghanistan, although years and years down the road, 
with the minerals they have, the mines they have, with the 
agricultural base that they have, they're going to get much, 
much better. But, he knows it's going to take years and years. 
He's going to be dependent upon the donor nations for the next 
several years. But, he's reached out to the entire region to 
help him on the economic realm. When he first visited Pakistan, 
he talked again about security, he talked about economics, he 
talked about sharing of intelligence, he talked about people-
to-people. So, that is foremost on his mind.
    Sir, he has a background from the World Bank. If there's 
anybody that can turn Afghanistan around and their economy 
around, it's going to be President Ghani. But, it's going to 
take considerable time, sir.
    Senator Manchin. My time's just about up. I just would say 
that I'd like to talk to you more about that, as far as on the 
precious metals--extraction of precious metals. Who--what part 
of the world is getting those contracts? China has been a big 
player in copper. I don't think we have a United States 
corporation that basically has been a player over there, even 
though we're giving them the support and protection in order to 
harvest that. So, I--my time is up, sir, but I'd like to talk 
to you in more----
    General Campbell. Okay, sir.
    Senator Manchin.--detail about that.
    Thank you, General.
    General Campbell. Thank you, sir.
    Chairman McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    General Campbell, thank you for your distinguished service.
    I wanted to go back. To me, the humanitarian--positive 
humanitarian impact that we've seen in Afghanistan since 2001, 
I hope that the media and the American people understand the 
miraculous turnaround of this country. Just to go back and to 
note, the life expectancy you're talking about, from 43 years 
old to 64 years old; schools where you had fewer than 900,000 
students, virtually none of them women, now we have 8 million, 
with 36 percent of them females. The numbers here are 
startling.
    To a certain extent, we all know that what, first and 
foremost, have to do is implement a strategy in Afghanistan 
that prevents terrorists from preparing themselves to launch 
attacks like they did on September 11. That's very important. 
It should be the first priority. But, I also think that those 
who seem to want to have a precipitous withdrawal from 
Afghanistan forget the tragic humanitarian crisis that would be 
created if we did that. I hope that we start weaving into the 
narrative, this is not only about our national security, but 
this is about a city that went from a city of ruin to a city of 
lights, fastest--fifth fastest growing city in the world. 
There's a lot of hope there, and I think that the Afghani 
people are looking to the United States to let them continue to 
make the progress that we think they're in a position to make.
    My question relates to a--Chairman McCain mentioned that 
some of our members met with President Ghani, and he talked 
about flexibility. You talked about some changes that you've 
recommended to your leadership. Are the changes that you've 
recommended substantially aligned with what President Ghani is 
wanting, in terms of the current strategy for withdraw and 
reduction--a reduction of troops?
    General Campbell. Sir, I've not specifically talked to 
President Ghani about the options, but I've been with him 
several times a week. We've talked about what it would take to 
continue to provide flexibility for me, as the ground 
commander, so he knows where I stand on that. But, I think he 
would support the options I've presented, yes, sir.
    Senator Tillis. How do you feel about how those options 
have been received by your leadership or the administration? In 
other words, to what extent do you think that they'll be acted 
on and then you'll be given the authority to act on the options 
that you've recommended?
    General Campbell. Sir, we're in discussions right now. 
There is a process we go through, just like we did back in 
October, November, December, when I worked the enablers and the 
authorities and the bridging strategy that the President 
allowed, the 1,000 bridging strategy that he gave me to 
continue with the Resolute Support Mission. So, we're talking 
those now, and I feel very good about where we're at, sir.
    Senator Tillis. Would you characterize those changes or 
those additional options as minor course corrections or some 
fundamental shifts in certain areas, based on the current 
strategy?
    General Campbell. Sir, I'd characterize it as--as I said to 
this committee 7 months ago, that, when I got on the ground, I 
would make continual assessments. I've had 6 months on the 
ground now to make those assessments of both where our forces 
are, where the Afghan Security Forces are, where the threat is, 
what has changed in Afghanistan, as I outlined in my oral 
statement, and, based on that, provided this flexibility that I 
think both President Ghani has asked for and that will stay 
within where we need to be to reach our strategic objectives 
inside of Afghanistan.
    Senator Tillis. General, the trajectories that you would 
create by looking at the Taliban in 2001 in Afghanistan, and 
the current situation, do you believe, if we stay on the 
current course, that we could expect these very positive trends 
to continue at their same pace, or will their progress, going 
forward, be impeded?
    General Campbell. Sir, I think, in some areas, we'll 
continue to have the same pace, or maybe increased pace, based 
on the capability the Afghans have been built up over the last 
13 years in some of those areas. In some areas, it may stay the 
same. In some areas, it may go slower.
    Senator Tillis. Any particular areas where you think are at 
risk? Of those areas, are there any that you're in a position 
to say are at clear risk, current strategy?
    General Campbell. Sir, are you talking about the ones----
    Senator Tillis. Yeah, I'm talking more on the humanitarian 
side.
    General Campbell. Sir, I think--really, I feel very 
comfortable that the Afghans have worked with many of the 
Nations, to include the United States Embassy there, on many of 
those areas on the humanitarian side, to build their own 
capability and capacity. I'd really leave that to Ambassador 
McKinley and his folks to answer in great detail.
    But, sir, I think they've built the capacity of many of 
those areas, and I would feel very comfortable that, in most of 
the sectors that we showed up here, would continue to at least 
stay where they're at or continue to grow.
    Senator Tillis. Well, thank you. I just want to thank you 
and the men and women who have served over there. I hope that 
they realize that's why those pictures are looking the way that 
we're looking. We thank you and them for their service.
    General Campbell. Thank you, sir.
    Senator Tillis. Thank you.
    Chairman McCain. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    The charts that you provided are really, just, stunning 
returns on investment. The question for Americans is, what does 
it matter that young girls are going to school in Afghanistan? 
It matters a lot, because you just can't kill all the 
terrorists, but if you can allow young women and young people 
to see a better future, they're going to be more resistant to 
the Taliban. What does it matter that you have access to clean 
water? It means that you have something to live for, not die 
for. So, we're trying to build an Afghanistan where people will 
reject the call to death, as the President said, and accept the 
way forward.
    Do you agree with me that most Afghans--90 percent, 
probably--have no desire to go back to the Taliban days?
    General Campbell. Sir, absolutely.
    Senator Graham. The only way they would go back to the 
Taliban days, if they lost the capacity to contain and defeat 
the Taliban?
    General Campbell. Sir, I think if they--if the Afghan 
Security Forces were not able to do that, that that would be 
the only way, yes, sir.
    Senator Graham. Do you support 352 Afghan Security Forces 
for the foreseeable future?
    General Campbell. Sir, I think the number 352,000, plus the 
30,000 Afghan local police, for their army and the police, 
continues to be the right number, the right distribution 
throughout the country that we have, yes, sir.
    Senator Graham. The cost to us would be what?
    General Campbell. Sir, we're working very hard on the cost. 
It's around $4.1 billion. This year came in a little bit less. 
We continue to work very hard to save, where we can. I think 
about $3.8 billion is what I came in with for 2016.
    Senator Graham. So, you think it's in our national security 
interest to spend $3.8 billion maintaining this force.
    General Campbell. Sir, I think the small investment for the 
Afghan Security Forces continues to provide them the ability to 
protect their country, to provide for a more stable 
Afghanistan. As I talked about in the oral statement, a safer 
Afghanistan is a safer United States.
    Senator Graham. Yeah, I don't know what $3.8 billion is of 
the total Federal budget. It's probably not a whole lot. It's 
still a lot of money to me. But, a return on investment for 
that amount, I think, is enormous. It's just simple as this. We 
can keep their army intact, they'll do the fighting, and we 
won't have to. We'll do the supporting.
    President Ghani, in Munich, suggested that, when he visited 
the United States, he would like the opportunity to thank the 
American people, and suggested whether or not a joint session 
of Congress appearance would be possible. Do you think that 
would help the overall relationship?
    General Campbell. Sir, again, President Ghani thanks the 
American people everywhere I've been with him. If he had the 
opportunity to do that with a joint session of Congress, I 
think that would be very good.
    Senator Graham. A lot of us who were on the trip in Munich, 
I think, will send a letter. I have enormous respect for the 
Speaker. This would be one appearance I think we would all 
support. I cannot tell you how hopeful I am, under President 
Ghani's leadership. If we're just smart enough to see this 
through, I think we'll get a good outcome, here. I will be 
sending that letter, along with my colleagues.
    If we go to--down to 5,500, as planned this year, without 
some adjustment, are we out of Kandahar completely?
    General Campbell. Sir, if we go to 5,500, as I said before, 
we go to Kabul-centric. Yes, sir.
    Senator Graham. Okay. So, I just want the committee to 
understand that Kandahar is just not a spot on the map. That's 
the spiritual home of the Taliban. Is that correct?
    General Campbell. Sir, that's correct.
    Senator Graham. If we hold Kandahar, there's no way they 
come back. Does that make sense to you?
    General Campbell. Sir, if the Afghan Security Forces hold 
them----
    Senator Graham. Yes.
    General Campbell.--there, yes, sir.
    Senator Graham. When I say ``we,'' I mean them, too.
    General Campbell. Yes, sir.
    Senator Graham. So, if we begin to lose in the south, will 
it have a splintering effect throughout the country?
    General Campbell. Sir, it would provide the Taliban some 
momentum. Yes, sir.
    Senator Graham. You believe, with a presence in Kandahar, 
relatively small, we can secure the gains that we've had, we've 
achieved, and it would be smart to probably keep that presence 
at least for a while longer.
    General Campbell. Sir, I think we need to continue to 
provide the Afghan Security Forces some TAA, especially on 
their air force and special operating----
    Senator Graham. Yes.
    General Campbell.--capability that they have in Kandahar.
    Senator Graham. Now, about us. Do you agree with me that 
this part of the world is a dangerous part of the world, and 
the counterterrorism platform that we enjoy today in 
Afghanistan is tremendously beneficial to protecting the 
Homeland?
    General Campbell. Sir, I concur with that.
    Senator Graham. Okay. Do you agree with me that the Afghans 
want us to stay?
    General Campbell. Sir, I'd concur with that, as well.
    Senator Graham. There's a debate about what happened in 
Iraq. There is no debate about Afghanistan. The only question 
is, Will we accept the invitation in the right format? So, 
let's end this discussion with the idea that the Afghan people, 
through their government, want us to stay.
    General Campbell. Sir, the Afghan senior leadership on the 
military side have told me repeatedly that they appreciate our 
sacrifice and they would want us to stay. Yes, sir.
    Senator Graham. That's true of their political leadership, 
also.
    General Campbell. Absolutely. Yes, sir.
    Senator Graham. It is in our national security interest to 
stay, wisely.
    General Campbell. Sir, as I talked about in the opening 
statement, a safer, secure Afghanistan provides for safety for 
our Homeland. We have not had another September 11 since we've 
been forward-deployed. The pressure that the brave men and 
women continue to apply to the terrorist networks inside of 
Afghanistan have prevented them from being able to come to the 
United States. I do believe that.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you very much, General Campbell, for 
being here. Thanks for all you do to protect our country and 
keep us safe.
    The mission in Afghanistan that we have, as stated in the 
2001 Authorization for the Use of Military Force there, was, of 
course, to use force against all nations, organizations, and 
individuals deemed to have been involved in the planning, 
authorization, and commission of the attacks of September 11th, 
or to have perpetrated them, or to have harbored those who did. 
So, our goal was basically to punish those who perpetrated the 
attacks and to prevent future attacks against U.S. citizens.
    Today, what can you tell us about what the capacity is of 
terrorist groups that may be operating in Afghanistan and in 
Pakistan to launch attacks against the United States? How have 
the capabilities and the ambitions of those groups trended over 
the last 5 years? How does it look today, as compared to 5 
years ago?
    General Campbell. Sir, I can give you a very general answer 
on that, and then would prefer to go in a classified session if 
you want to go into more detail on that. But, my read would be 
that, based on, again, our presence inside of Afghanistan, with 
a great counterterrorism capability, we've been able to 
continue to keep pressure on insurgents that would want to do 
harm to both Afghanistan and to other nations, to include 
Europe and the United States. I think, over the last several 
years, we've been able to keep that pressure down--or, keep 
that pressure on them, and that has limited their ability to 
plan attacks against our Homeland.
    Senator Lee. You feel good about the improvement that's 
been made over the last 5 years on that front.
    General Campbell. Sir, I do.
    Senator Lee. Where----
    General Campbell. Sir, if I could rephrase----
    Senator Lee. Yes. Yes, sure.
    General Campbell.--that, I feel very good about the last 6 
months, in what I've seen on the ground in Afghanistan on that.
    Senator Lee. Okay. So, more--you've seen more progress in 
the last 6 months than you perhaps saw----
    General Campbell. Well, I've been over there the last 6 
months----
    Senator Lee. Right.
    General Campbell.--so I can talk from a perspective of 
seeing that, myself. I can't talk about before that.
    Senator Lee. Understood. Understood. Thank you.
    Where are the insurgent groups fighting against the Afghan 
Government and coalition forces--where and how are they 
generating their funding, their weapons, and their recruits? 
What are we, as the United States--what are the U.S. Armed 
Forces doing to disrupt those networks of funding and the 
supply chains for their arms and so forth?
    General Campbell. Sir, again, I'd rather give you a broad 
general answer and discuss a little more in detail in a 
classified hearing.
    But, as we mentioned before, some of the funding comes from 
the drug trade, some of the funding comes from minerals, some 
of the funding is just from other Gulf nations, some of it is 
from weapons smuggling. So, there's a long list of things that 
provide insurgency funding with--inside of Afghanistan. I think 
that both President Ghani understands that, Dr. Abdullah, the 
Security Forces understand that, and they're continuing to work 
very hard on attacking the sources of that funding to limit 
what the insurgents can--could actually do.
    Senator Lee. What's your assessment of the new Afghan 
government's attempts to form an inclusive government and the 
relationship between the civilian leadership in Kabul, on the 
one hand, and the Afghan National Security Forces, on the other 
hand?
    General Campbell. Sir, I think both President Ghani and Dr. 
Abdullah have worked very, very hard to maintain a National 
Unity Government, to form this National Unity Government. I've 
been with both of them several times. They both have given up a 
little bit to move Afghanistan forward as they went through 
this election. I think they complement each other.
    I think President Ghani has taken on the role of Commander 
in Chief. We haven't seen that before. He's told all of the 
Afghan police and the army that their welfare is his welfare. 
He's personally involved in every facet of their leadership, of 
how they get resources. He continually goes out to different 
sites to show the Afghan army and the police that he is their 
Commander in Chief. So, sir, he is--he's gainfully employed to 
show them that he cares for them, and everything about them, 
which I had never seen before underneath President Karzai.
    Senator Lee. Is the Afghan Government, in your opinion, on 
track to increase their level of burden-sharing in supporting 
the ANSF and becoming self-sustaining and self-governing?
    General Campbell. Sir, they're working it this year. I 
think they showed us that they could provide the requisite 
amount that we asked them to do. But, it's going to take 
continued time on their entire holistic economic approach. 
Again, President Ghani knows he can't do that just by himself, 
but he has to engage with the region to be able to do that. 
He's very dependent upon, not only the United States, but the 
other donor nations. But, he's taken a hard look at how he can 
attack this problem by visiting, himself, several key leaders 
in the region. He talks about different agreements that he's 
making with other countries around to provide railroads, 
provide ways to transport agriculture outside of Afghanistan, 
to take a look at the mining industry, on and on. So, sir, he's 
engaged in this every single day.
    Senator Lee. Thank you very much, General.
    General Campbell. Thank you, sir.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    General, thanks again for your service, all your staff for 
your service.
    Your opening comments, I think your themes about service 
and sacrifice and, importantly, success are very powerful, and 
I think they're important for the American people to know. I 
also appreciate your emphasis on military families and their 
sacrifice. Many ways, the unsung heroes of the last several 
years.
    But, I think one of the general themes here that you're 
seeing is that people are applauding the success. But, we had 
General Mattis in here last week, talking about how it's clear 
that the successes that we've seen in a whole host of areas 
that you've listed could be reversed, that they're fragile in 
many ways. The broader issue that I think most of us are 
concerned about is a replay of what's happened--or what 
happened in Iraq.
    As a military leader--Senator Kaine spoke eloquently about 
this a couple of minutes ago--do you think it's important to 
have condition-based withdrawal dates or transition dates based 
on success that you've been talking about, versus a calendar-
based withdrawal?
    General Campbell. Sir, thanks for the question.
    I think it's important that the military commander on the 
ground be able to provide his best military advice to his 
senior leadership as he takes a look at a whole bunch of 
different variables on the ground--the enemy, the situation of 
the Afghan Security Forces, those type of things. I've 
continued to do that for the last 6 months, and again, I've 
provided options, in this winter review process, to my 
leadership, that I believe allows us the flexibility to both 
President Ghani, the Afghan people, that will continue to keep 
us on a road to be successful like this.
    Senator Sullivan. So, your approach is definitely 
conditions-based versus a date on a calendar that says we're 
leaving.
    General Campbell. Sir, I think there's a lot of different 
conditions that go into the recommendations that I provide. 
Time is one of those. Yes, sir.
    Senator Sullivan. So, I think--the other thing that I think 
is a big responsibility for all of us--for you, for us in the 
Congress, for the executive branch--is, when we're looking at 
our challenges--and there are many national security 
challenges--that we level with the American people. They want 
to know what those challenges are, they want to know we have a 
strategy. I appreciate your candor today. I think you're 
epitomizing that kind of straightforward leveling with the 
people that I think is so important as we address these 
challenges.
    The President has already declared that the United States 
combat mission in Afghanistan has ended. Yet, a lot of the 
discussion today, we've been talking about a U.S. 
counterterrorism mission. So, he says ``combat--the combat 
mission is over,'' but we've been talking about a 
counterterrorism mission. I think the counterterrorism mission 
is very important for, obviously, its broader strategic 
implications, in terms of protecting the Homeland, but isn't 
a--isn't the U.S. combat--isn't the U.S. CT mission a combat 
mission right now?
    General Campbell. Sir, there's no doubt that I have, with 
the United States Forces-Afghanistan and then with a NATO hat, 
a couple of different missions. One is TAA, and one is the 
counterterrorist mission. There's no issue about--from the 
President on down--that we have that mission.
    Senator Sullivan. Yes, it just seems to be a disconnect. 
Again, I know this isn't where you're focused, but it does seem 
to be a disconnect between what the President's telling the 
American people, ``We're done with combat operations in 
Afghanistan,'' and yet we have a robust, it sounds like--an 
important CT mission that we're still undertaking. Again, I 
think this goes to the leveling with the American people on 
what we're actually doing.
    Do you have--in terms of a robust CT mission, can that be 
supported by the current troop levels contemplated by the 
President?
    General Campbell. Sir, I don't think I used the word 
``robust,'' but I do have enough of the resources for the CT 
mission that I currently have right now. We have downsized our 
CT capability over the last several years. This, as we've 
downsized the other forces out there. But, I do believe I have 
the requisite resources to continue with the current CT mission 
that I have.
    Senator Sullivan. Would you, in 2016, if we are on this 
trajectory that the President's talked about?
    General Campbell. Sir, I would have to go make sure that I 
had that flexibility within those numbers on the different 
missions that I would have. I think right now--I'd have to go 
back and make sure that was within those options that we 
provided to the senior leadership.
    Senator Sullivan. Okay, thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. General, we thank you for being here. I 
enjoyed our conversations and visit, Christmas-time, when I was 
with you in Kabul.
    Every witness before this committee, and every retired or 
military man or woman, believes that we cannot have a calendar-
based withdrawal from Afghanistan. We certainly don't want to 
see what the President described in 2014, ``a normal embassy 
presence with a security assistance component, just as we've 
done in Iraq.'' We don't want to do ``just as we we've done in 
Iraq,'' obviously.
    I'm keenly appreciative of your role in the decisionmaking 
process as a uniformed military leader, but it's very clear 
that, unless we change what is now the course we're on, then we 
are going to have enormous difficulties in Afghanistan.
    By the way, I appreciate those pictures. It's also a fact 
that you can't go downtown Kabul, any American can't, without 
armed escort. You can't drive around Kabul unless you're in an 
armored vehicle. The Ring Road that we thought was going to 
connect all of Afghanistan is not safe in many parts. The 
Taliban control it. So, yes, there has been a lot of progress, 
but there is a number of areas, including the fact that we 
still haven't gotten a handle on this terrible thing, where 
Afghans in uniform shoot American military members.
    So, we have a long way to go, and you have to speak truth 
to power, not just because of the fact that the situation on 
the ground argues for conditions-based withdrawal, but I think 
you owe it to the men and women who are still serving over 
there. Because if you believe, from your assessment, that, if 
we go to a Kabul-based situation by the end of 19---excuse me--
embassy-based situation by the end of 2016, a normal embassy 
presence, then you have to speak up, because too many young 
Americans have already lost their lives and their limbs in 
Afghanistan. I and others have been there since the beginning, 
and we can't allow their deaths to be in vain.
    So, I strongly urge you, when you counsel the President, to 
do the right thing. We all know what the right thing is.
    I thank you for being here today.
    Senator Reed, did you have anything?
    Senator Reed. No, thank you, Mr. Chairman.
    Chairman McCain. This hearing is adjourned. Thank you, 
General.
    [Whereupon, at 11:45 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
 united states counterterrorism capacity and capabilities required in 
                              afghanistan
    1. Senator McCain. General Campbell, one of the two missions for 
the United States military in Afghanistan is counterterrorism. Former 
National Counterterrorism Center Director Michael Leiter said yesterday 
``I absolutely agree that simply an embassy force in 2016 will not be 
sufficient to provide intelligence, the direct action and the advise 
and assist to the Afghan National Security Forces to make sure that we 
are detecting and disrupting transnational plots in the region.'' How 
many United States Special Operations Forces do we have in Afghanistan 
now, and in your opinion, what capabilities and what number of troops 
do we need to maintain in Afghanistan after 2016 to ensure terrorist 
safe havens do not allow the growth of capability for terrorist 
organizations to threaten the U.S. Homeland?
    General Campbell. [Deleted.]

    2. Senator McCain. General Campbell, please describe the capacity 
and capabilities to launch attacks against the United States by 
terrorist groups that are operating in Afghanistan and in Pakistan and 
describe how capabilities and the ambitions of those groups trended 
over the last 5 years? In other words, how does it look today as 
compared to 5 years ago?
    General Campbell. [Deleted.]

                          mission authorities
    3. Senator McCain. General Campbell, please define which 
authorities have changed in the transition of missions from 
International Security Assistance Force (ISAF) to Resolute Support 
Mission and from Operation Enduring Freedom to Operation Freedom's 
Sentinel, that is from 2014 to 2015, and explain how the new authority 
impacts and limits your operations?
    General Campbell. Under Operation Freedom Sentinel, we no longer 
target belligerents solely because they are members of the Taliban. 
However, to the extent that Taliban members or individuals of other 
groups directly threaten the United States and coalition forces in 
Afghanistan, United States forces are authorized to take action in 
self-defense, in the defense of others (such as our North Atlantic 
Treaty Organization (NATO) partners), and to protect the force. United 
States forces also continue to target the remnants of al-Qaeda in 
Afghanistan, to prevent an al-Qaeda resurgence or external plotting 
against United States targets or the Homeland. In order to protect and 
safeguard the progress we have made in building a stronger, more 
stable, and more resilient Afghanistan. United States forces, along 
with our NATO allies, also continues to train, advise, and equip the 
Afghan National Defense Security Forces (ANDSF), and as part of this 
mission, may provide combat enabler support to the ANDSF in limited 
circumstances to prevent detrimental strategic effects to these Afghan 
security forces.
    I am comfortable that we have sufficient operational authorities on 
both the U.S. (Freedom Sentinal) and NATO (Resolute Support) sides to 
perform my mission, which is primarily to conduct counterterrorism 
operations against remnants of al-Qaeda, to train, advise, and assist 
(TAA) Afghan forces, and to protect the force.

         authority for close air support and medical evacuation
    4. Senator McCain. General Campbell, the media reports that the 
United States can provide close air support to Afghan forces in 
extremis. When are you allowed to support Afghan operations?
    General Campbell. [Deleted.]

    5. Senator McCain. General Campbell, what do you consider ``in 
extremis,'' and can you give a few examples?
    General Campbell. [Deleted.]

    6. Senator McCain. General Campbell, when are you able to provide 
medical evacuation for Afghan forces?
    General Campbell. [Deleted.]

    7. Senator McCain. General Campbell, CBS reports that ``If the 
United States detects a group of Taliban or Haqqani fighters preparing 
to attack American or coalition troops, the U.S. troops can go after 
them. However, United States troops can't conduct offensive operations 
on any Taliban forces they locate. Those forces have to be threatening 
U.S. troops.'' Is this true, and what determines what the policy is on 
what American airpower can be used against and what it can't be used 
against?
    General Campbell. [Deleted.]

               authority for counterterrorism operations
    8. Senator McCain. General Campbell, how does an announcement that 
we are only going after al-Qaeda affect the operational execution of 
the counterterrorism mission?
    General Campbell. [Deleted.]

    9. Senator McCain. General Campbell, do you have the leeway to go 
after other terrorists not a part of al-Qaeda, and if so, using what 
authority?
    General Campbell. [Deleted.]

    10. Senator McCain. General Campbell, in your opinion, what should 
be the defining characteristic of terrorist organizations in 
Afghanistan that United States Forces should be allowed to target?
    General Campbell. [Deleted.]

    11. Senator McCain. General Campbell, if the Islamic State of Syria 
and Iraq or another organization with global ambition arises, should we 
also target that organization?
    General Campbell. [Deleted.]

    12. Senator McCain. General Campbell, the media reported a drone 
strike in Afghanistan killed Abdul Rauf who was a militant commander 
who recently swore allegiance to the Islamic State. What authority 
allowed you to strike a target that was neither al-Qaeda nor Taliban?
    General Campbell. [Deleted.]

                         afghan special forces
    13. Senator McCain. General Campbell, please describe the current 
size of the Afghan Special Forces as well as how much capacity and what 
key capabilities the Afghan Special Forces must develop to reach full 
operational capability. Additionally, with the current plan to draw 
down coalition troops, how long will it take for the Afghan Special 
Forces to reach full operational capability?
    General Campbell. The Afghan Special Security Forces (ASSF) are 
composed of over 17,000 highly trained operators divided across the 
Ministry of Interior (MoI) and Ministry of Defense (MoD), including the 
Afghan National Army Special Operations Command (ANASOC), the General 
Command of Police Special Units, the MoD Ktah Khas, and the Special 
Mission Wing (SMW). The ANASOC, the largest unit, is comprised of 10 
special operations kandaks (battalions). The General Command Police 
Special Units includes 3 MoI National Mission Units (NMUs) and 33 
Provincial Special Units (PSUs). NMUs conduct a range of policing 
functions from counter-terrorist operations to high-risk arrests and 
hostage recovery. The PSU provides a relatively sophisticated quick-
reaction capability and special investigative element for the province. 
The Ministry of Defense's Ktah Khas is a battalion of highly-trained 
counterterrorism forces. The SMW is a special operations aviation unit 
that supports both MoD and MoI ASSF units with night helicopter assault 
capability and intelligence, surveillance, and reconnaissance.
    Current TAA priorities for developing the ASSF are focused on their 
ability to conduct mission command and operational planning, fuse 
intelligence with other Afghan security pillars, integrate with and 
receive support from the Afghan National Army (ANA), maintain 
sustainable logistics and budgeting, as well as manage human capital. 
The SMW must continue to expand nation-wide operational reach and 
improve their organic maintenance capacity.
    Sustained effectiveness in these categories will likely require 
several more years of focused TAA support. Many other factors weigh on 
the ASSF progress rate including the overall economy and budgets for 
Afghanistan's security institutions, as well as political support for 
proper use of and leadership within the ASSF. Our estimates for future 
partnering demands will remain conditions-based, and we will track the 
performance of the ASSF closely in the coming fighting season.

                            afghan aviation
    14. Senator McCain. General Campbell, the Afghan Air Force (AAF) 
must be able to conduct air lift and air strike operations. Please 
describe the current size and capability of the AAF, what full 
operational capability means, and with the current plan to draw down 
coalition troops, how long will it take for the AAF to reach full 
operational capability?
    General Campbell. [Deleted.]

                         definition of success
    15. Senator McCain. General Campbell, as you look at Helmand, 
Kandahar, Nuristan, and Kunar, what is your definition of success in 
those areas at the beginning of 2017?
    General Campbell. These provinces are traditionally enduring 
operational and support zones for insurgent elements. While each area 
is characterized by unique threat dynamics and factors, the challenges 
they present to the Government of the Islamic Republic of Afghanistan 
(GIRoA), its authority and the integrity of Afghanistan, are broadly 
the same. These areas are seams through which insurgent elements stage, 
transit, and facilitate the personnel and material (i.e. weapons, 
explosives, narcotics, etc.) to attack GIRoA and the ANDSF locally, as 
well as to impact areas in and around Kabul.
    NATO has ended its combat mission and the United States has 
significantly reduced its military presence throughout Afghanistan. As 
a result, success at the beginning of 2017 in these specific areas 
rests with the efforts of GIRoA and ANDSF for the following: transition 
to and maintain an offensive posture and mindset; place relentless 
pressure on insurgent forces and their support zones (aka safe havens); 
clear and hold many of these safe havens; capture and kill increasingly 
significant numbers of insurgent leaders and fighters; and reduce 
significantly civilian casualties which will demonstrate ANDSF's 
ability to protect the populace.
    The intended overall effect of these ANDSF offensive operations is 
to force insurgents to expend increasing effort on self-defense and 
survival. This reduces their ability to maintain the initiative, attack 
outward and, critically, prevents them from achieving their strategic 
objectives of overthrowing GIRoA and ruling Afghanistan. Strategic 
communications will also be vital. If GIRoA demonstrates to key 
audiences (Afghan population, Taliban, insurgency sponsors, 
international community) that the insurgency cannot achieve its goals, 
then confidence in the ANDSF and thus Afghan Security Institutions and 
GIRoA will improve. This will set necessary conditions to achieve 
President Ghani's reconciliation policy.

                             reconciliation
    16. Senator McCain. General Campbell, you talked about the efforts 
of President Ashraf Ghani and Chief Executive Officer Abdullah Abdullah 
to reach out to the Taliban and to try and begin some sort of 
negotiations. Please provide a description of how far along that is and 
your assessment of key factors required for reconciliation and the 
chances for success in the next 3 to 4 years.
    General Campbell. [Deleted.]

                           taliban resources
    17. Senator McCain. General Campbell, please describe the sources 
and rough order of magnitude of amounts of funding for the Afghan 
Taliban including your assessment of what percentage of their overall 
funding each source provides.
    General Campbell. [Deleted.]

                        afghan fighters in syria
    18. Senator McCain. General Campbell, there are reports that Afghan 
fighters, specifically Hazara, are supporting Hezbollah and Quds force 
efforts in Syria. Are you aware of any Afghans being recruited or 
trained to fight in Syria?
    General Campbell. [Deleted.]

                                 combat
    19. Senator McCain. General Campbell, although President Barrack 
Obama has declared the end of the U.S. `combat mission,' it appears 
that the United States will still be conducting `combat operations' 
including counterterrorism operations. As a warfighter, do you see a 
large distinction between combat `mission' and combat `operations'?
    General Campbell. Although the formal combat mission has ended, we 
are still operating in a combat environment. Whether conducting 
counterterrorism missions against al-Qaeda or tactical TAA operations 
with our Afghan partners, prudent military planning demands that we 
always prepare for the worst case scenario.
    Regarding how we approach the fight, the fundamental difference 
between prior years and this current phase of the campaign is that the 
Afghans are truly in the lead both in the overall combat mission and 
other operations throughout Afghanistan. Limited U.S. and coalition 
presence on TAA operations is intended to provide over-watch during 
mission planning and execution.

    20. Senator McCain. General Campbell, as a military commander, how 
does that change your approach to the fight?
    General Campbell. Although the formal combat mission has ended, we 
are still operating in a combat environment. Whether conducting 
counterterrorism missions against al-Qaeda or tactical TAA operations 
with our Afghan partners, prudent military planning demands that we 
always prepare for the worst case scenario. When a mission requires 
putting our service men and women in harm's way, my duty as their 
commander is to ensure they have the necessary resources required to 
support our Afghan partners and to neutralize any force protection 
threat they encounter during execution of their mission.

                            force protection
    21. Senator McCain. General Campbell, you've said that the Afghans 
provide an outer ring of force protection to United States and 
coalition forces. Can you describe how important Afghan capabilities 
are to the protection of U.S. Forces, and how many of your current 
number of coalition troops are primarily devoted to your own force 
protection?
    General Campbell. [Deleted.]

                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                insider threats and afghan human capital
    22. Senator Wicker. General Campbell, on January 31, 2012, Lance 
Corporal Eddie Dycus, a constituent of mine hailing from Greenville, 
MS, was fatally shot in the head by an Afghan Army liaison officer 
embedded with his unit in Helmand Province.
    On August 5, 2014, a self-radicalized Afghan military policeman 
fatally shot United States Army Major General Harold Greene and wounded 
over a dozen NATO personnel at a training center in Kabul. General 
Greene's death not only marks the highest-ranking casualty in the 
Afghanistan conflict--it is also the first time an Army officer with a 
major general rank or higher has been killed by enemy fire overseas 
since Vietnam.
    Building the capacity of the Afghan security forces is a key 
element of our Afghanistan policy. I believe a successful Afghan 
security infrastructure will rely in part on two critical pillars: (1) 
the trustworthiness and loyalty of personnel; and (2) their capacity to 
adequately execute their job functions.
    If left unaddressed--I fear the intake of rogue and incompetent 
personnel into the Afghan military and security services could have a 
catastrophic impact on Afghanistan's viability as a secure and stable 
state.
    What is your current assessment of the ``insider threat'' facing 
our troops from rogue elements and individuals within the Afghan 
Security Forces?
    General Campbell. [Deleted.]

    23. Senator Wicker. General Campbell, I believe we must do all we 
can to avoid a garbage-in/garbage-out situation with regard to our 
training programs in Afghanistan. How are we screening applicants for 
our training programs?
    General Campbell. In accordance with ISAF orders published in 2013 
(which are still applicable) the eight-step vetting process which the 
Afghan General Recruiting Command (GRC) uses includes the following 
tools to ensure that Afghan National Police (ANP) recruits are screened 
prior to entry to the force: identification check, two guarantors of 
personal information verification (usually from tribal elders), 
criminal check, verification stamp, drug screening, medical screening, 
and personal data (biometric) screening.
    In addition to this eight-step process, the Afghanistan National 
Defense Security Forces (ANDSF) implemented a counterintelligence 
vetting program for all new recruits (DOD 2013a, 24); and immediately 
started revetting all personnel as they return from leave. Once 
screened in accordance with the above process, ANP are allowed to 
attend training.
    Each Afghan student is screened multiple times from several sources 
prior to travelling to the United States for training. The screening 
includes internal screenings from the applicable Afghan Ministry, Leahy 
Vetting for Human Rights Violations as well as the standard Non-
Immigrant Visa application screening by the State Department. All 
candidates are also screened through the Biometrics Automated 
ToolsetSystem.

    24. Senator Wicker. General Campbell, what tools do you utilize to 
ensure that prospective applicants are not members of the Taliban?
    General Campbell. In accordance with ISAF orders published in 2013 
(which are still applicable) the eight-step vetting process which the 
Afghan GRC uses, includes the following tools to ensure that ANP 
recruits are screened prior to entry to the force.
    In addition to this eight-step process, the ANDSF implemented a 
counterintelligence vetting program for all new recruits (DOD 2013a, 
24); and immediately started re-vetting all personnel as they return 
from leave. Once screened in accordance with the above process, ANP 
recruits are allowed to attend training.
    Each Afghan student is screened through their respective ministry, 
the Department of State's Leahy Vetting system, Non-Immigrant Visa 
Application screening, and through the Biometric Automated Toolset for 
any items in their past that would preclude them from travelling to the 
United States.

    25. Senator Wicker. General Campbell, how capable are current 
graduates of our training programs in Afghanistan?
    General Campbell. Afghan graduates of U.S.-based Professional 
Military Education programs are able to perform the tasks for which 
they were trained, including pilots being able to fly, maintainers able 
to maintain aircraft, and Special Forces qualified individuals able to 
perform special operations.
    Within the last 3 years, all U.S.-led training programs 
transitioned to the Afghans. They currently have control of the 
execution all training programs with the exception of specialized 
training programs which are not yet ready for transfer. Nevertheless, 
the United States and coalition advisors, as well as contractors and 
several International Community Law Enforcement Professional continue 
to advise the Afghanistan National Police (ANP) in the development of 
their courses, and continually conduct assessments of their training 
programs. These advisors report the training programs are of excellent 
quality, and graduates of these programs are capable of fulfilling 
their duties. Advisors consider the Afghan police instructors extremely 
capable and very experienced. An example of this is the firearms 
training that Afghan police provide to new Afghan police. Firearms 
instructors provide quality hands-on demonstrations and instruction, 
including a combination of classroom and practical exercises for a 
total of 40-60 hours. The instruction provided is on par with any U.S. 
police basic academy training.
    Graduates of flying training and aircraft maintenance courses have 
proven capable but still require years of continued skills development 
and experience to become fully capable of operating rotary wing and 
fixed wing aircraft in combat operations. The average pilot requires 
3\1/2\ years to become fully mission qualified in fixed wing or rotary 
wing aircraft. The average aircraft maintenance specialist requires 
approximately 7 years to become fully qualified as a maintenance 
supervisor. Train, advise, and assist command-air continues to see 
steady growth in aircrew advanced capabilities but Afghan aircrew and 
aircraft maintainers are generally slower to learn than their western 
counterparts and will take additional time to grow the confidence, 
situational awareness, and experience required to reach their full 
potential.

    26. Senator Wicker. General Campbell, are applicants literate and 
willing to learn?
    General Campbell. All Afghan soldiers are required to be at a 
minimum educated up to a third grade level as defined by the Ministry 
of Education. If they are not already educated to that level or higher 
when they are processed into the military, they are identified for the 
Afghan Literacy program, which provides literacy training up to a 3rd 
grade level in both Pashto and Dari, and takes place at all their 
regional training centers, as well as at the Darulaman Literacy Center 
in Kabul. Up to this point, over 300,000 Afghan soldiers over 6 years 
have been trained through this program, and the classes that are 
offered are always filled to capacity, oftentimes with requests for 
additional classes.
    All Afghans sent to the United States for training have at least a 
base level knowledge of English and are further trained to higher 
English level standards at the Defense Language Institute at Lackland 
Air Force Base. During the past 3 years, over 89.8 percent of the 
Afghans sent to training successfully completed their scheduled course 
of instruction.
    AAF candidates come from the same pool of human capital that 
provides personnel to the ANA and other Afghan National Defense 
Security Force elements. With Afghans in general having an 
exceptionally low literacy rate, the AAF is challenged to find suitable 
candidates to meet the technical requirements needed to succeed in the 
aviation field. Additionally, English language requirements further 
decrease eligible candidates and greatly increase in-country, pre-
training requirements (English) which directly increase timelines 
associated with individuals becoming mission capable. To date, we've 
seen that most applicants are very willing to learn and most are able 
to successfully complete training requirements.

    27. Senator Wicker. General Campbell, are graduates of our training 
programs able to comprehend our military values which include respect 
for civilian authority and the rule of law?
    General Campbell. Each Afghan student graduating from Professional 
Military Education training meets all requirements for graduation in 
order to complete their course successfully. Most of these courses 
contain instruction on military values, the respect for civilian 
authority, and the rule of law.
    For example, the Afghan 8-week Initial Police Course, 
noncommissioned officer courses (Satanman), and Officer Basic/
Intermediate Command courses all have programs of instructions and 
contains the modules which relate to military values and/or 
paramilitary values as they apply to the police: Lawful use of Force (4 
hours), Law and Ethics (11 hours), Human Rights and Gender Issues (18 
hours), and Duty at the Police Station rule of law classes (8 hours).
    The AAF legal department routinely provides airmen cadets with 
basic instruction on rule of law concepts, including the overall aim 
towards civilian governance even over acts of terrorism within the 
GIRoA. Based on the recent observations of the TAA-Air's Legal Advisor, 
the airmen cadets have displayed a level of understanding sufficient to 
enable interactive discussions and intelligent questioning on the 
topic. For example, during a February 2015 briefing on the topic, 
airmen in a class of approximately 50 students debated the question of 
why the AAF should detain and turn over to the civilian authorities a 
captured insurgent, when killing him would provide a more efficient and 
``just'' remedy to the overall fight against terrorism. The AAF Legal 
Representative guided the debate towards a final conclusion that extra-
judicial killings were contrary to international norms and that the 
AAF's and GIRoA's legitimacy and respect in the international community 
hinged on its adherence to the rule of law.

    28. Senator Wicker. General Campbell, are these graduates able to 
effectively lead their own forces and pass on knowledge obtained from 
American trainers?
    General Campbell. Yes, Afghan graduates of Professional Military 
Education programs are able to perform their duties and provide side-
by-side training to their fellow soldiers, thereby improving their 
overall capabilities.
    The U.S. and coalition forces have assisted the ANA and ANP to 
develop their instructional programs. Graduates of our training 
programs are able to apply the concepts learned in training to the 
field. Examples include noncommissioned courses. Graduates from this 
course have shown the ability to apply concepts learned in schools to a 
field environment. They are capable of performing their duties upon 
graduation with only local familiarization of their duty areas. Recent 
incidents involving insurgent attacks in Kandahar and other provinces, 
as well as prevention of attacks against Afghan National Defense 
Security Force (ANDSF) in other places, show the effectiveness of this 
training, as police have effectively repelled enemy advances.
    The vast majority of AAF graduates are from basic pilot, 
maintenance, and officer training. They are all serving in entry level 
positions that do not require their leadership skills to be tested. 
Based upon the responsibilities given and performance required they are 
progressing as expected. A better determination on their leadership 
capability can be assessed in the coming years, as they progress in 
their weapon systems and assume more leadership responsibilities.
                                 ______
                                 
           Questions Submitted by Senator Richard Blumenthal
                   women and security in afghanistan
    29. Senator Blumenthal. General Campbell, Afghan women have made 
tremendous gains following the collapse of the Taliban regime. I 
understand that girls are now about 40 percent of elementary school 
students, 25 percent of high school students, and 20 percent of college 
students. Afghanistan once had one of the highest maternal mortality 
rates in the world. Now, those rates have dropped dramatically from 
1,600 to 460 deaths per 100,000 women. There is a network of women's 
civil society groups throughout the country advocating for women's 
rights and advancement in the economy and business. The Afghan Women's 
Network has some 120 women's groups from all 34 Afghan provinces. Does 
the current administration in Afghanistan have a plan to ensure Afghan 
women's rights and security will be maintained, especially in urban 
areas, and if so, what is your evaluation of such plan?
    General Campbell. GIRoA has an entire ministry dedicated to this 
topic, the Ministry of Women's Affairs. Oversight of human rights and 
human rights training is also provided by the Ministry of Religious and 
Cultural Affairs. Both security ministries have directorates dedicated 
to Human Rights and Gender Integration. GIRoA has developed a series of 
polices, plans, laws, and frameworks to ensure women's rights and 
security. The ministries listed above are tasked to oversee the 
implementation of those policies, plans, and legislation.
    The National Action Plan for the Women of Afghanistan articulates 
the actions that Afghanistan will take to implement United Nations 
Security Council Resolution 1325, Women Peace and Security. It aligns 
with other national plans yet may be ambitious for Afghanistan to 
implement in totality. The empowerment of women within Afghanistan is 
aligned to cultural expectations, norms, ethnicity, and religious 
beliefs. It is most likely that major reform will be seen through 
generational change. Solid progress has been made in the past 10 years 
and will continue to be made if policies remain current and 
perpetrators of violence are held accountable. This is partially due to 
women being better educated and having an increased understanding of 
their rights and how to report such incidents. The number of incidents 
and gross violations of human rights reported will only reduce over 
time as a result of the will of the GIRoA administration to act and 
enforce the law. The Afghan Security Institutions must enforce the law 
to better protect women within the Afghan society, including those 
serving within the security sector. The money allocated to the 
recruitment and retention of women in the security sector will aid in 
this agenda. It is important that women are empowered to protect women.

    30. Senator Blumenthal. General Campbell, what guarantee, if any, 
has the current administration made to ensure that preserving the 
rights of Afghan women will be a part of any attempted negotiations 
with the Taliban?
    General Campbell. President Ghani stated his commitment to 
advancing women's rights in Afghanistan. He ran on these principals and 
has governed so since becoming president. Although negotiations have 
yet to begin, President Ghani's leadership not only makes 
reconciliation possible but also the inclusion of women's rights more 
favorable. I remain committed in supporting President Ghani for 
reconciliation. This includes my support for preserving women's rights 
in Afghanistan.



                      THE SITUATION IN AFGHANISTAN

                              ----------                              


                        TUESDAY, OCTOBER 6, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:28 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Graham, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. As the committee convenes, I 
want to make it clear that I will not tolerate a disruption of 
the workings of this committee, and I will say that anyone who 
does will be arrested, not ejected, but arrested. I want to 
make that very clear. We will not tolerate disruption of the 
workings of this committee. They are too important.
    The Senate Armed Services Committee meets this morning to 
receive testimony on the situation in Afghanistan. General 
Campbell, we thank you for appearing before the committee 
today, and we are grateful for your many years of distinguished 
service and your leadership of the United States and coalition 
forces in Afghanistan at this critical time. We ask that you 
convey the gratitude and appreciation of this committee to all 
of the brave men and women in uniform under your command.
    Fourteen years ago, United States forces went to 
Afghanistan because that was where, under the sanctuary under 
the Taliban regime, al-Qaeda planned and conducted initial 
training for the 9/11 attacks that killed 3,000 innocent 
civilians on American soil. Our mission was to ensure that 
Afghanistan would never again be a safe haven for al-Qaeda or 
other radical Islamist terrorists to attack us again. As 
General Petraeus told this committee recently, that mission has 
been successful for 14 years.
    American troops and civilians have made steady progress in 
supporting our Afghan partners to secure their country and 
dealt severe blows to al-Qaeda and other terrorist groups that 
want to attack the United States and our allies.
    At the same time, we have seen a remarkable progress in 
Afghan society: more schools and more teachers; greater 
opportunities for women and girls in the classroom, in the 
workforce, and in positions of leadership; higher literacy, 
better roads and wider use of cell phones. Life expectancy in 
Afghanistan has increased by 22 years in less than a 
generation, a feat unparalleled in modern history.
    It is precisely because we are fighting for progress and 
fighting for our values that it has been so disturbing to read 
reports alleging that some of our coalition partners may be 
engaged in sexual abuse and other activities that contradict 
our values. This committee treats such allegations with the 
utmost seriousness, and we look forward to hearing from you, 
General Campbell, as to what actions have been taken and what 
processes put in place to address this situation.
    Yes, we have made significant and steady progress in 
Afghanistan. But as U.S. military officials and diplomats have 
warned for years--I repeat, for years--these gains are still 
reversible, and a robust and adaptive U.S. troop presence based 
on conditions on the ground not on a calendar is essential to 
ensuring that these gains endure. Failure to adopt such a 
conditions-based plan, these experts have warned, would invite 
the same tragedy that has unfolded in Iraq since 2011. If we 
have learned anything from that nightmare, it is that wars do 
not end just because politicians say so.
    The evidence of that is already clear in Afghanistan. Since 
President Obama hailed the end of combat operations in 
Afghanistan last year, ISIL [the Islamic State of Iraq and the 
Levant] has arrived on the battlefield and the Taliban have 
launched a major offensive to take territory across the 
country, as we saw most recently in the key city of Kunduz.
    Meanwhile, just like the Iraq Security Forces at the end of 
2011, the Afghan National Security Forces are still developing 
key capabilities. The shortfalls are hauntingly familiar: 
intelligence, logistics, air lift, close air support, special 
forces, and institutional development. Yet, the White House 
remains committed to its politically driven withdrawal of 
nearly all United States forces from Afghanistan.
    It is not too late for President Obama to abandon this 
dangerous course and adopt a plan for U.S. troop presence based 
on conditions on the ground. But time is of the essence, and 
continued delays by the White House are hurting our national 
security interests and those of our partners in Afghanistan and 
beyond.
    America's friends and foes alike are waiting on President 
Obama. The government and people of Afghanistan are waiting to 
see what kind of support and commitment the United States will 
make. Afghan Security Forces, whose morale has been tested by 
heavy casualties against the Taliban, are waiting to find out 
whether their American partners will remain at their side. Our 
NATO [the North Atlantic Treaty Organization] partners are 
waiting to determine their course in Afghanistan and need to 
begin generating forces now for an extended commitment. 
Pakistan is waiting for a United States decision while hedging 
its bets with individuals and groups that are hostile to our 
interests. The Taliban is waiting to see if it merely needs to 
wait until the United States draws down to an ``embassy-centric 
presence'' to have the battlefield largely to themselves.
    Then there are the thousands upon thousands of American 
troops and their families who have served and are serving in 
Afghanistan who are waiting to see if their sacrifices will be 
put at greater risk because we abandoned Afghanistan by blindly 
following an inflexible timetable for withdrawal.
    As the world waits, the consequences of the indecision and 
the wrong decision are beginning to merge: growing instability, 
terrorist safe havens, and an increase in direct threats to the 
United States. We cannot turn back the clock on decisions made 
four years ago in Iraq, but the decisions made now will 
determine the nature and scope of the future challenges we face 
in Afghanistan.
    The world walked away from Afghanistan once before, and it 
descended into chaos that contributed to the worst terrorist 
attack ever against our homeland. We cannot afford to repeat 
that mistake, because the threats we face are real and the 
stakes are high for the lives of the Afghan people, especially 
women and girls, for the stability of the region and for the 
national security of the United States.
    General Campbell, we thank you again for being with us this 
morning. We look forward to your testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    General Campbell, welcome and thank you for your service. 
Please also pass along our deep appreciation to the men and 
women in uniform under your command in Afghanistan for their 
service.
    General, you have been in command for over a year of the 
twin missions in Afghanistan: training and advising the Afghan 
Security Forces and counterterrorism operations. Your purpose 
and mission is to ensure that Afghanistan does not once again 
become a safe haven for terrorists aiming to attack the United 
States, its allies or their interests.
    Your testimony this morning comes at a critical time. The 
administration is in the process of considering operations for 
the size and authorities for the United States military 
presence in Afghanistan in 2016 and beyond. I strongly believe 
that the United States force posture in Afghanistan going 
forward should be shaped and resourced to enable you, General, 
to achieve your missions' objectives based on conditions on the 
ground. We should also take into account our regional 
counterterrorism requirements, including against al-Qaeda and 
an apparent growing presence of ISIL in determining the long-
term size and posture of the United States military presence in 
Afghanistan.
    The news reports regarding security conditions in 
Afghanistan indicate a worsening situation over the past few 
months. Taliban forces continue to be formidable, despite the 
announcement of Mullah Omar's death. This year, casualties for 
the Afghan Security Forces have reached their highest level 
since the start of the conflict. The Taliban have expanded 
their control over some rural areas, closing schools, reducing 
the Afghan people's access to services, killing or intimidating 
government officials, reimposing restrictions on Afghan women 
and girls, and reversing the progress of the past decade in 
these areas. Taliban attacks in southern and eastern 
Afghanistan have increased, and most recently they conducted a 
major operation to seize the provincial capital in Kunduz in 
the north.
    This situation raises significant concerns. Yet, in 2015, 
Afghan Security Forces have repeatedly regrouped and retaken 
territory from the Taliban. It is notable that, in the past few 
days, Afghan forces, with enabling assistance from United 
States and NATO and advisors and airstrikes, have retaken 
central Kunduz from the Taliban. General Campbell, I hope you 
will give us your assessment of whether the Afghan army and 
police retain their will and capability to fight.
    Security in Afghanistan depends not only on our training 
and advising the Afghan Security Forces but also on whether 
those forces believe there is an Afghan Government and 
leadership that they are willing to support and defend. In 
Iraq, we saw our training efforts catastrophically undermined 
when Prime Minister Maliki gutted the army's leadership and 
replaced competent leaders with his own crony loyalists, 
resulting in an army that melted away when ISIL seized the City 
of Mosul and suffered a number of other significant losses.
    In Afghanistan, we have partners in President Ghani and CEO 
Abdullah Abdullah. Yet, this unity government has struggled to 
stand up its cabinet, and there are reports of serious 
divisions at lower levels. General, we would be interested in 
your views on President Ghani's commitment to ensuring that the 
Afghan army and police have competent, non-corrupt leadership, 
and any insights you may have on how to maintain and promote 
the unity of the Afghan Government.
    Our counterterrorism operations in Afghanistan have had a 
number of significant successes this year. This is due in part 
to an increased level of cooperation across the Afghanistan-
Pakistan border and active military operations by the Pakistan 
army that have driven al-Qaeda and other militants across into 
Afghanistan creating opportunities for targeting these 
extremists.
    I am concerned, however, that our ability to execute 
successfully these critical operations will be reduced as a 
result of resources being redirected to support our campaign 
against ISIL in Iraq and Syria or a possible reduction in our 
counterterrorism footprint as part of the President's decision 
on the future size of United States forces in Afghanistan.
    I would also be interested in your thoughts on the 
operational authorities you believe will be necessary going 
forward to target terrorist groups that would hope to 
capitalize on United States and international troop reductions 
to once again use Afghanistan as a safe haven from which to 
launch attacks.
    Finally, our efforts to promote security in Afghanistan 
will be severely damaged if we are not perceived as upholding 
the highest standards for our forces and the Afghan forces that 
we train. Recent news reports alleging a policy of 
nonintervention when United States troops were aware of sexual 
abuse by Afghan commanders receiving training are deeply 
disturbing. General Campbell, I expect you to help this 
committee get to the truth regarding these allegations and to 
confirm for us that U.S. troops will not tolerate human rights 
abuses by forces we are training or advising, including the 
sexual abuse of any civilians.
    Additionally, U.S. forces must uphold the highest standards 
for the protection of civilians as they relate to collateral 
damage caused by military operations. The United States must do 
all it can to avoid incidents like the recent tragedy in Kunduz 
where, according to news reports, United States airstrikes 
damaged a hospital run by Doctors Without Borders killing more 
than 20 patients and staff and wounding more than three dozen. 
The Defense Department has announced that your headquarters 
will be conducting an investigation of this incident and this 
committee expects to be kept informed of the progress of that 
investigation to the maximum extent appropriate as it goes 
forward. General Campbell, I am interested in hearing from you 
what additional steps are being taken to ensure that our rules 
of engagement reinforce the importance of protecting civilians 
from harm and preventing such tragic outcomes in the future.
    Thank you again, sir, for your service, and we look forward 
to your testimony.
    Chairman McCain. Thank you very much.
    General?

STATEMENT OF GENERAL JOHN F. CAMPBELL, USA, COMMANDER, RESOLUTE 
  SUPPORT MISSION; COMMANDER, UNITED STATES FORCES-AFGHANISTAN

    General Campbell. Well, good morning, Chairman McCain, 
Ranking Member Reed, and distinguished members of the 
committee. I thank you for the opportunity to appear before you 
today.
    I have been honored to lead and represent the service men 
and women of the United States Forces-Afghanistan for the last 
14 months.
    I would like to begin by thanking the committee for your 
steadfast support of our soldiers, sailors, airmen, marines, 
and our civilians. Due to your leadership and commitment, they 
are the best trained and equipped force our Nation has ever 
deployed. Their outstanding performance bears testimony to your 
backing and the backing of the American people. So thank you 
very much.
    I would like to pay tribute to our military families. They 
are the unsung heroes of the last 14 years of conflict. In many 
ways, our frequent absences from home are harder on them than 
they are on us. Without their love and support, we could not 
succeed.
    I would also like to acknowledge and honor the over 2,200 
service men and women who have been killed in Afghanistan and 
the over 20,000 who have been wounded. Tragically we lost 14 
personnel, to include 6 airmen and 4 U.S. contractors, last 
Friday in an aircraft mishap. We always remember the Afghan and 
own fallen and the loved ones they left behind. Every day we 
honor their memories by assisting the Afghans to build a stable 
and secure country and by protecting our homeland.
    Over 14 years have passed since the 9/11 attacks and we 
have not forgotten why we first came to Afghanistan and why we 
remain. Since 2001, exceptional efforts and courage of our 
forces have ensured that another terrorist attack originating 
from Afghanistan and directed against the United States 
homeland has not occurred.
    Eight months have passed since I last appeared before this 
committee, and much has changed since then. Afghanistan, its 
government and security forces, the enemy, and our own 
coalition have undergone tremendous transitions. These changes 
have ensured that this fighting season has been fundamentally 
different. It cannot be compared to previous years. I would 
like to emphasize how political, military, economic, and social 
transitions are affecting the operational environment in order 
to place our campaign in context. Afghanistan is at a critical 
juncture and so is our campaign. But before I further explain 
the formidable challenges and the opportunities before us, I 
would like to address a few topics that have been in the 
headlines here lately.
    First, I would like to discuss the tragic loss of lives in 
the strike on the hospital in Kunduz. By way of background, 
United States Special Operations forces have been providing 
training, advice, and assistance to Afghan National Defense 
Forces who have been engaged in a tenacious fight with the 
Taliban. On Saturday morning, our forces provided close air 
support to Afghan forces at their request. To be clear, the 
decision to provide aerial fire was a U.S. decision made within 
the U.S. chain of command. The hospital was mistakenly struck. 
We would never intentionally target a protected medical 
facility.
    I must allow the investigation to take its course, and 
therefore, I am not at liberty to discuss further specifics at 
this time. However, I assure you that the investigation will be 
thorough, objective, and transparent.
    I would also like to remind the committee and the American 
people that we continue to make extraordinary efforts to 
protect civilians. No military in history has done more to 
avoid harming innocents. We have readily assumed greater risks 
to our own forces in order to protect noncombatants. To prevent 
any future incidents of this nature, I have directed the entire 
force to undergo in-depth training in order to review all of 
our operational authorities and rules of engagement.
    Our record stands in stark contrast to the actions of the 
Taliban. They have repeatedly violated the laws of war by 
intentionally targeting civilians. The United Nations 
attributes more than 70 percent of the noncombatants killed and 
wounded in this war to the Taliban.
    Second, I would like to discuss the sexual exploitation of 
children by a few members of the Afghan Security Forces. All of 
us consider this reprehensible. This criminal practice is 
entirely unacceptable and unacceptable to the Afghans as well. 
President Ghani and Chief Executive Abdullah have reiterated 
their policies and laws to enforce this with their Afghan 
Security Forces. We will do everything within our power to 
defend and protect human rights. That is our moral obligation 
to you, the American people, and ourselves. I have ordered 100 
percent training of the force to ensure that they understand 
our human rights policy, which has been in place since at least 
2011. This policy requires that our personnel report any 
suspected human rights violations committed by the Afghan 
Security Forces, and this is to include any sexual abuse of 
children. Whenever and wherever our personnel observe human 
rights abuses, they will be conveyed through our chain of 
command and in turn to the Afghan Government. Perpetrators must 
be held accountable.
    With still many weeks left in the traditional fighting 
season, intense combat continues in many parts of the country. 
The Afghan Security Forces have been severely tested this year, 
but they continue to fight hard. In the wake of the coalition's 
redeployment, the Afghan Security Forces and insurgents both 
accepted that this fighting season would be decisive. There was 
no winter lull, and since February the fighting has been nearly 
continuous. Casualties on both sides have risen, and the 
violence has moved beyond the traditional insurgent 
strongholds.
    Pakistan military operations this year have also displaced 
foreign fighters into eastern and northern Afghanistan. The 
emergence of Daesh, or the Islamic State in Khorasan Province, 
IS-KP, has further complicated the theater landscape and 
potentially expanded the conflict. Most recently, the Taliban 
increased the tempo of their operations following the announced 
death of their spiritual leader Mullah Omar.
    We are also now seeing how our redeployment and transition 
from combat operations to an advisory role have changed 
battlefield dynamics. Only a few years ago, our coalition 
numbered over 140,000 military personnel. Now our forces 
comprise fewer than 14,000, of which approximately 10,000 are 
U.S. service men and women. In years past, our aircraft 
provided responsive and often decisive close air support to 
coalition and Afghan troops in contact. This is no longer the 
norm but the exception. Collectively, the Afghan Security 
Forces are adapting to these changes and in some places they 
are struggling.
    Within this context, the fluidity of the current security 
situation is not surprising. This fighting season started well 
for the Afghan Security Forces as they executed successful 
multi-corps, cross-pillar operations in Helmand, Zabul, and 
Ghazni Provinces and in the southern approaches into Kabul. In 
April, they fought back significant Taliban pressure in the 
north, and in August and September, they reversed almost all of 
the Taliban gains in the northern Helmand after considerable 
effort.
    Yet, there have been setbacks, and most recently, the 
Taliban overran Kunduz, Kunduz City. Still, the Afghan Security 
Forces rallied and they have regained control of most of the 
city, just as they have successfully retaken other ground 
temporarily lost throughout this fighting season.
    The Afghan Security Forces' inconsistent performance in 
Kunduz underscores several of their shortcomings. They must 
improve their intelligence fusion, command and control, 
utilization of their forces. They do not possess the necessary 
combat power and numbers to protect every part of the country. 
This makes it very difficult for the Afghan Security Forces to 
counter the Taliban's ability to temporarily amass, seize an 
objective, and then blend back into the population. Ultimately 
the Afghan security leaders need to discern better when to 
fight, when to hold, and where to assume risk.
    Despite these shortcomings, however, the Afghan Security 
Forces have displayed courage and resilience. They are still 
holding. The Afghan Government retains control of Kabul, 
Highway 1, its provincial capitals, and nearly all the district 
centers. The Afghan Security Forces are effectively protecting 
the principal population centers.
    It is also apparent that our advisory support and financial 
backing are strengthening the resolve and building their 
systems and processes. The Afghan Security Forces have 
repeatedly shown that without key enablers and competent 
operational level commanders, they cannot handle the fight 
alone in this stage of their development. Ultimately I am 
convinced that the improved leadership and accountability will 
address most of their deficiencies, but it will take time for 
them to build their human capital.
    The Afghan Security Forces' uneven performance in this 
fighting season also underscores that their shortfalls will 
persist well beyond this year. Capability gaps still exist in 
the fixed and rotary wing aviation, combined arms, 
intelligence, and maintenance. One of the greatest tactical 
challenges for the Afghan Security Forces has been overcoming 
the Afghan Air Force's still extremely limited organic close 
air support capability.
    Despite a myriad of challenges, the fundamental partnership 
between the coalition and the Afghan Government remains 
durable. The difference between the Ghani administration and 
the previous administration is like night and day. At every 
level, coalition and Afghan leaders continue to work together 
in pursuit of shared objectives. The Afghan Government, civil 
leaders, and military commanders demonstrate a growing 
appreciation for the coalition's efforts.
    President Ghani has asked NATO and the U.S. to provide some 
flexibility in our planning to account for the fact that his 
government remains in transition while the threats he is facing 
are changing. He has asserted that a sustained coalition and 
U.S. presence provides actual and psychological stability to 
the country as the new government solidifies. He recognizes 
that his new administration must invest considerable time and 
effort to address the challenges of systemic corruption. He has 
also acknowledged that while the Afghan Security Forces are 
better equipped and trained than ever, much work remains to 
build their systems and processes and improve their leader 
development.
    I have offered my chain of command several options for our 
future laydown in 2016 and beyond. It was envisioned in mid-
2014 that we would transition to a normalized embassy presence 
by January 2017. That remains our planning assumption. Since 
that time, much has changed. We have seen the rise of Daesh [or 
ISIL], an increased al-Qaeda presence in Afghanistan due to 
PAKMIL [Pakistani Military] operations, and now we have strong 
partners in President Ghani and Chief Executive Abdullah. As a 
result, I put forward recommendations to adjust to this new 
environment while addressing our core missions, train, advise, 
and assist the Afghan Security Forces and conduct 
counterterrorism operations to protect the homeland.
    As the upsurge in insurgent violence in the northern 
Helmand and Kunduz shows, Afghanistan is again at a decisive 
point. The President is well aware of the tenuous security 
situation, and I also appreciate that he has many other global 
issues to weigh as he considers my recommendations. My role is 
to provide him my best military advice based upon my assessment 
of the conditions on the ground weighed against the risks both 
to the force and to the mission.
    I am unable to discuss further details on the options I 
provided to the President. In the past, when flexibility has 
been requested of him, he took it under serious consideration 
and made his decision. He provided flexibility this year. The 
same decision process is being worked through now for 2016 and 
beyond.
    In closing, the challenges before us are still significant. 
In an extremely tough fight, the Afghan Security Forces 
continue to hold. They have remained resilient and they have 
not fractured. Fully supported by an engaged commander-in-
chief, President Ghani, embraced by the Afghan people, and 
backstopped by our military advisors, resources, and enablers, 
the Afghan Security Forces' future and Afghanistan's prospects 
for eventual peace still remain promising.
    If we fail in this worthwhile mission, Afghanistan will 
once again become a sanctuary for al-Qaeda and other terrorists 
bent on attacking our interests and citizens abroad and at 
home. If a security vacuum arose, other extremist networks such 
as Daesh would also rapidly expand and sow unrest through 
Central and South Asia and potentially target our homeland.
    The hard work and the sacrifices of countless coalition 
military personnel and civilians over the last 14 years have 
created the conditions in which the Afghans can and are now 
taking responsibility for their own security and governance. 
The Afghans welcome the opportunity to shape their destiny, but 
they still desire, need, and deserve our assistance. Our 
support cannot and should not be indefinite or unconditional. 
The Afghans must continue to do their part. If they do, we 
should continue to exercise strategic patience and sustain our 
commitment to them.
    Working together, we can be successful. A proactive, 
cooperative Ghani administration and committed Afghan Security 
Forces offer us a unique opportunity to further develop a 
meaningful strategic relationship in a volatile but vital area 
of the world. Our continued efforts to stabilize Afghanistan 
will benefit the entire region and, in turn, offer greater 
security for the United States homeland and Americans abroad 
and at home.
    Again, thank you for your steadfast support of our 
campaign. I look forward to your questions. I also request the 
committee to accept my written statement for the record. Thank 
you very much, sir.
    Chairman McCain. Without objection.
    [The prepared statement of General Campbell follows:]

             Prepared Statement by General John F Campbell
                            i. introduction
    Over 14 years have passed since we commenced military operations in 
Afghanistan, and we have not forgotten the original motivations for our 
mission, and why we remain. United States Forces-Afghanistan (USFOR-A) 
remains focused on our most vital national security interest: 
protecting the U.S. homeland. In this all-important endeavor, we 
continue to be successful. Through our continued presence, active 
support of the Afghan National Defense & Security Forces (ANDSF), and 
Counter-Terrorism (CT) operations, we are preventing Afghanistan from 
once again becoming a safe haven for al-Qaeda, other international 
extremist groups, and their hosts.
    Since 2001, the extraordinary efforts of both our conventional and 
special operations forces (SOF) have ensured that another terrorist 
attack originating from Afghanistan and directed against the United 
States homeland has not occurred. Today, U.S. SOF, alongside our Afghan 
counterparts, continue to impose considerable pressure on what remains 
of the terrorist networks that attacked us.
    Simultaneously, United States advisors and their Coalition 
counterparts continue to provide invaluable support and oversight of 
the Afghan Security Institutions (ASI) at the ministerial-level, ANDSF 
units at the corps-level, and Afghan Special Security Forces (ASSF) at 
the tactical-level. Working by, with, and through our Afghan partners, 
our advisors serve as our primary means to improve the ANDSF's 
capabilities and build their self-sustainability.
    Yet in spite of our considerable progress, it is clear that our 
campaign will remain a challenging one. The National Unity Government 
(NUG) and the enemy are still locked in a fierce struggle. While I do 
not consider the insurgency capable of overthrowing the NUG by force, 
the enemy remains capable and lethal. The ANDSF, in turn, have thus far 
proven unable to eradicate al-Qaeda entirely or compel the Taliban (TB) 
to negotiate a political settlement. In an ongoing, unstable security 
environment, other extremists groups are emerging to include Daesh, or 
the Islamic State in Khorasan Province (IS-KP). These nefarious 
elements continue to sow fear among the Afghan population. The 
insurgents also continue to inflict a serious, disruptive effect on the 
NUG's ability to govern. The war continues to undermine public 
confidence in the NUG and stymie economic progress, thereby prompting 
the exodus of tens of thousands of Afghans.
    The ANDSF have had to adapt during a year of significant 
transition. There are still a few weeks left in the traditional 
Fighting Season, and intense combat continues in several parts of the 
country. Overall, the ANDSF have rendered a creditable overall 
performance for a young force that has been severely tested, but has 
remained resilient. In the wake of our drawdown since 2011 and drop in 
enabler support, the ANDSF have taken ownership of the fight. They have 
admittedly faltered at times; however, they continue to evolve, 
improve, and fight hard in spite of increased casualties. 
Significantly, they have demonstrated no signs of fracturing.
 ii. results of this fighting season (fighting season) / state of the 
                                 andsf
    Before further evaluating the results of this Fighting Season, it 
is important to place this year in context. This year has been unique 
for many reasons. In the wake of the Coalition's redeployment, the 
ANDSF and insurgents both accepted that this fighting season could be 
decisive. There was no winter lull, and since February, the fighting 
has been nearly continuous. Casualties on both sides have risen, and 
violence has moved beyond the traditional insurgent strongholds.
    Other factors are also contributing to the uptick in casualties and 
spread of violence. Pakistan Military (PAKMIL) operations have 
displaced foreign fighters into eastern and northern Afghanistan. The 
emergence of Daesh, or the Islamic State-Khorasan Province (IS-KP), has 
further complicated the theater landscape, and potentially, expanded 
the conflict. Most recently, the Taliban have increased the tempo of 
their operations in order to reassert their prominence within the 
insurgent syndicate after the announced death of their spiritual 
leader, Mullah Mohammed Omar (MMO).
    We are also now seeing how our redeployment and transition from 
combat operations to TAA have changed battlefield dynamics. Only a few 
years ago, our Coalition numbered over 140,000 military personnel. Now 
our force is comprised of fewer than 14,000 of which approximately 
10,000 are U.S. servicemen and women. In years past, our aircraft 
provided responsive and often decisive close air support (CAS) to 
Coalition and Afghan troops in contact. This is no longer the norm--but 
the exception. Our force reduction, drop in enablers, and resultant CAS 
gap have created challenges for the ANDSF; they have understandably 
struggled at times to adjust.
    Within this context, the fluidity of the current security situation 
is not surprising. This Fighting Season, the Taliban surged forces into 
northern Helmand. Most recently, they overran Kunduz. Nevertheless, the 
ANDSF rallied and regained control of most of the areas lost in 
Helmand, just as they have successfully retaken other ground 
temporarily lost throughout this Fighting Season. I am confident that 
they will regain control of Kunduz as well. Still, the Taliban achieved 
their aim in Kunduz.
    The fighting in Kunduz underscores several shortcomings in the 
ANDSF to include poor intelligence fusion, lack of cross-pillar 
coordination, and sub-optimal utilization of their forces. They do not 
possess the necessary combat power and numbers to protect every part of 
the country. This makes it very difficult for the ANDSF to counter the 
Taliban's ability to temporarily mass, seize an objective, and then 
blend back into the population when confronted with an ANDSF 
counterattack. Hence, a reprioritization of the ANDSF's security 
efforts within the framework of their larger, multi-year campaign will 
be required at the conclusion of this Fighting Season. They also need 
to improve the responsiveness, flexibility, and preparedness of their 
forces at the tactical and operational levels. Ultimately, ANDSF 
leaders also need to discern better when to take the offensive, when to 
defend, and where to assume risk.
    Despite these shortcomings, however, the ANDSF have displayed 
courage and resilience. They are still holding. GIRoA retains control 
of Kabul, Highway 1, its provincial capitals (with the exception of 
Kunduz for now), and nearly all district centers. The ANDSF are 
effectively protecting the principal population centers. It is also 
apparent that our advisory, resourcing, and contracting support and 
financial backing are strengthening their resolve and building their 
systems and processes.
    In general, I would characterize the ANDSF's performance this 
fighting season as uneven and inconsistent. They have learned some hard 
lessons from their mistakes. On the positive side, when the ANDSF seize 
the initiative, deliberately plan their operations, and coordinate 
their actions across the security pillars, they achieve notable 
results. When they execute deliberate, cross-pillar operations that are 
thoroughly planned and resourced, they are highly successful. On the 
negative side, when they act hastily and employ their forces in a 
haphazard, uncoordinated manner such as in Helmand, they are far less 
effective. They have also struggled to optimize their force laydown and 
employment. They remain tethered to isolated checkpoints and static 
defenses, which increases their vulnerability and reduces their ability 
to maneuver effectively.
    The ANDSF's mixed performance underlines both their weaknesses and 
strengths. A closer examination of ANDSF actions and inactions in 
Helmand in August and September underscores this point. Elements of the 
215th Corps and local police units responded poorly to the initial 
insurgent attacks on Now Zad and Musa Qala. To bolster the faltering 
ANDSF, I directed the immediate employment of our Advise & Assist Cell-
Southwest (AAC-SW) and additional elements from NATO's Special 
Operations Component Command-Afghanistan (NSOCC-A). We also provided 
CAS for ANDSF units in-extremis. Fortunately, the Afghans recovered and 
counter-attacked. While the tactical situation remains challenging in 
Helmand, it is clear that the reinforced ANDSF have blunted the Taliban 
offensive there.
    The outcome in Helmand could have undoubtedly been much different. 
President Ghani responded decisively to the crisis, and after a 
frustrating start, senior ANDSF leaders took control of the situation. 
Our advisors and enablers provided invaluable support, without which, 
the ANDSF would most likely have suffered significantly more casualties 
and a strategic setback. These events underscore that the ANDSF still 
require broad support. They have repeatedly shown that without key 
enablers and competent, operational-level leaders, they cannot handle 
the fight alone in this stage of their development. Ultimately, I am 
convinced that improved leadership and accountability will address most 
of their deficiencies. ANDSF soldiers and police perform well when they 
are well led and appropriately resourced. That is why our insistence on 
sound leadership and strict accountability remains our top priority for 
our TAA programs and activities. However, it will take time for the 
Afghans to build their human capital.
    The Afghan Special Security Forces (ASSF), in particular, have 
demonstrated improved proficiency in the last year. Many military 
analysts consider them the best SOF in the entire region. Their 
commando units are now conducting raids independently using their own 
intelligence to drive their operations. The Special Mission Wing (SMW), 
recently aligned under the Ministry of Defense (MoD), is also executing 
long-range sorties in low illumination. Working together as envisioned, 
the commando units and SMW are frequently carrying out unilateral 
direct action missions against insurgent leaders and facilitators. 
These are remarkable achievements, which reflect the maturation of 
their formidable capabilities and the overall potential for the ANDSF 
writ large.
    While the conventional ANDSF still have capability gaps and 
shortfalls, they do possess and are capable of leveraging significant 
enabling assets to fight the insurgents (e.g., heavy mortars, D-30s 
howitzers, armed Mi-17s, MD-530 attack helicopters, armored vehicles, 
etc. and dedicated training for these platforms.) The insurgents have 
none of these.
ANDSF Attrition
    Of note, ANDSF operational tempo (OPTEMPO) has been twice as high 
in the first nine months of 2015 than 2014. Not surprisingly, ANDSF 
casualty rates have also increased this year. (The ANDSF have, however, 
inflicted far greater casualties on the enemy.) The combination of an 
increased OPTEMPO, assumption of greater security responsibilities, 
rapid drawdown of Coalition forces and enabler support, and the 
aggressive pursuit of the enemy all contributed to a marked increase in 
ANDSF casualty rates. The ANP and Afghan Local Police (ALP) have borne 
a disproportionate share of these losses. The ALP are not as well 
equipped or trained as other ANDSF. They have often been misemployed as 
regular ANP in distant checkpoints even though they should only operate 
within their local villages.
    A high ANDSF attrition rate, which accounts for casualties and all 
other losses to the force, has impacted combat readiness. 
Conspicuously, non-battle attrition, particularly unauthorized 
absences, have induced approximately 70 percent of the ANDSF's 
personnel losses. If present rates continue, attrition will pose 
increasingly significant challenges to force generation, development, 
and readiness over time. The main causes of ANDSF absenteeism are 
assessed as poor leadership, high operational tempo, inadequate 
soldier/police care, and poor force management. They have sometimes 
failed to relieve forces committed in combat areas for sustained 
periods. We continue to help the Afghans reduce combat casualties and 
to address systemic causes of attrition in order to ensure the long-
term health and sustainability of their forces.
Persistent ANDSF Capability Gaps
    The ANDSF's uneven performance this Fighting Season underscores 
shortfalls that will persist well beyond this year. Capability gaps 
still exist in fixed and rotary-wing aviation, combined arms, 
intelligence, logistics, maintenance, and sustainment. Other needed 
areas of improvement include resource management, cross-pillar 
synchronization, and intelligence-based operations. One of the greatest 
tactical challenges for the ANDSF this Fighting Season has been 
overcoming the Afghan Air Force's (AAF) still extremely limited organic 
CAS capability. These shortfalls can be rectified over time if the 
appropriate time, money, and resources are allocated, and most 
importantly, ANDSF leaders continue to mature and develop sufficiently 
to implement these changes and needed reforms.
    I remain concerned about the long-term viability of the ANDSF. 
Succinctly, Afghanistan cannot afford its security forces--particularly 
at their present size. Yet their current numbers are needed to contend 
with the scale of the threat. If we sharply reduce their forces now, it 
will have a detrimental effect. The international community currently 
funds over 90 percent of the ANDSF's operating costs. The U.S. covers 
the majority of this amount. We must assume that that the ANDSF will 
not be self-sustainable for several years to come. At this stage, 
without adequate international and U.S. funding support and an 
appropriate Coalition troop presence to oversee the proper expenditure 
of such funds, the ANDSF could potentially collapse.
Advisory Efforts
    At the security ministries, our advisors continue to focus on 
building ASI systems, processes, and national ANDSF sustainment 
capabilities. They are also working to improve integration among the 
different security pillars: military, police, and intelligence 
services. At the corps-level, our advisors continue to concentrate on 
developing the ANDSF planning capacity, command and control, 
operational capabilities, unit logistics, and operational sustainment.
    Our advisors at the ministries and our regional Train, Advise, & 
Assist Commands (TAACs) continue to serve as important sensors and 
touch points that allow us to verify and validate Afghan reporting 
while reinforcing the use of organizational systems and processes. They 
enable the Afghans to see themselves and to understand that they 
possess adequate supplies and equipment. Our advisors routinely find 
that reported shortages in operational units are most often the result 
of failures in accounting and distribution rather than actual 
deficiencies. We are assisting the Afghans to break the culture of 
hoarding and eliminate false claims of shortages in order to garner 
more resources and assistance. At all levels, our advisors also 
continue to emphasize and enforce Afghan financial transparency and 
accountability of donor resources.
                        iii. state of the threat
    Throughout this Fighting Season, Al Qaeda, TB, Haqqani Network 
(HQN), Daesh, and other extremist groups have challenged GIRoA (and at 
times, each other) as they exerted their influence and vied for 
prominence. Collectively, these enemies will present formidable 
challenges to the Afghan government, ANDSF, USFOR-A, and the Coalition 
for the remainder of 2015 and beyond.
    In 2015, al-Qaeda has attempted to rebuild its support networks and 
planning capabilities with the intention of reconstituting its strike 
capabilities against the U.S. homeland and Western interests. Due to 
our constant pressure, however, al-Qaeda activities are now more 
focused on survival than on planning and facilitating future attacks. 
It will be critical that, in coordination with our Afghan partners, our 
comprehensive CT efforts continue to apply pressure against the al-
Qaeda network in order to prevent its regeneration, and the 
corresponding threat it represents to our homeland.
    The Taliban established ambitious goals for this Fighting Season in 
hopes of capitalizing upon our transition from combat operations to 
advising and exploiting ANDSF vulnerabilities in their first year 
entirely in the lead. Their stated strategic objectives were to seize 
at least one provincial capital and multiple district centers, and 
control and hold more territory. The Taliban have attempted to gain 
more control of the countryside in order to expand their freedom of 
movement and action. They have been at least partially successful in 
accomplishing these goals. In the absence of Coalition CAS, they have 
also been more willing to mass their forces. Their main effort has 
focused, as usual, on retaining and expanding their traditional 
strongholds in Pashtun-dominated areas in the south. However, as 
demonstrated by recent events in Kunduz, they have also extended their 
influence in the north, which has further strained the ANDSF by 
extending their lines of operation and ability to command and control 
their forces over long distances. Overall, the Taliban remain a 
resilient, adaptable, and capable foe in spite of markedly increased 
casualties this year.
    The death of Mullah Mohamed Omar (MMO) has generated a critical 
juncture for the TB. It is still unclear whether his death will lead to 
greater cohesion or splintering within the movement. Moreover, it is 
uncertain whether current infighting among the Taliban will undermine 
or aid reconciliation efforts. For now, Mullah Akhtar Mansour, the 
self-proclaimed successor to MMO, continues to exert considerable 
effort to legitimize his position and consolidate his power. The recent 
Taliban success in Kunduz may bolster Mansour's authority and 
potentially quell his rivals.
    Al-Zawahiri, the leader of al-Qaeda, recently announced their 
support of Mullah Mansour. He subsequently accepted their pledge of 
loyalty. Of note, he also named Siraj Haqqani, a known ally of al-
Qaeda, as one of his deputy emirs. Whether the TB's renewed partnership 
with al-Qaeda will shift the TB's targeting efforts beyond Afghanistan 
has yet to be determined.
    The Taliban maintain an adaptive propaganda apparatus, which they 
will continue to leverage to influence the Afghan people, the 
international community, and their supporters. Their adept use of 
social media to advertise their operations in Kunduz serves as a clear 
example of their capabilities. The Taliban will strive to shape 
perceptions in the information space, despite their mixed military 
performance, continued political failures, and moral hypocrisy.
    Based in, and operating from Pakistan, HQN remains the most 
virulent strain of the insurgency. It presents one of the greatest 
risks to Coalition forces, and it continues to be an al-Qaeda 
facilitator. HQN shares the Afghan Taliban goal of expelling Coalition 
forces, overthrowing the Afghan government, and re-establishing an 
extremist state. HQN fighters lead the insurgency in several eastern 
Afghan provinces, and they have demonstrated the intent and capability 
to launch and support high profile and complex attacks against the 
Coalition. In response to several dangerous threat streams against 
Coalition and Afghan personnel--particularly in Kabul--ANDSF and U.S. 
SOF have stepped up security operations against HQN. These operations 
have successfully disrupted several HQN attack plans that sought to 
inflict significant casualties on the force. It will take a concerted 
AF/PAK effort to reduce the effectiveness and capabilities of HQN.
The Emergence of the Islamic State in Afghanistan
    Daesh remains one of my Priority Intelligence Requirements. In the 
last year, we have observed the movement's increased recruiting efforts 
and growing operational capacity. We now classify Daesh as 
``operationally emergent.'' Many disaffected TB, including Tehrik-e-
Taliban Pakistan (TTP) members, have rebranded themselves as Daesh. 
This rebranding is most likely an attempt to attract media attention, 
solicit greater resources, and further increase recruitment. We have 
not seen, however, a wholesale convergence of other insurgent groups 
collaborating with Daesh. Nor have we detected a large influx of 
foreign fighters joining the movement.
    While they do yet possess the capacities or capabilities of the 
Taliban, Daesh's emergence has nonetheless challenged the ANDSF, 
National Directorate of Security (NDS), and GIRoA political leadership. 
We have not seen any indication, however, that Daesh is capable of 
waging a unified campaign to challenge GIRoA at this point. Notably, 
the ANDSF recently initiated its first named operation against Daesh. 
In the near term, we expect most Daesh operations to remain directed 
against the TB, although attacks against nearby ANDSF or other soft 
targets of opportunity are possible.
    Of the 34 provinces in Afghanistan, a recent UN report indicates 
that Daesh has varying degrees of presence in all but nine. The 
majority of its fighters are located in the east, specifically 
Nangarhar Province. In the near term, we predict that they will 
continue to recruit and grow their numbers, using higher pay and small-
scale, successful attacks as recruitment tools.
    Perhaps the greatest threat that Daesh presents to the entire 
region is not its emerging combat power, but its virulent, extremist 
ideology. Daesh's success in the Middle East is beginning to attract 
new adherents in Central and South Asia. While many jihadists still 
view al-Qaeda as the moral foundation for global jihad, they view Daesh 
as its decisive arm of action. Daesh's propaganda and recruiting 
efforts, furthermore, already demonstrate remarkable sophistication. 
President Ghani has remarked, ``If Al Qaeda is Windows 1.0, then Daesh 
is Windows 7.0.''
    President Ghani has been very circumspect about the Daesh threat. 
While some have accused him of exploiting fears of Daesh for political 
aims, I do not believe these criticisms are warranted. Daesh has grown 
much faster than we anticipated, and its continued development in 
Afghanistan presents a legitimate threat to the entire region. Its 
adherents have already committed acts of brutality that have shocked 
Afghan sensibilities. Moreover, Daesh senior leadership has publically 
declared its goals of reclaiming Khorasan Province, which extends from 
the Caucuses to Western India, as its spiritual home. For these 
reasons, Ghani has sensibly used the evolution of Daesh as a pretext 
for regional engagement on a host of security and economic issues.
iv. afghanistan/pakistan (af/pak) relations & potential reconciliation 
                            with the taliban
    The role of Pakistan remains integral to stability in Afghanistan. 
Historical suspicions and competing interests have long characterized 
Afghanistan/Pakistan (AF/PAK) relations. While difficulties are likely 
to persist past 2016, there are indicators that relations between 
Afghanistan and Pakistan could potentially thaw despite ongoing 
terrorist attacks in both countries. Nonetheless, considerable 
obstacles persist. It is clear, however, that for GIRoA to reconcile 
with the Taliban, rapprochement with Pakistan will most likely have to 
occur first.
    To this end, there are ongoing efforts to strengthen ties between 
Afghanistan and Pakistan. Yet for every two steps forward in AF/PAK 
relations, another is seemingly taken backwards. For example, 
Pakistan's emergence as a broker and arbiter in formal talks between 
the GIRoA and the Taliban in July brought all parties to the table. 
However, subsequent terrorist attacks in Kabul in August, which 
coincided with the emergence of new Taliban leadership, precipitated 
widespread Afghan backlash and stalled further talks.
    The common threat of violent extremism can still serve as a 
catalyst to improve cooperation between the two countries. Pakistan, 
like Afghanistan, has suffered greatly at the hands of terrorists and 
violent extremists. The recent Pakistani Taliban (TTP) attack on a 
Pakistan Air Force base serves as a case in point. Senior Pakistani 
military officers have repeatedly declared that they can no longer 
discriminate between ``good and bad'' terrorists. They appear to be 
taking meaningful actions to back up their words. Aggressive PAKMIL 
operations over the last year have applied considerable pressure on 
extremists operating in the border region and Federally Administered 
Tribal Areas (FATA), although additional pressure must still be applied 
against HQN and the Taliban more broadly.
    Resolute Support serves as a key facilitator and interlocutor for 
Afghan and Pakistani military officials. We continue to actively 
encourage and enable the Afghan and Pakistani officers to meet and 
coordinate their security efforts through key leader engagements and 
monthly, one-star meetings at the Resolute Support Tripartite Joint 
Operations Center (RSTJOC). We assess that AF/PAK political and 
military relations are likely to improve, albeit only incrementally and 
on a transactional basis.
                    v. challenges and opportunities
    All aspects of Afghan society remain in a state of flux as we 
approach the end of 2015. Challenging political and security 
transitions continue to occur simultaneously. The unstable security 
environment and lack of investor confidence continue to foil economic 
growth. The flight of foreign capital and sharp reduction in spending, 
which had occurred at artificially high levels since 2001, has also 
negatively impacted the Afghan economy. Significant social tensions 
also persist (e.g., urban progressives versus rural conservatives; 
former mujahedeen versus former communists; technocrats versus 
warlords, etc.) Perceptions of declining security amidst extensive 
political, economic, and social upheaval have induced tens of thousands 
of Afghans to flee the country. The loss of talented human capital, or 
``brain drain'', is particularly worrisome as gifted, educated 
individuals are desperately needed to lead Afghanistan through this 
time of transition.
    Within the context of these multiple transitions and turmoil, the 
NUG presents both significant promise and uncertainty. President Ghani 
and CE Abdullah have proven to be amenable to working not only with one 
another for the greater good of Afghanistan, but also with the 
international community, NATO, and the United States Ghani and Abdullah 
have both declared the United States to be Afghanistan's fundamental, 
foundational partner and its most critical relationship. Both are also 
committed to addressing the challenges of corruption and nepotism. Both 
are likewise supportive of the rights of women and their empowerment in 
Afghan society. Additionally, both are committed to achieving an 
enduring peace in Afghanistan and the region.
    We now have an opportunity with the NUG. However, Afghan leadership 
vacancies, which persist at the local, provincial, and national levels, 
continue to hinder the NUG's progress and the effectiveness of our 
supporting efforts. Afghan parliamentarians, unfortunately, have often 
vetoed qualified candidates for extraneous or simply political reasons. 
An attorney general has yet to be appointed, and the Acting Minister of 
Defense (MINDEF) continues to serve in spite of the Afghan Parliament's 
rejection of his candidacy.
    While Ghani and Abdullah have developed an effective, trusting, and 
complementary relationship, their respective supporters often clash. 
Both leaders must resolve how they will address and placate their 
constituents while still promoting good governance and the fundamental 
pillars of their recently published National Security Policy. 
Fortunately, the very competitive political dynamics that often 
threaten gridlock in the current Afghan government also promise that, 
when policies are set, the vast majority of legitimate Afghan political 
interests will be represented.
    Despite myriad challenges, the fundamental partnership between the 
Coalition and the Afghan Government, to include ASI and ANDSF, remains 
durable. The difference between the Ghani administration and the 
previous administration is like night and day. Throughout USFOR-A, we 
have developed close professional relationships with nearly all senior 
Afghan leaders, who have welcomed United States support and assistance. 
At every level, Coalition and Afghan leaders continue to work together 
in pursuit of shared strategic objectives. Moreover, the Afghan 
government, civil leaders, and military commanders demonstrate a 
growing appreciation for the Coalition's efforts. Afghan leaders are 
genuine in their gratitude for our shared sacrifice and commitment to 
their nation. I have also seen our Afghan partners develop a sense of 
ownership and pride in their army and police force. Afghan citizens 
realize and appreciate that they now have an increasingly credible, 
professional security apparatus.
    President Ghani has asked NATO and the U.S. to provide some 
flexibility in our planning to account for the fact that his government 
remains in transition while the threats it faces are diversifying. He 
has asserted that a sustained Coalition and U.S. presence provides 
actual and psychological stability to the country as the new government 
solidifies. He recognizes, moreover, that his new administration will 
require considerable time and effort to address the challenges of 
systemic corruption. He has also acknowledged the while the ANDSF are 
better equipped and trained than ever, much work remains to build their 
bureaucratic processes and systems as well as improve their leader 
development.
                             vi. conclusion
    In closing, the challenges before us are still significant. In an 
extremely tough fight, the ANDSF continue to hold. They have remained 
resilient and have not fractured. When properly led, they are a 
formidable force. Fully supported by a commander-in-chief who supports 
his forces, embraced by the Afghan people, and backstopped by our 
military advisors, resources, and enablers, the ANDSF and Afghanistan's 
future and prospects for an eventual peace still remain promising.
    If we were to fail in this worthwhile mission, Afghanistan would 
once again become a sanctuary for al-Qaeda and other terrorists bent on 
attacking our interests and citizens abroad and at home. Similarly, if 
a security vacuum were to emerge, other extremist networks such as 
Daesh would also rapidly expand and sow unrest throughout Central and 
South Asia.
    The hard work and sacrifices of countless Coalition military 
personnel and civilians over the last 14 years have created the 
conditions in which the Afghans can and are now taking responsibility 
for their own security and governance. The Afghans welcome the 
opportunity to shape their destiny, but they still desire, need, and 
deserve our assistance. Our support, however, cannot and should not be 
indefinite or unconditional. The Afghans must continue to do their 
part; if they do, we should continue to exercise strategic patience and 
sustain our commitment to them.
    Working together, we can be successful. A proactive, cooperative 
Ghani administration and committed ANDSF offer us a unique opportunity 
to develop further a meaningful strategic relationship in a volatile, 
but vital area of the world. Our continued efforts to stabilize 
Afghanistan will benefit the entire region, and in turn, offer greater 
security for the United States homeland and Americans at home and 
abroad.

    Chairman McCain. Thank you, General Campbell, and thank you 
for your continued great leadership in a very difficult 
situation. We are proud of your great leadership.
    On the hospital issue, I know I speak for all members of 
the committee that our sympathy for those who were killed and 
injured in this tragedy is heartfelt and deep.
    Is it true that the strike was requested by Afghan forces 
on the ground that struck the hospital?
    General Campbell. Sir, as I said yesterday in a press 
statement, yes, sir. The Afghan forces on the ground requested 
aerial support from our forces that were on the ground. But as 
I said in my opening statement, even though the Afghans request 
that support, it still has to go through a rigorous United 
States procedure to enable fires to go on the ground.
    Chairman McCain. But there was no American forward air 
controllers on the ground.
    General Campbell. Sir, we had a special operations unit 
that was in close vicinity that was talking to the aircraft to 
deliver those fires.
    Chairman McCain. Thank you.
    General Campbell, the President on May 27, 2014 made a long 
statement and said by the end of 2016, our military will draw 
down to a normal embassy presence in Kabul with a security 
assistance component. I am not making this up. He said, just as 
we have done in Iraq.
    General, in your opinion do the conditions on the ground 
warrant a change to the current plan for the drawdown of United 
States troops in Afghanistan?
    General Campbell. Sir, thanks for the question.
    Sir, as I mentioned in my opening statement, when that 
decision was made in 2014, a lot has happened since then in 
transition, the growth of Daesh, we did not have a national 
unity government in 2014, the actions by Pakistan and the fight 
they have had to push additional insurgents inside of 
Afghanistan. Underneath that construct, it does not enable us 
to provide a CT [counterterrorism] component. So as I have 
talked about on the options, I provided several options to the 
chain of command and will continue to work with my chain of 
command and provide them my best military advice, the pros and 
cons of each of those courses action as we move forward.
    Chairman McCain. Well, could I respectfully ask again, do 
the conditions on the ground warrant a change to the current 
plan that calls for, by the end of 2016, we would be an 
embassy-centric force?
    General Campbell. Sir, again, based on conditions on the 
ground, based on the transitions I have talked about, I do 
believe that we have to provide our senior leadership options 
different than the current plan that we are going with. 
Absolutely.
    The current plan, as envisioned right now, sir, as you 
know, and as you talked about in your opening statement, is an 
embassy-based presence. As I take a look at conditions on the 
ground, as we have to continue to provide TAA [training, 
advising, and assisting] to our Afghan partners, when the 
President made that decision, it did not take into account the 
change over the last two years. So the courses of action that I 
have provided to my senior leadership provide options to adjust 
that.
    Chairman McCain. Did the attack on Kunduz surprise--maybe 
the word is not ``surprise,'' but is it not an indication that 
the Taliban have significant strength, including in an area in 
the north where they generally speaking did not have very much 
capability, thanks to the makeup there in northern Afghanistan?
    General Campbell. Sir, the Afghans, and quite frankly the 
coalition, were surprised when the Taliban were able to take 
over Kunduz City. A lot of reasons I think why. But the Afghans 
are taking a hard look as well to make sure they understand and 
do their own sort of after-action on this. Part of the reason, 
they did not have many of the key leaders in place, the city, 
for the most part, had police. The Afghan army was on the 
outskirts. They did not reinforce. Bottom line, the Taliban 
were able to come in, attack from within the city, and quite 
frankly surprised the police forces that enabled the Taliban to 
gain a great IO victory. I do not think the Taliban had intent 
to stay in Kunduz for very long, and as soon as the Afghan 
forces were able to bring additional forces in, logistically 
resupply that, the Taliban, for the most part, melted away, 
left the city. There are small isolated pockets that continue 
to fight.
    Chairman McCain. From a PR [public relations] standpoint, 
though, it was a rather significant victory for the Taliban.
    General Campbell. Sir, absolutely, yes.
    Chairman McCain. Finally, you said in your testimony we 
will need to help the Afghans address capability gaps in 
aviation, intelligence, and special operations. I would add 
logistics to that list.
    Should it not be that you should be recommending not 
numbers of people to the White House but capabilities and then 
fill in the numbers after that? Is that the process you are 
using, or is it you are just giving them numbers?
    General Campbell. Sir, I deal in capabilities, as you talk 
about. So I look at the requirement and really the needs 
assessment the Afghans would have and try to base the courses 
of actions based on those requirements.
    Chairman McCain. So their needs are aviation, intelligence, 
and special operations according to your testimony.
    General Campbell. Sir, absolutely. Sustainment, logistics. 
The aviation piece we just, quite frankly, started late on 
their air force, building their close air support capability. 
Logistics and sustainment is hard for any army. For a United 
States Army that has been around for 240 years, try to compare 
that to an Afghan army that is nascent and maybe only 8 to 9 
years old is quite tough.
    Chairman McCain. Aviation is one of the areas of most 
critical I would argue. I think they have two helicopters. Is 
that right?
    General Campbell. They have two functioning MI-35 
helicopters. They have several MI-17's, and now they have the 
MD-530, which we introduced here. But as far as close air 
support helicopters, that is a key gap. As you know, sir, it 
takes two or three years to grow a pilot, two or three years to 
grow maintainers. We are doing that as fast as we can. They 
started out the season with five MI-35's. Today they have two 
just based on airframe flyability.
    Chairman McCain. Well, I thank you. Again, General, I would 
like to again express my appreciation for the outstanding job 
you are doing under extremely difficult constraints. I thank 
you, General.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, General, for your testimony and for your 
service.
    So this has been a long struggle, and every community in 
this country has seen the effects and just recently a brave, 
young Rhode Islander, Sergeant First Class Andrew McKenna, was 
killed in action in Kabul. So this is not just academic or 
hypothetical. This is very real for our country and for the men 
and women of this country and our armed services.
    Let me ask you a question. You have two major missions, 
train and equip, together with counterterrorism operations. 
Just in the context of counterterrorism operations, do you need 
a physical presence outside of Kabul to do that effectively?
    General Campbell. Sir, to conduct counterterror operations 
effectively, it would have to be outside of Kabul, yes, sir.
    Senator Reed. So that would argue in terms of capabilities 
for a presence that is beyond the simple environment of Kabul.
    General Campbell. Yes, sir.
    Senator Reed. There is new leadership in the Taliban. 
Mullah Mansour has taken control. His deputies include I think 
one principal of the Haqqani Network, which is located on both 
sides of the border with Afghanistan and Pakistan. All of this 
raises the issue of the role of Pakistan, which is consistent 
and a constant issue that comes up.
    Just a few months ago, they were trying to broker peace 
talks. Can you give us some insight into the current position 
of the Pakistan Government with respect to what is going on in 
your AOR [area of responsibility]?
    General Campbell. Sir, again, as far as reconciliation and 
Pakistan's role, Afghanistan has said many times that this has 
to be Afghan-led on reconciliation. I think Pakistan 
understands that. President Ghani and the leadership inside of 
Pakistan have talked several times about reconciliation moving 
forward. I think both President Ghani and Pakistan understand 
that there has to be some sort of political resolution to this 
fight, and so reconciliation is one of those ways.
    Right now, with the Taliban being fractured, with Mansour 
claiming that he is the head, other folks like Zakir, Manan, 
Yaqoub, Dadullah, other senior Taliban members are actually 
still trying to struggle to fight against that and do not 
believe that Mansour should be the head. I think that will work 
itself out, but I think there are opportunities for Afghanistan 
to take advantage of that as they move forward.
    There was, I think as has been mentioned here, one peace 
talk. There was a second one that was on the table that was 
moving forward in just a day or so before when the Mullah Omar 
death was announced, and they kind of scrapped that.
    I do believe--and I did have the opportunity to talk to 
General Raheel Sharif, the Pakistan chief of the army. I talk 
to him probably once a week. I try to get to Pakistan once a 
month. I did talk to him last Monday, and he is dedicated to 
try to move the peace process back. I know that he and 
President Ghani will continue to try to work through that. But 
again, sir, I think that is going to take time and a lot of 
effort by a lot of people. I do not think that we should expect 
that is going to happen here in the near future. But it will 
take concerted effort by all.
    Senator Reed. As you indicate in your testimony, both 
President Ghani and CEO Abdullah seem to be committed to not 
only a positive relationship with the United States but to 
create a professional military force. Is that again your 
consensus?
    Also unlike, hopefully, Iraq, there does not appear to be 
any major sectarian divisions material, developing within the 
security force?
    General Campbell. Sir, you are right. I do believe that the 
Afghan Security Forces continue to be very resilient. President 
Ghani has taken on the role as commander-in-chief. He takes 
that very seriously. He visits training. He talks to his corps 
commanders quite frequently in person, on video 
teleconferences. So he takes on that role. I have seen the 
Afghan Security Forces under very, very tough situations 
continue to come together. I do not see--and I spent about 19 
months in Iraq. I do not see the same decisive ethnic 
infighting that I saw in Iraq.
    They have had some setbacks. We knew this was going to be a 
very tough season. Both the Afghan Security Forces and the 
Taliban knew this would be a decisive fighting season. I think 
over time, they continue to get better. So in northern Helmand 
where they had some issues, Musa Qala was taken over. It took a 
little bit of time, but the Afghan forces--although some of 
those had retreated out, the majority got back together, had a 
good plan, resupplied, and moved the right forces in to take 
back over Musa Qala. They did the same thing in Kunduz. Again, 
very hard to move that number of forces logistically, to plan 
that very quickly. So if you try to compare Iraq and 
Afghanistan, I see them as again night and day, two different 
things. The Afghans are fighters and, sir, they are warriors.
    Senator Reed. So both, from your perspective, operationally 
and politically, the Afghans are making a commitment that 
justifies continued support by the United States and NATO.
    General Campbell. Sir, without a doubt. Absolutely, yes, 
sir.
    Senator Reed. Thank you.
    Chairman McCain. Could I mention the chart there, General? 
The shaded areas are the areas of Taliban activity. Is that an 
accurate chart in your view?
    General Campbell. Sir, I got one right here.
    Sir, if the red areas are active areas of Taliban, I think 
for the most part that is on target.
    Chairman McCain. Thank you.
    Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    You have answered really most of my questions. Let me just 
ask for clarification. When Ghani last January and then again 
last week reemphasized that we may want to reexamine our 
withdrawal plan, I think, as I understand it, you have a list 
of options that you are prepared to give the administration to 
look at. Is that what you are referring to?
    General Campbell. Sir, President Ghani has asked on 
different occasions to continue to have coalition forces. I 
have already provided my recommendations for a force posture 
post-2016. Yes, sir.
    Senator Inhofe. You are not in a position to share any of 
that.
    General Campbell. Say it again, sir.
    Senator Inhofe. You are not in a position to share any of 
that with this committee at this time.
    General Campbell. Sir, as I said in my opening statement, I 
provided those to the leadership. I have to be able to give my 
leadership the opportunity to make those decisions without----
    Senator Inhofe. I understand.
    In February when you were before this committee, you 
outlined six criteria, six expectations. I would not expect you 
to have those in front of you right now, but can you recall any 
of those six that have not met your expectations? Then for the 
record, outline each one of them and how they are coming on 
that score sheet.
    General Campbell. Sir, like you, sir, I do not remember 
those six, but if I can take that for the record and reply back 
to you.
    Senator Inhofe. That would be fine.
    [The information referred to follows:]

    The Afghan National Defense Security Forces (ANDSF) and Afghan 
Security Institution (ASI) conditions that must be met include the 
following:
    Condition 1: Capable of protecting the population and securing a 
legitimate Afghan Government with limited United States and Coalition 
support. The ANDSF have made excellent progress protecting the 
population and securing the government. This is the first year ANDSF is 
in the lead without coalition forces in the field and with limited 
Close Air Support. Although the ANDSF performance has been uneven at 
times, I do not consider the insurgency capable of overthrowing the 
National Unity Government (NUG) by force.
    Condition 2: Maintain confident forces. I characterize the ANDSF's 
performance as uneven and this has affected their confidence. When they 
deliberately plan operations and have the right leadership they 
succeed. When they act hastily or lack decisive leadership, they have 
struggled to maintain the initiative.
    Condition 3: Maintain sustainable forces. The ANDSF attrition rate 
has impacted readiness and is a matter of concern. We have focused on 
helping the Afghans address the systemic causes to attrition ensuring 
their long term viability. Leadership is a primary reason for the poor 
attrition rate.
    (U) Condition 4: Capable of neutralizing terrorist networks and 
denying terrorist safe havens with limited U.S. and Coalition support. 
The Afghan Special Security Forces are capable of conducting raids 
independently using their own intelligence and Special Mission Wing 
(SMW) to execute long-range infiltrations in low illumination and 
reflect the overall potential of the ANDSF. However, they are not ready 
to stand alone to deny safe-havens to potential terrorist groups 
without U.S. and coalition support.
    Condition 5: Promote continued U.S. and international funding 
commitments. President Ghani's signing of the Bilateral Security 
Agreement and Status of Forces Agreement and public support for our 
continued Coalition troop presence warrants international donor and 
U.S. funding commitments. Without our presence, funding for the ANDSF 
will likely evaporate.
    Condition 6: Retain regional access, freedom of movement, and 
action. Coalition Forces have maintained regional access, freedom of 
movement, and action through a supportive government that wants our 
support as a regional counterterrorism partner.

    Senator Inhofe. At our last hearing, you stated the Afghan 
army and national police have shown that they can win battles 
on their own, overmatching insurgents whenever challenged. You 
also estimated that it would be unlikely that the Taliban would 
be able to overmatch them on the battlefield in 2015. How has 
that estimate changed? Or has it?
    General Campbell. Sir, I think again that this fighting 
season we knew was going to be very, very tough. I still 
believe that the Taliban cannot overtake the government. They 
will not overthrow the Afghan Government. They will continue to 
challenge the Afghan Security Forces. As the Afghan Security 
Forces continue to grow, they have stretched the Afghan 
Security Forces. As you look at the map Senator McCain referred 
to, those areas up in the north or some areas up in Badakhsan 
and in the far northeast, Farah, Kunduz, are areas in the past 
that we had not seen as much insurgent activity. But, again, 
all the enemy has to do is go in and cause terror, fear, and 
then come back out, may not try to occupy or control, but they 
are really trying to stretch I think the Afghan Security 
Forces.
    Their main goal continues, I believe, to be Helmand, 
Kandahar, the heartland of the Taliban. So as they pull forces 
from maybe the south or the east to the north, it could make 
the Afghan Security Forces vulnerable. In the south, the Afghan 
Security Forces understand this. They have a campaign plan for 
this fighting season. They have a campaign plan of what they 
want to do during the winter in preparation for the next 
fighting season. So I think they understand this and continue 
to work to try to improve.
    Senator Inhofe. You know, I and probably every member of 
this committee have been over there and have observed the 
advancements that are made by the Afghans. I think they are 
real. Senator Reed in his opening statement said something 
about the will to fight. Has there been a deterioration in the 
will to fight on their behalf?
    General Campbell. Sir, we have seen on two occasions, sir, 
in Kunduz with the police and probably northern Helmand with 
the police that you had some members lose that will. They are 
taking a hard look at why that happened, whether it was poor 
leadership, which I believe was a big part of that, whether 
they had just been in the fight too long and not been able to 
rotate. Again, that is probably two battalions' worth out of 
100-plus battalions. For the most part, I see the Afghans 
continue to have the will to fight.
    In the places that we have looked at that have come out, a 
lot of those have been actually police that were untrained 
police. They were hired, had not gone through the requisite 
training, had been put out very hastily out on the checkpoints. 
They may not have been supported by other forces. When they 
took fire, they felt they may not have been supported and they 
left. But, sir, that is not the majority. It is far from the 
majority of the Afghan forces, and I think they continue to 
learn from that and they have made adjustments.
    Senator Inhofe. Thank you, General.
    Then lastly, you did already address the abusive behavior 
or the accusations over there. But the press reports also--they 
said, quote, they are happening also on our bases. You did not 
say anything about our bases. Is there anything that you would 
share with us as to whether or not--the accuracy of that 
accusation?
    General Campbell. Sir, again, I think the thing that 
started this piece was a media article, and it was citing cases 
from 2010, 2011, and 2012. I have reiterated my policy in 
writing to all of my folks. I have not seen anything on our 
bases, sir. Absolutely not.
    Senator Inhofe. Thank you.
    General Campbell. Yes, sir.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and thank you, 
General.
    I want to dig into a piece of your testimony just to make 
sure we are all kind of on the page you are on. You talk about 
we all knew this fighting season would be tough. Talk about why 
this fighting season was particularly challenging.
    General Campbell. Sir, we knew this was going to be tough, 
again because this was really the first year that the Afghans 
were going to be totally on their own.
    Senator Kaine. So the Taliban would want to test that 
early.
    General Campbell. Sir, absolutely. The Taliban knew that as 
well, and they also knew that if there was going to be some 
sort of reconciliation in the end, they wanted to operate from 
a position of strength. To get a position of strength, they got 
to fight and they got to go out and cause disruption with the 
Afghan Security Forces.
    So I think everybody knew this was going to--the Afghans 
certainly knew this was going to be very tough. They tried to 
get out in front of this by conducting a multi-corps operation 
early on in the February time frame. So they actually started 
the fighting season--the Afghan Security Forces did--as opposed 
to waiting till the Taliban brought it on. There is usually 
about an April to October fighting season that people talk 
about. This year, as I said, there really was not lull. There 
was a continuous fight. The Afghans a lot of times take the 
winter time frame to regroup to do additional training. They 
did not have that opportunity.
    Senator Kaine. They would love not only to be militarily 
successful in this fighting season, but they would love to 
destabilize the civilian government if they could if at all 
possible.
    General Campbell. The Taliban, yes, sir. Absolutely.
    Senator Kaine. Talk a little bit about the Taliban post 
Mullah Omar. We talked a bit about this in my office yesterday. 
Sort of internal divisions and factions. We have also heard 
claimed ISIL affiliations in Afghanistan, but a lot of the 
reports have suggested that may be Talibanis who are not happy 
with their leadership. So they are claiming an affiliation with 
ISIL. Who is the Taliban today? Talk about that a bit.
    General Campbell. Sir, thanks. Sir, again, the Taliban 
under Mullah Omar had a spiritual leader. He had been there for 
years and years. They did not see him for many years. In fact, 
for the last two and a half years, there has been a big lie out 
there that he had been passing on guidance, and many of the 
Taliban I believe now feel that they trusted somebody that was 
not there.
    So they are disenfranchised. They want to do something 
about it. So they are fighting back against Mansour because 
they knew Mansour was the guy that had something to do with 
this. So there are fractures within the Taliban. Mansour, 
Yaquob, Manan, and many other ones, Dadullah. They are trying 
to take control of a piece of it.
    The Taliban are very decentralized, and so they do 
operations that are very decentralized. But Mansour is trying 
to get a coalescent group there. He has named, I think as 
Senator McCain talked about early on and Senator Reed, but he 
has named Siraj Haqqani as one of his deputes. Zawahiri from AQ 
[al-Qaeda] has come out and said I pledge allegiance to the 
Taliban as well. So there seems to be some steam over the Omar 
piece to try to coalesce and get a group. But they have their 
own issues with funding, with being able to work together, 
leadership issues.
    Up mostly in Nangarhar in the east, we have seen a rise of 
Daesh or ISIL-KP [the Islamic State in Khorasan Province]. It 
has been reported in a lot of different provinces, Sar-e Pol, 
Helmand. But Nangarhar is where ISIS, or the Daesh, have 
predominantly been, and that is where they want to set up and 
use Jalalabad as their capital of Khorasan Province and they 
want to try to recruit and they want to expand. This year, 
right now the Taliban and Daesh continue to fight each other, 
and so they are going at it inside of there.
    A lot of the Daesh's we see continue to be disenfranchised 
Taliban that maybe see Daesh as a way to gain more media, more 
resources. So they kind of change T-shirts, raise a different 
flag. We see a lot of TTP [Tehrik-e Taliban Pakistan] that are 
Pakistani Taliban that have gone over to the Daesh as well.
    So we continue to look at that. When I was here in 
February, I think I called it nascent. The term I would use 
today would be operationally emergent as they continue to try 
to build upon their capacity. President Ghani looks at that. I 
look at it every day as we move forward.
    Senator Kaine. Let me ask you about one more topic.
    Prior to this assignment, you were Vice Chief of Staff of 
the Army, and one of your responsibilities was readiness. We 
are having an intense budgetary discussion here. How many of 
our military strategies around the globe are limited because of 
readiness deficits in the current budget environment?
    General Campbell. Sir, all of the forces that I get in 
Afghanistan have the requisite training and they have gone 
through all of that. So I have not suffered that in 
Afghanistan. I do know that with all the services, they 
continue to have issues as we look toward the sequestration. I 
think over time they have been able to balance that based on 
priorities to provide Afghanistan the requisite forces with the 
right training. But as the budget will continue to have issues, 
hopefully that will not impact Afghanistan, but it certainly 
could as we move forward, sir.
    Senator Kaine. General, I appreciate your testimony. As 
much as I agree with members of the committee that our strategy 
in Afghanistan should be conditions-based not calendar-based, I 
hope we will have a budget that is conditions-based, not 
calendar-based to a decision that was made in August of 2011. 
We should be making budgetary decisions based upon the needs of 
today.
    With that, Mr. Chair, thank you.
    Chairman McCain. I agree.
    Senator Cotton?
    Senator Cotton. Thank you.
    General Campbell, thank you very much for your service to 
our country and thank you for the service you represent of the 
many American men and women you have in theater with you.
    I want to start with the Kunduz hospital bombing. So I 
understand that an American aircraft and American ground troops 
were involved in calling for fire that ultimately hit that 
hospital?
    General Campbell. Sir, we have U.S. special forces on the 
ground. They are doing train, advise, and assist with our 
Afghan partners. Our Afghan partners called for fire. The U.S. 
aircraft delivered those munitions. Yes, sir.
    Senator Cotton. There are three investigations underway?
    General Campbell. Sir, I have a DOD [Department of Defense] 
investigation. There is a NATO investigation, and the Afghans 
are doing an investigation and will be open and transparent. I 
have talked to investigating officers, Brigadier General Rich 
Kim. He is up in Kunduz today. I talked to him this morning. He 
is reaching out to all the folks that were involved there. He 
is reaching out to Doctors Without Borders to make sure that we 
have everything we can on this investigation as we move 
forward.
    Senator Cotton. You conduct investigations like this 
anytime there is a similar incident?
    General Campbell. Sir, we have to get to the facts. There 
are a lot of questions out here. Yes, sir.
    Senator Cotton. Do you think there is anyone here who 
regrets this incident more than the pilots of that aircraft?
    General Campbell. Sir, everybody wants to make sure that we 
find out what happened. As you know, every soldier, sailor, 
airmen, and marine, if they are involved in something like 
this--that hurts.
    Senator Cotton. Is there anyone that we are to blame for 
this incident other than the Taliban for going into a civilian 
area and fighting among civilian targets?
    General Campbell. Sir, the investigation will tell me, as I 
get the facts on that. But as you mentioned, the Taliban did go 
into Kunduz. The Taliban did know that they were going to cause 
a fight inside a built-up area. As I talked about, you know, 
Taliban causes, based on the UN [United Nations], over 70 
percent--I believe it is a little bit more--they target 
civilians. There is a difference between target civilians and 
what happened at the hospital.
    Senator Cotton. The Taliban, like our enemies in Iraq, like 
Hezbollah in Lebanon and Hamas in Gaza, intentionally target 
civilians and intentionally use civilians as shields. Is that 
correct?
    General Campbell. Yes, sir.
    Senator Cotton. I want to talk briefly about some of the 
stories about abuse of children among certain Afghan leaders. 
So you are a four-star general at the highest level of command 
in Afghanistan. I served there six years ago as a captain. 
There is a big gap between those two levels. Sometimes we see 
things differently. I received training before I went, as did 
my soldiers, and in Afghanistan I received training. I provided 
training that said that such behavior was unacceptable. Nor did 
I ever see such behavior. Is that still the case today, 
training for the soldiers, sailors, airmen, and marines 
throughout the country?
    General Campbell. Sir, that is correct. The Afghans have 
also incorporated this into their training, human rights 
training, under the basic training courses. In their officer 
accession training, they have incorporated this. They have also 
trained their JAG's [Judge Advocate Generals], or their 
lawyers, to be able to perform what we call mobile training 
teams to go out to the different corps to reemphasize the human 
rights training throughout. President Ghani has stated 
emphatically that he will prosecute anyone suspected of 
committing sexual assault upon children.
    So as I said in my opening statement, we have looked at 
this very hard, and at least since 2011, I know that there has 
always been a policy out there that says you will report 
violation of human rights. I reiterated that in writing here 
recently based on the media reports, and I have also required 
that within 30 days all personnel in theater complete 
additional training on human rights abuse reporting 
requirements and that everybody new coming into theater 
complete training upon their arrival into theater to make sure 
that we get everybody there. The training very clearly 
indicates that sexual abuse by Afghan Security Forces is a 
human rights abuse issue.
    Senator Cotton. Well, thank you.
    You said that back to 2011. I can tell you that at least in 
my neck of the woods in Afghanistan, it went back to at least 
2008. I suspect it went back to 2001 as well.
    I would like to turn to your testimony about the 
differences in this fighting season from previous fighting 
seasons. You cited the rise of the Islamic State, the national 
unity government, Pakistan military operations in eastern and 
northern Afghanistan. But there is also the difference of our 
presence in the country. Your testimony on page three states, 
``In years past, our aircraft provided responsive and often 
decisive close air support to coalition and Afghan troops in 
contact. This is no longer the norm but the exception. Our 
force reduction, drop in enablers, and resultant close air 
support gap have created challenges for the ANDSF [Afghan 
National Defense and Security Forces]; they have understandably 
struggled at times to adjust.''
    It sounds to me like, General, that our unwise and 
precipitous drawdown in Afghanistan over the last couple years 
have contributed as much to the difficulty in the fighting 
season this year as anything that we have seen from enemy 
activity.
    General Campbell. Sir, what I would say is that we knew 
that we would have to continue to do train, advise, and assist 
in many areas that we talked about, logistics, intelligence, 
special operating forces. Close air support is the one that I 
get asked about from the Afghans every single day. It is an 
area that we started too late. We will continue to work that 
very hard. We are surging on building their pilots, building 
their maintainers. But as I put in my statement there, it has 
been slow coming. So what we have really worked with the 
Afghans is to enable them in every other way to try to work 
through this with using their own QRF's [Quick Reaction 
Forces], using every indirect fire means that they have. So it 
is a balance and making sure that they can work through that.
    Again, the Taliban do not have close support helicopters. 
The Taliban do not have up-armored Humvees. The Taliban do not 
have a lot of the sophisticated technical equipment that we 
have provided to the Afghans over the years.
    I go back to leadership and leadership makes a difference. 
In areas that they have had problems, I think leadership has 
been the key.
    But we have to be able to provide the Afghans with this 
ability to provide their own close air support, and that is 
going to take several more years to get there. If they would 
have had their own close air support at the levels that they 
probably wanted, maybe something like Helmand may not have 
happened. But as we go through and look at that--they are very 
committed to working through this piece of it, and they have 
made many adjustments as they go forward.
    Senator Cotton. Thank you.
    You had said in response to Senator McCain that you deal in 
capabilities not personnel numbers. I hope the President does 
as well.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    General Campbell, thank you for being here this morning and 
for your service.
    Thank you also for your forthrightness in talking about 
what happened with the bombing of the hospital in Kunduz. I 
know all of us looked at that horrific accident and want to 
know how that could happen. I appreciate your talking about the 
effort to investigate on our part what happened there.
    But do you have any reason to object to having an 
independent investigation done by the UN or another independent 
body of what happened?
    General Campbell. Ma'am, I have trust and confidence in the 
folks that will do the investigation for NATO, the folks that 
will do the investigation for DOD, and in the Afghan partners. 
So all the very, very tough questions that we are all asking--
they will get after that. My investigating officer, again, is a 
brigadier general, Rich Kim. I have all the trust and 
confidence that he will get answers to all of those questions 
and he will continue to work that very hard and will continue 
to be transparent and provide all of that to this committee and 
to the American people as we move forward.
    Senator Shaheen. But as I understand your answer then, you 
would not object to and would cooperate with an independent 
body other than NATO or our Department of Defense in doing that 
kind of an investigation?
    General Campbell. I would let my higher headquarters or 
senior personnel make that decision. We are reaching out, 
again, to Doctors Without Borders and the personnel that were 
on site and making sure that we get all sides of the story. I 
did talk again to the investigating officer this morning. He 
has done that. He has talked to a few. He is continuing to try 
to get out to locations where he can talk to doctors, nurses, 
survivors of that to make sure he gets all that story. We will 
certainly share all of that.
    Senator Shaheen. Thank you.
    There was a very interesting recent news article about the 
role that Afghan-trained special forces units played in 
regaining control of Kunduz and the role that female soldiers, 
who were part of those units, played. I wonder if you could 
share with us what you know about how those women who are 
trained to serve in the Afghan army are faring and the role 
that they are playing and the successes that they are seeing on 
the ground.
    General Campbell. Thank you for the question, ma'am.
    I do believe that having the ability to have Afghan females 
embedded in the special operating units provide them a unique 
capability as they get on objectives to talk to females that 
are on those objectives. They use this quite frequently. Female 
Engagement Teams is what we used to call it. I think they call 
it the same thing. So that has been quite helpful to their 
national mission force, which is their equivalent of our 
Rangers, at Qatayhas. They have some of these females also 
inside of their commando unit. So this is quite good.
    The MOI, the Ministry of Interior, with the police 
continues to do better and better on recruiting females as 
police, and the police can continue to come in and probably 
operate in their own hometowns. It is a little bit more 
difficult for the army to recruit females because most of them 
would have to come in and then deploy someplace throughout the 
country. So the MOD [Ministry of Defense] is a little bit 
farther behind, but we continue to work it very hard.
    This committee has earmarked money for us on gender 
integration that we work toward recruiting methods. I have a 
gender integration advisor that reports directly to me that 
works with Ms. Ghani, that works with all the folks in 
Afghanistan to continue to look at how we can do better 
building this capacity. It has been slow. Culturally it is 
hard, but I think both President Ghani and Dr. Abdullah really 
want to get after this.
    Senator Shaheen. Well, I know that most people on this 
committee have talked about the importance of ensuring that 
women continue to have a place in Afghan society that gives 
them opportunities. So this is one of the ways in which we can 
see women advance that I think will have a trickle- down effect 
across other sectors. So I appreciate the efforts that you have 
undertaken.
    I also want to thank you for supporting the Special 
Immigrant Visa Program [SIV] for those in Afghanistan who have 
helped our troops. As you may be aware, the Defense 
Authorization Act this year includes an additional 3,000 Afghan 
SIV's, and maybe you could just speak briefly to how important 
that is in terms of our dealings with Afghans and getting them 
to help us.
    General Campbell. Ma'am, I think as you know we have been 
dependent on some great Afghans over the years to provide 
interpreter/translation skill sets for us that we did not have. 
They put their life on the line with tactical units. They have 
done it for many, many years over and over. They put themselves 
at risk and their families at risk. I think anything that we 
can do to help mitigate the impact on them and the safety of 
them and their families is greatly appreciated. I know that I 
get asked all the time about that. They work that through our 
embassy. Our embassy has a great program under Ambassador 
McKinley to work through that.
    Senator Shaheen. Thank you very much.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. Thank you, General Campbell, for your 
service to the country and your leadership.
    I wanted to ask you about--right now the administration's 
stated policy in Afghanistan, as reiterated when President 
Ghani visited our country in March, is that we will be drawing 
down to a normal embassy presence in Kabul with security 
assistance, just as we have done in Iraq and by the end of 
2016. If that remains our policy, in light of the capability 
gaps that you have identified in your testimony and have been 
identified many times before this committee, what would be the 
consequences of that in Afghanistan?
    General Campbell. Ma'am, if we go to a normal embassy 
presence, as you stated there, we would have very limited 
train, advise, and assist capability from Kabul.
    Senator Ayotte. What do you think will happen to 
Afghanistan if we do that?
    General Campbell. Well, it will take much longer to 
continue to train in some of those critical areas that we need 
to train. So it would be very difficult, again, to do train, 
advise, assist.
    Senator Ayotte. So would we lose and would the Taliban gain 
territory?
    General Campbell. Ma'am, I think that the Afghan Security 
Forces, you know, where they are today, where they were two 
years ago, where they will be in another year and a half--they 
continue to improve. I do not believe that the Taliban can take 
over the government. I do believe the Taliban understand that 
they stress the Afghan Security Forces pulling out to the outer 
pieces of Afghanistan, cause casualties on some of the road 
checkpoints----
    Senator Ayotte. General, I guess the question I want to 
understand is without getting into numbers of troops or 
anything like that, do you think, based on your military advice 
being the Commander in Afghanistan, that we should revert to an 
embassy presence alone by the end of 2016? Do you think that is 
what we need to do to make sure that Afghanistan does not 
become yet again a haven for al-Qaeda?
    General Campbell. Yes, ma'am. I understand the question. I 
have provided my chain of command options because I believe 
there have been a lot of different transitions over the last 
couple of years since that decision was made. If you go to just 
embassy-only, again, our ability to do TAA [train, advise, and 
assist] is very limited. Our ability to do CT is much more 
limited.
    Senator Ayotte. So your recommendations would be a presence 
beyond the embassy, without getting into what they are.
    General Campbell. The different options that we have laid 
out through the chain of command provides our senior leadership 
with options above and beyond a normal embassy presence based 
on changes that have happened over the last two years and 
changes on----
    Senator Ayotte. So here is what I want to make sure the 
American people understand. Why does this matter? Why does it 
matter that we continue to work with the Afghan Security Forces 
to ensure that Afghanistan does not go back to a place where it 
becomes a haven for a group like al-Qaeda?
    General Campbell. As I said in the opening statement, 
ma'am, Afghanistan continues to be a dangerous area. That 
region of the world, all of its neighbors do not play by rules. 
Areas in Pakistan, areas in Afghanistan, if not continue to 
have pressure on them----
    Senator Ayotte. Does it matter to our security?
    General Campbell. I think that as I said up front, we have 
not had another 9/11 attack on our homeland because we have had 
forces that have been forward deployed and have continued to 
provide pressure and have continued to train our Afghan 
partners so that they have this capability to take that on for 
themselves. But that is going to take some time.
    Senator Ayotte. I wanted to ask you about Iran's activities 
in Afghanistan. Can you tell us what Iran, if anything, is 
doing right now in Afghanistan in terms of supporting the 
Taliban or other groups?
    General Campbell. Yes, ma'am. At this level, I can tell you 
that we have some reports that Iran has provided money, weapons 
mostly in the west in the Harat area to the Taliban to fight 
Daesh.
    Senator Ayotte. They are supporting the Taliban right now--
Iran--with resources, money and weapons.
    General Campbell. Again, we have reports that they have 
provided money and weapons to the Taliban mostly in the west 
around the Harat area. I do not have numbers of how much, how 
much money, how extensive that is, but there have been reports, 
yes, ma'am.
    Senator Ayotte. How has cooperation been with Pakistan in 
dealing with the Haqqani network and what more should we be 
doing there?
    General Campbell. Well, as you know, Haqqani continues to 
be a big threat not only against the coalition but also the 
Afghan people. Haqqani are the ones that were traditionally 
responsible for the high-profile attacks, the VBIED's, vehicle-
borne IED's, the suicide vests. Haqqani are the ones that 
attack innocent civilians.
    So what I have stressed to Pakistan and I think at all 
levels of our Government from DOD all the way to the White 
House continue to express to Pakistan that they have to do more 
to not provide sanctuary to Haqqani inside of Pakistan, so we 
got to continue to keep the pressure on and make sure that 
Pakistan understands that there is a common enemy here that 
Afghanistan and Pakistan should work together. Terrorism knows 
no boundaries. So they have to work it out together.
    Senator Ayotte. Thank you, General.
    Chairman McCain. Has the Iranian assistance to the Taliban 
increased or decreased or stayed the same recently?
    General Campbell. Sir, I would have to come back to you on 
the record. I would tell you that we saw it a few months as 
there was increased fighting with Daesh and Taliban out in the 
west, but I could not tell you if that was more or less than 
from before.

    [The information provided by General Campbell is classified.]

    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    General, thank you for your hard work in a very difficult 
place.
    One of the most expensive things has always been to have to 
take the same ground twice. You know, we want to look at things 
as they are and not as we hope. One of the main concerns I have 
is that it makes it more difficult for the American and 
coalition troops who are in Afghanistan and it makes it more 
dangerous for them if we are not able to fulfill each of the 
roles that the Afghan Government should in terms of security, 
in terms of air, in terms of intelligence, in terms of the 
logistics, that the weaker they are in those areas, it puts our 
men and women in greater danger.
    So it is a long way of asking you, are we really in a South 
Korean type situation where we have to put significant numbers 
in for a long term to help create the stability that needs to 
be there? It seems from year to year to year we just kind of 
bounce along or it gets a little bit worse. Is it not more 
applicable to a South Korean type situation?
    General Campbell. Sir, I would not compare it to South 
Korea. What I would tell you is what we have been able to do 
over the last 14 years is provide the Afghan Security Forces--
remember in 2001, they did not have an Afghan army. They did 
not have an Afghan police. So they did not have an Afghan air 
force. So the capabilities that they have today, because of the 
great work by many men and women--and many of them have paid 
the ultimate sacrifice. They are in a different place now. So 
they have a capability, and they want to be a partner in the 
region. They want to have their own CT capability to fight the 
terrorism that is out there. Everybody is working very hard to 
do that.
    Force protection for the coalition, the U.S. forces, the 
NATO forces--I have that. That is my number one priority, to 
make sure that I do everything I can to mitigate where I would 
have issues with that. Today with the resources I have and the 
authorities that I have, I am comfortable where I am to be able 
to provide the right force protection for those forces.
    Senator Donnelly. We have come a tremendously long way, but 
we want to make sure it does not slip back. The worry is that 
if we just simply do numbers-based work, that it does not take 
into consideration what is going on in the field.
    So one of the proposals, I hope and assume, is that you 
have given to the administration your best win scenario or the 
best Afghan Government stabilization scenario, that you say, 
look, here if I am not getting determinations on we want less 
people or we want this or we want that, here is the best plan 
for success. Is that going to be one of the things that is put 
forward?
    General Campbell. Sir, as we talked earlier, the courses of 
action I provided to my senior leadership are based on 
requirements, based on the capabilities that we talked about. 
Of course, any military person on the ground wants to make sure 
that that end state, that outcome, is success. We are not going 
to put something forward that would not lead to that.
    Senator Donnelly. When you look at where we are, in terms 
of the village and tribal elders, what are the things we need 
to do to give them long-term confidence that they should be 
betting on our side as opposed to the Taliban? If you are in 
some of those outlying areas and you see things happen like 
what just happened in Kunduz--what are the kind of things they 
are looking for that we need to be providing?
    General Campbell. Sir, what they are looking for is for the 
Afghan Government to provide them governance at the local and 
at the district level. I think if you are a tribal elder, if 
you are somebody on the outskirts, you are not thinking in 
terms of what can the coalition provide. You are thinking in 
terms of what can the Afghans provide, and so they look at the 
Afghan forces and want to make sure that they have the ability 
to have governance at that level.
    President Ghani, Dr. Abdullah, the senior leadership in the 
MOI, MOD continually try to engage with the senior elders. They 
call them shuras, and so in Helmand, right after they had 
issues in Musa Qala, the senior military got on the ground. 
Major General Abdullah Khan brought in local elder leaders to 
work through that piece. They also try to engage local elders 
to build Afghan local police so that the villages can provide 
their own security. They will do that in Kunduz as well as they 
continue to move forward, and they will bring in the local 
leadership to make sure they understand what the Security 
Forces can provide and then what the Afghan Government can 
provide.
    Senator Donnelly. What was missed by the Afghans in Kunduz 
in terms of the infiltration of the Taliban and then coming in? 
What did we miss, or did we know and were not able to stop it? 
What happened?
    General Campbell. Sir, we are still looking at that, sir. 
We have asked that question and the Afghans have asked that 
question. President Ghani has established a commission, for 
lack of a better term, to get up into Kunduz to give him a 
readout on why this happened, who was responsible. So he has a 
commission that is also doing that.
    Senator Donnelly. The reason I ask--not to interrupt you, 
General--is you wonder if there is another one brewing 
somewhere else and are we picking up on the signals, or are the 
Afghans picking up on the signals, and are we putting in place 
a way to stop it from happening?
    General Campbell. Sir, that is exactly the same question 
that President Ghani asked at a meeting of the National 
Security Council when he activated this commission. He said the 
exact same thing. I want to make sure I understand what 
happened, why it happened, and I want to make sure that it 
cannot happen again. So we need to get the senior police and 
army into Kunduz City to do that, and if you have people that 
gave up and walked off the job, then they need to be 
disciplined. If you have general officers that did not fight, 
then they should not be in those positions. So he has asked all 
those tough questions.
    Senator Donnelly. Thank you, General.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General, thank you for your service.
    In an address to the Nation on May 27, 2014, President 
Obama said Afghanistan--and I quote--we will bring America's 
longest war to a responsible end and then announced calendar 
dates for the withdrawal. I will quote him again. At the 
beginning of 2015, we will have approximately 9,800 U.S. 
service members. By the end of 2015, we will have reduced that 
presence by roughly half, and we will have consolidated our 
troops in Kabul and Bagram Airfield. One year later by the end 
of 2016, our military will draw down to a normal embassy 
presence in Kabul with a security assistance component, just as 
we have done in Iraq.
    In looking at that, number one, from 9,800 down now--have 
we drawn from 9,800 down in a manner consistent with following 
that goal to its end as indicated on May 27?
    General Campbell. No, sir, because what happened is back in 
the February/March time frame, we asked for flexibility, and so 
President Obama provided me flexibility on the timing and the 
number. As you remember, 9,800 to provide train, advise, and 
assist through this very first fighting season. If I had to get 
down to the 5,500 number by the end of this year, I would have 
had to start closing bases like Jalalabad, Kandahar, and even 
Bagram. So I asked for, President Ghani asked for some 
flexibility, and currently that 9,800 number I still have and 
are not going to get down below that--required to get down 
below that until probably May of 2016 time frame as we move 
toward the current projection of this embassy-based.
    But again, I have gone in with different courses of action 
that outline pros and cons of different locations and different 
force levels based on the capabilities that we need to continue 
to provide to the Afghans.
    Senator Rounds. Based upon that, it is fair to assume that 
Bagram is not in the position of being closed down at this 
time.
    General Campbell. Sir, the current plan would have Bagram 
closed by the end of 2016.
    Senator Rounds. Have you made any movements toward that end 
yet?
    General Campbell. Sir, over the last couple of years, we 
have had to close hundreds and hundreds of bases, so every day 
we continually what we call ``descope'' and get rid of 
buildings, get rid of equipment to send back to the United 
States, turn over to the Afghans, other partners, and so every 
day even in Kabul we are on that. We continue to descope. We do 
that at Bagram. We do that at Jalalabad. We do that at 
Kandahar. So I am doing that every day, but I have not reached 
a point where if a decision is made to keep Bagram that is 
irreversible.
    Senator Rounds. Okay.
    With regard to Taliban funding, if you could look at it 
right now and determine where most of the funding is coming 
from, could you list out where the funding for Taliban is 
currently coming from in Afghanistan?
    General Campbell. Sir, a lot of the funding comes from 
narcotics, from drug smuggling. It comes from kidnapping. It 
comes from other countries that support the Taliban. So there 
is a whole list.
    Senator Rounds. Primarily local unit by local unit? I mean, 
are they doing it on their own, separate, or is there a grand 
plan in terms of all of them working together in a concerted 
effort?
    General Campbell. Sir, I think the Taliban is organized 
where they have committees. They have a political committee. 
They have an operations committee, that kind of thing. But they 
are very independent--``decentralized'' I think is a better 
word--as they conduct operations throughout Afghanistan.
    Senator Rounds. Thank you.
    General Kim's report, the one which he would be working on 
as we speak--is there a time frame for a release of that 
report?
    General Campbell. Sir, I have not determined that time 
frame. I want to make sure that he has the time required to 
talk to everybody that he needs to talk to. He has been up in 
Kunduz for the last several days. I have had the ability to 
talk to him each morning here. He is getting more and more 
people to talk to, but as he talks to one person, that leads to 
two more people to talk to. So I think this is going to take 
some time.
    As soon as I can get a preliminary assessment out of this, 
I will go back to my senior leadership. Again, we want to make 
sure that we can be transparent, open, very candid about what 
happened here, learn from that, and make sure something like 
this never ever happens again.
    Senator Rounds. Reasonable to expect at least a preliminary 
report within 30 days?
    General Campbell. Sir, I think so, yes, sir.
    Senator Rounds. Thank you, sir.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    Just to be very clear, General--and I think you have made 
this clear, but in your professional military judgment, 
conditions on the ground at the present time would require some 
revision of the withdrawal plan to a Kabul-centric 1,000 
personnel by the end of 2016. Is that correct?
    General Campbell. I will stomp my foot. Yes, sir. The 
options I provided provide pros and cons of different levels of 
support above and beyond the 1,000, and I based that based on 
my experience on the ground and the conditions that I have seen 
as I have talked about Daesh, ISIL, what has happened in 
Pakistan, the National Unity Government. So all of those are 
factors and variables I considered as I worked on different 
courses of action. Yes, sir.
    Senator King. I am not asking you what you recommended. I 
am asking you for your professional judgment as you are sitting 
here today that there should revision to that plan.
    General Campbell. Yes, sir.
    Senator King. Thank you.
    General Campbell. Political questions. I am concerned about 
the Ghani-Abdullah relationship. I understand there are still 
some ministers not appointed. They are still in different 
buildings. They do not seem to be communicating effectively. 
This war is going to be impossible without some kind of unified 
government in Kabul.
    How are the politics of the National Unity Government 
developing, and is there some role that we have to play to move 
that along?
    General Campbell. Sir, thanks for the question.
    Again, sir, I think every single day both myself, my 
partner, Ambassador McKinley--we work this and we understand 
how important having a National Unity Government is. I think 
the Afghans understand this as well. To think that there are 
people that do not want the national unity government, that are 
what I would call ``spoilers'' out there trying to disrupt 
that, I think we would be foolish. Sir, there are. I think both 
President Ghani and Dr. Abdullah understand this as well, and 
they know that they have to do better to sync up where they are 
going.
    I think on major policy issues, both President Ghani and 
Dr. Abdullah--there is no daylight between them. I think they 
agree on those major policy issues on what is good for 
Afghanistan and its future. I think where they have issues is 
determining who is going to be this minister, who is going to 
be the provincial police chief, those kind of things as they go 
back and deal with their constituencies. But I think they 
continue to understand they have to make those tough decisions. 
On September 29th, they had a little over a year and they 
understand now is the time to do that. I have seen, over the 
last couple of weeks, an increased dialogue to make sure that 
happens.
    But that is a continual issue, and I think--you know, 
again, the ambassador works that. I work that. All the other 
international community ambassadors that are in Afghanistan 
understand how important that is, and everybody consistently 
works very hard to make sure that both President Ghani and Dr. 
Abdullah understand that.
    As far as the ministers, the only one that I know of not 
appointed is the acting Minister of Defense, Stanekzai, who I 
think is very, very capable and it would be a big mistake and a 
tragedy if the parliament was to do something in Afghanistan to 
make sure that he was not the minister. But he is absolutely 
the real deal for Afghanistan as they move forward in the 
ministry of defense.
    Senator King. So finalizing that appointment would be a 
step forward.
    General Campbell. Sir, it would. Right now, President Ghani 
has absolute trust and confidence in Mr. Stanekzai. He 
continues to work as the acting minister, and I think he is 
making decisions as the acting minister just as he would as a 
minister.
    Senator King. I hope you will maintain--I mean, we have a 
substantial role there. We are very important to them, and I 
hope we can use that influence to move this along.
    I was disappointed, for example, when President Ghani spoke 
to the Congress. Dr. Abdullah was sitting in the front row. 
There was a great round of applause. That would have been a 
wonderful moment for President Ghani to call Dr. Abdullah up 
and receive the--it was a kind of symbolic gesture. It did not 
happen. I hope you will continue to encourage President Ghani 
to loosen up a little bit. He won. He could afford to be 
magnanimous. That is free political advice to the president of 
another country.
    General Campbell. Sir, thank you. As you know, sir, Dr. 
Abdullah represented Afghanistan at the UNGA [United Nation's 
General Assembly] in New York City here last week and took that 
on. I know that he and President Ghani continued to talk every 
day as they went through that. So I think that is a step in the 
right direction as well.
    Senator King. Thank you.
    Another political question. What is the feeling of the 
population of Afghanistan about the Taliban? Is the Taliban 
gaining adherence, losing adherence? Are they about the same? 
If there were an honest poll taken, do you not approve of the 
Taliban, what would the results be?
    General Campbell. Sir, the people of Afghanistan understand 
that the Taliban attacks civilians. The Taliban kill innocent 
women and children. So the support that the Taliban have from 
the average Afghan is not favorable. In fact, that percentage 
over the years has continued to go down and down.
    The Afghan people have great confidence, and the number one 
institution in Afghanistan is their army. They have issues, 
again, with the government. When they see terror, when they see 
something happen that frightens them, they are going to blame 
that on the government and on the Afghan Security Forces. But I 
think if you put them side by side and said you can pick the 
national unity government, you can pick the army, you can pick 
the Taliban, they absolutely would not pick the Taliban. The 
Taliban, again, go into many remote places. In some places, 
they may provide some sort of Sharia law or governance. But I 
think in the end, the people understand that the way of the 
future for Afghanistan is with the national unity government, 
having a very professionalized army and police, and so they do 
not support the Taliban.
    Senator King. Thank you. I am out of time.
    Perhaps for the record, you could give us some of your 
thoughts on whose side Pakistan is on in this struggle and what 
role they are playing, just for the record. Thank you.

    [The information provided by General Campbell is For Official Use 
Only.]

    General Campbell. Thank you, sir.
    Senator King. Thank you, General.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you, General. Are you keeping Captain 
McCarthy in check there?
    General Campbell. Sir, I will take that for the record, 
sir.
    [Laughter.]
    Senator Graham. Okay.
    Could you very briefly describe what winning would look 
like in Afghanistan from an American point of view and what 
losing would look like?
    General Campbell. I think winning would have a stable 
Afghanistan, a stable government, would have a professionalized 
army and police that provided governance for the people of 
Afghanistan, that people could go to school, people could work. 
I think the opposite of that, an unstable Afghanistan would 
provide opportunity for insurgents to use ungoverned spaces to 
go after something like our homeland in the future.
    Senator Graham. If we had the right configuration in 
January 2017, what is the likelihood of winning over time?
    General Campbell. Sir, I think we have a great opportunity 
if we continue to support that Afghan Government and continue 
to work with the Afghan Security Forces. This is our best 
opportunity. We have not had a government like this that 
reached out not only to the U.S. but to the international 
community. We have not had a government that takes on its 
responsibility to professionalize the army and the police like 
we have. We have not had a government that understands what the 
army and the police are going through. So this is our best 
opportunity.
    Senator Graham. Do the Afghan people want us to stay by and 
large?
    General Campbell. Sir, the Afghan people that I talk to 
that I deal with--and I do bring in an advisory committee that 
is made up of different facets of Afghan life to talk to about 
every month. I do have a women's advisory committee that I 
bring in to make sure we understand gender issues. 
Overwhelmingly, the Afghans support the coalition and want to 
continue to have that continued support.
    Senator Graham. Do you agree with me if we go down to 1,000 
forces, 1,000 people, Kabul-centric, embassy-centric, like 90 
percent chance that the country falls apart?
    General Campbell. Sir, I do not know if I would put a 
percentage on it. Sir, what I would say is our ability to 
provide train, advise, and assist and continue to grow the 
Afghan forces would be very limited.
    Senator Graham. What about the counterterrorism issue?
    General Campbell. Sir, just from Kabul, I cannot do a 
counterterrorism mission.
    Senator Graham. Okay. Now, tell the American people why it 
is in their interests for you to have a counterterrorism 
footprint in Afghanistan.
    General Campbell. Sir, I think two reasons. I think, first 
off, we need to continue to build the Afghan capacity for their 
CT element, and that takes our men and women to continue to 
work with them as they do today. Their special operating 
forces, their CTP's [counter terrorism police] are probably the 
best in the region and continue to get better. But it is going 
to take time to be able to raise that. So if we continue to 
build their capacity, they want to be a regional partner. They 
want to be able to handle those issues in that region. To have 
a CT capability to keep pressure on some of the ungoverned 
spaces--you know, we do have people that continue to want to do 
bad things to the people----
    Senator Graham. Let us dig into that a bit. A better 
trained Afghan counterterrorism force is good for the stability 
of Afghanistan. Do you agree?
    General Campbell. I agree, sir.
    Senator Graham. But there are no substitute for American 
counterterrorism forces that would protect the homeland. Does 
that make sense?
    General Campbell. Sir, I believe that our counterterrorism 
forces are the best in the world.
    Senator Graham. But they would have a focus that the 
Afghans would not have.
    General Campbell. Again, we want to continue to build the 
Afghan forces, yes, sir. But our forces provide our best----
    Senator Graham. I am just trying to make the case, as well 
as I know how, that we would be nuts to not have a 
counterterrorism force inside of Afghanistan, United States 
presence counterterrorism folks, making sure that we never get 
attacked  again  like 9/11. Does that make sense to you?
    General Campbell. Sir, I think General Dempsey has laid out 
a regional CT piece to have regional CT throughout different 
spots in the world to----
    Senator Graham. But Afghanistan would be the centerpiece of 
that.
    General Campbell. Sir, I would concur with that, yes, sir.
    Senator Graham. We are welcome there. They would welcome 
this presence.
    General Campbell. Absolutely.
    Senator Graham. The only reason we would not have a 
counterterrorism force in Afghanistan is because we decided not 
to ourselves. The Afghans welcome that presence.
    General Campbell. Sir, they welcome us there. Yes, sir.
    Senator Graham. Parwan Prison. Is that moving forward in an 
acceptable way to use it as a national security detention 
facility?
    General Campbell. Sir, Parwan is the gold standard for 
Afghanistan. Yes, sir.
    Senator Graham. This new president is willing to use that 
prison to take high-value targets, put them in jail so they 
cannot bribe their way out. Is that correct?
    General Campbell. Sir, he has moved high-value targets from 
other provinces into Parwan because, again, it is the gold 
standard. They have had some issues with some other prisons 
here lately but not at Parwan.
    Senator Graham. Just to end, one of my last questions. Do 
you see a commitment by President Ghani and Abdullah Abdullah 
to do things differently than Karzai that give you optimism in 
terms of the future of Afghanistan if we continue to partner?
    General Campbell. Sir, without a doubt.
    Senator Graham. Thank you.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    Thank you, General Campbell. Thank you to all that serve 
under you for really hard stuff that they are doing every day.
    I will be looking forward to the investigation over the 
tragedy of the Doctors Without Borders as it develops.
    Corruption continues to be a major, major challenge in 
Afghanistan. I know that Ghani made this a focus of his 
campaign when he ran to lead the government in Afghanistan. But 
I noticed the ``New York Times'' reporting last week that 
corruption played a role in the Taliban's recent success in 
Kunduz, saying that the local security forces were extorting 
money from the locals, which raised sympathy for the Taliban. 
They were being, in fact, hit up by the folks that we have been 
spending hundreds of millions of dollars to train, and 
obviously, that is unacceptable.
    Could you talk about that, and what is your assessment of 
the risk right now of corruption as it relates to the work we 
are trying to do with the Afghan National Security Forces?
    General Campbell. Yes, ma'am. Thank you for the question.
    I think President Ghani has stated--many people say that 
corruption is the number one issue as they look to the future. 
President Ghani and Dr. Abdullah have really tried to get after 
this from a couple different levels.
    One is he knows that contracting has caused a lot of 
corruption-type issues. So he has instituted a national 
procurement directorate or agency that looks at every single 
contract to make sure that those are valid, that he can get 
this corruption out of the contractor piece.
    The other area he has looked at very hard is on leadership 
and trying to pick the right leaders based on their experience, 
based on the right skill sets. So like something that you 
referred to up in Kunduz where people are taking money, 
extorting from the local folks up there, if he had the right 
leadership in place, that would not happen.
    So it is going to take time for him to get to all the right 
levels to make sure he breeds this culture throughout the 
Security Forces that corruption is not good and that if you are 
corrupt, that you are going to be removed. You are going to be 
held accountable. I have seen several instances over the last 
several months where they have had different cases where both 
in the MOI, the Ministry of Interior, and Ministry of Defense, 
where they have prosecuted folks that they found to be corrupt. 
But it is going to take time, ma'am. I know they are both 
committed to it. They both have worked very hard with their 
inspector general counterparts in both the MOI and MOD to try 
to help them get after the corruption. So I think they are both 
committed.
    Senator McCaskill. You are confident in their sincerity.
    General Campbell. I am, yes, ma'am.
    Senator McCaskill. ISIL in Afghanistan. Obviously, this is 
a problem that we are seeing the Taliban turning. I mean, all 
the different factions in the Middle East are a challenge for 
us, but in some ways they are also an advantage because there 
is this fractionalization that keeps everyone from uniting in 
terms of effective forces. I am worried about the conversion of 
some of Taliban to an ISIS or ISIL loyalty situation and would 
like your take on that.
    I noticed in your previous testimony, you indicated that 
you are seeing a switch of allegiance of the Taliban in 
Pakistan to ISIL. If that is the case, I certainly would like 
you to speak to that briefly because, obviously, Pakistan--that 
is a whole other bag of worries in light of the fact that they 
have nuclear capability.
    General Campbell. Thank you, ma'am. If I could hit the 
Pakistan piece first because General Raheel Sharif and I have 
talked about that as late as last week here. He has emphasized 
that ISIL/Daesh has no place in Pakistan. So he absolutely 
believes that that will be a threat as he moves forward. He 
wants to make sure that that has no place. So I do not see 
Pakistan aligning with ISIL if that is what you were saying.
    Senator McCaskill. You see their government committed to 
doing what is necessary without us having to prod, push, and 
pay for that effort.
    General Campbell. I have talked to General Raheel on that 
several times, and I do believe that he is genuine and he is 
pushing both his army and his intel services to fight Daesh. 
Yes, ma'am.
    On the other piece as far as ISIL and Daesh, we have seen, 
as I said earlier, that--I would have called them nascent 
several months ago. We put them in the category of 
operationally emergent as they continue to recruit to gain a 
base in predominantly Nangarhar in the eastern part of 
Afghanistan. They are fighting other Taliban because their 
philosophy there is a little bit different. We have not seen 
them reach outside of Afghanistan, but I think that would be a 
goal that they have if they have the ability to continue to 
grow.
    President Ghani has said that al-Qaeda was Windows 1.0 and 
that Daesh is Windows 7.0 in their ability to use social media 
to recruit. So he is concerned.
    I made it early on a priority information requirement, a 
PIR, for me, and I continue to look at that very hard. We have 
talked to all the intelligence agencies inside of Afghanistan. 
We are trying to partner Pakistan and Afghanistan up to look at 
ISIL/Daesh as well to make sure that we all have a common 
operating picture of what they are trying to do in the Khorasan 
Province.
    Senator McCaskill. Are they helping us with intelligence on 
the ground, General, in terms of are they embedding effectively 
in terms of human intelligence for us in both Pakistan and 
Afghanistan?
    General Campbell. Are you talking about the Afghan forces, 
ma'am?
    Senator McCaskill. Yes.
    General Campbell. I mean, Afghanistan probably--well, not 
probably. Afghanistan has much better HUMINT [human 
intelligence] than I have.
    Senator McCaskill. Obviously.
    General Campbell. Yes, ma'am.
    Senator McCaskill. But are they effectively putting enough 
resources behind that?
    General Campbell. They have a very good NDS [National 
Directorate of Security], which is their intel agency. They 
work very well with the other pillars of police and the army. I 
think what they have developed here in the last couple months, 
what they call the Nazarot Center, is a national joint fusion 
intelligence center where they try to take intelligence from 
MOI, MOD, and the NDS to fuse national-level target sets. That 
is something new and that is very good.
    Senator McCaskill. Thank you.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, General, for being here today.
    To look further into that flow of the foreign fighters that 
are moving into Afghanistan, are we seeing more of a regional 
draw with ISIL? In February, you mentioned that a few of the 
Taliban seemed to be reflagging under the ISIS banner there. 
Are we seeing that regional draw or are they drawing from 
outside the region in north Africa, say? Then how does that 
compare to the Taliban? Are we going to have local versus 
foreign fighters? Is that going to continue to grow in 
Afghanistan, and will it be similar to what we see with al 
Nusra and ISIL that takes place in Syria?
    General Campbell. Thank you, ma'am.
    I think with ISIL, or Daesh, again particularly in the 
Nangarhar area, we have seen mostly internal Taliban that want 
to rebrand TTP, that want to rebrand. But there are reports of 
people, foreign fighters, coming from outside of Afghanistan. I 
could not give you a good percentage or numbers, but we have 
seen increased reporting that there are some foreign fighters 
that come in that want to try to establish again a base there 
and try to bring in some sort of funding stream to build a base 
in Nangarhar. But I think they are a ways from that. Again, the 
Afghan forces, our forces continue to look at that.
    I think the Taliban, if they have foreign fighter help, 
whether that is Uzbek, Chechen. We have seen pieces and parts 
of that up in the north. I think we have seen other reports 
from the Afghans that they see a lot more of the foreign 
fighters into the Badakhsan, into the Kunduz, into the Sar-e 
Pol area. But as far as numbers or an increase in foreign 
fighters, I do not think I could give that to you, ma'am.
    Senator Fischer. What numbers are we looking at for ISIL 
right now and also with the Taliban? What numbers are in 
Afghanistan? Do you have any hard numbers on that? I know you 
said it is difficult to determine the number of recruits, but 
where are we?
    General Campbell. Ma'am, the numbers I would give you would 
be based on different reports I have seen. I could not give you 
how accurate that would be, but I think in open press what I 
have seen, anywhere between 1,000 and 3,000 on the Daesh. For 
years and years, the numbers of Taliban inside of Afghanistan 
has gone everywhere from 20,000 to 80,000. I think, hard to 
distinguish in there which people just sympathize with the 
Taliban and which ones are actually hard core Taliban, and the 
intel community continues to look at that.
    But what I would say is that the Afghan Security Forces 
have really impacted the Taliban this year based on the number 
of casualties that I believe they have caused the Taliban.
    Senator Fischer. With the Afghan national police and also 
with the local police forces--we visited about that a little 
bit yesterday when you were in my office. What do you think are 
their biggest challenges, the biggest weaknesses that they 
have, and will they be able to become professional in moving 
forward as we assess what our position is going to be in 
Afghanistan?
    General Campbell. Ma'am, I think for the police, again, the 
number one issue that I continue to stress with them is getting 
the right leadership. The police have several thousand that are 
untrained that provincial police chiefs have hired, and they 
have not gone through the requisite training. They are doing 
that to get them out on a checkpoint or get them into the fight 
because they believe they have been stressed in different 
areas. But they have got to get them into the right training to 
make sure they have that.
    I think with the Afghan local police, these are the ones 
that have taken a lot of the casualties because they veered 
outside of what they were designed to do and that was designed 
to defend their local village. They were not designed to be 5 
kilometers, 10 kilometers outside of that village to try to 
take on a lot of Taliban. They were not equipped and were not 
trained for that, but yet in some of the local areas, they have 
misutilized them by putting them on those checkpoints.
    Again, I believe that training is the key for the Afghan 
police, but I think what we need to say here is that the police 
in many cases are doing the same thing as the army. So in a 
counterinsurgency fight, they are fighting very, very tough 
like the army, and they are not manned and they are not 
equipped like the army.
    Senator Fischer. If the President would decide as one of 
the options out there to keep our forces in Afghanistan longer, 
what do you believe would be the reaction and the commitment of 
our NATO partners? Would they support that decision? Would they 
be able to maintain their contributions as well?
    General Campbell. Ma'am, I think it would be country- 
dependent. We have 41 countries that are tied into a residence 
support right now. The ones that I have engaged with, for the 
most part, are very supportive and want to continue to provide 
assistance to Afghanistan either by contributing troops or 
providing financial support. But I think again once the United 
States makes the decision, we will see NATO come into that.
    Senator Fischer. So you believe there would be support from 
many NATO partners, also from the Afghan people if we would 
choose to remain and continue a mission to stabilize the 
country?
    General Campbell. Absolutely, yes, ma'am.
    Senator Fischer. Thank you, sir.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    I would like to continue the line of questioning about the 
incident we read about in the ``New York Times'' about young 
boys being abused by Afghan commanders, as well as women and 
girls. What is the military's policy when a service member 
becomes aware of an instance of abuse? There has been some 
discussion about what the policy actually is.
    General Campbell. Yes, ma'am. What I said in a press 
release a week or so ago was that there is no policy that says 
disregard that. What our policy has said since 2011 is that you 
have to report instances of sexual abuse by the Afghan Security 
Forces up your chain command. So that is what I expect of all 
of our men and women serving in Afghanistan to be able to do.
    Senator Gillibrand. So the article talked about service 
members who were disciplined who wanted to intervene or who 
reported up their chain of command. Have you investigated those 
instances?
    General Campbell. Ma'am, as I said earlier, those from the 
``New York Times'' article--these are cases from 2010, 2011, 
and 2012 I believe. So, no, I did not have anything to do with 
those cases.
    Any reports that would come to me I would make sure that we 
provided that to the Afghan Government as well. President Ghani 
has made it very clear that he has a policy that he does not 
tolerate that and he will prosecute that.
    So the cases that you refer to are four or five, six years 
ago. I cannot speak to those.
    Senator Gillibrand. So have you followed up, though, to see 
if those cases were handled properly?
    General Campbell. Ma'am, I have not been involved in the 
2010, 2011, or 2012 cases. No, ma'am.
    Senator Gillibrand. So who should report to this committee 
about an investigation of those specific cases? Because if the 
policy changed in 2011, then arguably the cases from 2011 and 
2012, if true, were handled incorrectly. Who is doing that 
investigation?
    General Campbell. Ma'am, I will have to take that for the 
record. I do not know.
    Senator Gillibrand. Okay. Please report to the committee 
who is doing the investigation and when we will have the 
results because if those individuals did report this and were 
told to mind your own business, then obviously their commanders 
were not following the policy in 2011 and 2012.
    [The information follows:]

    Any suspicion of human rights abuses, including suspected sexual 
abuse of both adults and children must be immediately reported to the 
chain of command, regardless of who the alleged perpetrators or victims 
are.
    The Department of Defense Inspector General may be best positioned 
to conduct such an investigation.

    Senator Gillibrand. What was the policy before 2011?
    General Campbell. Ma'am, as I think Senator Cotton talked 
about--and I was there in 2002, 2003, 2010 myself. This is my 
third tour there. I have never seen a policy that did not 
report it. I would tell you that there has always been a policy 
that if you saw this, that you would report it. This is a 
fundamental value of our military to treat people with dignity 
and respect. So I cannot imagine somebody not doing that.
    Senator Gillibrand. So why do you believe that the various 
troops have reported this were told it is their culture? Why is 
there an understanding by some troops that you do not intervene 
when it is their culture? Are they poorly trained or just 
unknowledgeable, or do you think commanders are getting it 
wrong in the field?
    General Campbell. Ma'am, I cannot speak again for those 
individual cases, and I think those are disciplinary cases that 
are either completed or ongoing. I would tell you that all the 
forces I have been involved in absolutely understand what the 
requirement is. Again, as I reiterated earlier, I have asked 
all of our personnel currently in theater to go back and 
receive this training again to make sure that we have 100 
percent so that we did not miss anybody.
    Senator Gillibrand. So what would we do today? If it was 
reported that you hear screaming from Afghan military or Afghan 
troops, from commanders, from children, what would our soldiers 
do?
    General Campbell. Our soldiers should report that up their 
chain of command.
    Senator Gillibrand. Then what does the chain of command do 
with that information?
    General Campbell. Ma'am, we would make sure that that 
information got to the right authorities within the Afghan 
Government, to the senior leadership in the Afghan----
    Senator Gillibrand. So if the senior Afghan leadership 
said, yes, we are not going to do anything about it because it 
is our culture, what do we then do?
    General Campbell. The Afghan leadership that I deal with I 
do not think would say that. Again, I have talked to President 
Ghani, Dr. Abdullah, the senior MOI, MOD, the senior army and 
the police leaders. They absolutely understand this is not 
conduct. This is criminal conduct and they understand that they 
have to do something about it and they want to hold people 
accountable. Are there going to be people that disregard that 
in Afghanistan just like you would have maybe in any other 
country, yes.
    Senator Gillibrand. But you are saying then, though, that 
our policy is still not to intervene. What our policy is based 
on what you just said is we report it to the Afghanistan 
authorities, and if they choose to do nothing, we do nothing.
    General Campbell. No, I did not say that, ma'am.
    Senator Gillibrand. So what do you do if they refuse to do 
something?
    General Campbell. Again, in the 14 months I have been 
there, I have not had a case come to me that I had to go back 
to the Afghan authorities and say you need to do something on 
this. I think that is a result of the Afghans understanding 
that they have to get after this. So I think they have improved 
in that area. So I have not had to go back and do that. But if 
something was brought through my chain of command to me that 
there was abuse of children--this is criminal conduct--I would 
make sure I went to the Afghans and said, you know, here is a 
report. You need to go check out this report. I would expect 
them to be able to do that. We work through our central 
function three and the rule of law folks that I have that 
continue to help provide train, advise, and assist in this area 
with our senior Afghans, with their military lawyers as well. 
So we would absolutely expect them to go do something. If they 
did not do something and there was credible evidence that 
something happened here, then I would raise that higher to the 
president, and I would demand that something has to be done or 
I will withhold this. There has to be conditions to this so 
that they understand that. Blaming it on culture is not the way 
that I think our forces have gone here.
    Senator Gillibrand. So just to conclude, you are saying you 
would raise it to President Obama and try to make him engage.
    General Campbell. I would raise it to President Ghani.
    Senator Gillibrand. President Ghani.
    General Campbell. I would raise it first to the Minister of 
Defense, Minister of Interior, the senior officials that I deal 
with. Again, as soon as this news article came out, I called 
President Ghani on this and said we got to make sure that--and 
before I even finished the sentence, President Ghani said that 
is absolutely criminal behavior. I will prosecute anyone that I 
find that has done this.
    The very next day, I went to a National Security Council 
meeting. The president was there, Dr. Abdullah was there, the 
MOD, MOI, all the senior cabinet members were there. Before he 
started in his agenda of things that he had to get through, he 
raised this issue and he made sure that every minister 
understood that this behavior would not be tolerated. So I have 
no doubt that Afghans get this, and I have no doubt that our 
military personnel understand what is expected of them.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair.
    General Campbell, welcome. The last time I saw you was in 
Afghanistan, and before that, it was before this committee back 
in February.
    I do think that we have to go back and talk about a number 
of the positive things that have occurred as a result of our 
presence in Afghanistan. You did a great job of summarizing 
that back in February, life expectancies, the number of 
children in school, progress on protecting women and children. 
It is a great story, and but for America's presence, I do not 
think it would be a story that you would have been telling back 
in February.
    I want to go back to this drawdown and something that I 
think you mentioned in February when we were talking with you 
earlier this year. You just do not wake up Monday morning and 
say I have got to bring down 1,000 troops and all the materials 
that go with them by the end of the month. It takes a lot of 
planning. I know that you have got a proposal to the President. 
He has given you flexibility, which is what has allowed you to 
keep the 9,800 there now. But at what point do you have to 
start taking actions for the material drawdown to hit the 2016 
end-of-year target? I mean, we have got to be weeks or months 
away from you having to put a lot of those plans in place.
    General Campbell. Yes, sir. It becomes a matter of physics.
    Senator Tillis. How quickly do you have start--if the 
President does not make any change in decision, when do we 
start seeing material efforts to draw our troop forces down to 
the embassy presence in Kabul?
    General Campbell. Sir, as I said earlier, every single day 
we continue to descope all of our bases out there. So we are 
trying to get rid of unnecessary or stuff that was no longer 
required in theater.
    Senator Tillis. So you are effectively--I have got a couple 
of questions, so I apologize for being short.
    So you are effectively drawing down based on--I mean, you 
are already taking the steps to draw down to something that we 
know will be less than 9,800. We just do not know what the 
number is.
    General Campbell. Sir, I am. But I have also made sure that 
based on the courses of action that I have recommended, if we 
get a decision on that, it is not irreversible.
    Senator Tillis. Well, I think the administration needs to 
be crisp on this. I know you have provided it to your 
leadership, but this is not something that should take long. I 
think anybody who has followed the situation knows the 
President is going down a perilous path if he goes far off of 
what you already have in Afghanistan.
    You mentioned something else, though, that I think is 
important that I have not heard you talk about. That is in 2017 
the other funding streams that are at risk that are also an 
important part of the gains that we made and protecting those 
gains I think with other partners. Can you tell me about any 
progress or any concerns you have about that?
    General Campbell. Sir, I think this is a very critical year 
coming up for 2016. They will meet at the Warsaw Conference the 
middle of next year, and that will determine all the donor 
nations for how much they will donate for 2018, 2019, and 2020 
for Afghanistan.
    Senator Tillis. But that is critically--it is something 
that is still an open switch and something that is critically 
important if we are going to continue to build on our gains 
there. Would you agree with that?
    General Campbell. Sir, I do. I think again, having the 
international community have confidence in Afghanistan is 
important that we do not have donor fatigue there.
    Senator Tillis. Thank you.
    You know, something else that I just want to reinforce that 
Senator Graham touched on--and he was trying to make the point 
that there was counterterrorism resources to help us do our job 
in the region. But what I think many of the American people do 
not understand is the value of the CT efforts with respect to 
threats in other areas of the region and potential threats to 
the homeland. This was the birthplace of the 9/11 attacks. 
There are bad people there who are trying to plot terrorist 
actions against Americans, whether it could be American 
installations abroad or right here in the homeland.
    So getting down to an embassy presence only, we have heard 
you say that we would lose all of our counterterrorism presence 
in that region. Did I hear you correctly?
    General Campbell. Sir, we would not have the ability to 
conduct counterterrorism as I do today if we were just based in 
Kabul.
    Senator Tillis. So based on the current plan, a plan that 
the administration is considering, we know it is going to be 
diminished, but it could almost all go away by the end of next 
year based on the current plans as you understand them today.
    General Campbell. Sir, as I said up front, the planning 
assumption in the current plan and glide slope that I am on is 
to go to about 1,000 by the end of 2016. Yes, sir.
    Senator Tillis. I think it is irresponsible and it is 
dangerous.
    I appreciate the work that you are doing because I know 
that you probably have a different view. I respect the fact 
that you are going through your chain of command, but this 
President needs to understand he needs to be decisive and take 
different action or he is putting American interests at risk.
    Thank you all for your service.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, General. I appreciate it.
    I think what we are trying to get our hands around as far 
as should we stay, if we do stay, how many will stay, and what 
effect will that have. It goes back to the training and money 
we have spent and the amount of effort and time we have spent 
to train, how many people we have adequately to continue to 
retrain, or will they ever be able to take the training over 
themselves? Will ever trust them for that? How much money would 
that cost? It just goes on and on and on, as you know.
    The bottom line is, do you think that Afghanistan is more 
stable and better prepared to take care of itself with our help 
or without our help and how much of our help than Iraq was? 
Because I think everyone is looking to the failed policies in 
Iraq and saying, okay, why would you repeat that? I think it is 
a different scenario as you said. The leadership in Afghanistan 
has a much more different mindset and determined today than 
Iraq was when we made our decision to leave.
    So if you can just give me just a little--I just heard you 
say about 1,000 is what you intend to recommend? Is that wrong?
    General Campbell. No, sir. A thousand is the current 
decision that we are on.
    Senator Manchin. That is what we are on. We are on a glide 
path to 1,000 right now by 2016.
    General Campbell. Yes, sir, by the end of 2016. So that is 
the current plan. That is to go to a normal embassy presence 
that President Obama discussed back in 2014.
    Senator Manchin. It would be hard to explain. Basically 
that would be the same glide path we had if not maybe a little 
difference than Iraq, and we saw the results of Iraq.
    General Campbell. Sir, Afghanistan is not Iraq.
    Senator Manchin. I got you.
    General Campbell. You have a government that wants to have 
you there. You have a government that wants to have a 
counterterrorism capability. You have a fighting force that is 
very resilient. So I think there are so many differences 
between Iraq and Afghanistan.
    Senator Manchin. Do you think that will change that 
recommendation of 1,000, that will be upped?
    General Campbell. Sir, again, I provided courses of action 
and recommendations to my leadership that provides our 
President, our national senior leadership with options based on 
changes that have happened in the last two years.
    Senator Manchin. The money we have spent right now--I mean, 
it is an unbelievable amount of money for training the Afghans. 
Do you expect that to continue, us pouring the money into there 
for them to be able to train their people?
    General Campbell. Sir, we are working very hard to make 
sure we can continue to bring that money down.
    Senator Manchin. Do they have any economy at all? Other 
than the war effort, is their economy sucking off the U.S. 
taxpayers? Do they have any ability to carry their own load 
financially?
    General Campbell. Sir, in the Chicago and the Tokyo 
Commitments, they are required to provide about $500 million 
toward their national security, and each year we try to up 
that. Their economy is very, very tough, and President Ghani 
based on his background--and the World Bank is working that 
very hard. They had a very successful regional economic 
conference here two or three weeks ago in Afghanistan. There 
was just a Dubai conference where they had about 170- plus 
investors come to take a look at it the different airfields 
that we would leave. But it is going to take a long time to 
build their economy. We built an army in a place they cannot 
afford, sir. So they will be very dependent upon the 
international community to continue to provide that money for 
years to come.
    Senator Manchin. General, finally, on the crash of the C-
130, we had six service members. One was from Marshall County, 
West Virginia, Sergeant Ryan Hammond. I spoke to his parents 
and his wife. I told them I would try to get all the 
information I could of how this could have happened. We fly a 
lot of C-130's in our Guard, as you know, and they are very 
capable, able aircraft. Do you have any information that you 
can share with me that I could share with the parents?
    General Campbell. Sir, my thoughts and prayers are with all 
the families. That very morning I went out to the crash site. 
Right after that, I went to Bagram and talked to all of our C-
130 crews just to gather them in and talk to them. I did that. 
Again, an investigation is ongoing.
    Senator Manchin. Was it on takeoff is when--the accident 
happened on takeoff.
    General Campbell. Yes, sir. Sir, I can talk to you one-on-
one.
    Senator Manchin. If you could, I would appreciate it, sir. 
If I could just give his family some relief and some closure.
    General Campbell. Okay, sir.
    Senator Manchin. Thank you.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Thank you, General, for your testimony. It is very 
enlightening and I know it is not easy to testify when you have 
options on the way forward and you are not sure the commander-
in-chief agrees with you or not. So I think all of us 
appreciate your testimony.
    I am going to follow up on a number of the previous 
questions you have been asked.
    First, Senator Shaheen had asked about a UN investigation 
possibly into the hospital accident. Does the UN usually 
investigate major deliberate attacks on civilians in 
Afghanistan when they are conducted by the Taliban?
    General Campbell. Sir, I have not seen that in the past.
    Senator Sullivan. I do not think they do typically.
    So do you think it would seem fair or balanced if the UN 
conducted an investigation, which was clearly on something that 
was accidental--the hospital bombing--when they do not 
investigate deliberate Taliban killing of civilians? Do you 
think that would be viewed as fair, balanced, or something the 
command needs or would welcome?
    General Campbell. Sir, I cannot comment on how the UN would 
do that. What I can comment on, as I said up front earlier, is 
I have complete trust and confidence in the team that we have 
to be thorough, transparent, and if there were mistakes made, 
we will make sure that those come out. If there are people we 
have to hold accountable, we will make sure we will do that. So 
I have every trust and confidence in the U.S. and the NATO 
investigation ongoing.
    Senator Sullivan. I think most of us here do as well. I 
certainly do not think an additional investigation by the UN 
would be warranted or welcomed by this committee.
    Let me ask the issue again--this is Senator Graham's and 
Senator Tillis' questions. You are very focused on managing 
risks. If we go forward with the current plan, does it increase 
the risks that the Taliban could take over the government in 
two or three or four years out?
    General Campbell. Sir, again, I think we have another year 
and a half to continue to grow the Afghan Security Forces. If 
we went down to 1,000 around Kabul, we would not have the 
ability to do train, advise, and assist----
    Senator Sullivan. How about would it increase the risk that 
the homeland would be attacked? You know, Senator Tillis had 
some very good and direct questions that our CT capability 
would essentially end. Would that increase the risk--I am just 
talking incrementally increase the risk that the United States 
of America would be attacked.
    General Campbell. Sir, again, when the decision was made in 
2014 by President Obama on the 1,000 going to a normalized 
embassy, CT was not one of the variables tied into that 
decision.
    Senator Sullivan. Let me ask just on the timelines. You 
know, I was a lieutenant colonel in the Marines a couple years 
ago. I was assigned to an OPT [Operational Planning Team] in 
Afghanistan by General Dunford. When they were looking at the 
force posture, our OPT was looking at the force posture that 
would take us from the OEF [Operation Enduring Freedom] mission 
to the Resolute Support mission. It was a little frustrating to 
be working on that because we had not gotten any guidance in 
terms of numbers from the senior military or actually senior 
civilian.
    So you have said that you cannot talk about the options, 
but have you actually been given a timeline by which the White 
House is going to respond to your options and requests. As 
Senator Tillis mentioned, the clock is ticking. Have you either 
received information that you are going to be given guidance by 
a certain date or have you requested a certain date by which to 
be given guidance given that the clock is ticking on this very 
important issue?
    General Campbell. Sir, as you know, on a planning 
perspective, as we lay out different courses of action, we have 
what we call DP's, or decision points. So in all of our courses 
of action, they would have a decision point of when that 
decision would have to be made----
    Senator Sullivan. Are we approaching one----
    General Campbell.--so it would not be irreversible.
    Senator Sullivan. Are we approaching one pretty soon?
    General Campbell. Sir, I know that everybody in DOD, 
everybody in NSC [National Security Council] is working very 
hard to take a look at these different courses of action. As we 
have talked about, the retrograde and the time that it takes 
out, I think the senior leadership understands when those 
decision points are and when they have to get those out.
    Senator Sullivan. Let me ask a final question.
    You know, having spent some time in Afghanistan and 
Pakistan, I know you would probably agree with this. There is a 
narrative in the region that in the 1980's we were very active 
there because of the Soviet invasion, and we were very helpful 
in terms of our assistance to people in those two different 
countries. There is a sense that in the 1990's we, quote, 
abandoned the region. I think that is a very powerful 
narrative. I do not know if you have seen it there, but I 
certainly have seen it there when I have been out in that part 
of the world.
    You mentioned--and I think it is really important testimony 
today--that we are overwhelmingly welcome, as you mentioned, by 
the civilian population, by the Afghan leadership. Do you think 
if we draw down to just an embassy force, which is kind of what 
we have in the rest of the world, that we would once again 
resurrect this idea of abandoning the region, of abandoning the 
people there, the governments there? If that were the case, how 
do you think that would impact America's national security if 
in the part of the world that is really the heart of the battle 
against al-Qaeda and other places, the heart of the world that 
brought us 9/11, that we were viewed once again as unreliable 
and having abandoned the region, which is a narrative that is 
very powerful still in that region? Do you think that narrative 
would be resurrected, and how do you think that would impact 
our national security?
    General Campbell. Sir, I have been tied up with Afghanistan 
for many years, and I think anybody in the military would tell 
you presence equals influence. So the ability to continue to 
provide train, advise, assist to our Afghan partners, to 
continue to improve upon their capability is what any military 
person would want to tell you. Again, I said that the Afghan 
people continue to want to have a coalition presence. They 
understand the impact that that has for them. So that is what 
they want. They will continue to want that I believe unless we 
do something that dissuades them from that.
    But we have come a long way there, and a lot of this has to 
do with this new national unity government. Remember, they 
understand, different from where President Karzai was, that we 
have provided a lot blood, sweat, and tears here, that many of 
our men and women provided the ultimate sacrifice, we have 
expended a lot of money, and they want to make sure that they 
do not let us down here as well.
    Senator Sullivan. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, General Campbell, for being here, and thank you 
for your outstanding service and that of your men and women as 
well. I do appreciate it very, very much, as do my 
constituents.
    I am going to go back to a couple points. They have been 
talked about many, many times already this morning, General.
    But going back to the sexual assault, the sexual abuses by 
the Afghan National Security Forces against the Afghans, 
particularly the young boys, it seems that many of the folks 
that I have talked to that have served in that region, American 
soldiers, it was common knowledge that this was happening. I do 
not believe that there was a DOD policy that we turn a blind 
eye. As a matter of fact, you have said since 2011 there has 
been a policy in place, educational materials, classes, so 
forth. But there may have been kind of an unofficial ``do 
nothing'' policy. We are starting to see that corrected as it 
comes to light. But it does affect the men and women that serve 
with us in our forces and how they operate with the ANSF 
[Afghan National Security Forces]. I mean, that is an issue, a 
trust issue.
    There was a 2011 report by Dr. Jeffrey Bordin. He was a Red 
Team political and military behavioral scientist. He supported 
half of the RC-East [Regional Command-East, Bagram]. He 
commented--and I am quoting--several United States soldiers 
reported that they had observed many cases of child abuse and 
neglect that infuriated them and alienated them from the 
civilian populace, and that there were numerous accounts of 
Canadian troops in Kandahar complaining about the rampant 
sexual abuse of children they have witnessed ANSF personnel 
commit, including the cultural practice of bacha bazi, as well 
as the raping and sodomizing of little boys. End quote.
    Has any service member or civilian under your command now 
or during your previous command of RC East reported up the 
chain an allegation of an ANSF sexual assault against Afghan 
children?
    General Campbell. Ma'am, on this current tour, I have not 
had any reports. I do not remember any specifically from 2010, 
2011. I can go back and try to look at records for that.
    Again, I cannot stress enough that this is about 
discipline. This is about discipline of our men and women 
understanding what right and wrong is, about treating people 
with dignity and respect. As I said, even the Afghans, 
President Ghani all the way down understand how important this 
is, and they have reiterated to me that this is serious and 
that if he knows of people that violate this, that conduct this 
criminal activity, they will be prosecuted. We have reiterated 
to our men and women again that if you see this, you have to 
report this.
    What you are referring to again is 2010, 2011, maybe 2012 
reports. I think a lot has happened in that time frame. I 
cannot comment on a particular company level or battalion level 
unit that within that unit that the members of that unit felt 
that it was okay to do some of that. Ma'am, I cannot comment on 
that. I do not know that.
    Senator Ernst. General, do you know of any instances where 
an Afghan soldier was held accountable or an Afghan leader and 
any disciplinary actions on their behalf?
    General Campbell. I know that I have seen some disciplinary 
actions over the last year in gross violation of human rights 
when it has come to abusing of soldiers, abusing of other 
members in the command. I have not seen it with the sexual 
assault of children, though, in the last 14 months.
    Senator Ernst. Okay. Thank you. I think it is important 
that we stress not only is it unacceptable amongst our own 
ranks, but also those that we are serving with from that 
region. So thank you for that.
    Going back also to capabilities and conditions, I am glad 
we look at that rather than the time frame. If we look at 
keeping 10,000 troops on ground in Afghanistan, if there is a 
decision point where we keep 5,000 troops on ground or zero 
troops on ground, is there any way that you can just broadly 
describe the conditions that must exist on the ground before we 
get to those points? Do we leave it the same as we have now at 
10,000? Or at what point could we get down to 5,000 and so 
forth? Just very broadly. Thank you.
    General Campbell. Again, ma'am, I think based on what has 
happened since the President made his decision in 2014 to go 
down to 1,000 around the embassy, we have taken a look at all 
the conditions, and based on those, I have provided options to 
take a look at the mission sets that we want to do in the 
future. I believe we still have to do train, advise, and assist 
at certain levels for aviation, for logistics, for 
intelligence, for special operating forces. I believe that we 
have to have a counterterrorism capability and you need a 
certain amount of forces to be able to do that, so those are 
based on what has happened in the last couple years and as we 
look to the future, and so conditions on the ground have 
changed since 2014.
    I am appreciative that the senior leadership both at Joint 
Staff OSD [Office of the Secretary of Defense] and I believe 
the White House are looking at these options, understanding 
that conditions on the ground have changed and we have to look 
at the pros and cons of this and move forward.
    Senator Ernst. Thank you. My time has expired, but I do 
want to thank you for your valuable, no BS assessment of what 
is going on over there. We truly do need that. So thank you, 
General. I appreciate it.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you, General, for your extraordinary service to our 
Nation and particularly in your present role.
    I have a question about Daesh, as I think you have referred 
to it, interacting with the Taliban and with other factional 
parts of our opponents there. How real a threat do you regard 
Daesh as being compared to the Taliban, and could any sort of 
negotiated solution involving the Taliban also involve those 
other factions, including Daesh?
    General Campbell. Sir, again, I think Daesh, ISIL, Khorasan 
Province, ISIL KP, different names for--everybody is looking at 
this to make sure that it cannot grow, it cannot build to a 
level to do something like you have seen in Iraq and Syria. 
Daesh and Taliban have different philosophies. They are 
fighting each other. I do believe that within the ranks of the 
Taliban, that there are reconcilables that understand that the 
only way to end this is a political solution and they want to 
be part of that inside of Afghanistan. Inside of the Taliban, 
there will be a certain amount--I have upwards of 20 to 30 
percent--that are irreconcilable, Haqqani probably being one. I 
do not believe from what I know of Daesh that they are in the 
reconcilable branch. They would be irreconcilable I would 
believe at this point in time.
    Senator Blumenthal. Are you satisfied with the efforts that 
have been made toward reconciliation and negotiation so far?
    General Campbell. Sir, I am not satisfied because we have 
not got to it. So I mean, I think there is a lot more that can 
be done by both Afghanistan and Pakistan and the Taliban, quite 
frankly. So I am not satisfied. We got to continue to move 
toward a peace process.
    The first day that President Ghani took office in his 
inauguration speech, he talked about bringing in the Taliban, 
you know, that you have to be part of this peace process. You 
cannot continue to kill fellow Afghans. You cannot continue to 
kill fellow Muslims, and so be part of the peace process. I 
think he genuinely wants that to happen and is doing everything 
he can to try to push that, to include expending a lot of 
political capital on Pakistan throughout the last several 
months to drive them to help on reducing the violence inside of 
Afghanistan to drive toward reconciliation.
    Senator Blumenthal. Is that goal of reconciliation one of 
the factors you consider in your recommendation as to what size 
and scope the American presence there should be and over what 
period of time? I think Senator Graham asked you what victory 
would look like, what defeat would look like, but what your 
answers suggest is that there is some different kind of picture 
that it would look like.
    General Campbell. Sir, I think there are a lot of different 
audiences out there that understanding a continued presence by 
the coalition would have an impact on. It would have an impact 
on President Ghani. It would have an impact on the Afghan 
Security Forces and their morale. It would have an impact on 
the Afghan people. It would make a great impact on the Taliban. 
It would make an impact on Pakistan and it would make an impact 
on NATO. I think all of those audiences in differing levels 
would--a decision to continue to have a larger number of 
coalition forces, not only the U.S. but the coalition, would 
have huge impact there.
    Senator Blumenthal. You make reference in your testimony to 
two other trends that I think are concerning, the brain drain 
and the loss of economic resources, the drain on capital. Has 
that increased in pace and seriousness?
    General Campbell. Sir, there have been a lot of reports of 
a lot of Afghans that are trying to leave the country. As a lot 
of the countries in that area, the refugee issue is going into 
Europe. A lot of those are Afghans who are trying to leave. 
Both President Ghani and Dr. Abdullah have reached out to the 
younger generation asking them to stay, to continue to work in 
Afghanistan, so there has been, for lack of a better term, a 
drain on the human capital piece here that I know they want to 
keep.
    The future of Afghanistan is two things I believe. It is 
the Afghan Security Forces and then it is this younger 
generation of Afghans that are tired of 35-40-plus years of 
war.
    Senator Blumenthal. One can hardly blame them given the 
impact on their futures, economic and social and family. Longer 
term, the success of Afghanistan as a country is really 
dependent on the political factors and the social and economic 
factors that are hopefully supported and promoted by the 
American presence there as well.
    Thank you very much, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions?
    Senator Sessions. Thank you.
    Well, this is a very serious time for us. I would say to 
Senator Blumenthal's good remarks--I would note that it is 
also, in the situation we are in Afghanistan, a military 
situation also that can impact the outcome. Without it, it will 
impact the outcome. Is that correct, General?
    General Campbell. Sir, you are talking about the Afghan 
Security Forces?
    Senator Sessions. Well, I am talking about our presence and 
Afghan presence. There are some battles to be fought. Military 
conflict is involved and is going to continue to be involved 
for some time. Is it not?
    General Campbell. Sir, Afghanistan will continue to be a 
very dangerous place, and the Afghan Security Forces will 
continue to be challenged in many areas. Yes, sir.
    Senator Sessions. Well, the President has said he would 
like to negotiate with the Taliban, and that has been attempted 
for a number of years today. Is it harder or easier to 
negotiate with the Taliban a reasonable solution and a peaceful 
solution to Iraq if we made it absolutely clear we have an 
irrevocable commitment to leave on a certain date?
    General Campbell. Sir, the reconciliation piece again will 
be Afghan-led by the Afghan Government. But you absolutely want 
to operate from a position of strength as you do that. Yes, 
sir.
    Senator Sessions. I know it is a difficult question for 
you, but I would just translate that to say you need to have a 
military strength, and if it is not there, it gives confidence 
to the Taliban to believe if they wait us out, then they can be 
successful militarily. Even though the people of Afghanistan do 
not prefer Taliban domination, we are setting this up, I am 
afraid, to allow that to happen. It is a very dicey thing.
    In terms of going to 1,000 troops, well, this is really not 
a military presence. Is it? This is just simply an embassy 
security force essentially.
    General Campbell. Sir, the goal right now or the intent is 
to have a security cooperation office. That would be a little 
bit more than just embassy force protection. It would also have 
the ability to provide oversight of foreign military sales, 
oversight of the money that will have to continue to come into 
Afghanistan as well.
    Senator Sessions. It is essentially not a fighting force. 
It signals that we are completely out of the fight militarily, 
I would suggest. I think that is a dangerous signal to be 
sending.
    So you are talking about we need to train, assist, and 
advise more. Is it your recommendation that that capability 
extend beyond the end of 2016?
    General Campbell. Sir, I have said that the Afghans will 
continue to need support in many areas that we have identified, 
that they will need continued help, aviation, logistics, 
intelligence. So, yes, sir, train, advise, and assist in those 
areas would require a little bit longer time.
    Senator Sessions. To what extent do they have rotary 
aircraft, helicopter, capability for evacuation of wounded or 
resupplying remote forces or otherwise taking the battle to the 
enemy? Does that remain a problem?
    General Campbell. Sir, their close air support capability 
is just starting to grow. They have relied on MI-35. They only 
had five when we started the fighting season. They are down to 
two. They do have MI-17's that provide them the ability to move 
wounded, to provide resupplies. They have tried to put forward 
firing machine guns, rocket pods on those to give them a little 
bit better close air support capability. We have brought in an 
MD-530, a little attack bird, that operates in different areas 
of Afghanistan to give them a little bit better close air 
support capability. They will have a fixed-wing capability 
starting at the end of this year but into 2017, 2018 before it 
is really online.
    Senator Sessions. Well, I am worried about it. In your best 
military judgment, what additional risk are we undertaking if 
our goal is, as you said it is, to create a stable environment 
in Iraq where people can go to school and have a chance for 
prosperity? What risks are we incurring by setting a firm date 
of ending by the end of 2016?
    General Campbell. Sir, as I think it has been mentioned 
many times before--maybe not in this hearing today, but that 
whenever you put a time on something, that always gives 
somebody the ability to manipulate that, whether that is the 
enemy, whether that is the friendly forces. I think the options 
that we have provided to the senior leadership is looking at 
different outcomes that we want to have based on what has 
changed over the last two years.
    Senator Sessions. Well, the President of the United States 
has made some very unwise decisions in this regard. He is 
complicating the life of the people in Afghanistan and 
certainly making your life a lot more difficult in my opinion. 
I do not want to make a partisan argument here. I am not saying 
that. We had a deep commitment to Afghanistan. We had an entire 
international coalition on that part, bipartisan. This was the 
good war. I think it is possible to achieve the goal you have 
stated. Do you believe it is possible?
    General Campbell. Sir, I would not be there if I did not 
think it was possible.
    Senator Sessions. I agree. I think to completely move out 
and radically reduce our presence incredibly risk the gains our 
men and women have fought so hard for, and allies around the 
world have helped us.
    Thank you, Mr. Chairman. Thank you for your leadership. I 
think we would do well to listen to your advice. We should have 
listened in Iraq, and we need to listen in Afghanistan.
    Chairman McCain. I thank you, Senator.
    General, as I understand it, the present plan is that there 
would be increased reductions beginning in January. Is that 
correct?
    General Campbell. Sir, to get down to----
    Chairman McCain. The embassy-centric----
    General Campbell. Yes, sir.
    Chairman McCain. You would begin those withdrawals in 
January.
    General Campbell. Sir, I would have to go back and look at 
exact numbers.
    Chairman McCain. Roughly.
    General Campbell. Yes, sir.
    Chairman McCain. So here we are in October, and the plan 
now is to begin so that by 2017 we are down to a, quote, 
embassy-centric force. That is the present plan. Right?
    General Campbell. Sir, that is the present plan. Yes, sir.
    Chairman McCain. So here we are sitting here in October and 
you do not know whether to begin three months from now a rather 
significant withdrawal of troops, which requires a lot of 
planning, a lot of logistics, a lot of assets. Here we are 
sitting here in October and you have been asked to provide the 
White House with a, quote, series of options. Is that right?
    General Campbell. Sir, I provided options, and in those 
options, I have accounted for the glide slope that I have to 
take to be able to get down to the required numbers there. Yes, 
sir.
    Chairman McCain. In addition, you have not been asked for 
the best option, the one option, that would secure Iraq, 
succeed in a mission in the most effective and efficient 
fashion. Instead, you have been asked for, quote, options. Is 
that right? Most of us were taught to believe there is only one 
option for victory and success of a mission. But you have been 
asked for options. Dare I ask how many?
    General Campbell. Sir, I am not sure I have been asked for 
options really. What I have done is taken a look since I have 
been on the ground, the last 14 months, and seen where the 
Afghans Security Forces are at in different metrics that we 
take a look at in order to ensure that they have the right 
capabilities----
    Chairman McCain. But is there only one option to achieve 
the most efficient, the most effective, least in danger of 
further casualties? I do not understand this. I thought that 
usually--my study of warfare is you develop a strategy and you 
implement the strategy with a plan. You do not say, hey, we are 
going to have five or six plans here, five or six options that 
we are going to pursue. Most Commanders-in-Chief that I have 
ever known of have called their military people together and 
said give me the best strategy that we can employ and what is 
necessary to achieve the goals of that strategy. Am I wrong 
somewhere? Am I getting something wrong?
    General Campbell. Sir, I could not comment if you are 
getting something wrong. Sir, what I would say again is that I 
have provided some options to take a look----
    Chairman McCain. You have provided the options.
    General Campbell.--train, advise, assist and a CT 
capability in Afghanistan post 2016.
    Chairman McCain. So you have given them, quote, options, 
plural. Right? Not what most Commanders-in-Chief that I have 
ever experienced. Give me the strategy, give me the plan, see 
what it takes so that we can succeed in the best and most 
efficient way to accomplish our goal. We all know what a goal 
is. It is a free, stable, democratic Afghanistan.
    Well, it is curious times. But, of course, those of us that 
make any criticism apparently do not know a lot of the things 
that the President of the United States knows.
    So I thank you, General. You are doing as you were ordered, 
and I have observed firsthand your leadership in Afghanistan on 
several occasions, and I think it is outstanding. Obviously, I 
am not complaining to you because you are playing the hand you 
are dealt.
    I just do not understand why this administration does not 
understand that if we do what is presently planned to begin in 
three months from now, that we will see the Iraq movie again. 
There is no doubt in anybody's mind about that. Now we see a 
burgeoning or embryonic ISIS. We see the Iranians providing 
weapons and more for the Taliban. We just saw an attack on one 
of the major cities in a part of Afghanistan that we up till 
now had believed the most secure. It seems to me that would 
lend some urgency to action which would reverse what is clearly 
a deteriorating trend.
    Finally, General, we look forward to the results of your 
investigation of this terrible tragedy of the attack on the 
hospital. I want to emphasize--I know speak for all of my 
colleagues--that we deeply regret this tragedy. We do point out 
from time to time about the fog of war.
    This hearing is adjourned.
    [Whereupon, at 12:01 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Roger Wicker
                                pakistan
    General Campbell, I wanted to ask you some brief questions about 
Pakistan--a partner in the region with whom we have a complex 
relationship.
    First, let me touch on the increasingly positive working 
relationship between Afghanistan and Pakistan:
    One such example is President Ghani Pakistan Prime Minister Sharif 
to condemn the September 18 Taliban attack on Badaber Air Base in 
Pakistan that killed 29. According to press reports, President Ghani 
told Prime Minister Sharif that Afghanistan will ``never allow its land 
to be used against Pakistan by anyone.''

    1. Senator Wicker. General Campbell, what is your assessment of the 
relationship between Afghanistan and Pakistan now?
    General Campbell. [For Official Use Only.]

    2. Senator Wicker. General Campbell, is it fair to say that the 
relationship has improved since President Karzai left office?
    General Campbell. [For Official Use Only.]

    Second, let me ask you about terrorist groups that operate in and 
out of Pakistan:
    The Haqqani network maintains a safe haven in North Waziristan, 
Pakistan, across Afghanistan's southeastern border. The Institute for 
the Study of War (Fred Kagan) refers to this Pakistani Taiban terrorist 
group as one that ``has the backing of elements within the Pakistani 
security establishment.''

    3. Senator Wicker. General Campbell, how would you assess the 
current state of the Haqqani network?
    General Campbell. [Deleted.]

    4. Senator Wicker. General Campbell, are the Pakistanis doing 
enough against the Haqqani Network in your opinion? What more should 
they be doing?
    General Campbell. [Deleted.]

    5. Senator Wicker. General Campbell, what is the level of 
cooperation between you and your counterparts in the Pakistan security 
apparatus?
    General Campbell. [For Official Use Only.]
                               __________
              Questions Submitted by Senator Kelly Ayotte
               withdrawal/transition plan in afghanistan
    6. Senator Ayotte. General Campbell, in your prepared statement for 
today's hearing, you wrote that the Afghans ``still require broad 
support'' and ``cannot handle the fight alone in this stage of their 
development.'' Do you believe that this will change by the end of 2016?
    General Campbell. By the end of 2016, the Afghan National Defense 
Security Forces will be much farther along than they are today. 
However, they will still require some level of support in developing 
their systems and processes necessary to run a modern, professional 
army and police force. The majority of that assistance will need to 
address the long term capability gaps in aviation, intelligence, and 
combined arms operations, and logistics, sustainment, and maintenance.

    7. Senator Ayotte. General Campbell, based on your multiple tours 
in Afghanistan and your current position as commander there, do you 
believe that the United States can protect its interests in Afghanistan 
and the region if we drawdown to ``a normal embassy presence in Kabul'' 
by the end of 2016?
    General Campbell. I presented several options to my chain of 
command and the risks associated with each option. One of these options 
presented to my chain of command was ``a normal embassy presence in 
Kabul'' at the end of 2016. The normal embassy presence in Kabul option 
presented significant risks in terms of United States interests and 
Afghanistan's long term security viability.
     capability gaps of afghan national defense and security forces
    8. Senator Ayotte. General Campbell, in your prepared statement for 
today's hearing, you identify critical gaps in the Afghan National 
Defense and Security Forces. Are we making progress in rectifying those 
shortcomings? What are the primary obstacles to closing those gaps more 
quickly?
    General Campbell. The critical capability gaps in the Afghan 
National Defense and Security Forces (ANDSF) are in the areas of 
aviation, combined arms, intelligence, logistics, maintenance, and 
sustainment.
    Yes, we continue to make progress in rectifying the critical 
capability gaps. The primary obstacle to closing these gaps more 
quickly is building the human capital required in the ANDSF. While 
Resolute Support will pursue limited equipment solutions, particularly 
in aviation; the primary tool for addressing these capability gaps is 
in human capital development and requires sustained Security Force 
Assistance.
    Aviation. The primary obstacles to closing the aviation gap more 
quickly are the acquisition of the necessary aircraft and the human 
capital required to operate and sustain the aircraft. The train, 
advise, and assist (TAA) mission is critical to maximize the employment 
of limited assets and building human capital.
    Combined Arms. Leadership is key to combined arms integration. 
Continued TAA to build the human capital and train the leadership is 
the most critical obstacle to improved combined arms operations and 
will take time.
    Intelligence. By the end of 2016, additional Intelligence, 
Surveillance, and Reconnaissance (ISR) collection equipment and systems 
will be fielded to the ANDSF. Human capital remains the most critical 
piece to successful implementation and synchronization of intelligence 
networks and the primary obstacle to producing actionable intelligence 
for the ANDSF.
    Logistics, Sustainment, and Maintenance. Resolute Support is 
improving logistics and sustainment management. Beginning in 2017, the 
National Maintenance Strategy will provide an enduring, affordable 
materiel readiness capability to build upon Afghan ownership of 
sustainment. TAA during this period is critical to developing the human 
capital necessary for managing these initiatives, augmented by 
embedding highly educated Afghan civilians in key sustainment 
organizations.

    9. Senator Ayotte. General Campbell, how much longer will the 
Afghans require assistance in those gap areas? Will those gaps be 
filled by the end of 2016?
    General Campbell. The critical capability gaps in the Afghan 
National Defense and Security Forces (ANDSF) are in the areas of 
aviation, combined arms, intelligence, logistics, maintenance, and 
sustainment. While we continue to make progress in rectifying the 
critical capability gaps, the ANDSF are projected to require assistance 
in some gap areas as far out as 2024. The primary obstacle to closing 
these gaps more quickly is building the human capital required in the 
ANDSF. Resolute Support will pursue limited equipment solutions, 
particularly in aviation; however, the primary tool for addressing 
these capability gaps is human capital development and requires 
sustained Security Force Assistance.

    10. Senator Ayotte. General Campbell, in light of the continuing 
capability shortfalls, if the United States-led coalition withdraws or 
goes to a normal embassy presence in Kabul before those capability gaps 
are filled, what do you believe would be the consequence in 
Afghanistan--not only for the Afghan Nation Security Forces and the 
Afghan government, but for the United States interests there as well?
    General Campbell. The Afghans would face significant challenges if 
their key capability gaps in aviation, intelligence, combined arms 
operations, and logistics, maintenance, and sustainment were not filled 
before the United States reduced to an Embassy presence. Our objective 
is to develop the Afghan National Defense and Security Forces (ANDSF) 
into a capable and reliable counterterrorism (CT) partner through the 
train, advise, and assist (TAA) mission. A critical part of that 
mission is to fill the key capability gaps. Removing U.S. and Coalition 
enablers without closing the ANDSF's key capabilities gaps would erode 
the ANDSF's ability to fight the insurgency. This may jeopardize the 
stability of the National Unity Government which would not be in the 
interests of the United States and the Coalition.
                al qaeda and the threat to the homeland
    11. Senator Ayotte. General Campbell, in your prepared statement 
you write that ``It will be critical that, in coordination with our 
Afghan partners, our comprehensive counter-terrorism efforts continue 
to apply pressure against the al-Qaeda network in order to prevent its 
regeneration, and the corresponding threat it represents to our 
homeland.'' Given this reality, how important is it that the United 
States maintain a robust counter-terrorism capability in Afghanistan 
beyond 2016?
    General Campbell. [Deleted.]
          women's rights in afghanistan and women in the ansf
    12. Senator Ayotte. General Campbell, in your prepared statement 
you note that both President Ghani and Chief Executive Abdullah are 
``supportive of the rights of women and their empowerment in Afghan 
society.'' From your perspective, why is it valuable to have more 
Afghan women serving not only as police, but also in the Afghan 
National Army?
    General Campbell. Having women serving in the Afghan National Army 
(ANA) as well as the Afghan National Police (ANP), but so is valuable 
to build professional forces by leveraging the entire population, 
increasing the end strength of the ANDSF, and providing better 
representation of the Afghan society as a whole. More women in the ANA 
would serve to balance the force and increase the opportunities for 
women in Afghanistan. Additionally, recruiting and training women in 
operational support roles will provide continuity and institutional 
knowledge in career areas such as finance, human resources, 
communications, logistics, and administration.

    13. Senator Ayotte. General Campbell, in Afghanistan, can women 
play a unique and helpful role conducting searches and other activities 
in the police and Army that typically men can't?
    General Campbell. In Afghanistan, women make up approximately 50 
percent of the population; therefore, women can play a play a unique 
and helpful role in areas that men typically cannot. For example, 
cultural barriers that exist between men and women, prevent men from 
entering rooms of homes occupied by women and children. Women play 
helpful roles in both cordoning off the women and children and 
conducting searches. The ability of female Afghan National Defense 
Security Forces to question both women and children on the activities 
of male occupants at a residence often pays dividends that support the 
mission.
                            taliban strikes
    14. Senator Ayotte. General Campbell, according to DoD's June 
report to Congress, ``United States forces no longer target individuals 
solely on the basis of their membership in the Taliban.'' Is that 
statement correct?
    General Campbell. Yes.

    15. Senator Ayotte. General Campbell, if we became aware of a 
meeting of Taliban leaders tonight to plan attacks against Afghan 
forces and the Afghan military was unable to respond in time to mount a 
strike, is it United States policy in Afghanistan to not conduct a 
strike against that meeting?
    General Campbell. [Deleted.]
                           taliban resilience
    16. Senator Ayotte. General Campbell, what is the primary reason 
that the Taliban-led insurgency remains resilient?
    General Campbell. [For Official Use Only.]

    17. Senator Ayotte. General Campbell, after so much time and the 
investment of so much there, what does the resilience of the Taliban 
insurgency tell us about the success of our strategy?
    General Campbell. The U.S., as an external actor, cannot defeat the 
insurgency on our own. Rather, we must enable and empower the 
legitimate government of Afghanistan to fight on behalf of and with the 
support of its own population. The National Unity Government (NUG) is 
the willing partner we have lacked for so long. While the NUG and 
Afghan Security Institutions must continue to develop and grow; great 
strides have already been made.
    This fighting season has been fundamentally different. A myriad of 
factors to include the sharp drop in our Coalition numbers and enabler 
support; the effects of Pakistan Military operations along the border; 
and the emergence of the Islamic State-Khorasan Province (IS-KP) have 
all played a role in making this year an exceptionally challenging one 
for the Afghan National Defense and Security Forces (ANDSF). Placed in 
this context, their overall mixed performance is understandable. 
Nonetheless, the ANDSF have still shown commendable resilience in the 
face of these challenges and the resultant increased casualties. They 
are still holding, and they have not fractured.
    Despite the perceived resilience of the Taliban insurgency, the 
Afghans have demonstrated a willingness and ability to take the lead. 
Their security forces remain committed in the face of a determined 
enemy and they have shown that they still merit our support. We must 
demonstrate that the NUG has our full trust and backing. Maintaining 
our presence ensures our influence across all instruments of power 
(diplomatic, information, military, and economic).
   ``normal embassy presence'' and train, advise, and assist mission
    18. Senator Ayotte. General Campbell, how important have the Train, 
Advise, and Assist commands (TAACs) been in carrying out the train 
advise and assist mission in Afghanistan that is critical to building 
independent Afghan military capabilities?
    General Campbell. The TAACs are critical in carrying out the train, 
advise, and assist (TAA) mission at the corps level by mentoring their 
counterparts as the Afghan National Defense and Security Forces (ANDSF) 
have taken the lead and assumed full responsibility for their security. 
Their presence provides Resolute Support with necessary situational 
awareness across Afghanistan. The TAACs provide a robust advising 
capability to all of the required essential functions at the corps 
level; feedback to the senior leaders in the ANDSF; and linkages to the 
Afghan Security Institutions.

    19. Senator Ayotte. General Campbell, if the United States 
transitions to a ``normal embassy presence in Kabul'' at the end of 
2016, would this end or dramatically reduce the size and effectiveness 
of the United States-led train, advise, and assist commands in 
Jalalabad and Kandahar? Would Italy in the west and Germany in the 
north likely follow our example and end their TAAC's?
    General Campbell. A ``normal embassy presence in Kabul'' does not 
support the personnel needed for any Train, Advise, Assist Command 
(TAAC) including those stationed in Jalalabad and Kandahar. It is 
likely, but not certain, that Italy and Germany would follow suit 
without some of the support that the United States provides.

    20. Senator Ayotte. General Campbell, would a United States 
transition to a ``normal embassy presence in Kabul'' hurt our ability 
to build Afghan security force capabilities and assess and support the 
relationship between the ministries and fielded forces?
    General Campbell. A ``normal embassy presence in Kabul'' would 
significantly hinder the ability of United States forces to help build 
and assess the capability of Afghan security forces. There would be no 
Coalition regional presence to continue training, advising and 
assisting the Afghan fielded forces at the Afghan National Army corps 
or provincial police headquarters level. We would greatly reduce our 
situation awareness and limit the relationship building between the 
ministries and those forces.
                        defense minister vacancy
    21. Senator Ayotte. General Campbell, in your prepared statement, 
you note that the Acting Minister of Defense continues to serve in 
spite of the Afghan Parliament's rejection of his candidacy. What has 
been the impact of not having a formal Defense Minister in place?
    General Campbell. [For Official Use Only.]
           advanced precision kill weapon system performance
    22. Senator Ayotte. General Campbell, I understand that Advanced 
Precision Kill Weapon Systems (APKWS) has performed well in Afghanistan 
against a variety pf targets, both as a complement to and a substitute 
for Hellfire. How would you rate APKWS' performance in theater?
    General Campbell. A ``normal embassy presence in Kabul'' would 
significantly hinder the ability of United States forces to help build 
and assess the capability of Afghan security forces. There would be no 
Coalition regional presence to continue training, advising and 
assisting the Afghan fielded forces at the Afghan National Army corps 
or provincial police headquarters level. We would greatly reduce our 
situation awareness and limit the relationship building between the 
ministries and those forces.
                               __________
              Questions Submitted by Senator Dan Sullivan
        united states counterterrorism reductions in afghanistan
    23. Senator Sullivan. General Campbell, yes or no, will the lack of 
a forward-deployed United States counterterrorism presence in 
Afghanistan increase risk to the United States homeland over the next 
2-3 years?
    General Campbell. [Deleted.]

    24. Senator Sullivan. General Campbell, if yes, what specific ways 
and to what extent would the lack of a forward-deployed U.S. 
counterterrorism presence increase risk?
    General Campbell. [Deleted.]
                               __________
                Questions Submitted by Senator Mike Lee
                          afghanistan threats
    25. Senator Lee. General Campbell, over the last few weeks this 
committee has held several hearings on the United States' strategy to 
address various crises in the Middle East. These hearings have been 
very informative, but I have become concerned that senior civilian and 
military leaders are giving the impression that such strategies are 
more successful than facts on the ground would suggest.
    We know that since 2014 the Taliban have made gains in several 
areas of southern and northern Afghanistan and has shown they have the 
capability to conduct major operations against regional capitals. On 
August 4 you stated at the Brookings Institution [QUOTE]:
    ``[The Taliban] are not taking territory or meeting any strategic 
goals that they set out for themselves initially. They are going to 
take a district and they are going to lose it. They are going to take 
another district center and lost it too.''
    This contradiction casts serious doubt over suggestions that our 
efforts to stabilize Afghanistan have been successful, as we have seen 
this borne out in places like Kunduz, where the Taliban captured the 
city then retreated, then captured another area in the span of one 
week.
    Do you see an end to this trend, or is this a cycle that will 
continue to play out for the foreseeable future?
    General Campbell. [For Official Use Only.]

    26. Senator Lee. General Campbell, even if the Afghan Government is 
unable to completely secure the country from the Taliban as desired, 
and provide the services that you described to Senator Graham as what 
`winning' looks like, can you compare our ability at this point to our 
ability in 2001 to detect and disrupt any terrorist organizations that 
try to establish a base in Afghanistan and threaten the United States 
homeland?
    General Campbell. [Deleted.]

    27. Senator Lee. General Campbell, the original mission of 
coalition forces in Afghanistan, which started nearly 15 years ago, was 
to find and deny safe haven to those who planned and supported the 
September 11th attacks.
    What is the current state of the Al-Qaeda organization that planned 
and carried out those attacks from their base in Afghanistan?
    General Campbell. [Deleted.]

    28. Senator Lee. General Campbell, what is the ability of Al-Qaeda 
and Al-Qaeda remnants to reconstitute themselves in Afghanistan if we 
remain on the timetable that President Obama has laid out? 
Specifically, do you think Al-Qaeda or any affiliated organization has 
the capability to develop a base in Afghanistan again?
    General Campbell. [Deleted.]

    29. Senator Lee. General Campbell, in your assessment of the ANSF's 
capabilities and performance during the last fighting season, how do 
you measure and judge what General Martin Dempsey has called ``the will 
to fight'' in other foreign militaries that we have trained? More 
broadly, how do you assess the willingness and commitment of the Afghan 
people to support the current political structure and avoid regressing 
into ethnic-based factions?
    General Campbell. [Deleted.]

    30. Senator Lee. General Campbell, despite billions of dollars 
spent on training, weapons, and the continued presence of air and 
ground support for the ANSF, our Afghan partners cannot seem to contain 
the Taliban, which has drastically less funding, no aerial 
capabilities, and no international coalition providing assistance. I 
understand what President Obama's ideal outcome is, but please give us 
a realistic picture of how many more years and how much more funding 
will be required from the United States military and American taxpayers 
before the Afghan government becomes self-sustaining?
    General Campbell. The Afghans will require United States funding 
for years to come. Since FY 2012, the total annual cost of the Afghan 
National Defense Security Forces (ANDSF), at a force level has 
decreased from approximately $12.3 billion to roughly $5.0 billion for 
FY 2016. The United States Government, the National Unity Government, 
and international partners work closely together to reduce ANDSF costs 
through funding conditionality, the divestiture of excess facilities, 
and limited Afghan-led ``on-budget'' contracting where appropriate. 
These efforts have reduced ANDSF costs without diminishing its capacity 
to maintain its effectiveness.
    The ultimate goal is a total ANDSF cost of $4.1 billion as agreed 
upon at the 2012 Chicago Summit. Any move to reduce funding below $4.1 
billion will require significant cuts to ANDSF force structure. Barring 
a substantial improvement in the security situation, wargaming efforts 
predict that drastic cuts will negatively impact ANDSF effectiveness 
and increase risk to the enduring security and stability of 
Afghanistan. Striking a delicate balance between ANDSF effectiveness 
and ANDSF affordability will require close cooperation and 
collaborative planning moving forward.
    The Afghan government committed to providing $500 million in 
support of the ANDSF starting in 2015; however the 2015 Afghan national 
budget only allocates $419 million against this pledge. Although short 
of its commitment, $419 million represents almost 19 percent of the 
overall contribution to the Afghan budget--a large share compared to 
the funding most countries typically provide for national security. 
This is especially remarkable given that Afghanistan is currently in a 
precarious fiscal position further strained by stagnating revenues thus 
far this year. The country faces the dual challenge of restoring 
confidence in its economic prospects and addressing formidable mid-term 
development challenges. Ambitious economic reforms and implementation 
of measures to mobilize revenue and strengthen the financial sector 
will go a long way in bringing the country on a sustainable path for 
development. If security conditions should deteriorate, however, due to 
the government's inability to field the right force/force structure mix 
to meet the current or future treat, this could slow private sector 
investment, reduce the country's revenue base, and the subsequent gross 
domestic product needed to adequately fund the ANDSF. This would extend 
Afghanistan's reliance on international donor aid for an even longer 
timeframe beyond what was envisioned at the Chicago Summit.

    31. Senator Lee. General Campbell, can you describe for the 
committee the strength, capability, and composition of the Taliban 
forces? How are they replenishing their force structure, weapons and 
equipment, and funding?
    General Campbell. [For Official Use Only.]

    32. Senator Lee. General Campbell, does the Taliban seek to divide 
and control parts of Afghanistan, retake power over the entire country, 
or come to some sort of reconciliation with the current government in 
Kabul?
    General Campbell. [For Official Use Only.]
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
                    hospital bombing in afghanistan
    33. Senator Gillibrand. General Campbell, news reports suggest that 
the bombing of the hospital on Saturday was requested by Afghan forces. 
Do we verify requests for targeting by the Afghan forces to avoid 
tragic accidents like the one this weekend? If so, how?
    General Campbell. [Deleted.]

                                 [all]
</pre></body></html>
